SIGAR                  Special Inspector General for
                       Afghanistan Reconstruction
                                                       APR 30
                                                        2010




QUARTERLY REPORT TO THE UNITED STATES CONGRESS
Cover Captions (clockwise from left):

An Afghan sets up his merchandise for
sale in Kandahar. (Photo by Cory Smith
as a part of “Why Afghanistan Matters,”
a NATO-sponsored photo contest)

More than 600 women attended a cele-
bration of International Women’s Day on
March 8, 2009, hosted by the governor of
Farah province at his compound. (U.S. Air
Force photo, MSgt Tracy DeMarco)

Graduates of the National Military Academy
of Afghanistan cheer the class of 2010.
The 212 newly commissioned ANA lieuten-
ants received their undergraduate diplomas
from Afghan President Hamid Karzai. The
academy is modeled after the U.S. Military
Academy at West Point. (U.S. Air Force
photo, SSgt Sarah Brown)

Afghan farmers prepare the fields to make
room for newly planted spring crops to
grow. After fears of drought this winter,
Afghans welcomed near-normal precipitation
this spring. (U.K. Ministry of Defense photo,
Major Paul Smyth)
SIGAR                                      Special Inspector General for
                                           Afghanistan Reconstruction
                                                                                     APR 30
                                                                                      2010




The National Defense Authorization Act (P.L. 110-181) established
the Special Inspector General for Afghanistan Reconstruction (SIGAR).

SIGAR’s oversight mission, as defined by the legislation, is to provide for the indepen-
dent and objective
t conduct and supervision of audits and investigations relating to the programs and
   operations funded with amounts appropriated or otherwise made available for the
   reconstruction of Afghanistan.
t leadership and coordination of, and recommendations on, policies designed to pro-
   mote economy, efficiency, and effectiveness in the administration of the programs
   and operations; and prevent and detect waste, fraud, and abuse in such programs
   and operations.
t means of keeping the Secretary of State and the Secretary of Defense fully and cur-
   rently informed about problems and deficiencies relating to the administration of
   such programs and operation and the necessity for and progress on corrective action.
Afghanistan reconstruction includes any major contract, grant, agreement, or other
funding mechanism entered into by any department or agency of the U.S. government
that involves the use of amounts appropriated, or otherwise made available for the re-
construction of Afghanistan.

Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.
ISLAMIC REPUBLIC OF AFGHANISTAN

                                                 UZBEKISTAN                                                            CHINA
                                                                                                          TAJIKISTAN



          TURKMENISTAN                 JOWZJAN                        KUNDUZ              BADAKHSHAN
                                                      BALKH                      TAKHAR


                                                           SAMANGAN
                           FARYAB                                BAGHLAN
                                       SAR-E PUL                        PANJSHIR
                                                                                NURISTAN
                 BADGHIS
                                                                PARWAN KAPISA        KUNAR
                                                     BAMYAN                  LAGHMAN
                                                                     KABUL
        HERAT                                               WARDAK
                                                                               NANGARHAR
                           GHOR                                    LOGAR
                                        DAYKUNDI                      PAKTIYA
                                                             GHAZNI                KHOWST

                                     URUZGAN
         FARAH
                                                                       PAKTIKA
                                                   ZABUL



                                                                                               PAKISTAN
        NIMROZ
IRAN             HELMAND
                                  KANDAHAR
                                     SPECIAL INSPECTOR GENERAL              FOR

                                     AFGHANISTAN RECONSTRUCTION



April 30, 2010


I am pleased to provide SIGAR’s seventh quarterly report to the Congress on the reconstruction effort in
Afghanistan. This report summarizes key developments affecting reconstruction, provides an update on
the status of U.S.-funded programs, and documents SIGAR’s activities for the quarter ending March 31, 2010.
     Three important developments this quarter will shape the reconstruction program for the coming year:
t   President Obama submitted budget requests totaling about $20 billion to fund an intensified U.S.
     reconstruction effort in Afghanistan. This would be a 38% increase over the nearly $51.5 billion that the
     Congress has appropriated for Afghanistan’s reconstruction since 2002.
t   The Department of State published its new strategy to build the capacity of Afghan institutions, deliver
     high-impact economic assistance, create jobs, reduce poppy cultivation, and draw insurgents off the
     battlefield. A cornerstone of this strategy is the immediate tripling of the number of civilian experts
     and advisors throughout Afghanistan.
t   The United States and other international donors agreed, in principle, to channel more financial
     resources through Afghanistan’s public institutions to enable the Government of the Islamic Republic
     of Afghanistan (GIRoA) to take more responsibility for its defense and reconstruction. This support is
     contingent on the GIRoA strengthening its public financial management systems, improving its budget
     execution, and reducing corruption.
     The success of the new U.S. civilian-military strategy now being implemented depends on accelerating
the growth of the Afghan National Security Forces (ANSF) so that the United States can begin to withdraw
its troops in July 2011. More than half of all reconstruction dollars appropriated to date have gone to build
the ANSF, and nearly three-fourths of the new budget requests—$14.2 billion—would go to train, equip,
and mentor the Afghan National Army and the Afghan National Police, raising the total amount of U.S.
funding support for the ANSF to $40 billion.
     During this reporting period, SIGAR issued four audit reports, including three contract audits of
U.S.-funded infrastructure projects and one anti-corruption audit. Two of the infrastructure projects are
garrisons for the Afghan National Army. These audits found that there was no current master plan for
building the facilities needed to house a growing army; they also identified significant construction
problems resulting from a lack of quality assurance.
     SIGAR’s audit of Afghanistan’s Contract and Audit Office (CAO) is the fifth audit we have issued in our
ongoing anti-corruption initiative. SIGAR is assessing the performance of various GIRoA institutions at the
national and provincial level and their ability to apply internal controls, mitigate risks of corruption, and
improve accountability over U.S. and other donor funds. As the primary agency responsible for auditing




                           2221 SOUTH CLARK STREET, SUITE 800   ARLINGTON, VIRGINIA 22202
Afghanistan’s public finances, the CAO is uniquely positioned to detect and deter corruption across the
government. SIGAR examined the international assistance to and capabilities of the CAO; we found that
the CAO does not have the independence, authority, and qualified staff it needs to do its job.
    SIGAR’s anti-corruption work is having a positive impact. Last quarter, we published an audit of the
High Office of Oversight (HOO), a principal GIRoA agency for combating corruption, and made several
recommendations to help improve its effectiveness. In March, President Karzai signed a decree giving the
HOO greater independence and authority, consistent with our recommendations.
    Of SIGAR’s 12 ongoing audits, 4 are examining aspects of the U.S.-funded mission to build the ANSF.
One is an evaluation of the Capability Milestone rating system, the key assessment tool that has been used
to monitor the development progress of fielded ANSF units. Having the ability to accurately measure the
capabilities of the ANSF is critical to the successful implementation of the U.S. strategy. SIGAR’s audit, the
first to evaluate the efficacy of the rating system, will be published in a few weeks. In addition, SIGAR has
two contract audits under way to evaluate the performance and oversight of construction of ANSF facilities
in Kandahar and Farah.
    During this reporting period, SIGAR also began a forensic review of the Afghanistan Security Forces
Fund. We are examining appropriations and disbursement data related to the fund from FY 2005 through
FY 2009.
    SIGAR is aggressively investigating criminal allegations that involve reconstruction funds. During this
reporting period, SIGAR opened 19 criminal cases and conducted joint investigations with other federal
law enforcement agencies that resulted in the recovery of more than $2 million. SIGAR has 42 cases under
investigation. Our investigators are working closely with other agencies to maximize investigative resources.
    SIGAR continues to expand its oversight of the U.S. reconstruction effort in Afghanistan. In addition
to conducting audits and investigations to detect and deter waste, fraud, and abuse, it is essential to assess
whether U.S.-funded reconstruction programs are advancing U.S. strategic goals. Moreover, our mandate
directs us to do so. The huge increase in reconstruction funding requested by President Obama and the
strategy to funnel more of these resources through Afghan institutions will add to SIGAR’s oversight re-
sponsibilities. SIGAR is committed to conducting the audits and investigations needed to help the
Congress ensure that the U.S. reconstruction effort meets its objectives and that these funds are not
subject to waste, fraud, and abuse.


Very respectfully,




Arnold Fields
Special Inspector General for Afghanistan Reconstruction




                           2221 South Clark Street, Suite 800   Arlington, Virginia 22202
TABLE OF CONTENTS




       SECTION 1
       AFGHANISTAN OVERVIEW
        3    The President’s $20 Billion
             Requests for Reconstruction
        4    The Department of State’s
             New Reconstruction Strategy
        5    The International Community’s
             Transition Strategy
        5    The Reconstruction Program
        9    Looking Ahead




       SECTION 2
       SIGAR OVERSIGHT
       13    Audits
       29    Investigations
       30    SIGAR Budget
       31    SIGAR Staff




       SECTION 3
       RECONSTRUCTION UPDATE
        35   Overview
        39   Status of Funds
        51   Security
        73   Governance
        95   Economic and Social Development
       115   Counter-Narcotics
TABLE OF CONTENTS




   SECTION 4
   OTHER AGENCY OVERSIGHT
   133   Completed Oversight Activities
   136   Ongoing Oversight Activities
   148   Other Agency Investigations
   149   Other Agency Inspections




   APPENDICES & ENDNOTES
   152 Appendix A: Cross-Reference of Report
                   to Statutory Requirements
   158 Appendix B: U.S. Government Appropriated Funds
   160 Appendix C: SIGAR Audits
   162 Appendix D: SIGAR Investigations and Hotline
   163 Appendix E: Abbreviations and Acronyms
   168 Endnotes
TITLE OF THE SECTION




            Providing assistance
            A Ghazni PRT member provides medical care for an Afghan child
            in Gelan district during a medical outreach mission. Afghan, U.S.,
            and Polish medical providers treated approximately 270 patients
            during the mission. (U.S. Air Force photo, MSgt Sara R. Webb)




 22    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
1   AFGHANISTAN
    OVERVIEW




        1
         AFGHANISTAN OVERVIEW




“Together we are committed to make
 intensive efforts to ensure that the
 Afghan government is increasingly
 able to meet the needs of its people
     through developing its own
     institutions and resources.”

                                  —London Conference on
                                Afghanistan, Communiqué




         Source: London Conference on Afghanistan, “Communiqué,” 1/28/2010.




              2                       SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




AFGHANISTAN OVERVIEW
Three developments since SIGAR’s last report to Congress will shape the
reconstruction program for the coming year: the U.S. President’s budget requests
for an additional $20 billion in reconstruction funding, the Department of State’s
(DoS) new strategy to build the capacity of Afghan institutions, and the inter-
national community’s commitment to accelerate the transition to control by the
Government of the Islamic Republic of Afghanistan (GIRoA) over its security
and development.

THE PRESIDENT’S $20 BILLION REQUESTS
FOR RECONSTRUCTION
On February 1, 2010, the U.S. President submitted his requests for the FY 2011
budget and the FY 2010 supplemental appropriation. If approved, these requests
will add about $20 billion—nearly 40%—to the nearly $51.5 billion that the
Congress has appropriated for the reconstruction of Afghanistan since 2002.
The Administration is asking for this funding increase to implement the civilian-
military strategy it has developed over the past several months to help the
Afghan government build its capacity to defend itself and govern effectively.
Last quarter, the President provided a broad outline of the new strategy, which
included expanding Afghan security forces, developing a civilian strategy to build
the capacity of Afghan institutions, and working in greater cooperation with the
international community.
   The FY 2011 budget request includes the following:
t $11.6 billion for the Afghanistan Security Forces Fund (ASFF) to train, equip,
   mentor, and sustain the Afghan security forces
t $1.3 billion for the Commander’s Emergency Relief Fund (CERP)
t $3.3 billion for the Economic Support Fund (ESF), which supports a broad
   range of governance and development programs
   The FY 2010 supplemental request includes the following:
t $2.6 billion for the ASFF
t $1.6 billion for the ESF
   The requests for the ASFF total $14.2 billion—nearly 70% of the proposed
reconstruction budget. In its justification for the proposed budget, the Department
of Defense (DoD) said that without additional funding for the ASFF, the
GIRoA would not be able to counter the increasing threat of a well-armed and



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010        3
AFGHANISTAN OVERVIEW




growing insurgency. According to DoD, “The GIRoA does not yet have adequate
resources, institutional capacity, or independent expertise to develop the army
and police.”1 The requests for the ESF would provide nearly $5 billion to fund the
new DoS reconstruction program in Afghanistan.

THE DEPARTMENT OF STATE’S NEW
RECONSTRUCTION STRATEGY
This quarter, DoS announced “an extensive transformation of U.S. civilian
assistance activities” to strengthen economic development, governance, and the
rule of law in Afghanistan.2 The Afghanistan and Pakistan Regional Stabilization
Strategy includes deploying U.S. civilians to work in partnership with Afghans. It
calls for increasing direct assistance through the GIRoA, engaging Afghans in all
aspects of U.S. assistance programs, putting Afghan businesses first in hiring and
procurement, paying more attention to local government priorities, and improv-
ing accountability of the U.S. reconstruction program. This civilian strategy was
developed to complement the military push to secure Afghanistan in the short
term and forge strong relationships with Afghans that will last long after the U.S.
and international forces withdraw.
   The U.S. civilian-military strategy also puts greater emphasis on coordination with
the international community. In January, the GIRoA, the United States, and other
international donors met in London to refocus the reconstruction effort to build the
GIRoA’s capacity to defend itself and provide essential services to its people.




Afghan President Hamid Karzai meets with world leaders at the London conference to discuss
priorities in security, governance, and development in Afghanistan. (DoS photo)




   4                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                           AFGHANISTAN OVERVIEW




THE INTERNATIONAL COMMUNITY’S
TRANSITION STRATEGY
At the London conference, the GIRoA and the international community commit-
ted themselves to a transition strategy that would enable the Afghan government
to defend itself and meet the needs of its people by developing its own institu-
tions and resources. The 78 nations and institutions that attended the conference
issued a joint communiqué outlining reconstruction priorities in security, gov-
ernance, and development. These priorities, which mirror the U.S. strategy,
included the following:
t building the capabilities of the Afghan National Security Forces (ANSF)
t developing more effective and accountable national civilian institutions
t providing a better-resourced and better-coordinated civilian effort to help
   Afghanistan meet its formidable development challenges
Conference participants also welcomed an Afghan-led reconciliation and
reintegration process that would “offer an honorable place in society” to anti-
government elements who are willing to renounce violence and respect the
Afghan Constitution.3
   The GIRoA agreed to hold a follow-on donor conference in Kabul, at which it
will present concrete program proposals to realize the broad objectives estab-
lished at the London conference. The Kabul conference, scheduled for later this
year, will be the first high-level international conference hosted by the GIRoA.

THE RECONSTRUCTION PROGRAM
U.S. funding for reconstruction in Afghanistan focuses on three major sectors: secu-
rity, governance, and development. SIGAR is committed to providing the oversight
needed to help the Congress and implementing agencies evaluate whether the U.S.
reconstruction effort is meeting its objectives in each of these areas.

Security
In his inauguration speech last November, Afghan President Hamid Karzai set a
goal of having the ANSF assume full responsibility for security within five years.
To meet this objective, the GIRoA and the international community agreed to
expand the Afghan National Army (ANA) by 52% from its current level of nearly
113,000 to 171,600, and the Afghan National Police (ANP) by about 35%, from
nearly 100,000 to 134,000 by October 2011.
   The U.S. plan to transition responsibility for security to the GIRoA depends
heavily on building capable Afghan forces to their proposed strength. To do this,
additional facilities will be needed to base, train, and house the Afghan forces.
This quarter, SIGAR published two audits of U.S.-funded contracts to build ANA
garrisons in Laghman and Kunduz provinces. These audits found several prob-
lems, including the following:
t lack of an ANA master plan for facilities development
t inadequate program management
t insufficient quality control



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010          5
                                                            AFGHANISTAN OVERVIEW




 “The United States wants                                   These issues need to be addressed immediately if the United States and the interna-
                                                            tional community are to be successful in building the ANA to its proposed strength.
     to continue to make                                       The United States has invested more than $25 billion—nearly half of all
   progress on the civilian                                 reconstruction dollars appropriated to date—toward training and equipping
  process of ensuring that                                  the ANSF through the Afghanistan Security Forces Fund. Despite this invest-
  agricultural production,                                  ment, SIGAR found that the NATO Training Mission - Afghanistan/Combined
                                                            Security Transition Command - Afghanistan (NTM-A/CSTC-A) does not have a
  energy production, good
                                                            current master plan for developing the facilities needed to house and train these
  governance, rule of law,                                  forces. Moreover, NTM-A/CSTC-A officials told SIGAR they were unaware of any
  anti-corruption efforts…                                  planning documents or justification that provided information on the strategic
    end up resulting in an                                  deployment of ANA troops, garrison locations, or operations. NTM-A/CSTC-A
  Afghanistan that is more                                  officials said they are developing a process to capture the changing requirements
                                                            of the garrisons. Without an updated strategy that reflects existing ANA require-
 prosperous, more secure,                                   ments, NTM-A/CSTC-A risks building facilities that do not meet the ANA’s needs.
 and more independent…”                                     SIGAR is also concerned that the GIRoA does not have the financial or technical
                                                            capability to sustain completed ANA or ANP facilities. Current plans call for the
              —President Barack Obama
                                                            United States to contract for operations and maintenance of more than 650
                                                            ANSF facilities through 2013, when all ANSF facilities are planned to be turned
Source: White House, press release, “Remarks by President
Obama and President Karzai of Afghanistan after Meeting,”   over to the GIRoA for operations and maintenance. SIGAR’s audit work will
3/28/2010.
                                                            continue to examine the efficacy of plans for the maintenance and sustainment
                                                            of ANSF infrastructure.
                                                               Construction of both the Laghman and Kunduz garrisons is behind schedule.
                                                            The U.S. Army Corps of Engineers (USACE) is responsible for managing the con-
                                                            tracts for the two garrisons. Although USACE has improved its oversight of these
                                                            projects, SIGAR found construction problems of varying degrees at both sites.
                                                            The most important problems concern the ANA garrison in Kunduz, which has
                                                            been built in an area that has the characteristics of “collapsible soil”—loose, dry,
                                                            low-density materials that collapse and compact when exposed to water. Severe
                                                            settling of the soil following a rainfall in December 2009 has rendered several
                                                            structures unusable.
                                                               Since October 2009, SIGAR has been conducting an audit of the Capability
                                                            Milestone (CM) rating system, the sole metric used to monitor development
                                                            progress of fielded ANSF units. CSTC-A developed the metrics in 2005, and they
                                                            have been shared regularly with decision-makers, including the U.S. President and
                                                            the Congress. In its most recent “Report on Progress toward Security and Stability
                                                            in Afghanistan,” which was published during the course of SIGAR’s audit, DoD
                                                            recognized the limitations of the rating system, saying that the “CM ratings simply
                                                            depict the manning, training, and equipment of a unit.”4 It added, “The correlation
                                                            between CM ratings and operational capability to complete assigned missions is
                                                            tenuous, and thus attempting to draw the conclusion that a CM rating is an indica-
                                                            tor of capacity for success in operations can be misleading.”5
                                                               Having the ability to accurately measure the capabilities of the ANSF is critical
                                                            to implementing the U.S. strategy. SIGAR’s audit, the first to evaluate the efficacy
                                                            of these ratings, will be published next quarter. Its findings focus on five areas:
                                                            1) the reliability of the Capability Milestone System, 2) measurement and



                                                               6                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                            AFGHANISTAN OVERVIEW




U.S. President Barack Obama meets with Afghan President Hamid Karzai at the Presidential
Palace in Kabul during his visit to Afghanistan on March 28, 2010. (White House photo)



validation, 3) analysis and reporting, 4) challenges facing assessment areas, and
5) systemic ANSF deficiencies that undermine efforts to develop unit capabilities.

Governance
The new U.S. strategy emphasizes assisting GIRoA institutions to be more
effective and accountable. As part of the capacity-building effort, DoS intends to
increase the amount of assistance it delivers through the Afghan government and
local non-government organizations from 13.5% to 40% by the end of this year.6
Participants at the London conference supported, in principle, the GIRoA request
that donors increase to 50% the proportion of development aid delivered through
GIRoA ministries over the next two years. However, the international community
agreed that this support would depend on the GIRoA making progress in further
strengthening public financial management systems, improving budget execu-
tion, and reducing corruption.7
    Donors, international organizations, the GIRoA, and—most important—the
Afghan people are disturbed by the pervasive corruption in Afghanistan. A recent
survey of 12 provinces by the United Nations Office on Drugs and Crime found
that more Afghans are concerned about corruption (59%) than about security
(54%). Half of those surveyed said they had been obligated to pay at least one
kickback to a public official during the preceding 12 months.8
    Bribery is just one aspect of corruption. The World Bank has reported what
it calls a criminal culture with “corruption networks” that include not only the
buying and selling of government positions but also sweetheart deals in pro-
curement and the award of contracts.9 Corruption robs the poor, causes the



             REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2010            7
AFGHANISTAN OVERVIEW




misallocation of resources, and weakens private sector growth. Worst of all, it
destroys trust in government.
   Because reducing corruption is an element of the U.S. strategy and is essential
to achieving U.S. goals in Afghanistan, SIGAR launched a program last year to
assess two key issues:
t what the United States and other donor countries are doing to build the
   capacity of Afghan institutions to deter corruption and strengthen the
   rule of law
t the extent to which various national and local institutions have the
   systems in place to exert internal control and demonstrate accountability
   for donor funds

   During this reporting period, SIGAR published a review of Afghanistan’s
Control and Audit Office (CAO), the agency responsible for auditing the coun-
try’s public finances. As Afghanistan’s top audit agency, the CAO is uniquely
positioned to account for funds and to detect and deter corruption across
the government. SIGAR’s assessment found that Afghan law does not provide
this agency with sufficient independence or authority to serve effectively as
Afghanistan’s top audit agency. Moreover, the CAO suffers from a shortage of
qualified Afghan accountants and auditors; therefore, it relies heavily on support
from foreign consultants and advisors.
   Strengthening the CAO’s capacity would contribute to enhanced transparency
and reduced corruption in Afghanistan. SIGAR recommended that the GIRoA
should enact legislative reforms to provide the CAO with proper independence
and authority, and that the international community provide sustainable assis-
tance that is focused on developing the capabilities of the CAO staff.
   SIGAR’s audit of the CAO is the fifth assessment in its anti-corruption
initiative, which is already having a positive impact. Last quarter, SIGAR issued
a report on Afghanistan’s High Office of Oversight (HOO), the principal agency
responsible for combating corruption. Since the audit was published, the interna-
tional community and the GIRoA have taken steps to implement many of SIGAR’s
recommendations. According to the U.S. Embassy, an extensive dialogue between
the international community and the HOO helped frame the anti-corruption
paper prepared by the GIRoA for the London conference. During the conference,
President Karzai announced a whole-of-government approach to fighting corrup-
tion and said that he would empower the HOO to investigate and sanction corrupt
officials. SIGAR is pleased to note that on March 18, 2010, President Karzai issued
a decree giving the HOO greater independence and authority. USAID told SIGAR
it will provide support to the HOO totaling $30 million over three years. Both
actions are consistent with SIGAR’s recommendations.
   As part of its effort to assess the internal controls and accountability procedures
of key Afghan institutions, SIGAR is conducting a review of the salary support that
the U.S. government is providing for GIRoA officials. SIGAR has also begun an
assessment of Afghanistan’s National Solidarity Program, which has received more
than $900 million in donor assistance to fund small infrastructure programs.



   8                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




Development
The U.S. government’s top reconstruction priority is revitalizing Afghanistan’s
once vibrant agriculture sector to create jobs and “sap the insurgency of fighters
and of income from poppy cultivation.”10 Under the new strategy, the U.S. govern-
ment is also committed to building an economic foundation for Afghanistan’s
future by 1) creating sustainable jobs in the private sector; 2) increasing the
GIRoA’s capacity to deliver public services to support sustainable growth in health
and education; 3) expanding and improving the infrastructure sectors, including
energy, transportation, telecommunications, and water; and 4) helping the GIRoA
become less reliant on the donor community for its operating expenses.11
   To implement the new U.S. reconstruction strategy, DoS is coordinating
the deployment of civilian experts from 8 U.S. government departments and
agencies. The goal of this civilian surge is to immediately triple the number of
civilians working with government ministries, Provincial Reconstruction Teams,
and military units—from the 320 who were on the ground in January 2009 to
about 1,000. DoS intends to increase this civilian staffing by another 20% to 30%
by the end of the year. These civilians are partnering with Afghans not only to
enhance the capacity of government institutions, but also to help rehabilitate key
economic institutions.
   In March 2010, SIGAR began an audit to assess the implementation of the
civilian surge. This review will 1) identify the number and types of personnel
deployed, 2) evaluate the extent to which these civilians have been provided
with the necessary resources, and 3) determine the extent to which civilians in
the field are being used effectively to achieve stated programmatic and strategic
objectives. SIGAR is coordinating the scope of this review with the Government
Accountability Office (GAO). The GAO is examining how the U.S. government
determined its requirements; SIGAR is assessing the implementation of the
increased civilian deployment.

LOOKING AHEAD
At the London conference, the international community committed to a transi-
tion strategy that will put Afghans in control of their future. The GIRoA must also
do its part. During the next reporting period, the GIRoA will host two meetings
at which it can demonstrate its ability to exercise greater leadership. The first,
scheduled for this summer, will bring Afghans from across the country together
in what is being dubbed a “Peace Jirga,” to discuss reconciliation and reintegra-
tion of Taliban members who renounce al-Qaeda, cease violence, and accept
the country’s constitution. This will be followed later this year by the Kabul
conference, at which the GIRoA is expected to present specific reconstruction
proposals to the donor community. The Kabul conference will give the GIRoA
an opportunity to transform the international commitments made at the London
conference into programs to build capacity across the Afghan government and
lay the foundation for sustained economic growth.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010        9
           Community outreach
           An ANSF soldier on a patrol mission in Parwan province gives
           candy to a child. (U.S. Army photo, SPC Lorenzo Ware)




10   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
2   SIGAR
    OVERSIGHT




       11
          SIGAR OVERSIGHT




  “Improving accountability at every
   level—from senior officials to the
     policeman in a remote district
  office—must be at the heart of our
reconstruction effort. Neither military
    power nor all the reconstruction
 dollars in the world—no matter how
     well projects are designed and
executed—can produce a secure and
 stable Afghanistan if Afghans do not
     believe in their government.”
      —Special Inspector General Arnold Fields




          Source: Special Inspector General Arnold Fields, “Creating a Culture of Accountability,”
          speech at the 2nd Afghanistan Aviation and Defense Summit, 3/26/2010.




              12                           SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




SIGAR OVERSIGHT
During this reporting period, SIGAR continued to expand its oversight of the U.S.
reconstruction program in Afghanistan. SIGAR published 4 audit reports and
began 2 new audits, bringing the total number of ongoing audits to 12. SIGAR
also began collecting data as part of its forensic audit of the Afghanistan Security
Forces Fund (ASFF). SIGAR’s investigators opened 19 criminal investigations
and worked closely with other law enforcement organizations on cases that have
resulted in more than $2 million in recovered funds. SIGAR hired 12 new staff,
making progress toward its goal of having 132 personnel in fiscal year (FY) 2011.
SIGAR is in discussions with the U.S. Embassy in Kabul to increase the number
of positions available for SIGAR auditors and investigators in Afghanistan, to
ensure that SIGAR has sufficient staff on the ground to effectively detect and
deter waste, fraud, and abuse of U.S. reconstruction dollars.

AUDITS
This quarter, SIGAR reviewed Afghanistan’s Control and Audit Office (CAO),
the agency responsible for auditing the country’s public finances, and con-
ducted three assessments of infrastructure projects. SIGAR also announced
two new audits. As part of its forensic audit program, SIGAR began examin-
ing Department of Defense (DoD) data on its appropriations and expenditures
related to the ASFF for FY 2005–2009.

Completed Audit Reports
The CAO audit is SIGAR’s fifth report in its ongoing anti-corruption initiative that
is assessing what the United States and other international donors are doing to
build capacity to prevent corruption and strengthen the rule of law within Afghan
institutions. The audit found that the CAO’s legislative framework does not
provide the CAO with sufficient independence or authority to serve effectively as
Afghanistan’s top audit agency.
   Two of the three infrastructure audits focused on contract performance and
oversight of projects managed by the U.S. Army Corps of Engineers (USACE)
to build critical infrastructure for the Afghan National Security Forces (ANSF).
The third infrastructure audit examined a contract funded by the Commander’s
Emergency Response Program (CERP) to build a bridge in Farah province.
These assessments identified several contract, program management, and quality
control issues. The following subsections summarize these four audit reports.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010         13
SIGAR OVERSIGHT




Audit 10-8: Control and Audit Office
Afghanistan’s Control and Audit Office Requires Operational and Budgetary
Independence, Enhanced Authority, and Focused International Assistance
To Effectively Prevent and Detect Corruption
The United States, the international community, and the Government of the
Islamic Republic of Afghanistan (GIRoA) have identified pervasive corruption
as a major obstacle to improving governance across Afghanistan. The United
States, in conjunction with the international community, seeks to support efforts
to strengthen Afghan institutions that oversee and implement anti-corruption
measures. Established in 1981 by the Control and Audit Law, the CAO has
audit authority over the central and provincial government institutions, as well
as public enterprises. As Afghanistan’s supreme audit institution, the CAO is
uniquely positioned to account for funds and to detect and deter corruption
across the government.

OBJECTIVES
This audit was one in a series that SIGAR is conducting to assess U.S. efforts to
combat corruption and strengthen the rule of law in Afghanistan. The audit had
three objectives:
t Assess the CAO’s current capability and performance in fulfilling its mandate.
t Review the assistance provided by the international community to strengthen
   the CAO’s internal capacity.
t Examine the assistance provided by the U.S. government to strengthen the
   CAO’s internal capacity.

FINDINGS
The audit had two key findings:
1. SIGAR found that the current legislative framework does not provide the
   CAO with sufficient independence or authority. Under its enabling legisla-
   tion, the CAO lacks both budgetary and operational independence from
   the GIRoA’s executive branch. The law does not give the CAO the author-
   ity necessary to 1) require audited entities to report on actions taken in
   response to CAO recommendations; 2) demand access to necessary docu-
   ments, officials, and premises; or 3) require the CAO to report to the National
   Assembly or to publicly release its audit reports. Moreover, existing laws lack
   clarity about the roles, responsibilities, and authorities of the CAO and the
   Ministry of Finance with respect to internal auditing, resulting in conflicting
   responsibilities.
       In late 2009, the Ministry of Justice asked the internationally supported
   Criminal Law Reform Working Group, which is chaired by the UN Office on
   Drugs and Crime, to review a draft of a new National Audit Law that would
   amend or supersede the existing law. The working group proposed significant
   revisions that would provide the CAO with the independence and authority
   it needs to perform its function as the nation’s supreme auditing institution.




  14                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                         SIGAR OVERSIGHT




   The draft law was then submitted to the Ministry of Justice for review. How-
   ever, a SIGAR review of a February 2010 copy of the draft law found that it
   did not include many of the working group’s substantive proposals.
2. Despite significant assistance from the international community, the CAO is
   constrained by a lack of internal capacity. It relies heavily on support from
   foreign consultants and advisors. The CAO suffers from the absence of quali-
   fied accountants and auditors among Afghan nationals. Its current staff is in
   urgent need of professional training, English language training, and computer
   training. The shortage of qualified personnel is compounded by the low sala-
   ries the CAO offers civil servants compared with the salaries offered by the
   private sector and international organizations.
       The CAO has formally adopted the standards of the International
   Organization of Supreme Audit Institutions. However, because the CAO
   lacks qualified professional staff, it depends on international advisors.
   Thus, it has contracted with international auditors to ensure that its audits
   of donor funds, particularly those provided by the World Bank through
   the Afghanistan Reconstruction Trust Fund, are conducted according to
   international standards.
       Since 2004, the World Bank has provided about $13.3 million to the CAO.
   Currently, the Bank funds 66% of the CAO’s total budget and 80% of the CAO’s
   development budget. The Bank is assisting the CAO through the Afghanistan
   Public Financial Management Reform Project, which began in May 2007 and
   is scheduled to run through December 2010. However, the Bank and the CAO
   have used most of these funds to pay for international auditors to provide
   oversight of donor funds, rather than to build the CAO’s capacity.
       In addition to the World Bank, the United Nations Development
   Programme has provided limited direct assistance—coaching, advisory
   services, and training—to build CAO capacity. Meanwhile, the U.S. Agency
   for International Development, or USAID (the only U.S. agency to assist the
   CAO), has given modest support, primarily by funding conferences and train-
   ing programs for a limited number of CAO officials.

RECOMMENDATIONS
To hold the GIRoA accountable to the Afghan people and to help provide
oversight for donor funds paid directly to government institutions, key anti-
corruption bodies such as the CAO need to be reinforced. Strengthening the
CAO’s capability and capacity would contribute to enhanced transparency and
reduced corruption in Afghanistan. However, building capability and capacity
within the CAO depends largely on having the CAO operate under a legal frame-
work that provides independence and appropriate authority. In conjunction with
legislative reforms, the United States and the international community must
provide sustainable assistance that is focused on developing the capacity of
Afghanistan’s audit professionals. Supporting an independent and capable CAO
will increase public visibility into the operations of the GIRoA, promote trans-
parency and accountability, and empower citizens to demand real change.



           REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010      15
                                                    SIGAR OVERSIGHT




                                                       To strengthen the CAO’s capability and capacity, SIGAR recommended in
                                                    April 2010 that the U.S. Ambassador to Afghanistan take two actions:
                                                    t Urge the GIRoA to enact legislation that provides the CAO with sufficient
                                                       independence and authority to fulfill its responsibilities in accordance with
                                                       internationally recognized audit standards.
                                                    t Oversee the development and implementation of a capacity-development
                                                       plan for the CAO, in cooperation with the CAO and international stakehold-
                                                       ers, as part of the U.S. government’s anti-corruption strategy for Afghanistan.
                                                       Such a plan should include identifying funding sources and donor respon-
                                                       sibilities for capacity development and training, utilizing existing training
                                                       options within the U.S. government, and appointing expert audit mentors
                                                       and advisors.

                                                    AGENCY COMMENTS
                                                    The U.S. Embassy in Kabul and the USAID Mission to Afghanistan concurred with
                                                    SIGAR’s findings and recommendations. The U.S. Embassy said it would raise the
                                                    legislative issue with GIRoA authorities and that USAID will work with the CAO and
                                                    international donors to formulate and implement a capacity-development plan for
                                                    the CAO. The U.S. Embassy said this plan would be completed by June 30, 2010.

                                                    Audit 10-09: Kunduz ANA Garrison
                                                    ANA Garrison at Kunduz Does Not Meet All Quality and Oversight Requirements;
                                                    Serious Soil Issues Need To Be Addressed
                                                    The U.S. strategy in Afghanistan depends on building the country’s capacity to
                                                    provide for its own security by training and equipping the ANSF. Since 2002,
                                                    the U.S. Congress has appropriated about $25 billion—nearly half of all recon-
                                                    struction dollars—for the ASFF, which finances the training, equipping, and
                                                    sustainment of the ANSF. The purpose of the ASFF includes building the facili-
                                                    ties needed to train, base, and house the Afghan forces. Current plans call for the
                                                    Afghan National Army (ANA) to grow from about 103,500 in June 2009 to 171,600
                                                    by October 2011. As a result of these increases, additional facilities are needed to
                                                    train, base, and house the Afghan forces.
                                                       This quarter, SIGAR examined the U.S.-funded construction of an ANA gar-
                                                    rison in Kunduz. The garrison, located in the northern province of Kunduz, is
                                                    designed to house about 1,800 ANA personnel and an embedded U.S. training
                                                    team. The NATO Training Mission - Afghanistan/Combined Security Transition
                                                    Command - Afghanistan (NTM-A/CSTC-A) is providing $72.8 million to construct
                                                    the garrison in two phases:
                                                    t Phase I: barracks, storage facilities, dining facility, and embedded training
                                                       team compound for coalition forces12
Severe soil settling has caused this guard-         t Phase II: additional barracks, a medical clinic, and a detention facility
house to lean and its surrounding walls to
                                                    The USACE Afghanistan Engineer District-North (AED-North) awarded two firm-
crack. SIGAR has recently identified significant
soil stability issues at the construction site of   fixed-price contracts to DynCorp International LLC for program management
the Kunduz ANA garrison. (SIGAR photo)              and oversight of both phases.




                                                      16                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




OBJECTIVES
The audit addressed three objectives:
t Determine whether the Kunduz garrison was constructed within the terms of
   the contracts, including schedule and cost.
t Determine whether the USACE conducted oversight of the garrison con-
   struction in accordance with the Federal Acquisition Regulation, USACE
   requirements, and oversight provisions of the contract.
t Identify NTM-A/CSTC-A’s overall justification for the garrison and the plans it
   has for the sustainment of ANSF facilities.

FINDINGS
1. SIGAR found that Phase I is 20 months behind schedule, and Phase II is more
   than a year behind schedule. AED North now anticipates that the garrison
   will be finished by August 2010. Phase I costs increased from $30 million to
   $49.2 million because AED-North exercised options in the contract to expand
   the work. The Phase II contract was awarded for $23.3 million and costs have
   not increased.
2. SIGAR identified construction problems, serious soil stability issues (includ-
   ing severe settling of the soil under several garrison structures), and improper
   grading at the site that put the U.S. investment in the garrison at risk.
      SIGAR found that welds connecting the steel members of roof-support
   trusses in various facilities were irregular, filled with holes, and lacked the
   required continuity or section buildup. A heavy load could cause the trusses
   to fail and the roof to sag or collapse. SIGAR also observed rust breaking
   through the coat of primer that covered the roof supports at various loca-
   tions. Rust will damage the structural integrity of the steel and may also lead
   to the roof sagging or collapsing.
      The most serious quality control issue observed in SIGAR’s January 2010
   site inspection was severe settling of the soil under several structures fol-
   lowing a rainfall in December 2009. An AED-North report noted that as many
   as 48 sites in and around the garrison showed signs of collapsed soil. The
   settling has rendered several structures unusable, including a guard tower, an
   adjacent stone wall, and a road bed. Although both AED-North and DynCorp
   agree that the soil under the site is collapsible, they have not agreed on a
   course of corrective action. The condition has been aggravated by inadequate
   grading that will contribute to pooling of water and flooding.
3. AED-North did not meet certain USACE requirements for conducting over-
   sight and maintaining contract files. Although progress payments were
   documented properly, certain documents, such as quality assurance reports,
   were not in the files as required. Although AED-North’s quality assurance was
   poor during the project’s early stages, SIGAR found that it had improved over
   time as new personnel arrived.
4. Although an October 2005 ANA Master Plan for Facilities Development was
   cited as justification for the FY 2008 Afghanistan Security Forces budget
   request to the Office of the Secretary of Defense, NTM-A/CSTC-A could not



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010        17
SIGAR OVERSIGHT




   locate a copy of this document or other planning documents or any justifica-
   tion that provided information on the strategic deployment of ANA troops,
   garrison locations, or operations. Without an updated strategy that reflects
   current ANSF requirements, NTM-A/CSTC-A runs the risk of building facili-
   ties that do not meet ANA needs.
5. The GIRoA does not have the capacity to sustain the Kunduz garrison or
   other ANSF facilities once they are completed. Since 2002, the United States
   and the international community have provided funding for the sustainment
   of ANA facilities. In September 2006, AED-North awarded a $200 million
   operations and maintenance contract for ANSF facilities. With the current
   contract set to expire in April 2010, AED-North told SIGAR that two new
   contracts will be awarded to cover ANSF facilities in northern and southern
   Afghanistan. The northern contract will be valued up to $450 million; the
   southern contract, up to $350 million. Both contracts will be for one base
   year plus four optional years and will require an operations and management
   training program for Afghan workers.

RECOMMENDATIONS
The United States has paid more than $51 million of the current contracts’ value
of $72.8 million to build this garrison in support of ANA operations in Kunduz.
To ensure the structural integrity of the Kunduz garrison, SIGAR recommended
that the USACE Commanding General direct AED-North to take two actions to
address these construction concerns:
t Repair the welds and mitigate the rust on steel supports on the affected
   structures.
t Resolve the soil stability issue and decide what mitigation or corrective
   actions are required (including site grading) for DynCorp to complete
   the project.
To address contract oversight issues, SIGAR also recommended that the USACE
Commanding General direct AED-North to ensure that the Kunduz garrison’s
contract files are maintained according to USACE guidance.

AGENCY COMMENTS
At the time this publication went to press, the agencies were still preparing
formal comments on the draft of the report. The final audit report contains the
comments and response to the findings and recommendations (www.sigar.mil).

Audit 10-10: Gamberi ANA Garrison
ANA Garrison at Gamberi Appears Well Built Overall, but Some Construction Issues
Need To Be Addressed
The U.S. strategy in Afghanistan depends on building the country’s capacity to
provide for its own security by training and equipping the ANSF. Since 2002,
the U.S. Congress has appropriated about $25 billion—nearly half of all recon-
struction dollars—for the ASFF, which finances the training, equipping, and




  18                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                               SIGAR OVERSIGHT




sustainment of the ANSF. This mission includes building the facilities needed
to train, base, and house the Afghan forces. Current plans call for the ANA to
grow from about 103,500 in June 2009 to 171,600 by October 2011. As a result
of these increases, additional facilities are needed to train, base, and house
the Afghan forces. SIGAR examined the U.S.-funded construction of an ANA
garrison at Gamberi.
   The garrison at Gamberi, in Laghman province in eastern Afghanistan, will
house about 4,000 ANA soldiers. An estimated 250 U.S. soldiers will be embed-
ded with the ANA at the garrison. NTM-A/CSTC-A is providing $128.8 million to
build the garrison in three phases, as well as a weapons training range:
t Phase I: barracks, storage facilities, dining facility, and embedded training
   team compound constructed for the ANA soldiers and the embedded U.S.
   training team
t Phase II: barracks, a battalion headquarters, and a communication and
   electrical distribution system for ANA soldiers and the embedded U.S.
   training team
t Phase III: three officers’ barracks, six enlisted open-bay barracks, a battalion       An Afghan contractor digs an anti-vehicle
   headquarters, arms storage, general warehouse storage, and a motor pool for            trench that also serves as a drainage
   a Corps Support Battalion                                                              channel around the perimeter wall of the
                                                                                          Gamberi ANA garrison. (SIGAR photo)
   AED-North awarded two firm-fixed-price contracts to DynCorp International
LLC for program management and oversight of Phases I and II, and a third firm-
fixed-price contract to BYA Inc. for Phase III. It also awarded a firm-fixed-price
contract for the weapons training range to Lakeshore Engineering Services. At
the time SIGAR conducted the audit, NTM-A/CSTC-A had not awarded a Phase
IV contract to build facilities for the 201st Corps headquarters.




Site preparation and soil grading continues at the Gamberi ANA garrison in Laghman
province. (SIGAR photo)




             REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2010             19
SIGAR OVERSIGHT




OBJECTIVES
The audit addressed three objectives:
t Determine whether the Gamberi garrison was constructed within the terms
   of the contracts, including schedule and cost.
t Determine whether USACE conducted oversight of the garrison construction
   in accordance with the Federal Acquisition Regulation, USACE requirements,
   and oversight provisions of the contract.
t Identify NTM-A/CSTC-A’s overall justification for the garrison and the plans it
   has for the sustainment of ANSF facilities.

FINDINGS
1. SIGAR found that Phase I is nearly 2 years behind schedule, and Phase II is 14
   months behind schedule. The training range is about 6 weeks behind sched-
   ule, but Phase III is ahead of schedule. All phases and the training range are
   now scheduled to be completed by September 2010, with an increase of
   $3.4 million—from $126.5 million to $129.8 million—because AED-North
   exercised options in the contracts, including demining of the training range.
2. Overall, the garrison appears to be well built, but some construction issues
   need to be addressed. SIGAR observed that the concrete foundations and
   the prefabricated buildings have been installed according to standards and
   that subcontractors at the garrison used proper quality control methods.
   However, SIGAR also found some construction quality issues, including poor
   flood-control measures, inadequate grading, and a deteriorating bridge, as
   well as potential difficulties securing the weapons training range.
3. Since September 2009, AED-North personnel have provided the management
   and oversight required by USACE for Phases I, II, and III, as well as the train-
   ing range. Prior to this date, security issues prevented AED-North personnel
   from visiting the site to provide daily oversight, and the Afghan workers hired
   by AED-North lacked sufficient training to provide the necessary oversight.
   During this period, DynCorp was issued two interim unsatisfactory ratings
   because of project delays, but AED-North informed SIGAR that the company
   has since taken corrective actions.
4. Although an October 2005 ANA Master Plan for Facilities Development was
   cited as justification for the FY 2008 Afghanistan Security Forces budget
   request to the Office of the Secretary of Defense, NTM-A/CSTC-A could not
   locate a copy of this document or other planning documents or justification
   that provide information on the strategic deployment of ANA troops, garrison
   locations, or operations. Without an updated strategy that reflects current
   ANSF requirements, NTM-A/CSTC-A runs the risk of building facilities that do
   not meet the ANA’s needs. The GIRoA does not have the capacity to sustain
   the Gamberi garrison or other ANSF facilities once they are completed.
   Since 2002, the United States and the international community have provided
   funding for the sustainment of ANA facilities. In September 2006, AED-North
   awarded a $200 million operations and maintenance contract for ANSF




  20               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                               SIGAR OVERSIGHT




   facilities; that contract is set to expire in April. AED-North told SIGAR that
   two new contracts will be awarded to cover ANSF facilities in northern
   and southern Afghanistan. The northern contract will be valued at up to
   $450 million; the southern contract, up to $350 million. Both contracts will be
   for one base year plus four optional years and will require an operations and
   management training program for Afghan workers.

RECOMMENDATIONS
The United States has paid more than $87 million of the two contracts’ value
of $129 million to build this garrison in support of ANA operations in Laghman
province. To ensure the quality of the construction, SIGAR recommended that
the USACE Commanding General direct AED-North to take these actions to
address construction issues:
t Mitigate silt accumulations in the anti-vehicle trench and drainage channel.
t Ensure that the site is properly graded.
t Repair the bridge near the main entrance of the garrison.
t Secure the weapons training range.

AGENCY COMMENTS
At the time this publication went to press, the agencies were still preparing for-
mal comments on a draft of the report. The final audit report contains the agency
comments and response to the findings and recommendations (www.sigar.mil).

Audit 10-7: Tojg Bridge Construction
The Tojg Bridge Construction Is Nearly Complete, but Several Contract Issues
Need To Be Addressed
Provincial Reconstruction Teams (PRTs) are vital to the U.S. strategy to promote
good governance and foster economic development across Afghanistan. To
respond to urgent humanitarian relief and reconstruction requirements, U.S.-led
PRTs often use DoD funding from CERP. In September 2007, the PRT in Farah
awarded a $1.75 million, CERP-funded, firm-fixed-price contract to a joint ven-
ture of several Afghan firms to build a 300-meter bridge across the Farah River
near the village of Tojg, about 28 miles southwest of Farah City. The bridge was
intended to provide a shorter route between several districts and the capital of
Farah. The reduced travel time to Farah City would encourage economic activ-
ity, provide the ANSF with better access to other districts, and increase Afghan
citizens’ access to government services.

OBJECTIVES
This audit had the following objectives:
t Determine the status of the project.
t Assess the PRT’s management of the contract.
t Evaluate the PRT’s plans for turning over the bridge to the GIRoA.




             REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2010       21
SIGAR OVERSIGHT




FINDINGS
1. The bridge was to be open by September 2009, but it has been delayed
   by a year. In March 2008, the PRT rotated; a month later, the new PRT
   Commander concluded that the bridge would not bring significant benefit
   to the people of Farah and was a poor use of resources. By August 2008,
   the Afghan joint venture constructing the bridge had been paid $576,000,
   or 33% of the contract value, but the bridge was only 1% complete. The
   PRT Commander recommended that the project be discontinued. The U.S.
   National Command Element (USNCE) at Kandahar Airfield, which had over-
   sight responsibility for CERP projects in Farah, ordered an investigation of
   the project.
      In November 2008, the USNCE Commander directed the Farah PRT to
   complete the project and provide greater oversight. In spring 2009, the
   contractors asked for an extension because of flooding, but the PRT did not
   respond to this request until SIGAR asked about it in December 2009. At that
   time, the bridge was 80% complete. Because of subsequent worksite flooding,
   the completion date has been further extended to September 2010. The PRT
   approved both extensions with no change in contract price.
2. During a June 2009 site inspection, SIGAR identified problems that raised
   questions about the safety and usability of the bridge. The joint venture did
   not conduct proper tests of the building materials, including the concrete, and
   did not provide the weekly quality control reports required by the contract.




Afghan construction workers reinforce the arches supporting the Tojg Bridge across the Farah
River. SIGAR has documented findings related to management oversight and quality control of
the delayed project. (SIGAR photo)




   22                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




3. The ownership of the land leading to the bridge had not been clearly
   established. The land rights to the bridge approaches will be critical to
   the use of the bridge.
4. A number of issues are unresolved concerning a gravel plant built to sup-
   ply materials for the bridge. In November 2008, the USNCE Commander
   determined that this plant was an “implied” part of the bridge project and
   should be turned over to the appropriate GIRoA authority. The plant began
   operations in May 2008 and has been supplying gravel for the construction
   of the bridge and numerous other projects in the province. The PRT has
   not accounted for the gravel plant and the associated equipment, which are
   worth at least $300,000.
5. CERP guidelines require PRTs to identify and implement projects through the
   appropriate Afghan authorities to ensure that projects are sustainable; nev-
   ertheless, the Farah PRT had not involved GIRoA provincial officials before
   the SIGAR site visit in June 2009. In December 2009, the PRT Commander
   told SIGAR that a representative from the Farah District Public Works
   Department had been present on every PRT visit to the bridge since October
   2009. The PRT noted that the department was struggling to provide engineer-
   ing support because of a lack of funding, equipment, and personnel.
6. The Farah PRT did not maintain contract files in accordance with CERP guid-
   ance. Incomplete documentation contributed to each of SIGAR’s concerns.

RECOMMENDATIONS
To ensure that U.S. resources are properly accounted for and that the Tojg bridge
is safe and usable, SIGAR recommended that the Commander of U.S. Forces -
Afghanistan (USFOR-A) direct the Farah PRT to take action in four areas:
t Establish accountability for the gravel plant and associated equipment to
    ensure the plant’s sustainability.
t Ensure that necessary quality control and quality assurance procedures are
    performed and adequately documented, including making sure that 1) testing
    of critical construction materials is completed, 2) the structural concrete
    meets design requirements, and 3) weekly engineer reports that document
    quality control and corrective actions are prepared.
t Ensure that the land rights associated with the bridge approaches are docu-
    mented and transferred to the GIRoA.
t Address the deficiencies in the contract files as required by applicable guidance.

AGENCY COMMENTS
USFOR-A concurred with the recommendation to ensure that the land rights
associated with the bridge approaches are documented and transferred to the
GIRoA; it partially agreed with the other recommendations. USFOR-A noted that
the Farah PRT had taken various steps to address SIGAR’s concerns; for example,
the USACE conducted an assessment of the bridge construction procedures and
verified that they were adequate.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010          23
SIGAR OVERSIGHT




   USFOR-A disagreed with the USNCE Commander’s November 2008
determination that the gravel plant was an implied part of the contract and
should be turned over to the GIRoA. USFOR-A said that it could find no legal
obligation for the Afghan joint venture to turn the plant and equipment over to
the GIRoA. Although the Farah PRT maintained throughout the course of the
audit that the gravel plant would be turned over to the GIRoA, SIGAR does not
dispute USFOR-A’s interpretation.

New Audits Announced This Quarter
This quarter, SIGAR initiated two new audits. As part of its anti-corruption initia-
tive, SIGAR began an audit of Afghanistan’s National Solidarity Program, which
is funded by international donors. SIGAR is also assessing the civilian uplift in
support of the U.S. reconstruction effort in Afghanistan.

Review of the Implementation of the Civilian Uplift in Support
of the U.S. Reconstruction Effort in Afghanistan
SIGAR has coordinated the scope of this audit with the Government Accountability
Office (GAO). The GAO is examining how the U.S. government determined its
requirements; SIGAR is assessing the implementation of the increased civilian
deployment. SIGAR’s audit has three objectives:
t Identify the number and types of personnel provided to implement the
   civilian uplift.
t Assess the extent to which required resources have been provided to
   support the operational and support needs of these additional personnel
   in Afghanistan.
t Assess the extent to which civilians in the field are being used effectively
   to achieve stated strategic and programmatic goals, including collaborating
   with military and international partners and assisting with contract oversight
   responsibilities.

Review of Afghanistan’s National Solidarity Program
This audit is related to a series of audits SIGAR is conducting to examine U.S.
and other donor assistance in support of the GIRoA’s anti-corruption capabilities.
These audits also assess the internal controls that Afghan public institutions are
able to exercise to ensure that donor assistance funds provided to the GIRoA are
reasonably protected against waste, fraud, and abuse.
    In 2003, Afghanistan’s Ministry of Rural Rehabilitation and Development
established the National Solidarity Program to help Afghan communities iden-
tify, plan, manage, and monitor their own development projects. Since then, the
program has received more than $900 million in international funding and has
reported completing nearly 40,000 small infrastructure projects. This audit has
two objectives:




  24                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




t Identify U.S. and donor assistance to the program and determine actions
   taken by the United States and other donors to ensure that their contri-
   butions are adequately accounted for, appropriately programmed, and
   ultimately used for their intended purposes.
t Examine the capacity of the Ministry of Rural Rehabilitation and
   Development to plan, manage, and monitor the program to provide
   reasonable assurance that adequate internal controls are in place and
   are used properly to achieve the program’s intended results.

Ongoing Audits
During this reporting period, SIGAR continued work on 10 other audits, includ-
ing contract assessments, program assessments, and reviews related to SIGAR’s
anti-corruption initiative. The audits address reconstruction issues related to
security, governance, and development.

Contract Audit: Construction of the ANA Brigade Garrison
in Farah Province
SIGAR is examining the USACE construction contracts for Phases I and II
of the U.S.-funded ANA brigade garrison in Farah province. The audit has
these objectives:
t Determine whether the garrison was completed within the terms of the
   contract, including schedule and cost.
t Review what support and documentation were submitted for contract
   modifications and contractor costs and payments, and whether these sub-
   missions meet applicable requirements.
t Assess whether U.S. contract administration and oversight meet applicable
   requirements.
t Determine whether the ANA, which has taken possession of the garrison,
   can operate and maintain the facilities.

Review of Salary Support Provided by U.S. Government Agencies
to Afghan Government Officials
This audit is part of SIGAR’s effort to assess the internal controls and account-
ability procedures of key Afghan government institutions. It is reviewing all U.S.
government salary support for GIRoA officials, except for uniformed ANSF. The
review has these objectives:
t Identify all U.S. government salary support to GIRoA officials.
t Examine the internal controls and other accountability mechanisms for
   determining the recipients of salaries and the amounts paid.
t Identify challenges, if any, in providing salary support.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010        25
SIGAR OVERSIGHT




Identification of Major Vendors for Reconstruction
Contracts in Afghanistan
SIGAR initiated this audit to identify and describe the largest U.S. reconstruction
contracts; this information will help guide SIGAR’s contract audits. The GAO has
provided SIGAR with access to the database it compiled to prepare its reports
addressing contracting in Afghanistan during FY 2007, FY 2008, and the first six
months of FY 2009. SIGAR has analyzed the GAO’s data to identify and rank the
prime vendors by total obligations during that period. This audit is designed to
accomplish three tasks:
t Ensure that the vendors and associated contracts identified are for recon-
   struction in Afghanistan (rather than support for the U.S. presence).
t Determine the value and purpose of the contracts identified.
t Document each contract’s reported total obligations and expenditures
   through FY 2009.

   SIGAR will work with the U.S. Department of State, DoD, and the U.S. Agency
for International Development to identify any prime contractors that have active
contracts for substantive reconstruction assistance to Afghanistan that did not
appear in the GAO’s database. To minimize duplication of effort, SIGAR is coordi-
nating this work with the GAO’s ongoing compilation of contract obligations for
the last six months of FY 2009.

Review of U.S. Assistance for the Preparation and Conduct of
Presidential and Provincial Council Elections in Afghanistan
This audit, the third in a series of reports on the election process, is reviewing
independent assessments of the 2009 presidential and provincial council elec-
tions and actions taken by U.S. and international donors to support the 2010
elections. This review will identify the lessons learned from the 2009 elections
and actions taken to address electoral reforms priorities and issues.

Review of U.S. Agencies’ Use of Contractors To Provide Security
for Reconstruction Programs in Afghanistan
SIGAR is conducting this audit to identify the number and volume of contracts in
place to provide security services in Afghanistan. The audit has these objectives:
t Determine the number of security contractors and personnel working for
   U.S. federal agencies in Afghanistan.
t Assess the agencies’ management and oversight of security contractors and
   subcontractors.
t Determine the extent to which GAO and the inspector general community
   have conducted audits of private security contracts.




  26                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                         SIGAR OVERSIGHT




Contract Audit: Reconstruction Security Support Services
from Global Strategies Group, Inc.
This audit, which is related to SIGAR’s audit of private security contractors in
Afghanistan, is examining whether the USACE received the security services it
needed from the contractor at a reasonable cost. The audit has these objectives:
t Determine whether the contract requirements are being completed within the
   terms of the contract, including schedule and cost.
t Assess what supporting documentation has been submitted for contract
   modifications and contractor costs and payments, and whether these meet
   applicable requirements.
t Determine if U.S. contract administration and oversight meet applicable
   requirements.
t Determine if any private security subcontractors were used by the prime
   contractor, and if so, whether the requirements of the prime contractor were
   included in the subcontract.

System To Assess the Capabilities of the ANSF
SIGAR is conducting this audit to evaluate the reliability of the capability
ratings that are being used to measure the capabilities of the ANSF. The audit
has these objectives:
t Identify the metrics used to measure and verify ANSF capabilities.
t Assess the extent to which readiness assessment methods vary between and
   within the ANA and the Afghan National Police (ANP).
t Determine the degree to which the capability rating system provides a reli-
   able profile of ANSF capabilities.
t Identify the extent to which challenges have impeded the ability of the U.S.
   government to assess ANSF capabilities.

Review of ANSF Personnel Management
SIGAR is conducting this audit to evaluate the extent to which the ANSF has
developed accurate systems for personnel accounting. It is assessing four
elements:
t the extent to which ANA and ANP personnel have been counted and validated
t the actions taken by the United States and international donors to support
   the development of ANSF personnel accounting systems
t the challenges associated with the completion and maintenance of routine
   systems for personnel accounting
t the extent to which inaccurate personnel numbers have led to additional
   challenges, including the fraudulent collection of ANSF salaries




           REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010      27
SIGAR OVERSIGHT




Review of the Construction Contract of the Joint Regional ANSF
Complex Outside the Kandahar Airfield
SIGAR is examining U.S.-funded construction contracts for facilities at the
Joint Regional ANSF Complex, which are nearing completion. The audit has
these objectives:
t Determine whether infrastructure projects are being completed within the
   terms of the contract, including scheduling and cost.
t Assess what support and documentation have been submitted for contract
   modifications and contractor costs and payments, and whether these submis-
   sions are adequate.
t Evaluate the quality of U.S. contract administration and oversight.
t Determine what plans exist for the ANA to take possession of the facilities,
   perform maintenance, and pay for sustainment costs.

Review of the Use of Funds Earmarked for Afghan Women and Girls
SIGAR is conducting this audit to identify how funds earmarked for Afghan
women and girls have been used and the extent to which the use of these funds
has complied with U.S. legislative requirements. SIGAR is also assessing how
agencies measure the effectiveness of programs using these funds and what
agencies are doing to ensure the sustainability of those programs.

Forensic Audit
Earlier this year, SIGAR launched a forensic audit program that uses data-
mining techniques to identify anomalies in payments that could indicate fraud
or waste, as well as to identify poor internal controls or lack of accountability.
This quarter, SIGAR began the data collection process for the ASFF. The ASFF
was authorized on May 11, 2005, in Public Law 109-13, “Emergency Supplemental
Appropriations Act for Defense, the Global War on Terror, and Tsunami Relief,
2005.” The law appropriated the initial funding for the ASFF for equipment, sup-
plies, services, and training, as well as the repair, renovation, and construction
of ANSF facilities. SIGAR will conduct a detailed examination of appropriations
and disbursements data related to the ASFF for FY 2005 to FY 2009. During this
period, the Congress provided approximately $18.67 billion for the ASFF. This
forensic audit will identify anomalous patterns, including improper payments,
fictitious or generic vendors, and notable variances in transactional activity.

Planned Audits
SIGAR will continue to conduct a wide range of audits, including contract and
performance audits of various aspects of the reconstruction effort. SIGAR will
begin new audits as it hires additional auditors and completes ongoing work.
SIGAR considers the following audits to be priorities and plans to initiate them
within the next six months:




  28               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




t a review of U.S. and international donor programs to assist Afghanistan’s agricul-
   ture sector
t a review of the ANSF logistics system for supplies
t a review of contract performance, cost, and agency oversight of U.S. government
   contracts with MPRI
t a review of contract performance, cost, and agency oversight of the U.S.
   government cooperative agreement in Afghanistan with International Relief &
   Development
t a review of U.S. Air Force use of reconstruction funds for infrastructure projects
t a review of contractor insurance claims


INVESTIGATIONS
During this reporting period, SIGAR opened 19 criminal cases and conducted
joint investigations resulting in the recovery of more than $2 million. Since
the January 30, 2010 report, SIGAR has hired 4 additional investigators,
bringing the total investigative staff to 14. SIGAR deployed 3 more investiga-
tors to Afghanistan and now has 7 investigators stationed in 4 locations in
Afghanistan—at the U.S. Embassy in Kabul, Camp Eggers, Bagram Air Field,
and Kandahar Air Field.
                                                                                        FIGURE 2.1

Status of Cases
Since the January 2010 quarterly report, SIGAR opened 19 criminal cases and             CASES UNDER INVESTIGATION BY TYPE
closed 10 others, most of which lacked prosecutorial merit.13 SIGAR is currently
investigating 42 cases, primarily focused on contract fraud, bribery, and procure-
ment fraud, as shown in Figure 2.1.                                                                      Contract
                                                                                                         Fraud
                                                                                                                          Bribery
                                                                                                         43%
Fraud and Theft Investigation Leads to $1.9 Million Recovery                                                              31%
As a result of a criminal investigation conducted jointly by SIGAR, the
U.S. Army Criminal Investigation Command (CID), and the International
Contract Corruption Task Force (ICCTF), USACE issued a “decision finding”
and formal demand requiring an Afghan company and a Korean company                                    Other                Procurement
to repay $1.9 million to the U.S. government. Investigators determined that                           12%                  Fraud
these companies filed false claims and stole U.S. government property from                                                 14%

a construction site. SIGAR is coordinating further investigation through the
                                                                                        Source: SIGAR Investigations Directorate, 4/13/2010.
ICCTF to ensure that the subjects are held accountable for the actions within
the appropriate criminal judicial process.

Discovery of Procurement Irregularities Results in
Recovery of $240,000
An investigation by SIGAR, the Department of State Office of Inspector General,
and the ICCTF led to the recovery of approximately $240,000 from a U.S. contrac-
tor for improprieties involving a kickback and embezzlement scheme facilitated
through inflated contract billing and fictitious credits. The contractor conceded
that irregularities occurred, and the investigation is continuing.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010          29
SIGAR OVERSIGHT




Investigation Reveals Bribes for Fuel and Transportation Contracts
A joint investigation by ICCTF members, including SIGAR and the CID, revealed
that a member of the U.S. Navy working in a U.S. contract office in Kabul
accepted bribes to influence the award of U.S. fuel and construction contracts.
The Navy officer admitted receiving $10,000 from transportation vendors in
Afghanistan, giving favorable consideration in the award of contracts, making
false statements to investigators to cover his actions, and receiving $10,000 from
a contractor engaged in commercial trucking. Investigators recovered the $10,000
bribe, and the U.S. Navy has taken disciplinary action.

SIGAR Hotline
The Hotline continues to be a useful tool for SIGAR’s investigations team. This
quarter, SIGAR initiated investigations for 17 of the 35 Hotline complaints it
received. It referred 8 of the complaints to other agencies and closed 9 that were
found to be without merit. SIGAR is still reviewing one complaint.



SIGAR BUDGET
The Congress has appropriated $46.2 million to SIGAR since July 2008, as shown
in Table 2.1. SIGAR has submitted a $35.6 million budget request for FY 2011
to cover the operating expenses needed to conduct independent and objec-
tive oversight of the nearly $51.5 billion appropriated for the reconstruction of
Afghanistan. This budget request would provide SIGAR with the resources neces-
sary to fully staff the 132 positions it has identified as necessary to fulfilling its
congressional mandate to conduct audits and investigations to prevent and detect
fraud, waste, and abuse of U.S. reconstruction funds.

TABLE 2.1


SIGAR FUNDING SUMMARY ($ MILLIONS)
Appropriation                        Public Law     Appropriated   Made Available   Expires     Amount
Supplemental Appropriations for      P.L. 110-252   6/30/2008      6/30/2008        9/30/2009     $2.0
Fiscal Year 2008, H.R. 2642
Supplemental Appropriations for      P.L. 110-252   6/30/2008      10/1/2008        9/30/2009     $5.0
Fiscal Year 2008, H.R. 2642
Consolidated Security, Disaster      P.L. 110-329   9/30/2008      9/30/2008        9/30/2010     $9.0
Assistance, and Continuing
Appropriations Act, 2009
Supplemental Appropriations for      P.L. 111-32    6/24/2009      6/24/2009        9/30/2010     $7.2
Fiscal Year 2009, H.R. 2346
Consolidated Appropriations Act,     P.L. 111-117   12/16/2009     10/1/2009        9/30/2010    $23.0
2010, H.R. 3288
Total                                                                                           $46.2




   30                       SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




Funding Request for Anti-Corruption Initiative
SIGAR has submitted an additional request for $14 million for FY 2010 and
FY 2011 to expand its anti-corruption audit initiative. The initiative is assessing
two key elements in the fight against corruption:
t what the United States and other donor countries are doing to build the
   capacity of GIRoA institutions to deter corruption and strengthen the rule
   of law
t the extent to which various national and local institutions have systems in
   place to account properly for donor funds
SIGAR has published five audits as part of this anti-corruption initiative.
   Corruption is widely acknowledged to be a pervasive, entrenched, and
systemic problem across Afghanistan. Because corruption corrodes the govern-
ment’s legitimacy and undermines international development efforts, the new
U.S. strategy has made strengthening the GIRoA’s capability to combat corruption
a priority. The new strategy also calls for more U.S. assistance to be channeled
through GIRoA institutions. The success of this strategy will depend to a large
degree on the capacity of those institutions to manage donor funds and protect
them from waste, fraud, abuse, and other forms of corruption. The additional
funding would enable SIGAR to conduct audits in FY 2010 and FY 2011 of Afghan
institutions at the national and provincial levels. These audits will provide an
important tool for U.S. decision-makers responsible for implementing the
new strategy.



SIGAR STAFF
During this reporting period, SIGAR made progress toward its goal of having 132
staff members in FY 2011. At the time this report went to press, SIGAR had 79
employees: 74 hired under the 3161 authority, 3 on detail from DoD, and 2 foreign
service nationals in Kabul. These figures reflect 12 new hires and the losses from
staff attrition.
   SIGAR maintains an office in Kabul and three other locations in Afghanistan.
At the time this report went to press, SIGAR had 22 staff members based in
Afghanistan. SIGAR continues to send additional staff on temporary duty rota-
tions to conduct audits and investigations.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010        31
             Afghans rebuild
             Construction workers remove debris for an infrastructure
             improvement project at a school in Wardak province.
             (U.S. Army photo, SGT Russell Gilchrest)




32   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
3   RECONSTRUCTION
    UPDATE




        33
             33
           RECONSTRUCTION UPDATE




   “Our focus is building the capacity
  of Afghan institutions to withstand
    and diminish the threat posed by
extremism, and to deliver high-impact
  economic assistance—especially in
the agricultural sector—to create jobs,
  reduce the funding that the Taliban
 receives from poppy cultivation, and
  draw insurgents off the battlefield.”
        —Afghanistan and Pakistan Regional
                      Stabilization Strategy




           Source: DoS, “Updated Afghanistan and Pakistan Regional Stabilization Strategy,” 2/24/2010.




               34                         SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                        RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents a holistic view of Afghanistan during this reporting period.
Updates on accomplishments, challenges, and local initiatives provide a broad
context for the accomplishments and challenges facing reconstruction efforts. The
section is divided into five subsections: Status of Funds; Security; Governance,
Rule of Law, and Human Rights; Economic and Social Development; and Counter-
Narcotics. The Security, Governance, and Economic and Social Development
subsections mirror the three pillars set forth in the 2008 Afghanistan National
Development Strategy. The Counter-Narcotics subsection focuses on a cross-cutting
issue identified in that strategy.

TOPICS
Section 3 discusses five broad topics: historical and current funding information, secu-
rity conditions, governance activities, economic and social development programs,
and counter-narcotics initiatives. Quarterly highlights dispersed throughout this sec-
tion accent a single topic related to reconstruction efforts within a specific subsection.
    The Status of Funds subsection provides a comprehensive discussion of the monies
pledged and spent for Afghanistan reconstruction. It also includes specific information
on major U.S. funds, international contributions, and the budget of the Government of
the Islamic Republic of Afghanistan (GIRoA).
    The Security subsection details the activities of the Afghan National Security
Forces, including the Afghan National Army and the Afghan National Police, and
discusses U.S. and international efforts to bolster security in Afghanistan. A quarterly
highlight focuses on new initiatives: community-based security and reintegration.
    The Governance, Rule of Law, and Human Rights subsection provides an overview
of the GIRoA’s efforts and progress toward achieving good governance. It presents
an overview of progress in the areas of elections; public administration, justice, and
prison reforms; anti-corruption efforts; and aspects of human rights, including gender
equality and religious freedom.
    The Economic and Social Development subsection focuses on reconstruction
activities in areas ranging from agriculture and transportation to health services. It
provides a snapshot of the state of the economy and updates on the progress being
made in delivering essential services, boosting agricultural output, and growing the
private sector. A quarterly highlight discusses gemstone production as a potential
source of economic growth for Afghanistan.




             REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2010           35
RECONSTRUCTION UPDATE




   The Counter-Narcotics sub-section describes efforts to reduce the prevalence
of narcotics in the Afghan economy. It provides updates on progress in achieving
poppy-free provinces, alternative development programming, and development
of capacity to conduct counter-narcotics work. This subsection discusses U.S.
and Afghan joint efforts to combat the drug trade and the challenges impeding
the success of those efforts. A quarterly highlight provides information about
drug abuse in Afghanistan.

METHODOLOGY
Section 3 was compiled using information and data from open sources and U.S.
agencies. Except where SIGAR audits or investigations are specifically referenced,
SIGAR has not verified this data; the information does not reflect SIGAR’s opinions.
All data and information is attributed to the reporting organization in endnotes
to the text or notes to the tables and figures. For a complete discussion of SIGAR
audits and investigations during this quarter, see Section 2.

Data Call
The data call is a series of questions directed to U.S. agencies about their contri-
butions and involvement in reconstruction programming, and the state of affairs
in Afghanistan. The U.S. agencies that participated in the data call for this quar-
terly report include the following:
t Department of State
t Department of Defense
t U.S. Agency for International Development
t Department of the Treasury
t Office of Management and Budget
t Overseas Private Investment Corporation
A preliminary draft of the report was provided to the responding agencies prior to
publication to allow these agencies to verify and clarify the content of this section.

Open-Source Research
Open-source research draws on the most current, publicly available data from
reputable sources. A representative list of sources used in this quarterly report
includes the following:
t U.S. agencies represented in the data call
t International Security Assistance Force
t Government Accountability Office
t United Nations (and relevant branches)
t International Monetary Fund
t World Bank
t GIRoA ministries and other Afghan government organizations
Most of the open-source research is included in the preliminary draft that is
distributed to agencies participating in the data call, for review before this
report is published.




  36                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                  QUARTERLY HIGHLIGHT
                                      GRAPHICS KEY




UNDERSTANDING THE GRAPHICS
All figures and tables report data for this quarter, except where identified in titles or notes.



BAR CHARTS                                                      HEAT MAPS
This report discusses many funds and projects with              Heat maps assign colors to provinces, based on
dollar values ranging from millions to billions. To             pertinent data. Each color represents a data set,
provide an accurate graphical representation of these           defined in a legend; darker colors represent larger
numbers, some bar graphs appear with a break (a                 numbers, lighter colors show smaller numbers.
wavy line) to indicate a jump between zero and a
larger number.

     $500                         $200

     $450
                                  $150
     $400
                                  $100
     $350

                                   $50
                                                                                                         0
                                                                                                         1–20
       $0                           $0                                                                   21–40
                                                                                                         41–200
            Bar chart with a             Bar chart without                                               201–429
             break in scale              a break in scale



DISTINGUISHING BILLIONS AND MILLIONS                            FUNDING MARKERS
Because this report details funding in both billions            Funding markers identify individual funds discussed
and millions of dollars, it uses a visual cue to distin-        in the text. The agency responsible for managing the
guish the two measurement units. Dollars reported in            fund is listed in the tan box below the fund name.
billions are represented in blue, and dollars reported
in millions are depicted in green.




                                                                                              ESF



                                                                                             USAID




       Pie Chart in Billions          Pie Chart in Millions




            REPORT
              REPORT
                   TOTO
                      THE
                        THE
                          UNITED
                            UNITED
                                 STATES
                                   STATES
                                        CONGRESS       I I
                                          CONGRESS MONTH
                                                    APRIL 30, 2010              37
           TITLE OF THE SECTION




“Hilibus aut aspedit liqui quam excese-
quam il experum re dolum ut ommodio
   ersped eaquas et moloritiis estium
  expeles totaspe llacepel eateceatus
 rem qui velit dolenis quosa num con-
 sequam, quiati bearibuscia si ut eost,
omnihil modita nistia aut hitis que api-
 cia doluptatio es sed es ut ut aut estis
     dolor rerum que litiorepudae”
                                                          —Person of Interest




           Source: Mil ilique cusant laute nonsequi volorum nulpari busam, tem. Nem quia numquid qui aut etur? Nimaionse net quiam, voloreruptis
           providit in reictem. Dem voloribusa delenihic temodis auteceritem qui il et res rem estist, tem cumqui qui reratento que consedis doluptatem




               38                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                STATUS OF FUNDS




STATUS OF FUNDS
As of March 31, 2010, the United States had appropriated nearly $51.50 billion
for relief and reconstruction in Afghanistan since fiscal year (FY) 2002. This
cumulative funding total is based on data reported by agencies and amounts
appropriated in FY 2010, as shown in Appendix B. This total has been allocated
as follows:
t nearly $26.75 billion for security
t more than $14.75 billion for governance and development
t nearly $4.24 billion for counter-narcotics efforts
t nearly $2.04 billion for humanitarian aid
t more than $3.72 billion for oversight and operations
Figure 3.1 provides an overview of the major U.S. funds that contribute to these
efforts. The cumulative appropriated funding as of March 31, 2010 ($51.50 billion)
is more than the previously reported cumulative funding as of December 31, 2009
($51.01 billion). This change resulted from updated agency-reported data.
FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                       FUNDING SOURCES (TOTAL: $51.50)
                                                                                                                         ASFF: Afghanistan Security Forces Fund

      ASFF                 CERP                 DoD CN               ESF                 INCLE             Other         CERP: Commander’s Emergency
                                                                                                                         Response Program
    $25.23                 $2.64                 $1.43              $9.74                $2.69            $9.77

                                                                                                                         DoD CN: DoD Drug Interdiction and
                                                                                                                         Counter-Drug Activities
                                                         AGENCIES

                                                                                     Department of     Distributed       ESF: Economic Support Fund
              Department of Defense (DoD)                           USAID
                                                                                      State (DoS)      to Multiple
                       $29.30                                       $9.74
                                                                                         $2.69          Agenciesa        INCLE: International Narcotics Control
                                                                                                                         and Law Enforcement
Note: Numbers affected by rounding.
a. Multiple agencies include DoJ, DoS, USAID, Treasury, USDA.                                                            Other: Other Funding
Sources: OMB, response to SIGAR data call, 4/19/2010; USAID, responses to SIGAR data call, 4/15/2010 and 10/9/2009;
DoD, responses to SIGAR data call 4/14/2010, 4/13/2010, and 10/1/2009; DoS, responses to SIGAR data call, 4/9/2010 and
1/8/2010; FY 2010 DoD Appropriations Act Explanatory Statement; Treasury, response to SIGAR data call, 4/15/2010; DoJ,
response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                  REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2010                 39
                                                                 STATUS OF FUNDS




                                                                 U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
  ASFF     CERP DoD CN            ESF     INCLE                  As of March 31, 2010, cumulative appropriations for relief and reconstruction in
                                                                 Afghanistan totaled nearly $51.50 billion. This total can be divided into five major
                                                                 categories of reconstruction funding: security, governance and development,
         DoD                      USAID     DoS
                                                                 counter-narcotics, humanitarian, and oversight and operations. Updated agency
                                                                 data resulted in higher cumulative appropriation totals for FY 2009 and FY 2010.
                                                                 For complete information regarding U.S. appropriations, see Appendix B.
The amount provided by the five major                                As shown in Figure 3.2, cumulative appropriations as of FY 2010 increased by
U.S. funds represents approximately 81.0%                        approximately 30.0% over cumulative appropriations as of FY 2009, to nearly $51.50
(nearly $41.72 billion) of reconstruction                        billion. Since FY 2002, security efforts have received the largest cumulative appro-
assistance in Afghanistan since FY 2002.                         priations. Appropriations for security (nearly $26.75 billion) account for more than
Of this amount, approximately 79.0% (more                        51.9% of total U.S. reconstruction assistance. In FY 2010, security had a large gain in
than $32.93 billion) has been obligated,
                                                                 cumulative appropriations over FY 2009 (more than 32.5%), followed by governance
and approximately 67.0% (more than
                                                                 and development (more than 27.6%), and counter-narcotics (more than 20.8%).
$27.94 billion) has been disbursed. The
                                                                     As shown in Figure 3.3 on the facing page, appropriations for FY 2010 amounted
following pages provide additional details
on these funds.                                                  to nearly $11.89 billion, surpassing FY 2009 levels by almost 14.7%. This is the larg-
                                                                 est amount appropriated in a single year for the reconstruction effort.
                                                                     FY 2010 appropriations for security increased by more than 17.0% over
                                                                 FY 2009 appropriations, to more than $6.56 billion. Of the total appropriations for
                                                                 FY 2010, security initiatives accounted for more than 55.2%, followed by governance
                                                                 and development with nearly 26.9%. Appropriations in FY 2010 for security (more
                                                                 than $6.56 billion) are the second-largest appropriations made in a single year; the
                                                                 largest (almost $7.41 billion) occurred in FY 2007.
FIGURE 3.2


CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF MARCH 31, 2010                                         ($ BILLIONS)

                                                                                                                                                                           $51.50
 $50
 $45
                                                                                                                                                        $39.60
 $40
 $35
 $30                                                                                                                                $29.23

 $25                                                                                                             $23.04
 $20
 $15                                                                                         $13.01
 $10                                                                       $9.53
                                                        $4.68
   $5                                $2.08
               $1.06
   $0
               2002                  2003               2004               2005                  2006             2007                2008                  2009           2010


                       Security              Governance/Development          Counter-Narcotics           Humanitarian            Oversight and Operations          Total
Notes: Numbers affected by rounding. Updated data resulted in higher appropriations figures for FY 2009 and FY 2010 than those reported as of 12/31/2009.
Sources: OMB, response to SIGAR data call, 4/19/2010; USAID, responses to SIGAR data call, 4/15/2010 and 10/9/2009; DoD, responses to SIGAR data call 4/14/2010, 4/13/2010, and
10/1/2009; DoS, responses to SIGAR data call, 4/9/2010 and 1/8/2010; FY 2010 DoD Appropriations Act Explanatory Statement; Treasury, response to SIGAR data call, 4/15/2010; DoJ,
response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                                                                      40                         SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                 STATUS OF FUNDS




   Figure 3.3 displays annual appropriations by funding category from FY 2002 to
FY 2010. The bars show the dollar amounts appropriated, and the pie charts show
the proportions of the total appropriated by category. These figures reflect amounts
as reported by the respective agencies and amounts appropriated in the
following legislation:
t the FY 2010 Department of Defense Appropriations Act (FY 2010 DoD
   Appropriations Act)
t the FY 2010 Departments of Transportation and Housing and Urban
   Development, and Related Agencies Appropriations Act (FY 2010 Consolidated
   Appropriations Act)

   In previous quarterly reports, the cumulative comparison graphics for each fund
depicted the amounts appropriated as reported by the pertinent agency. Last quar-
ter, these graphics also depicted total appropriated funding for FY 2010 as reported
by the Office of Management and Budget (OMB). This quarter, total amounts
appropriated are reported as provided by OMB in those instances where agency
data is unavailable or reported only as part-year amounts. To reflect this change,
the representation of previously reported data has been adjusted in the cumulative
comparison graphics on the following pages.
FIGURE 3.3

APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND PERCENTAGE                                  ($ BILLIONS)


                                                                                                                                                                              $11.89
      $12
      $11
                                                                                                                       $10.03                                $10.37
      $10
        $9
        $8
        $7                                                                                                                                $6.19
        $6
                                                                                $4.85
        $5
        $4                                                                                            $3.48
        $3                                                 $2.60
        $2
                   $1.06               $1.01
        $1
        $0
                    2002               2003                2004                 2005                  2006               2007             2008               2009             2010


Percentage




                        Security           Governance/Development               Counter-Narcotics             Humanitarian        Oversight and Operations            Total

Notes: Numbers affected by rounding. Updated data resulted in higher appropriations figures for FY 2009 and FY 2010 than those reported as of 12/31/2009.
Sources: OMB, response to SIGAR data call, 4/19/2010; USAID, responses to SIGAR data call, 4/15/2010 and 10/9/2009; DoD, responses to SIGAR data call 4/14/2010, 4/13/2010, and
10/1/2009; DoS, responses to SIGAR data call, 4/9/2010 and 1/8/2010; FY 2010 DoD Appropriations Act Explanatory Statement; Treasury, response to SIGAR data call, 4/15/2010; DoJ,
response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009.




                  REPORT TO THE UNITED STATES CONGRESS                      I   APRIL 30, 2010                          41
                                                       STATUS OF FUNDS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The NATO Training Mission - Afghanistan/Combined Security Transition
                                                       Command - Afghanistan (NTM-A/CSTC-A) is the primary organization respon-
                                                       sible for building the Afghan National Security Forces (ANSF).14 Monies from
            DoD
                                                       the Afghanistan Security Forces Fund (ASFF) are used to provide the ANSF with
                                                       equipment, supplies, services, and training, as well as facility and infrastructure
                                                       repair, renovation, and construction.15
ASFF FUNDS TERMINOLOGY

DoD reported ASFF funds as available,                  Status of Funds
obligated, or disbursed.                               As of March 31, 2010, nearly $25.23 billion (approximately 49.0% of total U.S.
Available: Total monies available for
                                                       reconstruction assistance in Afghanistan) had been made available to DoD for
commitments                                            building the ANSF. DoD reported that of this amount, almost $20.27 billion had
Obligations: Commitments to pay monies                 been obligated, of which more than $18.42 billion had been disbursed. Figure 3.4
Disbursements: Monies that have been                   displays the amounts made available for the ASFF by fiscal year.16
expended                                                  DoD reported that cumulative obligations as of March 31, 2010, increased
                                                       by nearly $2.51 billion over cumulative obligations as of December 31, 2009. In
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       addition, cumulative disbursements as of March 31, 2010, increased by more than
                                                       $0.87 billion over cumulative disbursements as of December 31, 2009. Figure 3.5
                                                       provides a cumulative comparison of amounts made available, obligated, and
                                                       disbursed for the ASFF.17

                                                       FIGURE 3.4                                             FIGURE 3.5

                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                    ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                           ($ BILLIONS)


                                                                                                                                       Available               Available
                                                       $8.0                                                   $25.0
                                                                                                                                       $25.23                  $25.23




                                                       $6.0
                                                                                                                                                               Obligated
                                                                                                              $20.0                                            $20.27

                                                                                                                                       Obligated               Disbursed
                                                                                                                                       $17.76                  $18.42
                                                       $4.0
                                                                                                                                       Disbursed
                                                                                                                                       $17.55

                                                                                                              $15.0
                                                       $2.0




                                                         $0                                                       $0
                                                              2005      06       07      08      09      10                  As of Dec 31, 2009    As of Mar 31, 2010

                                                       Note: Numbers affected by rounding.                    Notes: Numbers affected by rounding. Amounts reported as
                                                       Source: DoD, response to SIGAR data call, 4/13/2010.   provided by DoD.
                                                                                                              Source: DoD, response to SIGAR data call, 4/13/2010.




                                                           42                         SPECIAL INSPECTOR GENERAL   I    AFGHANISTAN RECONSTRUCTION
                                                       STATUS OF FUNDS




ASFF BUDGET ACTIVITIES
DoD allocates funds to three budget activity groups within the ASFF:                                             Budget Activity Groups: categories within
t Defense Forces (Afghan National Army, or ANA)                                                                 each appropriation or fund account that
t Interior Forces (Afghan National Police, or ANP)                                                              identify the purposes, projects, or types
t Related Activities (primarily Detainee Operations)                                                            of activities financed by the appropriation
Funds for each budget activity group are further allocated to four sub-activity                                  or fund
groups: Infrastructure, Equipment and Transportation, Training and Operations,
                                                                                                                 Sub-Activity Groups: accounting groups
and Sustainment.18
                                                                                                                 that break down the command’s disburse-
                                                                                                                 ments into functional areas
Funding by Budget Activity Group
As of March 31, 2010, DoD had disbursed more than $18.42 billion for ANSF
initiatives. Of this amount, nearly $12.05 billion was disbursed for the ANA, and                              Sources: DoD, “Manual 7110.1-M Department of Defense
                                                                                                               Budget Guidance Manual,” accessed 9/28/2009;
almost $6.30 billion for the ANP; the remaining $0.07 billion was directed to other                            Department of the Navy, “Medical Facility Manager
                                                                                                               Handbook,” accessed 10/2/2009, p. 5.
related activities.19
   As shown in Figure 3.6, of the disbursed funds for the ANA, the largest portion
($5.36 billion) supported Equipment and Transportation. Of the funds disbursed
for the ANP, the largest portion (more than $1.81 billion) supported Sustainment
activities, as shown in Figure 3.7.20




FIGURE 3.6                                              FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                         ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group,                                 By Sub-Activity Group,
FY 2005–March 2010 ($ BILLIONS)                        FY 2005–March 2010 ($ BILLIONS)


                     Total: $12.05                                          Total: $6.30      Equipment and
                                                                                              Transportation
                                                                                              $1.51
                     Equipment and
                     Transportation
                     $5.36
                                                                   Sustainment       Infrastructure
             Sustainment      Infrastructure                       $1.81             $1.59
             $3.13            $2.44




           Training and                                          Training and
           Operations                                            Operations
           $1.11                                                 $1.38


Notes: Numbers affected by rounding. Numbers are       Notes: Numbers affected by rounding. Numbers are
as of 3/31/2010.                                       as of 3/31/2010.

Source: DoD, response to SIGAR data call, 4/13/2010.   Source: DoD, response to SIGAR data call, 4/13/2010.




                 REPORT TO THE UNITED STATES CONGRESS        I   APRIL 30, 2010                       43
                                                        STATUS OF FUNDS




                                                        COMMANDER’S EMERGENCY RESPONSE PROGRAM
           CERP                                         The Commander’s Emergency Response Program (CERP) enables U.S.
                                                        commanders in Afghanistan to respond to urgent humanitarian relief and recon-
                                                        struction requirements in their areas of responsibility by supporting programs
            DoD
                                                        that will immediately assist the local population. Funding under this program is
                                                        intended for small projects that are estimated to cost less than $500,000 each.
                                                        Projects with cost estimates exceeding $1.00 million are permitted, but they
CERP FUNDS TERMINOLOGY
                                                        require approval from the Commander of U.S. Central Command.21
OMB reported CERP funds as appropriated.

Appropriations: Total monies available for
                                                        Status of Funds
commitments                                             The FY 2010 DoD Appropriations Act provides $1.00 billion for CERP to promote
                                                        and support development activities. This brings the cumulative total funding for
                                                        CERP to nearly $2.64 billion—approximately 5.1% of total U.S. reconstruction
DoD reported CERP funds as appropriated,                assistance in Afghanistan.22 As of March 31, 2010. DoD reported that of this amount,
obligated, or disbursed.                                more than $1.60 billion had been obligated, of which more than $1.14 billion had
Appropriations: Total monies available for              been disbursed. Figure 3.8 shows CERP appropriations by fiscal year.23
commitments                                                DoD reported that cumulative obligations as of March 31, 2010, increased by more
Obligations: Commitments to pay monies                  than $11.37 million over cumulative obligations as of December 31, 2009. In addition,
Disbursements: Monies that have been                    cumulative disbursements as of March 31, 2010, increased by nearly $82.79 million over
expended                                                cumulative disbursements as of December 31, 2009. Figure 3.9 provides a cumulative
                                                        comparison of amounts appropriated, obligated, and disbursed for CERP projects.24
Sources: OMB, response to SIGAR data call, 4/19/2010;
DoD, response to SIGAR data call, 4/14/2010.
                                                        FIGURE 3.8                                                         FIGURE 3.9

According to DoD, projects funded                       CERP APPROPRIATIONS BY FISCAL YEAR                                 CERP FUNDS, CUMULATIVE COMPARISON
through CERP from January to March 2010                 ($ MILLIONS)                                                       ($ BILLIONS)

provided support to two major categories
of recipients:                                          $1,000                                                             $3.0
r 16% to local nationals
r 84% to Afghan contractors
                                                                                                                           $2.5
                                                                                                                                               Appropriated
                                                                                                                                               $2.64
                                                                                                                                                                           Appropriated
                                                                                                                                                                           $2.64
                                                         $800
Source: DoD, response to SIGAR data call, 4/6/2010.


                                                                                                                           $2.0
                                                         $600
                                                                                                                                               Obligated                   Obligated
                                                                                                                           $1.5                $1.59                       $1.60

                                                         $400                                                                                                              Disbursed
                                                                                                                                               Disbursed                   $1.14
                                                                                                                           $1.0                $1.06

                                                         $200
                                                                                                                           $0.5


                                                            $0                                                               $0
                                                                 2004 05        06     07     08     09     10                     As of Dec 31, 2009         As of Mar 31, 2010

                                                        Notes: Data may include inter-agency transfers. Numbers affected   Note: Numbers affected by rounding. Amounts reported as
                                                        by rounding.                                                       provided by DoD and OMB.
                                                        Sources: OMB, response to SIGAR data call, 4/19/2010;              Sources: OMB, response to SIGAR data call, 4/19/2010; DoD,
                                                        DoD, responses to SIGAR data call 4/14/2010, 1/13/2010, and        responses to SIGAR data call, 4/14/2010, 1/13/2010, and
                                                        10/14/2009.                                                        10/14/2009.




                                                            44                         SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                           STATUS OF FUNDS




DOD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DoD’s Drug Interdiction and Counter-Drug Activities (DoD CN) fund supports                                                                        DoD CN
DoD’s efforts to stabilize Afghanistan by combating the drug trade and related
activities. The DoD CN provides support to the counter-narcotics effort in the
following ways:25                                                                                                                          DoD
t supporting military operations against drug traffickers
t expanding Afghan interdiction operations
                                                                                                                               DoD CN FUNDS TERMINOLOGY
t building the capacity of Afghan law enforcement—including the Afghan
   Border Police—with specialized training, equipment, and facilities                                                          DoD reported DoD CN funds as appropriated,
                                                                                                                               obligated, or disbursed.
   As of March 31, 2010, nearly $1.43 billion had been appropriated to DoD for
                                                                                                                               Appropriations: Total monies available for
counter-narcotics efforts in Afghanistan—almost 2.8% of total U.S. reconstruc-
                                                                                                                               commitments
tion assistance in the country. Figure 3.10 displays DoD CN appropriations by                                                  Obligations: Commitments to pay monies
fiscal year. Of this amount, nearly $1.40 billion (almost 98%) has been disbursed.26                                           Disbursements: Monies that have been
Figure 3.11 shows the cumulative amounts appropriated, obligated, and dis-                                                     expended
bursed for DoD CN initiatives.
                                                                                                                               Source: DoD, response to SIGAR data call, 4/13/2010.




FIGURE 3.10                                                 FIGURE 3.11

DOD CN APPROPRIATIONS BY                                  DOD CN FUNDS, CUMULATIVE ($ BILLIONS)
FISCAL YEAR ($ MILLIONS)

$350                                                               $1.45

                                                                                                 Appropriated
$300                                                                                             $1.43
                                                                                                 Obligated
                                                                   $1.40                         $1.40
$250
                                                                                                Disbursed
                                                                                                $1.40
$200
                                                                   $1.35

$150


$100                                                               $1.30


 $50


  $0                                                                   $0
       2004     05     06     07      08     09      10                            As of Mar 31, 2010

Notes: Data may include inter-agency transfers. Numbers   Notes: Numbers affected by rounding. Amounts reported as pro-
affected by rounding.                                     vided by DoD. No quarterly comparison made because this is the
Source: DoD, response to SIGAR data call, 4/13/2010.      first quarter for which data was provided. Obligation data was not
                                                          provided; thus, obligations were assumed to equal disbursements.
                                                          Source: DoD, response to SIGAR data call, 4/13/2010.




                     REPORT TO THE UNITED STATES CONGRESS              I   APRIL 30, 2010                          45
                                                        STATUS OF FUNDS




                                                        ECONOMIC SUPPORT FUND
                                ESF                     Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                        countries meet short-term and long-term political, economic, and security needs.
                                                        ESF programs support counter-terrorism; bolster national economies; and assist
                               USAID                    in the development of effective, accessible, independent legal systems for a more
                                                        transparent and accountable government.27

ESF FUNDS TERMINOLOGY
                                                        Status of Funds
OMB reported ESF funds as appropriated.                 The FY 2010 Consolidated Appropriations Act provides almost $2.04 billion
Appropriations: Total monies available for              for the ESF. This brings the cumulative total funding for the ESF to nearly
commitments                                             $9.74 billion—more than 18.9% of total U.S. assistance to the reconstruction
                                                        effort.28 As of March 31, 2010, USAID reported that of this amount, more than
USAID reported ESF funds as appropriated,
                                                        $7.57 billion had been obligated, of which more than $5.39 billion had been
obligated, or disbursed.
                                                        disbursed.29 Figure 3.12 displays ESF appropriations by fiscal year.
Appropriations: Total monies available for                 USAID reported that cumulative obligations as of March 31, 2010, increased
commitments                                             by more than $36.81 million over cumulative obligations as of December 31, 2009.
Obligations: Commitments to pay monies                  In addition, cumulative disbursements as of March 31, 2010, increased by nearly
Disbursements: Monies that have been                    $419.65 million over cumulative disbursements as of December 31, 2009.30
expended                                                Figure 3.13 provides a cumulative comparison of the amount of ESF funds
Sources: OMB, response to SIGAR data call, 4/19/2010;
                                                        appropriated, obligated, and disbursed.
USAID, response to SIGAR data call, 4/15/2010.

                                                        FIGURE 3.12                                                     FIGURE 3.13
Funds appropriated to ESF support a
variety of recipients. Appropriations to                ESF APPROPRIATIONS BY FISCAL YEAR                               ESF FUNDS, CUMULATIVE COMPARISON
                                                        ($ BILLIONS)                                                    ($ BILLIONS)
each recipient category are as follows:
r 0.21% to local Afghan contractors
r 0.84% to GIRoA ministries                             $2.0                                                           $10.0                Appropriated                Appropriated
r 1.95% to non-U.S. and non-Afghan
  contractors                                                                                                           $8.0
                                                                                                                                            $9.74                       $9.74


r 26.20% to international organizations
                                                        $1.5
                                                                                                                                            Obligated
                                                                                                                                            $7.53
                                                                                                                                                                        Obligated
                                                                                                                                                                        $7.57
r 69.56% to domestic U.S. contractors                                                                                   $7.0

r 1.24% to the U.S. government
                                                                                                                       $6.0
Source: USAID, response to SIGAR data call, 4/6/2010.
                                                        $1.0                                                                                                            Disbursed
                                                                                                                       $5.0                 Disbursed                   $5.39
                                                                                                                                            $4.97
                                                                                                                        $4.0
                                                        $0.5
                                                                                                                       $3.0


                                                          $0                                                              $0
                                                               2002 03 04 05 06 07 08 09 10                                    As of Dec 31, 2009           As of Mar 31, 2010

                                                        Notes: Data may include inter-agency transfers. Numbers         Notes: Data may include inter-agency transfers. Numbers affected
                                                        affected by rounding.                                           by rounding. Amounts reported as provided by USAID and OMB.
                                                        Sources: OMB, response to SIGAR data call, 4/19/2010; USAID,    Sources: OMB, response to SIGAR data call, 4/19/2010; USAID,
                                                        responses to SIGAR data call, 4/15/2010 and 10/9/2009.          responses to SIGAR data call, 4/15/2010, 1/15/2010, and
                                                                                                                        10/9/2009.




                                                            46                        SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                    STATUS OF FUNDS




INTERNATIONAL NARCOTICS CONTROL AND
LAW ENFORCEMENT                                                                                                                                                                   INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs (INL)
manages an account for advancing rule of law and combating narcotics produc-
                                                                                                                                                                                  DoS
tion and trafficking—the International Narcotics Control and Law Enforcement
(INCLE) account. INCLE supports several INL program groups, including police,
counter-narcotics, and rule of law and justice.31                                                                                         INL FUNDS TERMINOLOGY

                                                                                                                                          OMB reported INL funds as appropriated.
Status of Funds
The FY 2010 Consolidated Appropriations Act provides $0.42 billion for INCLE                                                              Appropriations: Total monies available for
activities in Afghanistan. This brings the cumulative total funding for INCLE-                                                            commitments
supported activities in the country to nearly $2.69 billion—more than 5.2% of total                                                       INL reported INCLE and other INL funds
U.S. reconstruction assistance in the country.32 As of March 31, 2010, INL reported                                                       as allotted, obligated, or liquidated.
that more than $2.09 billion has been obligated, of which almost $1.59 billion has
been liquidated.33 Figure 3.14 displays INCLE allotments by fiscal year.                                                                  Allotments: Total monies available
   INL reported that cumulative obligations as of March 31, 2010, increased                                                               for commitments
by nearly $69.92 million over cumulative obligations as of December 31, 2009.34                                                           Obligations: Commitments to pay monies
Figure 3.15 provides a cumulative comparison of the amount of INCLE funds                                                                 Liquidations: Monies that have been
allotted, obligated, and liquidated.                                                                                                      expended

                                                                                                                                          Sources: OMB, response to SIGAR data call, 4/19/2010;
                                                                                                                                          DoS, response to SIGAR data call, 4/9/2010.
FIGURE 3.14                                                     FIGURE 3.15

INCLE ALLOTMENTS BY FISCAL YEAR                                 INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                    ($ BILLIONS)



$700                                                            $2.75
                                                                                                                      Appropriated
                                                                                                                      $2.69
$600                                                            $2.50                   Appropriated
                                                                                        $2.50
$500
                                                                $2.25
                                                                                                                     Obligated
$400                                                                                    Obligated
                                                                $2.00                                                $2.09
                                                                                        $2.02
$300
                                                                $1.75
                                                                                        Liquidated
$200                                                                                    $1.61                         Liquidated
                                                                $1.50                                                 $1.59
$100

  $0                                                               $0
       2002 03 04 05 06 07 08 09 10                                       As of Dec 31, 2009            As of Mar 31, 2010

Notes: Data may include inter-agency transfers. Numbers         Notes: Data may include inter-agency transfers. Numbers affected by
affected by rounding. FY 2010 figure is an appropriation, not   rounding. Amounts reported as provided by INL and OMB. Updated
an allotment. Updated data from DoS resulted in a higher FY     data from DoS resulted in a lower liquidation figure than that reported
2009 appropriation figure than reported as of 12/31/2009.       as of 12/31/2009.
Sources: OMB, response to SIGAR data call, 4/19/2010;           Sources: OMB, response to SIGAR data call, 4/19/2010; DoS,
DoS, responses to SIGAR data call, 4/9/2010 and 1/8/2010.       responses to SIGAR data call, 4/9/2010 and 1/8/2010.




                   REPORT TO THE UNITED STATES CONGRESS                        I   APRIL 30, 2010                            47
                                                  STATUS OF FUNDS




                                                  GIROA RECONSTRUCTION FUNDING
                                                  In addition to the international donations to the Government of the Islamic Republic
                                                  of Afghanistan (GIRoA) for reconstruction efforts, the GIRoA also provides funding
                                                  for this purpose. The Ministry of Finance (MoF) manages and executes the budget,
                                                  which includes Afghan funds for reconstruction efforts. The MoF is also accountable
                                                  for international funds that are routed through government ministries.35
FIGURE 3.16

GIRoA BUDGET, 2009–2010 ($ BILLIONS)              Domestic Budget and Budget Execution
                                                  Treasury reported that the GIRoA’s budget for solar year 1388 (March 21, 2009,
                      Total: $7.90                to March 20, 2010) was an estimated $7.9 billion. The budget is broken into two
                                                  major categories: the $2.9 billion core budget and the $5 billion external budget.36
                                                  Figure 3.16 displays a breakdown of budget amounts by category.
                    External Budget
                    $5.00                         Core Budget
                                                  The core budget receives funding from multiple sources; trust funds constitute a
                                                  significant portion of international contributions to the core budget. The core bud-
                                                  get is further divided into two subcategories: the operating budget ($1.9 billion) and
                                                  the development budget ($1.0 billion).37
                                                     The budget for operating expenses currently amounts to $1.9 billion, as
      Core Budget-                 Core Budget-
                                                  reported by Treasury. The GIRoA currently disburses approximately 90% of its
      Operating                    Development
      $1.90                        $1.00          operating budget on time.38 According to Treasury, the development budget is
                                                  $1.0 billion. Disbursement rates for the development budget are significantly
Note: Numbers affected by rounding. Budget data   lower than for the operating budget. Treasury reports that the GIRoA currently
corresponds to the budget for solar year 1388
(3/21/2009–3/20/2010).                            executes only 40% of the development budget in a timely manner.39
Source: Treasury, response to SIGAR data call,
4/12/2010.
                                                  External Budget
                                                  The external budget is funded entirely by international donors from a variety
                                                  of mechanisms. Currently, the total external budget stands at approximately
                                                  $5.0 billion. Treasury reported that execution rates are not available for the
                                                  external budget because it is not an actual budget managed by a single authority.40

                                                  INTERNATIONAL CONTRIBUTIONS TO RECONSTRUCTION
                                                  Many international donors use trust funds to provide assistance to Afghanistan.41
                                                  Trust fund resources are used to finance both operating and development costs of
                                                  the GIRoA. To date, the ARTF is the largest source of pooled funding.42

                                                  Contributions to the Afghanistan Reconstruction Trust Fund
                                                  The World Bank reported that international donors pledged more than $707 million
                                                  to the ARTF from December 21, 2009, to January 20, 2010. Donors have paid $631
                                                  million of the total pledged amount.43 Figure 3.17 displays the amounts that donors
                                                  have contributed and paid in.
                                                     The World Bank reported that from 2002 to February 19, 2010, more than
                                                  $3.6 billion has been contributed to the ARTF by 32 donors. Contributions are
                                                  made through two funding mechanisms—the Recurrent Cost (RC) Window and



                                                    48                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                       STATUS OF FUNDS




the Investment Window. A total of $1.9 billion has been disbursed through the RC
Window, which helps sustain the operations of the GIRoA. This is necessary because
the GIRoA’s revenues are insufficient, as reported by the World Bank. Commitments
made through the Investment Window, which supports the development budget, have
increased significantly over the past two years. As of February 19, 2010, disbursement
rates for commitments through the Investment Window reached 75%, the World Bank
reported. The ARTF funds 19 active projects. The total commitment value is $986 mil-
lion; of this amount, $742 million has been disbursed as of February 19, 2010.44
   Recognizing the responsibility of the GIRoA to provide for the well-being of its peo-
ple, donors agreed at the London conference that allocations from the ARTF will follow
a clear GIRoA strategy. The estimated financing envelope for 2010–2013 will be approxi-
mately $2.6 billion—a 32% increase in available funds over the past three years.45


DOMESTIC REVENUE
According to the IMF, the GIRoA planned to increase domestic revenue collection
in 2009–2010 to approximately 8.1% of GDP. This compares favorably with revenue
collections averaging approximately 6.9% of GDP over the past two years. According
to Treasury, there has been a shift in sources for domestic revenue collection. In
2003–2004, 54% of GIRoA revenue came from customs fees; by 2009–2010, that share
had declined to 34%, while 46% of total domestic revenue came from direct taxes on
corporations, income, and capital gains. The remaining 20% came from non-tax levies,
such as mining royalties, licensing, and aviation fees.46

FIGURE 3.17

ARTF CONTRIBUTIONS FOR 2010, AS OF JANUARY 20, 2010 ($ MILLIONS)

                                        Total Commitments: $707        Total Paid In: $631


   United States                                                                                        264       279
United Kingdom                                        99         106
        Germany               37             51
           Spain             35              51
    Netherlands                   42      50
         Norway               38 38
         Canada              34 34
         Sweden          25 25
          EC/EU 14           17
        Australia 15 15
        Denmark 6 10
          Others        21         30
                   0                    50                 100         150               200           250            300

                        Paid In              Commitments
Notes: Numbers affected by rounding. EC/EU = European Commission/European Union. Data provided by the World Bank revealed
lower commitment figures for Canada and Australia than those reported as of 12/21/2009.
Source: World Bank, “ARTF: Administrator’s Report on Financial Status as of January 20, 2010,” p. 1.




                       REPORT TO THE UNITED STATES CONGRESS                    I   APRIL 30, 2010                   49
TITLE OF THE SECTION




Source: Mil ilique cusant laute nonsequi volorum nulpari busam, tem. Nem quia numquid qui aut etur? Nimaionse net quiam, voloreruptis
providit in reictem. Dem voloribusa delenihic temodis auteceritem qui il et res rem estist, tem cumqui qui reratento que consedis doluptatem




    50                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




SECURITY
This quarter, the security situation in Afghanistan continued to deteriorate,
according to the Secretary-General of the United Nations (UN).47 The International        Shape: information gathering; intelligence,
Security Assistance Force Joint Command (IJC) reported a greater number of                surveillance, and reconnaissance; and
attacks than what was reported last quarter.48 The Secretary-General reported that        disruption activities to prepare for future
the number of security incidents in January 2010 was 40% higher than in January           operations. The Afghan National Army
2009. He attributed the rise in security incidents largely to the increased number        (ANA) is the lead; the Afghan National
of international troops on the ground and the relatively mild weather conditions          Police (ANP) offers intelligence information
for this time of year in several areas. Most security incidents this quarter involved     to support ANA efforts.
armed exchanges and improvised explosive devices (IEDs).49
   According to the Afghan National Police Strategy, produced by the Ministry             Clear: tactical operations designed to
of Interior (MoI) and released in March 2010, Afghanistan faces five major secu-          secure a population center while denying
                                                                                          insurgent activity and influence. Insurgents
rity threats:50
                                                                                          are expelled, detained, or eliminated. The
t the externally supported terrorist threat and armed opposition to the
                                                                                          ANA is the lead; the Afghan National Civil
   government                                                                             Order Police (ANCOP) can provide support.
t unlawful governance and corruption
t the illegal drug trade                                                                 Hold: assigning sufficient personnel to
t organized crime                                                                        conduct defensive operations to prevent
t illegal armed groups                                                                   the return of insurgents, defeat remaining
                                                                                          enemy forces, and protect the population.
   Suicide attacks decreased at the end of 2009. The UN Secretary-General                 In high-threat areas, the ANCOP or Afghan
attributed this decrease to reinforced security in major cities.51 Despite this,          Border Police (ABP) is the lead. In medium-
many areas remain vulnerable, restricting the progress of reconstruction and              to low-threat areas, the Afghan Uniform
development. Attacks against international aid organizations have limited the             Police and ABP are the lead.
ability of these organizations to deliver development assistance in many areas.
Nearly half of Afghanistan’s 364 districts pose security risks: 94 are considered         Build: carrying out programs designed to
                                                                                          remove the root causes of insurgency, im-
“very high” risk, and 81 are considered “high” risk. The ability of civil servants to
                                                                                          prove the lives of inhabitants, and support
move freely has decreased in 39 districts from over a year ago.52
                                                                                          the provision of effective governance. The
   To reduce the security risk, the United States and the international community         ANP is the lead for maintaining security.
are working to develop the Afghan National Security Forces (ANSF) to be able
to provide internal and external security consistent with the counter-insurgency
(COIN) effort. According to DoD, the COIN strategy comprises four sequential
                                                                                        Source: MoI, “Afghan National Police Strategy,” 3/2010,
phases—shape, clear, hold, and build.53                                                 pp. 31–33.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010          51
                                                                     SECURITY




                                                                     SECURITY GOALS
                                                                     At the London conference in January 2010, participants discussed updated
                                                                     end-strength goals for the Afghan National Army (ANA) and Afghan National
                                                                     Police (ANP). The eventual end strength of the ANA has been set at 171,600 by
                                                                     October 2011; for the ANP, it has been set at 134,000 by October 2011, accord-
                                                                     ing to the NATO Training Mission - Afghanistan/Combined Security Transition
                                                                     Command - Afghanistan (NTM-A/CSTC-A). The 2010 and 2011 targets are shown
                                                                     in Table 3.1.54 Also at the conference, participants agreed to develop a plan for
                                                                     phased, province-by-province transition from coalition force control to Afghan-
                                                                     led security starting in late 2010 or early 2011. The Government of the Islamic
                                                                     Republic of Afghanistan (GIRoA) committed to devising and implementing a
                                                                     national security policy that will outline the security infrastructure and the roles
                                                                     and responsibilities of the security agencies. This policy will be presented at the
                                                                     Kabul conference later this year.55
                                                                        Table 3.1 also shows the progress against security goals. The ANA has made the
                                                                     greatest progress toward its target since last quarter, with a 12.6% increase in troops.56


                                                                     SECURITY UPDATE
                                                                     From December 28, 2009, to March 31, 2010, the IJC recorded 4,490 attacks
                                                                     on the ANSF, coalition forces, and civilians: 2,653 direct attacks, 453 indirect
                                                                     attacks, 1,021 IED attacks, and 363 complex attacks. The number of attacks this
                                                                     quarter is greater than the number reported last quarter.57 More than half of the
                                                                     2,653 direct attacks this quarter were in Helmand.58
TABLE 3.1


STRATEGIC PRIORITIES FOR SECURITY
Priority                           ANDS Target                           Target                                              Status                                              ANDS Completion Date
Afghan National Army               80,000 troops (plus 6,600 in          134,000 troops (by 10/2010)                         112,779 troops (as of 3/20/2010)                    End of 2010
                                   training)                             171,600 troops (by 10/2011)
Afghan National Police             82,180 police officers                109,000 police officers (by 10/2010)                99,577 police officers (as of 2/21/2010)            End of 2010
                                                                         134,000 police officers (by 10/2011)
Disarmament of Illegal             All illegal armed groups dis-                                                             95 of 140 DIAG-targeted districts declared          3/20/2011
Armed Groups                       banded in all provinces                                                                   compliant
Removing Unexploded                Land area contaminated by                                                                                                                     End of 2010
Ordnance                           mines and unexploded ordnance
                                   reduced by 70%                                                                            UN: Land area contaminated by mines and
                                   90% of all known areas con-                                                               unexploded ordnance reduced by 39%                  2012
                                   taminated by mines or explosive
                                   remnants of war cleared                                                                   DoS: 665 million square meters of
                                                                                                                             contaminated land remain
                                   All emplaced anti-personnel                                                                                                                   2013
                                   mines cleared
Counter-Narcotics                  Areas under poppy cultivation                                                             Areas under poppy cultivation reduced by            2013
                                   reduced by half compared with                                                             36% compared with 2007 levels
                                   2007 levels
Notes: Numbers affected by rounding. Number of DIAG-targeted districts has increased from 132 to 140. For more detail on the counter-narcotics metric, see the “Counter-Narcotics” section. Priorities were
originally based on Afghan National Development Strategy (ANDS) targets.
Sources: GIRoA, “Afghanistan National Development Strategy, Executive Summary,” p. 6; NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010, 1/4/2010, and 10/2/2009; DoD, “Progress Toward
Security and Stability in Afghanistan,” 6/2009, p. 28; GIRoA, “ANDS First Annual Report 1387 (2008/2009), Part II – Appendices,” 8/1/2009, p. 36; DoS, responses to SIGAR data call, 10/2/2009,
1/6/2010, and 4/1/2010; UNODC, “Afghanistan Opium Survey 2009: Summary Findings,” 12/2009, p. 7; UN, “Mine Action Programme of Afghanistan Newsletter: February 2010,” 2/2010, p. 4.




                                                                          52                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




   Helmand also experienced the largest security operation of the quarter. In
February, the ANA and the International Security Assistance Force (ISAF)                   Moshtarak: Dari for “together”
launched Operation Moshtarak, an offensive involving approximately 15,000
troops, against a known Taliban stronghold in Marjah.59 Operation Moshtarak is
an Afghan-led initiative to assert government authority in the center of Helmand
                                                                                         Source: ISAF, press release, “Operation Moshtarak,”
and conduct COIN operations at the request of the GIRoA and the Helmand                  2/13/2010.

provincial government.60 The ANA played the lead role in planning and execut-
ing this operation, utilizing three brigades of the 205th Corps with support from
coalition forces.61
   In another joint effort this quarter, the ANSF and coalition forces, including
Pakistani forces, continued to operate Border Coordination Centers (BCCs).
The purpose of BCCs is to improve communications among Afghan, coalition,
and Pakistani forces and to reduce tensions along the border. According to ISAF,
activities include surveillance, intelligence, force disposition, and movement to
coordinate operations between the GIRoA, ISAF, and neighboring countries.62
   The BCCs are on existing forward operating bases. Currently, two BCCs are
operating at Torkham Gate and Spin Boldak; two others, at Lwara and Nawa
Pass, began operations on April 1, 2010. Two other BCCs, in Pakistan, are under
evaluation. They will be developed over the next year and will operate under
the command and control of the Office of Defense Cooperation, Pakistan. Each
BCC is supported by eight U.S. military troops, led by a U.S. colonel or lieuten-
ant colonel. About six Afghan or Pakistani liaison officers serve at each BCC, but
the number can vary. These officers come from the ANA and the Afghan Border
Police (ABP) or from the Pakistani military and the Pakistan Frontier Scouts.63

                                                                                         FIGURE 3.18
Civilian Casualties
The IJC reported that from December 28, 2009, to March 31, 2010, there were              CIVILIAN CASUALTIES BY PROVINCE
1,716 civilian casualties—1,694 of whom were Afghans. During this period, 737
civilians were killed, and 979 were wounded. This is a significant increase from
the 903 civilian casualties reported last quarter. Of the total casualties during
this period, 68% were civilians. The largest numbers of civilian casualties were in
Helmand, Kandahar, and Parwan, as shown in Figure 3.18.64

ANSF CAPABILITIES ASSESSMENTS
                                                                                                                                          0
In previous quarterly reports, SIGAR has included summaries of ANSF Capability
                                                                                                                                          1–20
Milestone (CM) ratings, as provided by U.S. Central Command (CENTCOM).                                                                    21–40
The CM rating system, which has been the primary metric used to monitor                                                                   41–200
development progress in fielded ANSF units, was developed by CSTC-A in 2005.65                                                            201–429

In October 2009, SIGAR initiated an audit of ANSF capability assessments,
                                                                                         Note: Casualties reported from 12/28/2009 to 3/31/2010.
including an examination of the effectiveness of the CM rating system. SIGAR’s
                                                                                         Source: NTM-A/CSTC-A, response to SIGAR data call,
audit, the first to evaluate these ratings, is scheduled for publication next quarter.   4/1/2010.

While conducting this audit, SIGAR identified concerns in five main areas:
t overall reliability of the CM rating system
t measurement and validation




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010           53
SECURITY




t analysis and reporting
t challenges facing assessment efforts
t systemic ANSF deficiencies undermining efforts to develop unit capabilities

   According to CENTCOM, the CM rating system is being modified. The latest
“Report on Progress toward Security and Stability in Afghanistan” from the U.S.
Department of Defense (DoD) cautioned, “The correlation between CM ratings
and operational capability to complete assigned missions is tenuous, and thus
attempting to draw the conclusion that a CM rating is an indicator of the capacity
for success in operations can be misleading.”66 Regarding ANP assessments, DoD
added, “The CM system does not effectively measure the quality of performance
of the ANP. This is a significant risk and will be revisited over the coming year.”67
   Because of SIGAR’s concerns about the CM rating system and because that
system is currently being revised, this quarterly report does not include updated
CM metrics. For more information, see Sections 1 and 2.

AFGHAN NATIONAL ARMY
As of March 20, 2010, the ANA troop strength was 112,779, according to NTM-A/
CSTC-A. This is an increase of 12,648 from the 100,131 ANA troops on December
20, 2009. The ANA’s target is to grow to 134,000 troops by October 2010 and to
171,600 by October 2011, as approved by the Joint Coordination Monitoring
Board.68 The ANA is slightly behind in reaching its growth target, according to
the UN Secretary-General, but two changes—pay raises previously implemented
and improved retention—should improve progress toward the target.69
   To improve payment delivery, the ANA is expanding its mobile-banking pay
system, whereby it can pay troops directly. According to DoS, this pay system
will be fully implemented no later than December 2010.70
   Although corruption in the ANA contributes to negative public opinion, the
public perception of the ANA has been generally positive, according to the UN
Secretary-General. This positive view is attributed to more effective training, a
higher degree of internal discipline, and better equipment.71

ANA Training
From January 1 to March 19, 2010, ANA training organizations graduated 23,172
soldiers, an 84% increase from the preceding quarter. Most graduated from the
Kabul Military Training Center, as shown in Figure 3.19. Other training in this
quarter included explosive ordnance disposal, counter-insurgency, logistics, and
command and staff training.72 The ANA troops are also given training on gender-
related issues. According to DoS, most of the ANA will have completed the
gender-related training by December 2010.73
   During this quarter, the Afghan Minister of Defense and the Commander of
NTM-A/CSTC-A broke ground on a new training center for the ANA that will house
the Afghan Defense University (ADU) and serve as the new site of the National
Military Academy of Afghanistan. Modeled after the U.S. Military Academy at West




  54                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                           SECURITY




Point, the National Military Academy is a four-year school designed to produce                                                        In addition to combat operations, ANAAC
officers for the ANA and the Afghan National Army Air Corp (ANAAC).74                                                                 helicopters are used for humanitarian
   The ANAAC is making progress in its training, according to ISAF. Since its incep-                                                  missions. Helicopters were used to
tion in October 2009, the Kandahar Air Wing has grown to 572 personnel, including                                                     rescue 30 people in a torrential flood in
experienced pilots, trainee pilots, engineers, and logistics and administrative staff.                                                March 2010.
The Air Wing currently operates 4 Mi-17 transport helicopters and is planning to                                                      Source: ISAF, press release, “Afghan Helicopter Force
operate 14 of them by 2011. Over the past two years, 26 Afghan pilots and 1 ground                                                    Takes Off,” 4/8/2010.

crewman were trained in England by U.K. tri-Service personnel from the Joint
Helicopter Command. These pilots have continued to train in Afghan airspace.75
   The ANAAC is putting special emphasis on literacy in its training, according
to NTM-A. Training includes a three-month course at the ANAAC Pohantoon-
e-Hawayee (“Big Air School”), formerly the Kabul Air Corps Training Center.
Approved by the Ministry of Education, the course is designed to bring students
to a basic level in language and mathematics. It includes two Dari literacy mod-
ules taught by Afghans.76
   During this quarter, ANA graduates were assigned to 1 of 23 units; more
graduates were assigned to the 215th Corps than to any other unit. Other
unit assignments this quarter included ANA Training Command; Acquisition,
Technology, and Logistics; ANA Recruiting Command; Air Corps; Headquarter
Support Supply Brigade; and Military Police Brigade.77 Personnel management,
or the placing of units, is a challenge in the ANA, according to DoD. A major                                                         Eleven graduating Afghan military cadets
improvement this quarter was the implementation of an assignment system at                                                            receive their assignments. Improvements
the National Military Academy in February 2010. The system places graduates                                                           have been made so that graduates are
more effectively by eliminating graduates’ ability to influence their regional                                                        assigned on the basis of operational needs.
placement and assigning them to regions based on operational need.78                                                                  (NTM-A/CSTC-A photo)


FIGURE 3.19

ANA TRAINING GRADUATES BY PROGRAM

       Total Graduates: 23,172                                                                   Other Training Programs: 861


                                                                          Logistics School                                      241
                                                              National Military Academy                                     212
          Kabul Military                                                 of Afghanistan
          Training                                            Kabul Military High School                              178
                                           Other
          Center
                                           Training
          18,822                                           Command and Staff College                             98
                                           Programs
                                           861                       Counter-insurgency
                                                            Training Center–Afghanistan                     70
                                                                     Engineer/Explosive
                                                                     Ordnance Disposal                     62
                   Consolidated
                   Fielding Center a                                                         0        50    100 150 200 250
                   3,489

a. At the Consolidated Fielding Center, units form, equip, and conduct initial collective training.
Source: NTM-A/CSTC-A, response to SIGAR data call, 4/1/2010.




                    REPORT TO THE UNITED STATES CONGRESS                           I   APRIL 30, 2010                       55
SECURITY




  Each ANA graduate is also designated a specialty. This quarter, 12,226 troops
were assigned specialties; of those 1,531 were non-commissioned officers and
950 were officers.79 The specialty with the most ANA graduates was infantry, as
shown in Figure 3.20.

ANA Infrastructure
According to NTM-A/CSTC-A, 2 ANA infrastructure projects worth $15.4 million
in total were completed in the period from January 1 to March 31, 2010, compared
with 11 projects valued at $160.6 million during the quarter ending December 31,
2009. This quarter, two contracts worth a total of $66.6 million were awarded; last
quarter, no contracts were awarded.80
   In another infrastructure project, the construction of the ADU is estimated to
cost $200 million, according to ISAF. Completion of the first phase, which broke
ground in April 2010, is estimated for June 2011. Construction in the first phase
will consist of the headquarters, classrooms, dining facility, library, medical
clinic, and post exchange; construction in the second phase, still in the design
stage, will consist of the non-commissioned officer school, the Air War College,
and the Command and Staff College.81




FIGURE 3.20

ANA TRAINING GRADUATES BY SPECIALTY

         Total Graduates: 12,226                                                           Other Specialties: 1,708

                                                               Logistics                                                           297
                                                                Engineer                                             206
                                                                 Artillery                                       201
                                                       Communications                                    151
                                         Other                   Mortars                          114
        Infantry
                                         Specialties             Medical                         103
        10,518
                                         1,708            Transportation                        101
                                                                 SPG-9a                     87
                                                           Maintenance                      83
                                                                  Cooks                    75
                                                             Intelligence                  70
                                                  Additional Specialtiesb                                             220

                                                                             0        50    100        150     200         250   300

Note: Graduates listed for specialties are a combination of officers, NCOs, and soldiers.
a. A tripod-mounted weapon.
b. Includes Aviation, Armor, Humvee, Jahedi/Undefined MOS, Finance/Legal, Fortification, Politics, Security/Military Police,
Air Defense, Music, and Topography.
Source: NTM-A/CSTC-A, response to SIGAR data call, 4/1/2010.




    56                          SPECIAL INSPECTOR GENERAL                        I   AFGHANISTAN RECONSTRUCTION
                                                                                             SECURITY




ANA Equipment
From January 1 to March 31, 2010, the ANA fielded 1,890 radios, 1,512 vehicles,
and 19,861 weapons, according to NTM-A/CSTC-A (see Figure 3.21). More M16A4
rifles were fielded than any other weapon. There were changes in equipment plan-
ning and procurement this quarter. The largest increase in equipment planned was
the number of weapons—almost three times more than last quarter. The largest
decrease in equipment procured was the number of radios, 13,778 fewer than last
quarter. During this quarter, the ANAAC added 5 Mi-17 helicopters, 1 C-27 transport,
and 1 L-39 jet. The ANAAC now has the following inventory:82
t 25 Mi-17 and 9 Mi-35 helicopters
t 1 An-26, 5 An-32, and 3 C-27 transports
t 3 L-39 jets

   The Central Workshop in Kabul is the national maintenance depot for all weap-
ons, vehicles, and communications equipment for the ANA. To improve its support
capability, the workshop will be upgraded with $13.7 million worth of improve-
ments. Renovations will continue through this year, according to NTM-A/CSTC-A.83
To help the ANA become more self-sufficient in communications, troops learn
how to repair equipment. At the Central Workshop, students are given step-by-
step instruction in using various radio gauging and test equipment. Some of these
trained troops become trainers themselves.84 Programs to assist with building radio
and communications knowledge cover the fundamentals of antenna theory and
troubleshooting, as well as using spectrum analyzers, signal generators, and oscil-
loscopes—all important tools in radio maintenance.85
   Coalition forces are also encouraging Afghan self-sufficiency through changes to
equipment procurement. One goal, according to ISAF, is to source some ANA equip-
ment from Afghan businesses. For example, an equipment contract review showed
that six contracts for boots required that the boots be imported. In the future, U.S.
and NATO forces plan to acquire all boots from Afghan sources.86

FIGURE 3.21

ANA EQUIPMENT

                                                                                    19,861            19,861
20,000

15,000

10,000
                                                                                              5,590
 5,000
                  2,310            1,890             1,834 1,586 1,512
                            25
     0
                          Radios                               Vehicles                      Weapons


                                         Planned           Procured           Fielded
Source: NTM-A/CSTC-A, response to SIGAR data call, 4/1/2010.




                  REPORT TO THE UNITED STATES CONGRESS                    I   APRIL 30, 2010                   57
                                                                     SECURITY




FIGURE 3.22
                                                                     ANA Casualties
ANA CASUALTIES BY PROVINCE                                           From December 28, 2009, to March 31, 2010, the ANA suffered 324 casualties,
                                                                     according to the IJC: 234 soldiers were wounded in action, and 90 were killed
                                                                     in action. Casualties this quarter were 36% higher than casualties reported last
                                                                     quarter. Figure 3.22 shows that the greatest number of casualties occurred in
                                                                     Helmand—the site of the largest security operation this quarter.87


                                                                     AFGHAN NATIONAL POLICE
                                                                     At the January 20, 2010 meeting of the Joint Coordination Monitoring Board, the
                                                                     MoI presented the Afghan National Police Strategy. The strategy states that the
                                              0
                                              1-20
                                                                     ANP are active throughout the country. Of Afghanistan’s 34 provinces, 18 are
                                              21-40                  considered low-threat provinces with minimal terrorist activity; 6 are considered
                                              41-90                  medium-threat with some terrorist activity, manageable by local ANP troops; and
                                                                     10 are high-threat, where combat activities against terrorist forces occur daily.88
Note: Casualties reported from 12/28/2009 to 3/31/2010.              The strategy divided the ANP into six categories, listed in Table 3.2. The strategy
Source: NTM-A/CSTC-A, response to SIGAR data call,
4/1/2010.                                                            also laid out seven priorities for the ANP:89
                                                                     t Gain the confidence of the public.
                                                                     t Protect Afghan national interests.
                                                                     t Eliminate corruption.
                                                                     t Improve police capabilities—including leadership; command, control,
                                                                        and communication; training; and equipment and weapons—to counter
                                                                        specific threats.
                                                                     t Reform and grow the ANP Tashkil (staffing plan) to improve the quality and
                                                                        quantity of the service provided by the police.
                                                                     t Improve morale and quality of life for police personnel.
                                                                     t Implement intelligence-led policing.


TABLE 3.2


ANP CATEGORIES AND ROLES
ANP Category                                     Abbreviation          Role
Afghan Uniform Police                            AUP                   Serves as the civilian force and consists of ANP regional zones, traffic police, and the fire and rescue department.
                                                                       Responsibilities include maintaining rule of law, responding to emergencies, maintaining public safety, and fighting
                                                                       crime.
Afghan National Civil Order Police               ANCOP                 Serves as the gendarmerie force, leading counter-insurgency operations in coordination with the ANA and the ABP,
                                                                       and works to maintain civil order.
Afghan Border Police                             ABP                   Safeguards the national borders and monitors the border security zone, which extends 50 km into Afghanistan;
                                                                       controls entry and exit of individuals at the border and prevents smuggling; and secures airports.
Afghan Anti-Crime Police                         AACP                  Assists in investigative and intelligence capacities regarding counter-terrorism, counter-narcotics, criminal investiga-
                                                                       tion, forensics, and major crimes. Provides specialized skills to the rest of the ANP.
Afghan Public Protection Force                   APPF                  Protects key infrastructure, facilities, construction projects, and personnel, with a special focus on protection from
                                                                       the insurgency.
Enabling Forces                                                        Includes medical, logistical, administrative, recruitment, training and education, and headquarters.
Source: MoI, “Afghan National Police Strategy,” 3/2010, pp. 22–29.




                                                                       58                        SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




   In addition to better defining its strategy, the ANP added more personnel,
improved its number of trained personnel, and assisted significantly with
Operation Moshtarak from January 1 to March 31, 2010, according to IJC. As of
February 21, 2010, the ANP had 99,577 personnel, according to NTM-A/CSTC-A—
an increase of 4,619 from the 94,958 personnel on December 31, 2009. The target
personnel strength is 109,000 by October 2010 and 134,000 by October 2011, as
approved by the Joint Coordination Monitoring Board in January 2010.90
   The MoI has made improvements in tracking the number of personnel serving
in the ANP. The Personnel Asset Inventory, described in SIGAR’s last quarterly
report, has made progress—nearly 50% of the current force has been inventoried,
including those serving in volatile areas of the country, according to the UN
Secretary-General.91 The targeted completion date has been moved back from
April 1, 2010, to early May 2010, according to DoD.92 The collection of biometric
data for the Personnel Asset Inventory occurs primarily at Regional Training
Centers, where a health assessment is conducted to assess the candidate’s suit-
ability for the ANP. In addition to collecting identifying information—such as
name, kinship, and home province—the ANP takes fingerprints, handprints, pho-
tographs, and iris scans. This information is compared with a national database
of criminals. The biometric data collection process not only catches criminals
within the ANP but also deters these individuals from attempting to join.93
   Payment methods have also improved: 94% of all personnel are covered
by the electronic payroll system, and 73% are covered by the electronic funds
transfer system. Both systems decrease the opportunities for corruption in
ANP payments.94
   To further facilitate payment of personnel in high-risk areas, a new program
will enable payment of personnel by mobile phone.95 The program aims to
minimize corruption: historically, as much as a third of ANP personnel were
not receiving their pay. It is designed to make more accurate and timely pay-
ments, reduce exposure to the risk associated with travel, eliminate corruption,
and create a more transparent payroll process. After a nine-month trial, the
program is expanding to three new districts in Wardak and Khowst, according
to NTM-A/CSTC-A. As of the beginning of April 2010, 53 ANP personnel from
Jalrez district in Wardak province are enrolled; soon, an additional 220 person-
nel will enroll. The effort is a collaboration between CSTC-A, the MoI, and the
Ministry of Finance.96
   Despite improved tracking of and payment for the ANP, the quality of the
force remains the subject of controversy. A recent audit by the DoS Office of
the Inspector General (OIG) and the DoD OIG identified several challenges that
impede the progress of the ANP, including low literacy rates, deceptive recruit-
ing tactics, desertions, and corruption, according to MoI personnel interviewed
for the audit. In addition, the lack of a single, unified chain of command for ANP
training occasionally causes confusion and delays in enhancing the program,
according to CSTC-A Training Command.97 CSTC-A, in its response to the audi-
tors’ findings, recommended that ANP leadership be improved and that corrupt
officials be dismissed from the force.98



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010       59
SECURITY




   The UN Secretary-General gave a similar report of the controversial quality of the
ANP, noting that ANP personnel are involved in smuggling, kidnapping, and extor-
tion at checkpoints. There is also tension with local communities over ethnic and
tribal imbalances in the force created as a result of potentially questionable recruit-
ing tactics that are themselves fueled by provincial and district hierarchies.99
   These problems do not enhance the public perception of the ANP. In its
new Afghan National Police Strategy, the MoI identified several aspects that
hurt the perception of the force: militaristic behavior, which intimidates the
population; ethnic and gender imbalances, which can hinder the development
of relationships with communities; neglect of traditional policing functions for
counter-insurgency operations; and corruption in the force.100 To help the ANP
gain the confidence of the public, the MoI has set six goals:101
t Increase ANP capability to respond promptly and fairly to public requests for
   security, assistance, fighting criminality, and administrative services.
t Train the police to respect human rights and individual legal rights and to
   behave properly with citizens based on Islamic and Afghan values.
t Create opportunities for women within the police force and recruit 5,000
   women over the next five years.
t Improve diversity of recruitment to represent all of Afghan society in the
   composition of the police force.
t Introduce an impartial system that can provide oversight of police account-
   ability and public concerns.
t Counter the misuse of drugs within the police force.



FIGURE 3.23


ANP TRAINING GRADUATES BY PROGRAM

                                                   Graduates: 4,908

 Focused Border                                                                                         2,107
   Development

          Basic 8                                                                           1,796

 Focused District
                            176
   Development

     Officer Basic          162

          Basic 6          149

Other Specialized                         518
         Training
                     0               500                1,000               1,500              2,000

Note: Other Specialized Training includes Ceremonial Unit, Afghan National Civil Order Police,
Train the Trainer (T3), Medical, Advanced 8, Guard Training, Female Intelligence, Female Basic, and Firearms.
Source: NTM-A/CSTC-A, response to SIGAR data call, 4/1/2010.




  60                          SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




   Because high levels of corruption exist in the MoI, NTM-A/CSTC-A has
initiated a planning team, in coordination with the European Union Police
and the MoI, to address the challenges of quality leadership and professional
development and to identify ways to counter corruption. NTM-A/CSTC-A
are working with the MoI to institute a competitive selection and promotion
process that is transparent and merit-based, to minimize corruption in the
advancement of rank.102

ANP Training
From January 1 to March 31, 2010, ANP training organizations graduated 4,908
personnel, a 14.5% increase from the preceding quarter. As of the end of the
quarter, 2,761 ANP are in training. The largest number graduated from Focused
Border Development, as shown in Figure 3.23.103
    Graduates during this quarter were assigned to a much larger number of              FIGURE 3.24
provinces: 27 this quarter, as shown in Figure 3.24, compared with 7 last quarter.
The largest number of graduates was assigned to Kabul.104                               ANP TRAINING GRADUATES
    During this quarter, the ANP training program was the subject of controversy.       BY PROVINCIAL ASSIGNMENT
The joint DoS/DoD audit found that the DoS Civilian Police Program does not
meet DoD’s requirements to train a police force capable of combating the insur-
gency. Consequently, DoS and DoD agreed to allow DoD to assume contractual
responsibility for the primary ANP training program. The audit recommended
that the Commanding General of CSTC-A establish clearly defined require-
ments for the training, as well as implement effective contractor oversight
procedures.105
                                                                                                                                     0
    Regarding the command structure governing ANP development, the audit                                                             1–10
concluded that the current DoS contract for ANCOP training does not allow                                                            11–100
DoD to make rapid adjustments in the training regime as the security situation                                                       101–300
                                                                                                                                     301–535
in the country changes, thus limiting the quick adaptability of the force.106 Under
the current system, DoD must coordinate any changes in training through the
                                                                                        Note: Unable to determine assignments for 272 ANP
Bureau of International Narcotics and Law Enforcement Affairs (INL), provid-            graduates from data provided.
                                                                                        Source: NTM-A/CSTC-A, response to SIGAR data call,
ing updated training requirements 120 days (four months) before they are to be          4/1/2010.
implemented. Yet INL told the DoS/DoD auditors that implementation actually
takes six months.107
    Attrition within the ANP is also a challenge, with a rate of 25%, according to
ISAF. Attrition is highest in the ANCOP, at a rate of 67%, despite the fact that the
ANCOP is the best trained and most educated force within the ANP. To combat
attrition, NTM-A/CSTC-A plans to initiate a cyclical program in May 2010 that
will allow for periods of rest during which ANCOP personnel can engage in
literacy training and other education, and take leave.108 The MoI is also working
to minimize attrition; it has set a goal of reducing the annual rate to less than 20%
by 2015. A related goal is to increase the retention rate for new personnel to 60%
by the same time.109
    To improve the overall quality of training that ANP personnel receive, the MoI
and NATO are developing Afghan Police Training Teams (APTTs) to be in all




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010          61
SECURITY




provinces by the beginning of 2012. The APTTs are staffed by Afghan trainers who
work alongside ISAF Police Operational Mentor and Liaison Teams and Police
Mentoring Teams to extend the reach of training and development capacity into
districts that lack training support. APPTs comprise one officer, two non-com-
missioned officers (NCOs), and a civilian literacy trainer. Teams are responsible
for police training, literacy training, mentoring, administration (drug testing and
accountability for personnel, weapons, and entitlements), and anti-corruption.110
NTM-A/CSTC-A is exploring ways to enable non-governmental organizations to
provide training to the ANP in human rights and community relations.111 APTT
trainers will also serve as anti-corruption officials and provide immediate replace-
ments to ANP units if necessary. APTTs will serve as independent officials within
the MoI, reporting to the Deputy Director of Training and Education.112
   Along with improvements in training quality, the MoI seeks to make ANP
training more uniform and consistent, addressing the lack of centralized com-
mand and control for recruiting and training. In January 2010, according to DoD,
the MoI established the ANP Recruiting Command to help accomplish this goal.
This new command will synchronize and coordinate recruiting policies across
the ANP. It will be staffed with 263 recruiters, posted in all 34 provinces, who will
coordinate recruiting activities directly with MoI headquarters.113

Women in the ANP
Attaining gender equality in the ANP remains a challenge. The MoI has set a goal
to recruit 5,000 female officers over the next five years.114 As of February 21,
2010, the ANP had 944 female personnel, 1% of the force. Women hold the fol-
lowing positions: 108 officers, 364 non-commissioned officers (NCOs), 237 patrol
officers, and 235 civilian employees.115
   Nineteen women graduated from the eight-week basic course (Basic-8) for
officers at the National Police Academy in Kabul on March 11, 2010. This was
the sixth cycle of female officer training; the first cycle began in October 2008.
Including the March 11 graduates, 150 female officers have graduated from the
Basic-8 program.116
   The DoS/DoD audit of ANP training recommended that CSTC-A and INL
increase the resources they devote to developing the women’s police corps.
Recruitment and retention of women faces many obstacles:117
t Most women in Afghanistan are uneducated or illiterate.
t Religious and cultural taboos regulate women’s roles in society.
t Women are expected to perform traditional roles, such as household or
   kitchen duties, child-raising, and basic secretarial work.
t Women lack the freedom of movement necessary to perform everyday duties
   involved in police work, such as driving vehicles and working after dark.
t Women’s roles in society—which are dictated by male family members, tribal
   leaders, and clerics—are generally very restricted.
t The notion of women in the police force is not fully supported by all Afghans.
t Childcare availability and related facilities are limited.




  62                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                         SECURITY




                                                                                                 The ANP has created 131 positions to be
                                                                                                 filled by female personnel:
                                                                                                 r   Assistant Complaint Officer (1 officer)
                                                                                                 r   Assistant Planning Officer (1 officer)
                                                                                                 r   Call Center Operator (7 civilians)
                                                                                                 r   Chief Gender Affairs (1 officer)
                                                                                                 r   Communication and Awareness
                                                                                                     Officer (1 officer)
                                                                                                 r   Complaint Officer (1 civilian)
                                                                                                 r   Deputy Chief and Gender Supervisor
                                                                                                     (6 officers)
                                                                                                 r   Domestic Passenger Officer (5 NCOs)
                                                                                                 r   Family Response Unit Chief
                                                                                                     (37 officers)
                                                                                                 r   Family Response Unit Investigator
                                                                                                     (37 NCOs)
                                                                                                 r   Gender Rights Investigator (6 officers)
                                                                                                 r   International Luggage Officer
                                                                                                     (3 NCOs, 3 officers)
                                                                                                 r   Monitoring and Evaluation Officer
                                                                                                     (1 officer)
Female ANP trainees participate in a tactical exercise at Kabul Military Training Center.
During the eight-week basic course, trainees learn about Afghan laws, human rights, and first-   r   Monitoring and Investigation Team
                                                                                                     Member (1 civilian)
responder responsibilities. They also receive training in tactics, IED awareness, surveillance
and intelligence gathering, civil disturbance management, and shooting techniques. (U.S. Air     r   Planning Officer (1 officer)
Force photo, SSgt Sarah Brown)                                                                   r   Research Officer (1 officer)
                                                                                                 r   Squad Controller (18 NCOs)

t Training requires a woman to spend the night away from her family at a                        Source: NTM-A/CSTC-A, response to SIGAR data call,
                                                                                                 4/1/2010.
   training center, against cultural expectations.
t Suitable work locations must be identified for women, and they must be
   accepted by the local ANP commander. Not all commanders are willing to
   accept women in their unit.

   Achieving gender equality will require more than merely increasing the
number of female personnel. All ANP personnel will undergo training on gender-
related issues. According to DoS, most of the ANP will have completed this
training by December 2010.118

ANP Infrastructure
As of March 31, 2010, NTM-A/CSTC-A reported 250 active infrastructure con-
tracts, the same as the preceding quarter; the largest number of these contracts
is for projects in the central region, with only one project in the west. Sixty-seven
contracts with a collective value of $140.2 million were scheduled to be com-
pleted during the quarter. This quarter, 13 contracts with a collective value of
$17.0 million were terminated—10 for security reasons and 3 for land disputes.
Two new contracts totaling $2.6 million were awarded.119




              REPORT TO THE UNITED STATES CONGRESS       I   APRIL 30, 2010              63
                                                          SECURITY




                                                          FIGURE 3.25

                                                          ANP EQUIPMENT

                                                          5,000                 4,870

                                                          4,000
                                                          3,000
                                                          2,000
                                                          1,000                                                            570                            936
                                                                        519              549                    474                  478
                                                                                                                                                     0             240
                                                               0
                                                                                Radios                                   Vehicles                        Weapons


                                                                                                   Planned            Procured             Fielded

                                                          Source: NTM-A/CSTC-A, response to SIGAR data call, 4/1/2010.




                                                          ANP Equipment
                                                          From January 1 to March 31, 2010, the ANP fielded 549 radios, 478 vehicles,
                                                          and 240 weapons, according to NTM-A/CSTC-A (see Figure 3.25). Continued
                                                          driver training enables additional vehicles to be fielded. NTM-A/CSTC-A
                                                          expects to receive an average of 250 vehicles per month for the ANP for the
                                                          next seven months.120
                                                             The only weapons procured during this quarter were PK machine guns.
                                                          According to NTM-A/CSTC-A, there was a large change in the number of weapons
                                                          planned for the future—from 2,448 last quarter to none this quarter. The number
                                                          of weapons fielded also decreased this quarter, 1,017 fewer than last quarter. This
                                                          decrease in fielding was intended to encourage the MoI to implement and enforce
FIGURE 3.26                                               greater accountability of excess weapons, according to NTM-A/CSTC-A.121
                                                             The largest increase in equipment procured was in the number of radios—
ANP CASUALTIES BY PROVINCE                                nearly 4,900 this quarter, compared with none last quarter.122

                                                          ANP Casualties
                                                          From December 28, 2009, to March 31, 2010, the ANP suffered 476 casualties,
                                                          according to the IJC: 319 personnel were wounded in action, and 157 were killed in
                                                          action. Total ANP casualties increased more than 80% from the preceding quarter.
                                                          Casualties were concentrated in Helmand, Kandahar, and Khowst, as shown in
                                                          Figure 3.26.123
                                             0               The average number of personnel killed each month in the ANP has increased
                                             1–20         steadily over the past four years, according to the DoS/DoD audit. The auditors
                                             21–40
                                             41–129
                                                          concluded that ANP personnel need enhanced combat capabilities, increased
                                                          training capacity, and more police mentor teams to develop new ANP forces.124
Note: Casualties reported from 12/28/2009 to 3/31/2010.
Source: NTM-A/CSTC-A, response to SIGAR data call,
4/1/2010.




                                                            64                        SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




   According to the MoI, the high ANP casualties can be attributed to terrorist
attacks that focus predominantly on the ANP rather than on ANA or coalition
forces. This occurs because ANP personnel usually patrol in smaller groups,
have more predictable patrol patterns, and lack the capacity to respond to
attacks with the quick strength of a military force. The number of these attacks
has increased. Many ANP personnel die of wounds incurred in such attacks,
owing to a lack of medical expertise and evacuation capacity.125 The MoI seeks
to reduce this high casualty figure by several means:126
t improving protective measures
t providing protective vehicles
t implementing intelligence-led operations
t avoiding deployments of vulnerable units to isolated locations
t enhancing tactical training
t improving quick reaction forces at the provincial and district levels
t enhancing counter-IED capabilities
t improving access to medical support

DISARMAMENT OF ILLEGAL ARMED GROUPS
The UN Development Assistance Framework prioritizes governance, peace,             On February 23, 2010, the UN Assistance
and stability. Two key aspects of this framework are disarming illegal armed       Mission to Afghanistan (UNAMA) reported
groups and strengthening institutions at the national and local levels. The        that seven former mujahedeen command-
Disbandment of Illegal Armed Groups (DIAG) project was started in 2005 to          ers handed over their weapons to provincial
support the GIRoA by directly addressing the problem of illegal armed groups       authorities in Bamyan. They did so to
                                                                                   obtain development projects for the district
that destabilize the country.127
                                                                                   that are supported by the international
    To ensure that disarmed groups remained disarmed, DIAG’s regional offices
                                                                                   community.
and local security agencies continued to monitor former commanders and their
units. Six months after a group is designated as compliant, a DIAG monitor-        Source: UNAMA, press release, “Former Commanders Give Up
                                                                                   Their Weapons for Development,” 2/23/2010.
ing and evaluation team conducts a post-compliance survey, which involves
surveying local people about security, governance, and popular support for the
government to develop an understanding of the environment in an area previ-
ously occupied by illegal armed groups. A second method for monitoring former
illegal armed groups is through regular exchanges of information between the
DIAG regional office managers, provincial governors, provincial DIAG coordina-
tors, and security agencies.128
    In addition to disarmament and monitoring, DIAG implementation also
includes public information activities. The Public Information Unit produces
public service announcements about peace and disarmament, which feature
prominent members of the National Assembly and other respected people.
Announcements are aired on the radio and television.129




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010       65
                                                SECURITY



                                                TABLE 3.3


                                                DISARMAMENT METRICS, QUARTER-TO-QUARTER COMPARISON
                                                                                                                      Number of Weapons,             Number of Weapons,
                                                Source                                                                     12/19/2009                       3/13/2010
                                                Weapons collected by DIAG                                                           45,830                       47,359
                                                Weapons collected/confiscated by national security agencies                         11,815                       12,419
                                                Individual weapons registered by MoI                                                18,916                       20,364
                                                Private security companies’ weapons registered                                      16,927                       20,504
                                                Weapons destroyed or kept by ISAF, estimated                                        14,000                       14,000
                                                Weapons Under GIRoA Control                                                      107,533                        114,646
                                                Sources: UNAMA, “DIAG Implementation Progress Report,” 3/13/2010; DoS, response to SIGAR data call, 1/6/2010.




                                                Status
                                                As of March 13, 2010, DIAG had targeted 140 districts in Afghanistan, 95 of which
                                                were considered compliant. In the disarmament effort, all statistics reported by
                                                DIAG increased this quarter, except the number of weapons destroyed or kept by
                                                ISAF, which remained the same as last quarter, as shown in Table 3.3.130
                                                   From December 19, 2009, to March 13, 2010, DIAG security forces disbanded
                                                15 illegal armed groups, bringing the total to 704. DIAG also targets govern-
                                                ment officials linked to illegal armed groups. Of 72 such officials, 34 have been
                                                declared compliant, and 33 have been removed from their positions. Security
                                                forces collect ammunition for disposal by DIAG. As of March 13, 2010, DIAG
                                                reported 30,992 metric tons of ammunition collected. Unusable ammunition is
                                                destroyed.131

                                                Security Operations
                                                The ANSF participates in the disarmament of illegal armed groups. The Afghan
                                                National Police Strategy states that the ANP will collect weapons and ammuni-
                                                tion from illegal armed groups and irresponsible individuals. It also states that
                                                the ANP will continue to conduct intelligence-led operations and implement
                                                programs to disband illegal armed groups.132

                                                Challenges
                                                The DIAG program continued to face several challenges in implementation this
                                                quarter. In many provinces, the difficult security situation restricts DIAG activi-
Insurgent equipment and a cache of drugs
                                                ties; in some areas, all DIAG-related efforts are prohibited. These other factors
are found after an operation. Illegal armed
groups threaten the stability of the country.   made efforts difficult:
(U.K. Ministry of Defense photo)                t the rampant trafficking of weapons
                                                t limited information on illegal armed groups
                                                t weak governance at the provincial and district levels to enforce disarmament
                                                t variations in the political commitment to DIAG
                                                In addition, a proper weapons management system is lacking: there is no central-
                                                ized GIRoA database of government-issued and privately held weapons. Because




                                                    66                        SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




of this poor monitoring, in several instances DIAG has recovered government-
issued weapons from illegal armed groups. Moreover, according to the UN
Development Programme, there is room for improvement in communication
between security agencies—such as the MoD, MoI, and National Directorate for
Security—regarding information that contributes to the DIAG effort.133

IMPROVISED EXPLOSIVE DEVICES
The number of IEDs in Afghanistan has increased significantly, and so has the
number of U.S. casualties, according to DoD. The Joint Improvised Explosive
Device Defeat Organization has found that IEDs in Afghanistan are largely
homemade. The Taliban insurgents are also less discriminating about whom
they attack, with the result that far greater numbers of civilians than coalition
or Afghan forces are killed by IEDs.134

Status
The IJC reported that from December 28, 2009, to March 31, 2010, there were
1,021 IED attacks against coalition forces or international civilian targets; almost
half were in Helmand.135 This is a significant increase from the 836 IED attacks
reported last quarter.136

Security Operations
During this quarter, ANSF and coalition forces found 1,400 IEDs, according to          On March 10, 2010, ANSF units, operat-
the IJC.137 IEDs constitute a large portion of the threat to ANSF and coalition        ing independently of ISAF, discovered a
forces. In response to this threat, DoD is continuing initiatives to minimize the      large weapons cache in Kabul. The cache
impact of IEDs:138                                                                     contained more than 1,000 detonators
t mitigation of the effect of device detonations, including better vehicles and       with remote control units and 700 kg of
   improved personal protective equipment                                              explosives, enough to make 28 IEDs. Two
                                                                                       insurgents were arrested for their connection
t improved detection and identification of implanted IEDs
                                                                                       with the weapons.
t prevention of IED detonations through use of countermeasures
t identification and targeting of IED fabrication and delivery networks, includ-      Source: ISAF, press release, “ANSF Discover Significant
                                                                                       Weapons Cache in Kabul,” 3/11/2010.
   ing financing networks
t improved training of personnel

   ISAF conducts counter-IED training for the ANA. On March 2, 2010, a cere-
mony honored the graduation of 70 members of the 205th Corps Route Clearance
Company. Graduates had undergone a six-month course in mine-sweeping
techniques, counter-IED measures, and other route-clearance skills. According
to ISAF, the members of the 205th Corps Route Clearance Company will begin an
operational partnership with ISAF forces of Task Force Thor in Kandahar.139
   Coalition forces also assist in the fight against IEDs through an initiative in
which U.S. Marines use trained dogs to sniff out IEDs and communicate their
locations. Training sessions for the initiative focus on teaching dogs and handlers
how to better identify IEDs and the materials used to create them.140




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010         67
                                                           SECURITY




                                                           Challenges
                                                           DoD reported that the significant increase in IED attacks is largely due to the
                                                           following three factors:141
                                                           t advances in tactics, techniques, and procedures such as using different
                                                              materials, creating larger blasts, and making detection more difficult
                                                           t accessibility to expertise through the Internet
                                                           t stockpiling of IEDs

                                                           REMOVING UNEXPLODED ORDNANCE
                                                           According to DoS, approximately 6,434 hazardous areas cover an estimated
                                                           665 million square meters of Afghanistan.142 Within these areas, more than 2,150
                                                           Afghan communities are directly affected by unexploded ordnance, according to
                                                           the UN Secretary-General. According to DoS, unexploded ordnance causes an
                                                           average of 40 casualties per month, most of whom are children. Unexploded ord-
                                                           nance also prevents livelihood activities, hindering access to agricultural land,
                                                           water sources, health-care facilities, and educational facilities. New hazardous
                                                           areas continue to be discovered.143
                                                              The UN leads the mine-removal effort in Afghanistan through the Mine Action
                                                           Coordination Center of Afghanistan (MACCA). Community-based de-mining
                                                           efforts are used as well. The Community-Based De-mining (CBD) initiative
                                                           enlists a local workforce that is recruited, trained, and employed by an Afghan
                                                           NGO, which oversees all aspects of the operation. As of March 31, 2010, DoS is
                                                           funding CBD programs in Helmand, Kandahar, and Kunar provinces. The effort
                                                           in Helmand, in Now Zad, is of particular interest to DoS and the U.S. Embassy
                                                           Kabul because it exemplified an element of the COIN phases of shape, clear,
An ANA soldier uses a metal detector
                                                           hold, and build. In Now Zad, de-miners arrived immediately after fighting ended
during a route-clearing mission. The United
States has been providing training support                 during the hold phase, helping people return to their homes.144
to help establish route-clearing capabilities                 For the next 12 to 18 months (from April 2010), DoS and supporting organiza-
in each of the five regional commands.                     tions will seek to expand CBD activities and improve civilian-military-GIRoA
(NTM-A/CSTC-A photo)                                       coordination of projects at the provincial level. They will also explore opportuni-
                                                           ties to develop the capacity of the GIRoA Department of Mine Clearance, which
                                                           is expected to take over the management of the demining program from the UN
                                                           in 2013.145

Since 1988, de-mining organizations                        Status
have been in continuous operation in                       In January and February 2010, MACCA removed 1,727 anti-personnel mines, 135
Afghanistan. Since 1993, the U.S.                          anti-tank mines, and 110,194 explosive remnants of war, according to the UN.
government has provided $125 million to
                                                           This helped reduce the contaminated land area in Afghanistan by 39%. Nineteen
support the de-mining effort. It plans to
                                                           communities were cleared of mines and other unexploded ordnance. During
provide $35 million this year, creating jobs
                                                           those two months, MACCA and other partners in the mine-removal effort taught
for more than 3,000 Afghans.
                                                           61,099 women and girls and 87,518 men and boys throughout the country about
Source: DoS, response to SIGAR data call, 4/1/2010; U.S.   the risks of mines.146 Also during this period, 74 mine incidents were reported;
Embassy Kabul, “Remarks as Delivered by U.S. Ambassador
Karl W. Eikenberry at International Mine Action Day,”      each incident concerned a different individual.147
4/3/2010.




                                                             68               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




   Since 1993, DoS-funded partners in unexploded ordnance removal have
cleared more than 160 million square meters of land and destroyed approxi-
mately 3.06 million landmines and other explosive remnants of war. These
partners have also destroyed or removed more than 11,585 metric tons of stock-
piled, abandoned, at-risk, or unserviceable ordnance and ammunition.148
   Clearing the site for the ADU was a considerable mine removal effort recently
completed. To prepare the site, 1,500 acres had to be de-mined. This effort began
in 2008 and entailed removal of significant amounts of unexploded ordnance.149

Challenges
Funding for efforts to remove unexploded ordnance is a challenge. The UN
reported in February 2010 that funding must increase in order to achieve the
mine removal targets set by the Afghan National Development Strategy, as shown
in Table 3.1 in the “Security Update” section. Funding must also be received in a
timely manner, before the beginning of the year, to enable effective delivery.150

COALITION FORCES
At the London conference, participants confirmed the need for an increase in
coalition forces to support the training needs of the ANSF. According to the UN
Secretary-General, 21 teams of 20 to 30 trainers are required for the ANA, and the
ANP needs 119 such teams. In addition, approximately 1,300 trainers are needed
to serve in an institutional capacity for officer training, weapons training, and in
the Staff College and counter-insurgency academy.151
   Coalition forces contributed significant numbers to the 15,000 forces that
undertook the joint operation in Helmand this quarter. Operation Moshtarak con-
sisted of ISAF Regional Command (South) elements, with forces drawn from the
United States, the United Kingdom, Denmark, Estonia, and Canada.152
    The military operations in central Helmand will be followed by an effort to
establish an Afghan government presence in the cleared areas. This effort will
be supported by the Helmand Provincial Reconstruction Team (PRT). For
additional information on PRTs, see the “Governance, Rule of Law, and Human
Rights” subsection.153




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010         69
                                 QUARTERLY HIGHLIGHT




NEW INITIATIVES IN SECURITY
COMMUNITY-BASED SECURITY                                          The APPF is intended to provide protection for key
The United States does not support tribal militias in         infrastructure projects and facilities used by interna-
Afghanistan; however, it is involved in local security        tional agencies and private-sector organizations. The
and reintegration efforts in varying capacities. Two          APPF maintains guard positions throughout assigned
Afghan initiatives aim to develop community-based             areas and defends communities against insurgent
security: the Local Defense Initiative (LDI) and the          threats until ANP, ANA, or coalition forces can be
Afghan Public Protection Program (AP3). The United            summoned, if required. The APPF is used as a hold
States supports efforts of the GIRoA to develop self-         force in environments where ANSF and coalition forces
reliant security forces like these. It also supports the      have performed the shape and clear phases and have
GIRoA in the development of reintegration programs            established security. These forces are purely defensive
for former insurgents.154                                     and have no arrest authority; they are not intended or
                                                              trained to conduct offensive operations. The APPF acts
Local Defense Initiative                                      as a force multiplier for the ANP; once fully imple-
The LDI, which is organized and run through village           mented, it has the potential to relieve troops of local
shuras (local councils of elders), is intended to             security responsibilities, enabling them to move on
develop village-level security forces in order to help        to clear new areas. The U.S. Special Forces currently
provide security in key areas where the Afghan central        train and mentor the APPF with the objective of eventu-
government and ISAF do not yet have effective con-            ally transitioning them to the control of the ANP.158 The
trol. The LDI has established sites in five provinces in      APPF plans to eventually replace the private security
Regional Commands South, West, and East; it is still          companies that currently protect these facilities.159
in the early phases of implementation.155                         According to DoD, anecdotal reports suggest that
                                                              this force has been able to reduce the number of
Afghan Public Protection Program                              IEDs and rocket strikes in the areas in which it oper-
The AP3 is a pilot program run by the GIRoA that              ates. Those reports also suggest that the additional
began in 2009 in Wardak province. The AP3 follows             security provided by these personnel has enabled
the counter-insurgency principles of shape, clear, hold,      the Wardak provincial government to open schools,
and build. AP3 personnel are representative of all eth-       convene public meetings, and offer additional pro-
nic groups and tribes in the community. The program           tection for motorists traveling on local roads. As a
works with the village shura to nominate personnel            result, economic activity and freedom of movement
to provide security for the community. The goal of the        have increased.160 Reports in Wardak have indicated
program is to develop and implement a self-sustained          that the perception of security has improved in areas
local force that can partner with the ANSF to improve         where APPF operate, according to DoD.161
the security environment by preventing attacks on key
facilities and infrastructure.156
   The Afghan Public Protection Force (APPF) is the           On February 20, 2010, more than 200 Afghan citizens from Wardak
security force of the AP3. As of March 31, 2010,              and surrounding provinces graduated from the AP3 course. The
there are 1,010 APPF personnel, also known as                 course, run by the MoI, included training in checkpoint manning,
“Guardians,” of a planned force of 1,212. APPF                weapons operation, and personnel detainment. This class of gradu-
personnel receive three weeks of training, as well as         ates is the sixth to go through the course in Wardak.
equipment. A training effort was initiated in March
                                                              Source: ISAF, press release, “Locals Complete Afghan Public Protection Program,”
2010 to attain this targeted force strength.157               2/23/2010.




                                     70                SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                    QUARTERLY HIGHLIGHT




APPF members graduate from basic training in Wardak. The APPF is a community-level, defensive security force intended to provide
protection for key infrastructure projects and facilities. (U.S. Army photo, 1LT Robert Morris)



REINTEGRATION
At the London conference, Afghan President Hamid                       reintegration program in accordance with the FY 2010
Karzai outlined a reintegration program that has                       National Defense Authorization Act, according to DoD.
the goal of promoting peace through dialogue with                      Support for former insurgents includes job training,
Taliban members and their mid-level commanders.162                     education, and relocation assistance. The program
According to DoS, “reintegration” means absorbing                      also plans to utilize local leaders to verify the reliability
back into society the local insurgent commanders                       of those desiring to leave the insurgency and reinte-
and their followers, most of whom have no links to                     grate into Afghan society.167
al-Qaeda or any extremist political agenda but have                       President Karzai envisions the creation of a
sided with the Taliban for money, for expedience, or                   national peace council that will oversee this reintegra-
under coercion.163 A UNAMA strategy paper pointed                      tion, according to the UN Secretary-General.168 DoS
out that while some insurgents may be fighting                         stated that the goal is to develop an approved plan
primarily for economic reasons, a number of them                       for reintegration with international coordination by
are likely fighting for other reasons, including ideol-                mid-2010.169
ogy, resentment, criminal intent, and a sense of                          DoS estimated that funding requirements for
humiliation. The insurgent mentality could also stem                   reintegration will exceed $100 million per year for
from a belief that the government is corrupt and                       several years. The U.S. Congress has authorized DoD
unable to provide law and order, as well as a sense                    FY 2010 funds to support this effort, according to
of foreign invasion encroaching on and disrespecting                   the Afghanistan and Pakistan Regional Stabilization
Afghanistan’s culture, values, and religion.164                        Strategy. International partners, including Japan and
    The reintegration program will coordinate protection,              the United Kingdom, have also pledged funds to a
amnesty, and support for militants who disarm. It will                 new international trust fund to support Afghan-led
assist with employment for former militants and will                   reintegration efforts.170 At the London conference, the
also support monitoring and de-radicalization efforts                  international community pledged more than $140 mil-
that lead to disarmament.165 Identifying appropriate                   lion to this fund. In addition to funding, however, the
incentives to disarm is a sensitive issue, because of                  UN Secretary-General noted that the success of any
existing allegiances with groups such as the Northern                  reconciliation and reintegration process will require
Alliance, according to DoD.166 U.S. Forces - Afghanistan               broad national support.171
is working with ISAF to develop support for the GIRoA



             REPORT TO THE UNITED STATES CONGRESS      I   APRIL 30, 2010              71
           TITLE OF THE SECTION




“Hilibus aut aspedit liqui quam excese-
quam il experum re dolum ut ommodio
   ersped eaquas et moloritiis estium
  expeles totaspe llacepel eateceatus
 rem qui velit dolenis quosa num con-
 sequam, quiati bearibuscia si ut eost,
omnihil modita nistia aut hitis que api-
 cia doluptatio es sed es ut ut aut estis
     dolor rerum que litiorepudae”
                                                          —Person of Interest




           Source: Mil ilique cusant laute nonsequi volorum nulpari busam, tem. Nem quia numquid qui aut etur? Nimaionse net quiam, voloreruptis
           providit in reictem. Dem voloribusa delenihic temodis auteceritem qui il et res rem estist, tem cumqui qui reratento que consedis doluptatem




               72                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                           GOVERNANCE




GOVERNANCE, RULE OF LAW,
AND HUMAN RIGHTS
This quarter, the United States and the international community placed greater            “We have no illusions about
emphasis on building the capacity of the Government of the Islamic Republic of               the challenges ahead of
Afghanistan (GIRoA) to improve governance and strengthen the rule of law. To
assist the GIRoA, the United States and the international community have begun
                                                                                           us.… But for the first time
to commit more resources to support Afghan governing institutions. Also this                since this conflict began,
quarter, the United States began expanding its civilian presence in Afghanistan.            we have a true whole-of-
This expansion is designed to assist the GIRoA in delivering essential services              government approach.”
and restoring Afghans’ faith in their government.
                                                                                                              —U.S. Secretary of State
                                                                                                              Hillary Rodham Clinton
GOVERNANCE
Since last quarter, the United States and the international community agreed to
                                                                                          Source: DoS, “Afghanistan and Pakistan Regional Stabilization
focus greater attention on helping the GIRoA build the capacity of its government         Strategy,” 1/21/2010.

institutions. Both will help the GIRoA take greater responsibility for reconstruction




U.S. Secretary of State Hillary Rodham Clinton greets women from Afghanistan during the
London conference. (DoS photo)




             REPORT TO THE UNITED STATES CONGRESS      I   APRIL 30, 2010            73
GOVERNANCE




initiatives.172 Under the U.S. Afghanistan and Pakistan Regional Stabilization
Strategy, the United States plans to assist the GIRoA to improve delivery of
government services, increase accountability, and provide Afghan citizens with
greater protection from predatory government practices.173

U.S. Governance Strategy
As outlined in the new U.S. strategy for Afghanistan, U.S. policy emphasizes
building the capacity of the GIRoA in order to transition responsibility for gover-
nance and reconstruction to Afghan authorities.174 The U.S. Department of State
(DoS) plans to implement the new strategy by increasing its civilian presence in
Afghanistan and by providing more assistance through GIRoA ministries. The
United States also will expand efforts at the provincial and district levels.175
    The U.S. Agency for International Development (USAID) reported that it
has also shifted its policies this year to align with the new U.S. strategy. In the
past, USAID trained GIRoA officials directly through contractors and grantees;
now, USAID contractors are working to build the Independent Administrative
Reform and Civil Service Commission. USAID reported that it is working to build
the capacity of the training commission so that the commission can become fully
responsible for training civil servants. Members of the commission are learning
how to manage a training facility for GIRoA civil servants. The commission is
expected to be able to operate the facility independently in one to two years. USAID
also reported that U.S. advisors are increasingly working directly with GIRoA minis-
tries instead of through U.S. contracting offices, as many had in the past.176

Human Capital: Expanding the Civilian Presence
A principal goal of the new U.S. strategy in Afghanistan is to build the GIRoA’s
capacity to create stronger, more transparent, and more accountable institutions.
To implement this goal, the U.S. government is expanding its civilian presence in
Afghan ministries and provincial centers.177
    From January 2009 to the end of March 2010, the United States had expanded
its civilian presence in Afghanistan from 320 people to more than 920, accord-
ing to DoS. When all positions are filled, there will be 974 U.S. civilian personnel
in Afghanistan. DoS reported that it expects to fill all civilian positions by May
2010.178 Table 3.4 lists some of the planned U.S. agency contributions to the
TABLE 3.4


EXPANDING THE CIVILIAN PRESENCE: U.S. AGENCY CONTRIBUTIONS
Agency                                                                                                  Planned Personnel Levels
Department of State                                                                                                               423
U.S. Agency for International Development                                                                                         333
Department of Justice                                                                                                             128
Department of Agriculture                                                                                                           64
Note: Additional civilian personnel will be provided from the departments of Homeland Security, Treasury, Transportation, and Health and
Human Services.

Sources: DoS, response to SIGAR data call, 4/6/2010; USAID, response to SIGAR data call, 4/6/2010.




    74                          SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




increased civilian presence in Afghanistan. Other contributing departments include
the departments of Homeland Security, Treasury, Transportation, and Health and
Human Services.
   As of April 2010, most new civilian staff were expected to join efforts in
eastern and southern Afghanistan.179 DoS also plans to increase the number of
civilian technical advisors in GIRoA ministries, provincial capitals, and dis-
trict centers. These advisors are expected to assist the GIRoA in developing
“more responsive, visible, and accountable institutions in Kabul, particularly
at the provincial, district, and local levels, where most Afghans encounter their
government.”180

Provincial Reconstruction Teams
Provincial Reconstruction Teams (PRTs) enable the U.S. and international com-
munity to deliver assistance at the provincial level in Afghanistan. Each of the 26
PRTs is managed by an International Security Assistance Force (ISAF) member:
Canada, Germany, Hungary, Italy, Lithuania, the Netherlands, New Zealand,
Norway, South Korea, Spain, Sweden, Turkey, the United Kingdom, and the
United States all manage PRTs. Currently, 12 of the PRTs working in Afghanistan
are managed by the United States.181 PRTs serve three broad functions:182
t reinforcement of the authority and legitimacy of the Afghan government at
   the provincial and district levels
t development of national, provincial, district, and local governance and
   infrastructure
t establishment of economic and social stability and security for the people of
   Afghanistan

    This quarter, DoS reported that it plans to increase the emphasis on coordi-
nation between PRT programming and military projects to avoid overlap and
duplication. DoS reported that it encourages civilian and military personnel to
work closely together to coordinate program plans and to resolve any problems
through the ISAF chain of command.183
    Depending on their location, PRTs face different challenges, including secu-
rity, low literacy levels, and the absence of government officials and institutions.
The geographical isolation of a region can also create challenges, making it dif-
ficult to deliver resources to the region’s population.184

District Support Teams
As of March 20, 2010, DoS reported that 32 District Support Teams (DSTs) were
operating in Afghanistan. According to DoS, the DSTs are designed to stabilize
an area after coalition forces have cleared out insurgent activity. Typically, DSTs
are small teams of three to five civilians from DoS, USAID, and other agencies,




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010          75
                                                       GOVERNANCE




FIGURE 3.27                                            as appropriate. DST civilian personnel are now living and working alongside
                                                       forward-deployed military units. DoS reported that, where possible, DSTs
DISTRICT SUPPORT TEAM LOCATIONS
BY REGIONAL COMMAND                                    encourage GIRoA ministries to independently deliver packages of government
                                                       services.185 Figure 3.27 shows the number of DSTs by regional command.
                                                          DoS plans to deploy more DSTs to dozens of additional districts in the coming
                                                       months. DST projects in Afghanistan have included the following:186
                      0                                t cash-for-work programs
                  RC North                             t agricultural cooperatives and grants programs
                                                       t provision of education and medical supplies
         1                     18                      t construction and refurbishment of government buildings
     RC West                 RC East
                                                       t food assistance programs
             13                                        t construction of public health clinics
          RC South                                     t construction of road and cell phone communications infrastructure

                                                       International Strategy
Note: RC = Regional Command.                           At the London conference in January 2010, the international community updated
Sources: DoS, response to SIGAR data call, 4/6/2010;
ISAF, “Facts and Figures,” 2/1/2010.
                                                       its strategy in Afghanistan. The new international strategy will focus on support-
                                                       ing the GIRoA as it takes greater ownership of reconstruction initiatives and
                                                       increases its authority over security and development programming.187
                                                           The GIRoA expressed its commitment to taking ownership of reconstruction
                                                       goals. The GIRoA also agreed to develop specific proposals for reconstruction
                                                       projects, which it plans to present at the international conference in Kabul later
                                                       this year. According to the conference communiqué, the new reconstruction pro-
                                                       gram is expected to consider issues such as democratic accountability, equality,
                                                       human rights, good governance, economic growth, and “a common desire to live
                                                       in peace under the Afghan Constitution.”188
                                                           The GIRoA pledged to focus on several action items after the conference,
                                                       including the following:189
                                                       t reducing corruption by strengthening institutions that can check Afghan
                                                           institutional power
                                                       t drafting a Sub-National Governance Policy, for which legislation will be
                                                           prepared in time for the Kabul conference
                                                       t assuming greater responsibility for Afghan detention centers, in keeping with
                                                           international standards and law
                                                       t developing a work plan for the Kabul conference that will focus on improving
                                                           coordination and coherency across government offices, including realigning
                                                           ministries for improved efficiency




                                                         76               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                               GOVERNANCE




FIGURE 3.28

PRESIDENTIAL CABINET




               Approved Male Appointment           Approved Female Appointment            Temporary Appointment

Sources: DoS, response to SIGAR data call, 4/6/2010; CIA, “Afghanistan: Chiefs of State and Cabinet Members of Foreign
Governments,” accessed online 4/13/2010.




Afghan Presidential Cabinet
As of April 6, 2010, President Karzai did not have a complete cabinet. Of 25 cabi-
net positions, only 14 have been filled, as shown in Figure 3.28.190 According to
DoS, the three “most important” positions in the cabinet—Interior, Defense, and
Finance—have been filled by reform-minded ministers who DoS believes will
focus on ending corruption, as the international community has urged. DoS also
reported that the appointments are geographically representative.191
   As noted in SIGAR’s January 2010 report, President Karzai submitted two
rounds of cabinet candidates to the Wolesi Jirga (the lower house of the Afghan
National Assembly). On December 19, 2009, Karzai submitted his first round of
24 nominees. On January 9, 2010, he submitted a second round of 17 nominees.
For each round, the Wolesi Jirga approved only 7 of the nominees.192

Upcoming Elections
The Independent Election Commission (IEC) originally scheduled the upcom-
ing elections for the Wolesi Jirga to take place in May 2010. On January 23, 2010,
President Karzai convened a meeting to discuss these elections. Following the
meeting, the elections were rescheduled for September 18, 2010, because of
concerns—within the GIRoA and the international community—about the
complex logistics required to prepare for an election so quickly. The UN
Secretary-General reported that this date change is permissible under Afghan
electoral law, which states that elections may be postponed for security, finan-
cial, or logistical reasons.193
   According to the UN Secretary-General, the election for the 249 seats of the
Wolesi Jirga may be more complex than the 2009 presidential elections.194 DoS
also reported that the September 2010 elections will be a greater challenge; the
large number of candidates is expected to create complications.195 If the elec-
toral institutions of Afghanistan function with transparency, impartiality, and
independence, the elections may mark a turning point in the political process for
Afghanistan, according to the UN Secretary-General.196
   On March 25, 2010, the IEC released the timeline for the September 2010
elections. The process of providing information on the requirements for candi-
date nomination is scheduled for April 13–19. The IEC plans to hold candidate
registration from April 20 to May 4. Candidates must register in person at an



                 REPORT TO THE UNITED STATES CONGRESS                      I   APRIL 30, 2010                        77
                                                               GOVERNANCE




FIGURE 3.29

WOLESI JIRGA ELECTION EVENTS, 2010

                                                                                                Mar   Apr   May       Jun     Jul    Aug    Sep    Oct
  Publication of election calendar                                              Mar 25
  Launch of candidate registration process                                      Apr 13–19
  Nomination of candidates                                                      Apr 20–May 4
  Display of preliminary candidate list; challenges, corrections, and appeals   May 12–18
  ECC hearings and decisions                                                    May 12–Jun 10
  ECC informs IEC of decisions on nominations                                   Jun 11
  Voter registration                                                            Jun 12–Aug 12
  IEC prepares final list of candidates                                         Jun 12–21
  Publication of final list of candidates                                       Jun 22
  Political campaign period                                                     Jun 23–Sep 16
  Election Day                                                                  Sep 18
  Start and finish date for counting                                            Sep 18
  Transfer of results from Counting Center to National Tally Center             Sep 19–25
  Data entry and announcement of preliminary results                            Sep 21–Oct 8
  Announcement of partial results                                               Oct 9
  ECC hearings on complaints after partial results                              Oct 10–23
  ECC sends final decisions on complaints to IEC                                Oct 24
  Announcement of final results of election                                     Oct 30


Source: IEC, “Key Dates,” accessed online 4/5/2010.




                                                               IEC provisional office in order to take part in elections.197 As of March 31, 2010,
                                                               DoS expected that the new Wolesi Jirga members would begin their terms in
                                                               late 2010.198 Figure 3.29 provides a complete timeline of events planned for the
                                                               2010 elections.

                                                               Election Reform
    “The parliamentary                                         This quarter, the international community called for the GIRoA to institute a
                                                               number of reforms of the electoral process to prevent a repeat of the widespread
  elections scheduled for
                                                               fraud documented in the 2009 presidential election. For example, the UN rec-
   18 September will no                                        ommended that the international community be included in the vetting process
doubt be another challenge                                     for political candidates to verify that candidates are not in violation of electoral
  for Afghan institutions                                      law.199 Table 3.5 shows the status of additional recommended reforms.
 and will consume a great                                         According to the UN Secretary-General, well-known violators of human
                                                               rights and members of illegal armed groups were able to run for election in
  deal of political energy                                     2009. He pointed out that these candidates undermined faith in the electoral
  during the second half                                       process within Afghanistan. To create an environment conducive to free and fair
        of the year.”                                          elections, the Secretary-General has recommended the establishment of a com-
                                                               prehensive vetting process to identify and disqualify such candidates in 2010.200
                    —UN Secretary-General
                                                                  In March 2009, SIGAR launched a series of three audits to review aspects
                             Ban Ki-moon
                                                               of U.S. assistance for the preparation and conduct of presidential and provin-
                                                               cial council elections in Afghanistan.201 The final audit, which includes lessons
Source: UN Secretary-General, “The Situation in Afghanistan
and Its Implications for International Peace and Security,”    learned, will be issued in the coming quarter.
3/10/2010, p. 15.




                                                                   78                     SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                    GOVERNANCE




ELECTORAL COMPLAINTS COMMISSION
On April 17, 2010, President Karzai announced that he had appointed a new                                                                    The ECC is responsible for adjudicating
Electoral Complaints Commission (ECC), including a new chief of the com-                                                                     all challenges and complaints related
mission. In his statement announcing the new appointments, President Karzai’s                                                                to the electoral process. It also has the
spokesperson emphasized his administration’s goal to appoint an all-Afghan                                                                   authority to impose sanctions if fraud or
ECC. However, to receive international support for the coming election,                                                                      other offenses have been committed and
President Karzai has agreed to allow two international members on the five-                                                                  is empowered to challenge the eligibility of
                                                                                                                                             nominated candidates.
person ECC, for now. The new international members of the ECC are from
South Africa and Iraq; both have served on national elections commissions in the                                                             Source: GIRoA, “Electoral Complaints Commission,” accessed
past.202 According to the UN, one of these two members must endorse a decision                                                               online 3/22/2010.

in order for the ECC to approve it as a group.203
   This change in the ECC’s composition followed President Karzai’s February
decree that modified the Afghan Electoral Law. That decree required that all
members of the ECC be Afghan and appointed by the Afghan president.204 Before
that decree, the ECC had been appointed jointly by the Afghanistan Independent
Human Rights Commission (one commissioner), the Afghan Supreme Court (one
commissioner), and the UN Assistance Mission in Afghanistan (UNAMA) (three
commissioners).205
   Discussing the changes to the electoral law, the UN Secretary-General empha-
sized, “It is important that decisions regarding the electoral process be made
within the framework of the broadest possible consultations across the political
spectrum, including with the opposition and civil society, in order to ensure the
independence and credibility of the electoral process.”206
   In late March 2010, the Wolesi Jirga voted to reject President Karzai’s presi-
dential decree.207 However, a vote in the Meshrano Jirga (the upper house of the
National Assembly) upheld the changes to the law. According to the UN Special
Representative to Afghanistan, these conflicting votes resulted in a “potential
standstill” for the September 2010 elections.208 Following the decision to include
two members of the international community on the ECC, the UN recommended

TABLE 3.5


STATUS OF AFGHAN ELECTION REFORM
Recommended Reform                                                         Date of Action       Reform Action
Appoint members of the IEC who will improve its independence,              4/17/2010            President Karzai appointed a new chairman to the IEC. The international community has
impartiality, and credibility.                                                                  supported his choice.
Appoint a new Electoral Complaints Commission (ECC), includ-               4/17/2010            President Karzai has appointed a new ECC. In order to receive international support for the
ing international members, in consultation with independent                                     coming election, he has allowed two of the five members of the ECC to be international.
parties to increase trust in the institution.
Take measures to safeguard the authority and independence of               4/17/2010            The ECC used to be jointly appointed by the Afghanistan Independent Human Rights
the ECC.                                                                                        Commission, the Afghan Supreme Court, and the UN Assistance Mission in Afghanistan.
                                                                                                Members are now political appointees of the President of Afghanistan.
Enforce remedial action against individuals involved in fraud in           2/4/2010             The IEC will not rehire approximately 6,000 workers who were employed at polls where
the 2009 elections.                                                                             significant fraud was reported in 2009.
Sources: UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 3; UN, “Transcript of Press Conference in Kabul by Steffan de
Mistura, Special Representative of the United Nations Secretary-General for Afghanistan,” accessed online 4/19/2010; GIRoA Office of the President, “President Karzai Appoints New Chief for Elections
Commission,” 4/17/2010.




                   REPORT TO THE UNITED STATES CONGRESS                         I   APRIL 30, 2010                           79
                                             GOVERNANCE




                                             that the international community release funds for the elections.209 DoS reported
                                             that the changes in the election law and the subsequent debate about these
                                             changes have already delayed the organization of large-scale support for the
                                             coming elections.210

                                             Public Administration Reform
                                             In his November 2009 inaugural address, President Karzai proposed an ambitious
                                             agenda for his administration. He discussed improved relations with neighboring
                                             countries, reintegration, economic development, and larger responsibilities for
                                             Afghan security forces. According to the new U.S. strategy, the successful imple-
                                             mentation of this agenda depends on the GIRoA’s ability to improve governance
                                             and provide reliable public services.211

                                             National Assembly
Afghan President Hamid Karzai and the        The Afghan Electoral Law of 2004 provides for a National Assembly, comprising
provincial governor of Helmand meet with     a 102-seat upper house called the Meshrano Jirga and a 249-seat lower house
Marjah residents. This area was under the
                                             called the Wolesi Jirga.212 According to DoS, both houses have trouble maintain-
control of insurgents until March 2010.
The new U.S. strategy focuses on assisting
                                             ing a quorum because of the indifference of their members; however, it is not
the GIRoA in building government capacity    possible to count the number of days for which each house maintained a quorum
throughout Afghanistan. (NATO photo)         because Assembly records are inadequate.213
                                                 The United States provides assistance to the National Assembly through the
                                             Afghanistan Parliamentary Assistance Program, according to DoS.214 USAID
                                             reported that this program works to bolster the National Assembly’s institutional,
                                             technical, and political development. Activities connected with the Parliamentary
                                             Assistance Program include the following:215
                                             t Develop the institutional capacity of the National Assembly to provide effec-
                                                 tive and efficient legislative support services to its members.
                                             t Strengthen the ability and capacity of members of the National Assembly to
                                                 perform their legislative functions and responsibilities.
                                             t Build linkages between the National Assembly, executive branch, civil
                                                 society, non-governmental organizations, and the media.
                                             t Provide technical assistance to key legislative committees: international affairs,
                                                 legislative affairs, economic affairs, legal affairs, finance and budget, and justice.
                                             t Increase the number of public forums in which Afghan citizens and their
                                                 elected representatives can interact.
                                             Although this program was scheduled to be completed in October 2009, DoS
                                             reported this quarter that interaction between program personnel and National
                                             Assembly members is ongoing.216 DoS also reported that the U.S. Embassy Kabul
                                             is in regular contact with members of the National Assembly to discuss recon-
                                             struction initiatives.217

                                             MESHRANO JIRGA
                                             The Meshrano Jirga seats are appointed. The Afghan president appoints one-
                                             third of the members, elected Provincial Councils appoint one-third, and District




                                               80                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




Councils appoint the remaining one-third. Because the president appoints such
a large percentage of the upper house, its members tend to be more loyal to the
president than do members of the Wolesi Jirga, who are all elected. However,
according to DoS, this loyalty is far from guaranteed.218

WOLESI JIRGA
The Wolesi Jirga seats are elected positions. Elections for these seats are
scheduled for September 2010.219
   Like the Meshrano Jirga, the Wolesi Jirga has many factions; forming coali-
tions is difficult. Without coalitions, the president cannot advance the agenda of
his administration.220 Although a small group of Wolesi Jirga members are consid-
ered loyal to President Karzai, DoS reported that his popularity with the Wolesi
Jirga has waned.221

Sub-National Governance Policy
On March 22, 2010, the Afghan Presidential Cabinet approved a new Sub-National
Governance Policy that outlines measures to improve the accountability and
performance of government appointees. Under this policy, each sub-national
government entity will be required to adopt and follow a written code of conduct.
Provincial governors and councils will be responsible for monitoring conduct
and performance within these organizations. According to DoS, the Sub-National
Governance Policy is a good first step. DoS will support the Independent
Directorate of Local Governance and the Civil Service Commission as they
implement the policy.222
   As noted in SIGAR’s January report, the Sub-National Governance Policy
was also expected to dictate that district administrators be appointed based on
merit.223 However, before the policy was approved, the issue had already been
addressed: the Independent Directorate of Local Governance had obtained a
presidential decree stating that deputy governors and district administrators
(also called sub-governors) would be appointed through a merit-based process
led by the Civil Service Commission.224

U.S. Support for Public Administration Reform
The new U.S. strategy focuses on helping the GIRoA become more capable
of providing its own package of government services.225 Programs like the
Performance-Based Governors’ Fund, the Civilian Technical Assistance Plan
(CTAP), and the Afghanistan Municipal Strengthening Program provide the GIRoA
with public administration assistance to help it begin to provide these services.

PERFORMANCE-BASED GOVERNORS’ FUND
On January 20, 2010, the U.S. Ambassador to Afghanistan joined with the
GIRoA and international community members to launch the Performance-
Based Governors’ Fund. Through this fund, local governors who do not




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010       81
GOVERNANCE




receive adequate funds from the GIRoA may receive support for services in six
categories:226
t transportation
t maintenance of public facilities
t information and communication technologies
t capacity building
t community outreach
t procurement of vehicles, office equipment, generators, and fuel

    According to USAID, disbursement of funds for the program began on March 21,
2010, with the start of the new Afghan fiscal year. Prior to disbursement of any
funds, governors were required to submit a budget outlining planned expendi-
tures in each of the categories.227
    All materials paid for with monies from the Performance-Based Governors’
Fund must be purchased through an embedded implementing partner, which
is required to follow U.S. government acquisition regulations. USAID reported
that funds are monitored through a provincial officer working with the gover-
nor’s office, a Web site with detailed monthly budget and expenditure reports,
and coordination with the local PRT officers in each province. At the end of the
first quarter of disbursement, a formal performance assessment is scheduled to
review expenditures.228
    Although all purchases are completed through U.S. channels, the
Performance-Based Governors’ Fund program does not advise governors on
planning expenditures. USAID reported that PRT personnel are encouraged to
discuss purchase decisions with governors to avoid duplication of purchases and
may advise governors if approached with questions.229

CIVILIAN TECHNICAL ASSISTANCE PLAN
The purpose of the CTAP is to support a more capable, accountable, and effective
government in Afghanistan by providing the GIRoA with greater control over the
hiring of technical advisors for ministries, according to USAID.230
   Although the program started in October 2009, the GIRoA is expected to begin
hiring and placing advisors in April 2010. USAID reported that positions are cur-
rently being advertised, and capacity-building plans are under way. As of March
31, 2010, USAID had provided $1 million to the Plan; it has pledged an additional
$29 million over the coming year.231

AFGHANISTAN MUNICIPAL STRENGTHENING PROGRAM
The goal of the Afghanistan Municipal Strengthening Program is to provide
municipalities with capacity-building assistance and resources, according to
USAID. The program aims to support mayors and municipalities in providing
these essential public services:232
t water and power management
t sanitation




  82               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                        GOVERNANCE




t   safe roads
t   parks and urban greenery
t   solid waste management
t   ditch cleaning
t   youth activities
                                                                                      FIGURE 3.30

   As of March 31, 2010, the Municipality Strengthening Program covers 11             CITIES IN THE AFGHANISTAN MUNICIPAL
municipalities, as shown in Figure 3.30. The program is set to end in July 2010.      STRENGTHENING PROGRAM
A new municipality program is currently in procurement and has yet to be
awarded, but USAID reported that it does not expect a gap between the conclu-
sion of the older program and the beginning of the new program.233

Afghan Census
This quarter, the UN emphasized the importance of national census information
for countries emerging from conflict. The UN reported that census data was
“crucial” for national development strategies and public administrative reform.234
The Afghanistan National Development Strategy of 2008 also acknowledged
the importance of a national census, which would allow the GIRoA to establish
national economic and poverty baselines.235
   As of June 2009, the U.S. Census Board, which provides estimated popula-
tions for every country in the world, put the 2010 population of Afghanistan at       Note: Cities in the program are provincial capitals.
                                                                                      Source: USAID, response to SIGAR data call, 4/6/2010.
29.1 million. However, this estimate is based on incomplete census data from
1979, with supplementary partial surveys done in 2005 and 2006.236 A complete
census of the Afghan population has never been carried out.237
   The Afghan Central Statistics Organization is responsible for compiling popu-
lation and housing census information, with support from the UN Population
Fund.238 As of April 6, 2010, DoS reported that the complete Afghan census
planned for 2010 will not take place this year. According to DoS, the cancella-
tion is not a surprise: a census has been announced and canceled every year
since 2004.239

JUDICIAL REFORM AND RULE OF LAW
The new U.S. strategy identified reform and expansion of the Afghan justice          DoS reported that in areas outside GIRoA
system as crucial to gaining the trust of the Afghan people: “The limited, un-       control, the Taliban runs its own judi-
responsive, and unreliable nature of the Afghan justice system is a central source   cial system. Past punishments for those
of Afghans’ grievances with their government and has opened the door to Taliban      convicted include the removal of fingers,
‘shadow governance.’”240 The U.S. strategy also noted that as long as Afghans        beatings, hangings, and beheadings. In May
view GIRoA justice as weak or predatory, alternative (Taliban) justice will          2009, a Taliban leader reportedly issued
                                                                                     a decree prohibiting court-issued behead-
continue to be accepted.241
                                                                                     ings; however, reports indicate that Taliban
   According to the UN Secretary-General, credible judicial and penal systems
                                                                                     courts continue to mete out beheadings as
are an indicator of progress; credible judicial and penal systems must respect       punishments.
and uphold human rights and be accessible to all Afghan citizens.242 As reported
by the U.S. Bureau of International Narcotics and Law Enforcement Affairs            Source: DoS, “2009 Country Reports on Human Rights
                                                                                     Practices: Afghanistan,” 3/11/2010.
(INL), the Afghan criminal justice system includes several ministries and GIRoA
offices, which are responsible for different parts of the justice system:243



             REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010      83
GOVERNANCE




t   Ministry of Interior: police force
t   Attorney General’s Office: prosecutors
t   Supreme Court: judges
t   Ministry of Justice: defense attorneys and corrections officials

U.S. Programs
U.S. aid to the Afghan judicial system focuses on assisting the GIRoA in “creating
predictable and fair dispute resolution mechanisms.”244 The new U.S. strategy in
Afghanistan aims to complement both ISAF assistance to the Afghan National
Police and Afghan-led anti-corruption programming.245
   USAID reported this quarter that it is planning to provide $25 million to sup-
port traditional and informal justice sector programming in Afghanistan. The
funding is expected to be available for the justice sector starting in April 2010.246

U.S. Justice Sector Support Program
The Justice Sector Support Program (JSSP), which works under INL, is designed to
assist Afghanistan in developing and strengthening criminal justice sector institu-
tions and justice sector professionals. Since its launch in 2005, the JSSP has grown
to include more than 60 U.S. and Afghan advisors in Kabul and 4 other provinces.247
   During this quarter, the JSSP worked toward expanding its Provincial Justice
Conference program, which assists provincial officers in improving the rule of
law within their province. This program introduces relevant provincial leadership




An advisor for the JSSP, right, discusses the current judicial situation in Farah with Chief Judge
Abdul Hanif Ubiad. (ISAF photo, U.S. Air Force SrA Rylan K. Albright)




     84                SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




to leaders in key Afghan ministries and provides them with detailed briefings        FIGURE 3.31

on the Afghan Constitution and other relevant data for that province. The JSSP
                                                                                     AFGHAN TRIAL PROCEDURE
then follows up with the provincial leadership to offer judicial trainings in the
province. Quick-impact projects are also offered to help the province improve
its rule of law. According to DoS, all Provincial Justice Conference programming
is coordinated with PRTs and ISAF leadership within the province. During this                         TRIAL PROCESS
quarter, the JSSP conducted Provincial Justice Conference programs in Badghis,
Helmand, Kunar, Paktiya, Parwan, and Wardak.248
                                                                                                           Defendant
    As of March 31, 2010, the JSSP was active in five regional training centers.                           In custody
According to DoS, two additional training centers are awaiting JSSP assistance,
but progress has slowed because the JSSP has not received its updated task                              Primary Court
order. DoS reported that all relevant paperwork for the task order was submitted                     Must hear trial within
                                                                                                         two months
on time (before February 28, 2010), but INL will not be able to expand program-
ming until the task order is officially awarded.249
    Also this quarter, the JSSP established a Gender Justice Awareness Section.                       Appellate Court
                                                                                                   Must review case within
Its purpose is to increase gender issue expertise within the Kabul JSSP team.250                         two months


Criminal Procedure Code                                                                                                        NOT
According to DoS, implementing the Criminal Procedure Code (CPC) would lay                 GUILTY                             GUILTY
                                                                                                            Verdict
the foundation for improving the Afghan justice system in 2010. However, limited
staff availability and a newly appointed leader for the Ministry of Justice may
result in slower implementation of CPC requirements.251                                    Defendant                        Case
   The new minister has begun drafting policies and legislation. However, DoS             incarcerated                     dropped

expressed concerns that the minister is “not very reform-minded and does not
see the value in changing the current laws.”252 According to DoS, the minister            Either party                   Either party
                                                                                          may appeal                     may appeal
delayed the release of President Karzai’s anti-corruption decree for several days
until it had been redrafted to his specifications. In addition, DoS reported that
the new minister dislikes the draft CPC and believes that the old CPC had greater
procedural logic than the new edition.253
                                                                                                    APPEALS PROCESS
                                                                                            Defendants declared not guilty at trial
Afghan Court System                                                                         may be detained until the case moves
                                                                                                through all levels of appeals.
Afghan court trial procedures “rarely meet internationally accepted standards,”
according to DoS, and the implementation of justice varies greatly depending
on the area of the country.254 Because there is no right to a jury trial under the                      First Appeal
                                                                                                 Must be filed within 20 days
Afghan Constitution, almost all verdicts are determined by judges. Although a
defendant does have the right to appeal his or her case, DoS reported that these
rights were not always applied within the courts. The severe shortage of defense                       Second Appeal
                                                                                                 Must be filed within 30 days
attorneys makes it difficult for the Afghan courts to comply with the constitu-
tional requirement that all defendants have the right to an attorney.255
                                                                                                   Supreme Court Ruling
   Figure 3.31 illustrates the trial process in greater detail. According to                    Must be determined within five
DoS, if judicial personnel do not meet a filing date for a case, then the case                    months of receiving case

is dropped. In March 2010, DoS reported that courts often did not meet the
necessary deadlines.256
   The Afghan Supreme Court is responsible for the national court system.            Source: DoS, “2009 Country Reports on Human Rights
Supreme Court members are appointed by the Afghan president with approval            Practices: Afghanistan,” 3/11/2010.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010        85
GOVERNANCE




from the Wolesi Jirga. Appellate court judges are recommended by the Supreme
Court and approved by the Afghan president.257
   DoS reported that the lack of qualified judicial personnel continues to hinder
the development of the Afghan justice system. A substantial shortage of Afghan
judges and prosecutors makes it difficult to handle the large volume of new and
amended legislation within the country.258
   In the 2009 DoS “Country Report on Human Rights Practices,” the Afghan
Supreme Court reported that Afghanistan had only 77 judges in 2009, including
7 female judges.259 However, in the 2008 edition of that report, the Supreme Court
had reported that Afghanistan had 1,652 judges, including 189 women. Many
representatives of the judicial community were said to lack legal training.260
   SIGAR has issued three audits in the justice sector:261
t “Actions Needed for a More Strategic Approach to U.S. Judicial Security
   Assistance,” December 2009
t “Documenting Detention Procedures Will Help Ensure Counter-Narcotics
   Justice Center Is Utilized as Intended,” September 2009
t “Actions Needed To Resolve Construction Delays at the Counter-Narcotics
   Justice Center,” August 2009

Afghan Corrections System and Prison Reform
As of March 11, 2010, according to DoS, Afghanistan’s Ministry of Justice
Central Prison Directorate had 34 provincial prisons and 203 known district
detention centers. DoS also reported 30 known juvenile rehabilitation centers.
As of April 19, 2010, DoS had no official information on the number of facili-
ties of the Afghan National Directorate of Security being maintained within
Afghanistan or on the number of prisoners in these facilities.262




A U.S. Army Staff Sergeant fingerprints a detainee in Helmand. U.S. and international
personnel are training Afghan prison staff in biometrics, including fingerprinting techniques.
(U.S. Air Force photo, SSgt Christine Jones)




   86                 SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                                              GOVERNANCE




   INL reported that the GIRoA has taken steps to improve prisons; however,
conditions remain poor.263 Most correctional facilities, particularly detention
centers run by the Ministry of Interior, have been described as “decrepit, severely
overcrowded, and unsanitary,” as reported by DoS. The facilities have not met
international standards. Some common problems include the following:264
t inadequate food and water
t poor sanitation facilities
t insufficient blankets
t infectious diseases                                                                                                    FIGURE 3.32


   To improve conditions, the international community, led by the U.S.                                                    STATUS OF DETAINEES, 2006–2009
Corrections System Support Program (CSSP), has been providing training and
mentoring programs for provincial prison staff.265 This quarter, UNAMA observed
that this assistance has helped to improve prison operations.266 In March, DoS                                            2006                          56%    44%
reported that the Ministry of Justice and the Central Prison Directorate are work-
ing to improve conditions for workers and prisoners, in an attempt to comply
                                                                                                                          2007                          56%    44%
with international standards. Between 2006 and 2009, the number of detainees
in Afghanistan increased from 9,604 to 14,857.267 Figure 3.32 indicates a small but
steady decline in the percentage of detainees imprisoned but awaiting trial.                                              2008                            63%       37%
   INL reported several challenges that limit the ability of the GIRoA to improve
prison facilities. Table 3.6 identifies the problems facing the GIRoA and those facing                                    2009                                 71%     29%
the United States as it assists the GIRoA in developing the prison system.
   In January 2010, seven GIRoA institutions involved in criminal justice in                                                     0       20        40          60         80          100
Afghanistan signed a memorandum of understanding for detainees currently
held in the detention facility in Parwan. According to the memorandum, the                                                               Tried and Convicted         Awaiting Trial
facility will be transferred to GIRoA control in 2012. At that time, the GIRoA                                            Sources: DoS, “2009 Country Reports on Human
will conduct investigations, trials, and prosecutions for these national security                                         Rights Practices: Afghanistan,” 3/11/2010; DoS, “2008
                                                                                                                          Country Reports on Human Rights Practices: Afghanistan,”
detainees.268 In his quarterly report, the UN Secretary-General emphasized the                                            2/25/2009; DoS, “2007 Country Reports on Human Rights
                                                                                                                          Practices: Afghanistan,” 3/11/2008; DoS, “2006 Country
importance of humane treatment and fair trial for all detainees.269                                                       Reports on Human Rights Practices: Afghanistan,”
                                                                                                                          3/6/2007.


TABLE 3.6


CHALLENGES TO AFGHAN PRISON REFORM
Government Body           Challenge
GIRoA                     Budgetary shortfalls
                          Severe overcrowding in most prison facilities
                          Lack of capacity
                          Lack of infrastructure to separate insurgent inmates from common criminals in most facilities
United States             Difficulties in expanding the CSSP program into new provinces
                          Security
Sources: INL, response to SIGAR vetting, 4/19/2010.




                  REPORT TO THE UNITED STATES CONGRESS                    I   APRIL 30, 2010                    87
                                                      GOVERNANCE




                                                      Treatment of Prisoners and Detainees
Traditionally, children younger than six often        According to DoS, although the use of torture has been reported throughout
lived in prison with their mothers. DoS re-           the law enforcement system, police officers are the perpetrators named most
ported that this practice has occurred less           often.270 The Ministry of Women’s Affairs has expressed concerns about the
often in recent years under the authority of          treatment of prisoners. According to DoS, the ministry has reported that law
the Central Prison Directorate. Now children          enforcement officials frequently rape female detainees and prisoners.271 In
of imprisoned mothers often live at the
                                                      addition, the Afghanistan Independent Human Rights Commission (AIHRC)
Children’s Center Home in Kabul, which is
                                                      has reported mistreatment of children in detention centers, noting that they
operated by a local non-governmental orga-
nization called Women for Afghan Women.
                                                      are often exposed to physical abuse. The International Committee of the Red
                                                      Cross confirmed the poor conditions for children in these centers, reporting that
Source: DoS, “2009 Country Reports on Human Rights
Practices: Afghanistan,” 3/11/2010, accessed online   juvenile detainees were mistreated and threatened throughout 2009.272
3/18/2010.


                                                      U.S. Corrections System Support Program
                                                      The goal of the CSSP is to assist the GIRoA in creating a safe, organized, and mod-
                                                      ern prison system capable of housing and rehabilitating prisoners in the justice
                                                      system.273 INL reported that most CSSP programming is still conducted ad hoc;
                                                      these programs include education training in four women’s prisons, development
                                                      of the prison industry in two provincial prisons, and educational and recreational
                                                      support in two provincial prisons. A renovation of an industrial building at another
                                                      prison is also planned. INL reported that in the future, programs will continue to
                                                      respond to specific prison facility needs; however, the CSSP is planning to focus
                                                      most of its efforts on prison industry and on vocational and educational training.274
                                                         In addition to the 33 team members working across provinces, the CSSP
                                                      expanded this quarter to include a 15-member team focused on deradicalization,
                                                      reintegration, and rehabilitation, with an emphasis on inmates who are con-
                                                      nected with the insurgency. The CSSP also added a juvenile detention advisor to
                                                      the team this quarter; INL reported that the advisor was added because the CSSP
                                                      is planning to expand support to the Afghan Juvenile Rehabilitation Directorate,
                                                      which oversees all juvenile rehabilitation centers for the Ministry of Justice.275
                                                         The CSSP is supporting the implementation of a case management system
                                                      for Afghan prisons. The system would help the Central Prison Directorate track
                                                      information about prisoners, including the types of crimes committed. As of
                                                      April 19, 2010, INL reported that 6,388 case files had been reviewed under the
                                                      case management system.276
                                                         Also this quarter, the CSSP is supporting a prison biometric initiative, led
                                                      jointly by INL and the U.S. Federal Bureau of Investigation. The initiative is
                                                      based in the Pol-i-Charkhi prison in Herat and the Sarposa prison in Kandahar.
                                                      As of April 19, 2010, approximately 6,700 inmates and 99 staff members were
                                                      enrolled. The CSSP is providing logistical support, collaborating with the
                                                      Central Prison Directorate, and assisting the Federal Bureau of Investigation in
                                                      conducting training for prison staff in fingerprinting techniques.277




                                                        88                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




Anti-Corruption
Corruption continues to be a serious concern in Afghanistan, according to the                    “President Karzai’s
UN Secretary-General.278 USAID reported that corruption in Afghanistan exists
                                                                                                  inaugural address
on two levels: corruption of lower-level government officials and corruption of
senior-level officials and their political allies or extended families.279 Lower-level        highlighted the need to
corruption has been encouraged by the limited supply of some goods. According                   significantly reduce
to USAID, the lack of improvement in government salaries can tempt govern-                   corruption by improving
ment officials to seek illegal income.280                                                    the legitimacy, transpar-
   USAID reported that senior-level corruption is particularly prevalent in the
construction and security industries. In both industries, the investment structure
                                                                                             ency, and accountability
supports contracting with a limited pool of firms. Contract awards are often con-             of government officials
trolled by upper-level officials in the GIRoA or the National Assembly, which can               and institutions. His
also lead to corruption.281                                                                     words must now be
   As noted in SIGAR’s January 2010 quarterly report, Transparency International
ranked Afghanistan’s perceived corruption as the second worst in the world
                                                                                               matched with action.”
(179 of 180 countries ranked) in 2009.282 This is a lower ranking than Afghanistan           —U.S. Afghanistan and Pakistan
received in 2008, when it was ranked 176 of 180.283 DoS pointed out that the                  Regional Stabilization Strategy
Transparency International ranking is not the only corruption indicator. Data
collected by the Asia Foundation showed that the number of Afghans who dealt             Source: DoS, “Afghanistan and Pakistan Regional Stabilization
                                                                                         Strategy,” 1/21/2010, p. 7.
with corruption in their daily lives was fairly constant between 2006 and 2009.284
   In an audit report issued April 9, 2010, SIGAR reviewed the strength of the
Afghanistan Control and Audit Office (CAO), the office responsible for auditing
the government’s financial matters. SIGAR found that the CAO’s weak legislative
framework does not provide it with sufficient independence or authority to serve
effectively as Afghanistan’s supreme audit institution.285 For SIGAR’s recommen-
dations and details on the audit findings, see Section 2.
   At the London conference, the GIRoA pledged to improve anti-corruption                In response to GIRoA commitments made
efforts in 2010. Improving efforts would include taking the following action:286         at the London conference, the international
t issuing a decree that will give the High Office of Oversight (HOO) the power          community has pledged to support anti-
   to investigate and sanction corrupt officials                                         corruption measures, including these two:
t establishing a statutory basis for anti-corruption bodies, including the              r work with proposed GIRoA anti-corruption
                                                                                           organizations to review procedures and
   Major Crimes Task Force and the Anti-Corruption Tribunal, as a means of
                                                                                           investigate instances of corruption that
   guaranteeing their long-term independence
                                                                                           involve non-Afghans
t enhancing the effectiveness of the senior civil service appointments and
   vetting process and revising the civil service code
                                                                                         r work with the GIRoA to improve procure-
                                                                                           ment processes, including establishing
t adopting a legislation agenda to make Afghan laws consistent with the UN                additional measures to ensure due
   Convention Against Corruption, including the Anti-Corruption Penal Code,                diligence in international contracting
   which is expected to expand provisions related to asset declaration                     procedures
In March 2010, President Karzai issued a decree that criminalized political
                                                                                         Source: London Conference on Afghanistan, “Communiqué,”
interference and obstruction of justice. The decree also greatly expanded the            1/28/2010.

powers of the HOO, as the GIRoA had pledged to do.287
   Also at the London conference, the GIRoA agreed to invite Afghan and other
anti-corruption experts to participate in an ad hoc monitoring and evaluation
mission. The mission will make its first monitoring visit before the end of April
2010. Its purpose will be to develop clear and objective benchmarks for progress



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010           89
                                                        GOVERNANCE




                                                        TABLE 3.7


                                                        PROPOSED U.S. ANTI-CORRUPTION STRATEGY PILLARS
                                                        Pillar                 Pillar Goals
                                                        First                  Help the GIRoA improve the transparency and accountability of its institutions to reduce
                                                                               corrupt practices.
                                                        Second                 Help the GIRoA improve financial oversight.
                                                        Third                  Help the GIRoA build judicial capacity to investigate, prosecute, punish, and/or remove corrupt
                                                                               officials from power.
                                                        Fourth                 Help the GIRoA and civil society organizations educate and empower the public to participate in
                                                                               transparent and accountable governance.
                                                        Source: U.S. Embassy, “U.S. Government Anti-Corruption Strategy for Afghanistan,” 2009, pp. 10–11.




                                                        and prepare periodic reports on national and international activity for the Afghan
                                                        president, the National Assembly, and the Afghan people, as well as the interna-
                                                        tional community.288

                                                        U.S. Support for Anti-Corruption Efforts
According to USAID, corrupt government                  The proposed U.S. anti-corruption strategy for Afghanistan focuses on support-
officials play an important role in sup-                ing Afghan efforts to fight corruption in coordination with the international
porting the illegal narcotics industry in               community. According to the U.S. Embassy Kabul, corruption weakens the U.S.
Afghanistan.                                            counter-insurgency effort by undermining security, development, and rule of law
Source: USAID, response to SIGAR data call, 4/8/2010.
                                                        objectives; challenging the legitimacy of the GIRoA; and supporting Afghanistan’s
                                                        illicit drug trade.289 Table 3.7 identifies the four pillars of the proposed strategy,
                                                        which work in concert with international anti-corruption policies.290
                                                            U.S. support for such efforts in the past has included the creation of several
                                                        anti-corruption institutions, including the Major Crimes Task Force, the Anti-
                                                        Corruption Unit of the Office of the Attorney General, and the Anti-Corruption
                                                        Tribunal. The U.S. government has also endeavored to provide support for the
                                                        HOO since its establishment in 2008.291 DoS reported that expanded U.S. sup-
                                                        port is planned for the Anti-Corruption Unit, the Major Crimes Task Force, the
                                                        Criminal Justice Task Force, and the HOO, among others.292

                                                        ANTI-CORRUPTION UNIT
                                                        The Anti-Corruption Unit resides within the Afghan Attorney General’s office.
                                                        According to the new U.S. strategy, U.S. goals related to the Anti-Corruption Unit
                                                        are to “strengthen the audit and oversight capabilities of the Attorney General’s
                                                        office.”293 Most U.S. assistance to the Unit comes through INL. As of April 6, 2010,
                                                        INL had assisted the Unit in prosecuting two cases this year; both prosecutions
                                                        resulted in incarceration. INL is assisting the Unit with 30 additional indictments.
                                                        INL plans to provide the Unit with salary supplements, technical assistance, and
                                                        an administrative support unit.294




                                                            90                         SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




MAJOR CRIMES TASK FORCE
The Major Crimes Task Force, operating within the Ministry of Interior, is
composed of special investigators from the ministry, the National Directorate of
Security, and the Anti-Corruption Tribunal. The task force has been operational
only since January 2010. According to DoS, although the task force has not yet
registered any indictments or convictions, it is conducting several active investi-
gations and has made a number of high-profile arrests.295
   The U.S. government supports the Major Crimes Task Force through INL,
the Department of Justice, and DoD. INL provides technical, financial, and
advisory support for the task force, working closely with the Federal Bureau of
Investigation, the Department of Justice, and DoD to identify additional needs.296

CRIMINAL JUSTICE TASK FORCE
According to DoS, INL provides support for the Criminal Justice Task Force,
which focuses on narcotics and narcotics-related corruption. The task force
also works to provide those arrested with fair and open trials. U.S. support is
primarily financial; funding is provided to train senior federal prosecutors and
experienced law enforcement officers.297

HIGH OFFICE OF OVERSIGHT
In July 2008, President Karzai established the HOO to oversee and coordinate
national anti-corruption efforts, in accordance with requirements under the
Afghanistan National Development Strategy.298 The HOO oversees corruption
prevention, planning and implementation of anti-corruption efforts, and investi-
gations and prosecutions.299
   In December 2009, SIGAR published an audit report of its review of the
institutional development of the HOO, its capabilities and performance, and U.S.
and international support for the office.300 For details, see SIGAR’s January 2010
quarterly report (www.sigar.mil).
   This quarter, USAID reported that it is finalizing a $30 million, three-year
program to support the HOO; it plans to launch the program by mid-2010. The
program is expected to assist the HOO in completing the following tasks:301
t developing and implementing effective institutional planning and
   development
t carrying out duties in priority areas, such as asset registration and verifica-
   tion, complaints management, and case tracking
t establishing a sub-regional presence
t creating a public awareness campaign
t helping refurbish the necessary physical space for the HOO


HUMAN RIGHTS
On March 11, 2010, DoS issued its annual report on human rights, in which it
said that the human rights record in Afghanistan “remained poor.”302 The report
described a wide range of human rights abuses in Afghanistan. They include




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010        91
                                                         GOVERNANCE




                                                         “extrajudicial killings, torture, poor prison conditions, official impunity, pro-
  Refugee: The Office of the United Nations              longed pretrial detention, restrictions on freedom of the press, restrictions
  High Commissioner for Refugees (UNHCR)                 on freedom of religion, violence and societal discrimination against women,
  uses the definition created by the 1951                restrictions on religious conversions, abuses against minorities, sexual abuse of
  Refugee Convention: a refugee is a person              children, trafficking in persons, abuse of worker rights, the use of child soldiers
  who, “owing to a well-founded fear of being            in armed conflict, and child labor.”303
  persecuted for reasons of race, religion,
  nationality, membership of a particular
  social group or political opinion, is outside
                                                         Refugees and Internally Displaced Persons (IDPs)
                                                         According to DoS, Afghanistan has had one of the largest populations of
  the country of his nationality, and is un-
                                                         repatriated refugees in the world for the last 30 years. Since 2002, more than
  able to, or owing to such fear, is unwilling
  to avail himself of the protection of that             5 million Afghan refugees have returned to the country; 4.4 million of those
  country.”                                              returning received assistance from the UN High Commissioner for Refugees
                                                         (UNHCR).304 As of April 20, 2010, no new data was available on the overall
  Internally Displaced Person: UNHCR                     number of Afghan refugees still residing outside Afghanistan.
  defines internally displaced persons as                   On March 24, 2010, the government of Pakistan endorsed a new Strategy
  follows: “Unlike refugees, IDPs have not               for the Management of Afghans in Pakistan, which entails issuing new Proof
  crossed an international border to find                of Registration cards for Afghan refugees that will be valid until 2012. The new
  sanctuary but have remained in their home              strategy also extends the gradual repatriation agreement between the UNHCR,
  countries. IDPs legally remain under the               Pakistan, and Afghanistan for another three years.305
  protection of their own government—even                   The following day, March 25, the Pakistani government extended the
  when that government is the reason for
                                                         validity of recently expired refugee registration cards for more than 1.7 million
  their flight. As citizens, they retain all their
                                                         Afghan refugees. According to the UN, Pakistan has been registering Afghan
  rights and protections under human rights
                                                         refugees since 2006 and maintains the largest refugee population of any country
  law and international humanitarian law.”
                                                         in the world.306
                                                            The UN estimates that there are about 296,000 internally displaced persons
Sources: UNHCR, “Refugees,” accessed online 3/22/2010;   (IDPs) in Afghanistan. Displacement continues, especially in conflict areas in
UNHCR, “Internally Displaced Persons,” accessed online
3/22/2010.                                               the south and west.307 In March 2010, DoS reported that approximately 62,000
                                                         Afghans were newly displaced in 2009.308 Table 3.8 lists some of the events that
                                                         caused the increase.

                                                         TABLE 3.8


                                                         RECENT EVENTS THAT CONTRIBUTED TO IDP POPULATION IN AFGHANISTAN, 2009
                                                         Event                                                                                    Number of IDPs created
                                                         Insecurity and violence caused by armed conflict in region of origin                     45,000 individuals
                                                         Tribal, ethnic, or land disputes                                                         9,900 individuals
                                                         Drought                                                                                  6,600 individuals
                                                         Nangarhar earthquakes (4/17/2009)                                                        650 familiesa
                                                         a. No individual data reported.
                                                         Source: DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010.




                                                             92                            SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                       GOVERNANCE




Gender Equity
DoS has identified women’s empowerment as an issue “inextricably linked”
with the strengthening of security, improved economic opportunity, effective
governance, and social development.309 On January 29, 2010, DoS revealed a new
Women’s Action Plan for Afghanistan. The new plan will focus on bolstering
existing programs and initiating new ones, to support seven objectives to
improve conditions for women:310
t improve women’s and girls’ access to education
t support women’s security and the institutions that serve women
t encourage women’s leadership development in public and private sectors
t promote women’s access to formal and informal justice mechanisms and                 Afghan women learn to package harvested
   enforce existing laws and the constitutional guarantee of equality                   saffron from members of the Agribusiness
t improve women’s and girls’ access to health care                                     Development Team in Panjshir. The team is
t strengthen existing activities to support and expand economic development            conducting training programs designed to
                                                                                        empower women. (U.S. Army photo,
   opportunities for women
                                                                                        SGT Jo Lisa Ashley)
t increase women’s political empowerment and participation

   In observance of International Women’s Day 2010 (March 8), the AIHRC
issued a statement which conveyed concern about the state of women’s rights in
Afghanistan. It attributed many of the challenges within the country to illiteracy
and to limited education about human rights. According to the AIHRC, 60% of girls
are deprived of education. It also reported that at least two female social activists
were murdered in 2009, and no one has yet been prosecuted for the crimes.311
   According to INL, the CSSP gender advisor worked with the Central Prison
Directorate to plan special events for female prisoners this quarter, including a
celebration for International Women’s Day.312


Religious Freedom in Afghanistan
As noted in SIGAR’s January 2010 report, the Afghan Constitution establishes            The GIRoA assumes that all citizens born in
Islam as the religion of the state; it also requires that non-Muslim citizens be        Afghanistan are Muslim. Under Islamic law,
permitted to practice their religions within the legal guidelines of peace and          conversion from Islam to another religion is
public decency. However, the Constitution also states that no law can be created        punishable by death.
                                                                                        Source: DoS, “2009 Country Reports on Human Rights
that is contrary to the provisions and beliefs of Islam. According to DoS, the          Practices: Afghanistan,” 3/11/2010.
constitutional requirement that allows non-Muslims to practice religion freely is
not respected in practice.313
   Public school curriculum contains Islamic beliefs, in accordance with Article
45 of the Afghan Constitution. Non-Muslims are not required to take part in the
study of Islam, and parental religious instruction is not required by law. However,
because non-Muslims face continued harassment and social oppression, they
often choose to be discreet about their non-Muslim status. In March 2010, DoS
reported that the Afghan Ministry of Education had opened special schools for
Hindu and Sikh children in three provinces: Ghazni, Helmand, and Nangarhar.314




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010          93
           TITLE OF THE SECTION




“Hilibus aut aspedit liqui quam excese-
quam il experum re dolum ut ommodio
   ersped eaquas et moloritiis estium
  expeles totaspe llacepel eateceatus
 rem qui velit dolenis quosa num con-
 sequam, quiati bearibuscia si ut eost,
omnihil modita nistia aut hitis que api-
 cia doluptatio es sed es ut ut aut estis
     dolor rerum que litiorepudae”
                                                          —Person of Interest




           Source: Mil ilique cusant laute nonsequi volorum nulpari busam, tem. Nem quia numquid qui aut etur? Nimaionse net quiam, voloreruptis
           providit in reictem. Dem voloribusa delenihic temodis auteceritem qui il et res rem estist, tem cumqui qui reratento que consedis doluptatem




               94                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




ECONOMIC AND SOCIAL DEVELOPMENT
During this quarter, two important events strengthened the policy framework for
U.S. economic and social development projects in Afghanistan. The Afghanistan
and Pakistan Regional Stabilization Strategy released in January 2010 included
specific initiatives and milestones for the civilian surge announced by U.S. President
Barack Obama.315 And participants at the January 2010 London conference—
including the United States—reaffirmed their commitment to provide long-term
support for Afghanistan and its transition to full Afghan leadership.316
   Donors at the conference agreed with the plan of the Government of the
Islamic Republic of Afghanistan (GIRoA) to increase domestic revenues and
accelerate progress in agriculture, human resources, and infrastructure. Donors
also supported, in principle, the goal of increasing the amount of international
assistance channeled through GIRoA ministries to 50% of the total, if additional
reforms are made and measures are taken to deter corruption.317 According to
the Afghan Ministry of Finance (MoF), approximately 80% of all such assistance
bypasses the central government and is delivered through other entities.318

ECONOMIC GROWTH
Economic growth is key to achieving the U.S. goal of creating more job oppor-
tunities for Afghans. According to recent estimates from the International
Monetary Fund (IMF), Afghanistan’s real gross domestic product (GDP) is pro-
jected to grow by a healthy 15% for the year ending March 31, 2010, due largely
to record agricultural production.319 In his quarterly report to the United Nations
(UN) Security Council, the UN Secretary-General noted that an additional fac-
tor contributing to this growth was an estimated 61% increase in the amount of
goods and services procured locally by international donors.320
   In January 2010, the IMF estimated that growth in Afghanistan will remain
positive and average about 7% annually over the next five years. This scenario
assumes the following:321
t continued macroeconomic stability
t improvements in security, governance, and capacity building
t financial sector reform
t higher revenue collection
t privatization of some public enterprises
t development of the mining sector




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010          95
                                                             ECONOMIC AND SOCIAL DEVELOPMENT




The Paris Club is an informal forum of                          To strengthen its economic growth, Afghanistan participates in a number of
official creditors who meet to coordinate                    programs sponsored by the IMF, the World Bank, the Asian Development Bank,
their efforts to solve the payment difficul-                 and the Paris Club. These organizations provide debt relief, loans to the gov-
ties faced by debtor countries. The 19                       ernment at favorable rates, and technical assistance in financial management,
permanent members are Australia, Austria,                    among other services. They also provide key benchmarks to measure the out-
Belgium, Canada, Denmark, Finland,
                                                             comes of structural reforms and development assistance.322
France, Germany, Ireland, Italy, Japan,
the Netherlands, Norway, the Russian
Federation, Spain, Sweden, Switzerland, the                  Fiscal Policies under the PRGF
United Kingdom, and the United States.                       Since mid-2006, the GIRoA has been implementing an economic growth program
                                                             under the IMF’s Poverty Reduction and Growth Facility (PRGF).323 As noted in
Source: The Paris Club, “FAQs,” accessed online 4/20/2010.
                                                             the IMF’s sixth review under the PRGF, Afghanistan has made economic progress
                                                             despite a difficult environment. Inflation has been volatile but remains low, key
                                                             structural reforms have been implemented, monetary policy has been success-
                                                             ful, and revenue collection has improved.324 The IMF pointed out, however, that
                                                             although Afghanistan has made progress increasing revenue collection, much
  PRGF: an IMF program that provides low-
                                                             remains to be done to reach the point of fiscal sustainability.325 As of January 28,
  cost loans to the world’s poorest countries
  and assists them in making growth and                      2010, approximately 90% of Afghanistan’s national budget is financed externally
  poverty reduction central components of                    through resources other than domestic revenue collected by the government.326
  government policy and spending                             The IMF review noted that the GIRoA planned to increase domestic revenue
                                                             collection in 2009/2010 to 8.1% of GDP, or approximately Af 54.5 billion (approxi-
                                                             mately $1.13 billion). This is roughly comparable with its original 2009/2010
Source: IMF, Fact Sheet, “The Poverty Reduction and Growth
                                                             target of 7.3% of GDP. It also compares favorably with revenue collections over
Facility (PRGF),” 7/2009.                                    the past two years, which have averaged approximately 6.9% of GDP. The IMF
                                                             noted, however, that reaching this goal depends upon the GIRoA’s ability to fully
                                                             implement new tax and customs regimes.327
                                                                According to the U.S. Department of the Treasury (Treasury), there has
                                                             been a shift in sources for domestic revenue collection in Afghanistan. In
                                                             2003–2004, 54% of GIRoA revenue came from customs fees. By 2009–2010, that
                                                             share had declined to 34%, while 46% of total domestic revenue came
                                                             from direct taxes on corporations, income, and capital gains. The remaining
                                                             20% came from non-tax levies, such as mining royalties, licensing, and
                                                             aviation fees.328
                                                                A background paper that the World Bank prepared for the London con-
                                                             ference however, noted that increased security spending, which currently
                                                             accounts for 40% of GIRoA operating expenditures, is straining Afghanistan’s
                                                             budget. As a result of this and other factors, the IMF estimates that domestic
                                                             revenues will not equal government expenditures until 2023.329

                                                             Debt Relief
                                                             On January 26, 2010, the boards of the World Bank–International Development
                                                             Association (IDA) and the IMF agreed to support $1.6 billion in debt relief
                                                             for Afghanistan. In making this agreement, the IDA and IMF agreed that
                                                             Afghanistan had undertaken the structural reforms necessary to reach the
                                                             “Completion Point” under the enhanced Heavily Indebted Poor Countries




                                                               96                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




(HIPC) initiative.330 Reaching the Completion Point marks the end of a process
that will eventually result in the cancellation of 96% of the total debt inherited by     HIPC: a program developed jointly by the
Afghanistan’s current government.331 As part of this process, all of Afghanistan’s        IMF and the World Bank to significantly
Paris Club creditors—including the United States—announced the cancellation               reduce the external debt of poor countries,
of 100% of the debt Afghanistan owed to them.332                                          provided that they show a strong track
   In a background paper recommending approval of the $1.6 billion in debt relief,        record of structural and fiscal reform. The
IMF and IDA staff noted that the GIRoA had demonstrated progress in carrying              Completion Point refers to the point at
out a number of HIPC-related structural reforms, including the following:333              which a country receives most of its HIPC
t maintaining a stable macroeconomic environment                                         assistance, which is linked to the imple-
t strengthening public financial management                                              mentation of key structural reforms.
t initiating mining sector reforms
t improving transparency and accountability in health and education
t enhancing debt management                                                            Sources: IMF, Fact Sheet, “Debt Relief Under the Heavily
                                                                                        Indebted Poor Countries (HIPC) Initiative,” 2/18/2010; IMF,
t aligning public spending priorities with the Afghan National Development             “IMF Financial Activities – Update March 11, 2010,” accessed
                                                                                        online 3/16/2010.
   Strategy

   The IMF/IDA staff noted, however, that the GIRoA had not yet reached the
HIPC goals for pension reform and the restructuring of four key service-delivery
ministries.334 The four ministries are Agriculture, Education, Public Health, and
Rural Development. In particular, the human resources departments in the four
target ministries are not expected to be fully staffed and operational until some-
time in 2010. Furthermore, implementation of the second phase of pay and grade
reforms in the four ministries is not scheduled to be completed until an unspeci-
fied time this year.335 Highlighting other capacity challenges, the review pointed
out that the Debt Management Unit of the MoF was recently expanded from two
to five people, but that the staff receives considerable assistance from a U.S.
Treasury advisor, and staff retention is difficult.336
   Finally, the IMF/IDA staff emphasized the need to speed up implementation of
the public financial management and public administration reform programs, as
well as to escalate the fight against corruption.337

Strengthening Budget Execution
London conference donors acknowledged in principle the need to increase the
amount of assistance channeled through GIRoA ministries if the GIRoA imple-
ments further reforms and steps up the fight against corruption. Indeed, one of
the goals of the U.S. stabilization strategy is to channel approximately 40% of
U.S. government assistance through the Afghan government and local Afghan
non-governmental organizations by December 2010.338
   According to a background paper the World Bank prepared for the London
conference, channeling aid directly to the GIRoA faces a number of obstacles. A
major one is the inability of the GIRoA’s budgetary systems to absorb additional
resources and spend them efficiently and effectively: GIRoA budget expenditures
equivalent to 9% of the country’s GDP fail to be disbursed each year. In fact, the
Bank noted that the budget execution rate fell from 54% in 2007/2008 to 43% in




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010         97
ECONOMIC AND SOCIAL DEVELOPMENT




2008/2009.339 This quarter, Treasury also reported that executing the development
side of the GIRoA’s budget is a particular challenge. In fact, 90% of the operating
budget is disbursed on time, but only 40% of the development budget is spent in a
timely manner.340
   The Bank also noted that the lack of transparency and accountability in
expenditure management is another major factor contributing to donor resis-
tance to delivering assistance through GIRoA systems. In the background paper,
the Bank identifies several actions that could strengthen transparency and
accountability, including the following:341
t making progress on the Verified Payroll Program
t carrying out more internal and external audits
t improving the procurement process
t implementing the Afghanistan Financial Management System at the
   provincial level

   In terms of audits, however, Treasury reported this quarter that Afghanistan’s
Control and Audit Office (CAO) appears to be deferring or declining some
audit-related activities, and that Treasury is engaging with authorities to improve
the CAO.342 This quarter, SIGAR completed a review of the CAO, which found
that the CAO’s legislative framework does not provide the CAO with sufficient
independence or authority to serve effectively as Afghanistan’s top audit agency.
For information on SIGAR’s audit of the CAO, see Section 2.

Building Economic Capacity
The lack of a unified donor approach to training Afghan civil servants is an
obstacle to progress, according to a strategy paper of the UN Assistance Mission
in Afghanistan (UNAMA). The Afghan Civil Service Institute (CSI), however, has
proposed to develop a curriculum for GIRoA civil servants based on five key
competencies: financial management, procurement, human resources, project
management, and policy development. The CSI proposes to teach this curricu-
lum to approximately 16,000 civil servants in 32 provinces. The UNAMA strategy
paper called on all international donors to use the CSI curriculum in their train-
ing programs for Afghan civil servants, so that identical competencies will be
developed throughout the country.343
   To address the need for a consistent approach, the U.S. Agency for International
Development (USAID) signed an $84 million agreement with the CSI on
February 22, 2010, to support the CSI’s program to train Afghanistan’s civil
servants at all levels.344
   In another capacity-related development this quarter, the first 48 Afghan stu-
dents graduated from the Afghan National Customs Academy. Supported by the
U.S. and Canadian governments, the World Bank, and the European Commission,
the Academy provides a 12-month customs training curriculum and aims to
graduate 150 to 200 trained professionals in the near term to staff the Afghan
Customs Department.345




  98                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




Banking
One of the economic development goals of the U.S. stabilization strategy is to
extend lending to vulnerable Afghan regions and groups through credit unions,
commercial banking systems, and non-bank financial systems. Reflecting
the strategy’s emphasis on agriculture, the strategy prioritizes initiatives that
promote the rural economy through agro-processors, distributors, buyers, agri-
cultural cooperatives, traditional lending, and mobile banking.346
    From September 2006 to December 2009, USAID funded the Agriculture, Rural
Investment, and Enterprise Strengthening Program in Afghanistan. According to
USAID, the program disbursed more than $130 million in loans to micro, small,
medium, and larger enterprises throughout the country.347
    As a follow-up, USAID awarded a $60.5 million grant to the World Council of
Credit Unions to expand financial services in southern and eastern Afghanistan
over the next three years. According to the Council, the goal of this program is to
expand access to financial services for small and medium business owners, farm-
ers, low- and medium-income households, and women. As part of this program,
the Council hopes to establish Afghanistan’s first national association for Islamic
investment and finance cooperatives.348
    Other international donors are supporting access to rural credit in Afghanistan.
For example, this quarter the World Bank announced a $30 million IDA grant to
support the GIRoA’s new Afghanistan Rural Enterprise Development Program.
Other contributors to this initiative include the United Kingdom ($23 million)
and Denmark ($2 million). According to the World Bank, one of the goals of this
program is to establish 13,000 savings groups, 6,500 enterprise groups, and 1,300
village and savings loan associations to help Afghan farmers.349


Employment: Afghan First and Cash-for-Work Programs
A key part of the stabilization strategy is building Afghan capacity, not only
by strengthening the Afghan civil service but also by increasing the number of
Afghans employed under U.S. reconstruction contracts through the Afghan First
initiative.350 According to the USAID Administrator, the employment of Afghans
under USAID contracts has increased significantly—from approximately 3,000
last year to approximately 26,000 as of April 11, 2010.351
    In addition, USAID funds smaller reconstruction projects that provide short-
term employment for vulnerable Afghans. According to the most recent National
Risk and Vulnerability Assessment (NRVA), 280,000 Afghans participated in
cash-for-work or food-for-work programs in solar year 1386 (2007/2008). Another
224,000 Afghans participated in either a food-for-work or food aid program.352
    USAID’s Afghanistan Vouchers for Increased Productive Agriculture program
is the largest provider of cash-for-work programs in the country, according to
the U.S. Department of State (DoS).353 The budget for the program is in flux,
but as of March 25, 2010, DoS reported that it was approximately $36 million.354
DoS further noted that as of May 24, 2010, approximately 28,513 Afghan work-
ers in Kandahar and Helmand have been or will be paid a range of $5 to $6 per




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010         99
ECONOMIC AND SOCIAL DEVELOPMENT




day under the program.355 In addition, DoS reported that two of its alternative
development programs provided short-term employment for an additional 8,810
Afghans in Badakhshan, Baghdis, Balkh, Kunar, Laghman, and Nangarhar prov-
inces (as of February 16, 2010) and 2,172 in Farah and Uruzgan provinces.356
   Although these programs provide a short-term solution, some officials have
called for a long-term program to provide job skills for young people who cannot
access Afghanistan’s post-secondary institutions. The UNAMA strategy paper, for
example, urged the GIRoA to make the drafting of a national plan for vocational
education a priority. It noted that Afghanistan’s existing public technical training
institutes can accommodate only a few thousand students.357

DELIVERING ESSENTIAL SERVICES
To deliver services more effectively, the GIRoA has announced its intention to
restructure 13 key service-delivery ministries into 3 cross-cutting clusters:
1) agriculture and rural development, 2) human resource development, and
3) infrastructure and economic development. Each cluster will have a lead
minister, and the MoF will provide support for each cluster. According to the UN
Secretary-General, specific plans for each cluster are scheduled to be presented
at the Kabul conference later this year.358
   During this quarter, USAID signed a memorandum of understanding with
the GIRoA that committed $20 million to the Afghan-led District Development
Program.359 The goal of this inter-ministerial initiative is to strengthen the capac-
ity of local government to deliver basic health, education, and agricultural
services, among others. The funding will assist the MoF in paying the salaries
and operating expenses of the program.360

Energy
A key energy goal of the U.S. stabilization strategy is to bring online approxi-
mately 1,500 MW of electricity generation and transmission capacity by 2013
(from 389 MW in April 2009).361 To help meet this challenge, the strategy empha-
sizes rehabilitating major energy infrastructure—including the Kajaki Dam, the
Darunta Dam, and the Sheberghan gas generation plant—and expanding the use
of renewable energy systems for 300 communities.362 Table 3.9 provides more
information on major energy infrastructure projects and the estimated costs to
maintain them once completed.

Electricity Production
Major trends this quarter included an update on Afghanistan’s increasing
reliance on imported electricity and the GIRoA’s efforts to foster regional
energy cooperation.

RECENT PRODUCTION TRENDS
The most recent data from the Afghan Electricity Information Center shows a
clear trend toward imported electricity. Domestic generation from hydropower




 100                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT



TABLE 3.9


STATUS OF SELECTED ENERGY INFRASTRUCTURE PROJECTS
                                                                         Cost Data/
Name                 Scope of Work                                       Estimates                         Status                              Ownership and Maintenance
Kajaki Dam           Rehabilitate and expand the capacity of             Consideration being given         Work suspended in 10/2009 due       Public facility; owned by Da Afghanistan
                     the Kajaki Hydro Power Plant, a key instal-         to using CERP funds to            to security conditions; work will   Breshna Sherkat Bank; estimated cost to
                     lation providing power to Kandahar and              maintain security at site         resume when security conditions     maintain once completed is $600,000 a year.
                     Helmand.a                                           until conditions improve.         improve.
Darunta Dam          Increase generating capacity by 3.85 MW, $9,863,222                                   Original completion date was        Public facility; owned by Da Afghanistan
                     replace and repair critical equipment, train                                          1/31/2010; extension granted        Breshna Sherkat Bank; estimated cost to
                     Afghan staff to operate plant.                                                        until 10/31/2010.                   maintain once completed is $450,000 a year.
Sheberghan           Complete feasibility study for 100–150 MW $5,375,100                                  Estimated completion date is        Private, if and when plant is built.
Gas Generation       gas-fired private plant to be developed in                                            6/2011; currently on schedule.
Plant                Jowzjan.
a. For a discussion of this project, see SIGAR’s January 2010 quarterly report.
Source: DoS, response to SIGAR data call, 4/6/2010.




and thermal sources dropped steadily from 2006 to 2009. Imports increased sub-
stantially during the same time period; in fact, imports accounted for more than
half of Afghanistan’s total electricity supply in 2009, as shown in Figure 3.33.363

REGIONAL ENERGY COOPERATION
Reflecting its increasing reliance on imported electricity, Afghanistan is strength-
ening energy cooperation with its neighbors. For example, during this quarter
a publication of the North Atlantic Treaty Organization (NATO) reported that
Afghanistan and Tajikistan signed an agreement to enhance bilateral energy
cooperation, focusing on power lines connecting the two countries.364 In
February 2010, construction began on a 220-kilovolt transmission line that will
carry electricity from Tajikistan to Afghanistan.365 Afghanistan is also involved

FIGURE 3.33


DOMESTICALLY PRODUCED AND IMPORTED ELECTRICITY, 2006–2009 (PERCENT)

60                                                                                                                    56.5
         49.9                             48                                               48
50
                                                        38.6            39.4                              39
40                      33.5
30
20               16.5
                                                13.4                              12.6
10                                                                                                             4.5
 0
                2006                            2007                              2008                         2009


                                          Domestic Hydro         Domestic Thermal          Imported

Source: USAID, Afghanistan Energy Information Center, “Power Production and Supply Statistics,” accessed online 3/22/2010.




                    REPORT TO THE UNITED STATES CONGRESS                           I     APRIL 30, 2010                      101
                                                                 ECONOMIC AND SOCIAL DEVELOPMENT




                                                                 in efforts to create the Central Asia South Asia Transmission and Trade Project
                                                                 (CASA-1000), which will enable Kyrgyzstan and Tajikistan to export electricity
                                                                 to Afghanistan and Pakistan.366 In addition, Uzbekistan reportedly expects to
                                                                 increase its electricity exports to Afghanistan this year by an estimated 15%.367

                                                                 Natural Gas, Oil, and Other Fuels
Liquefied petroleum gas (LPG),                                   This quarter, the Ministry of Commerce and Industries (MoCI) announced
commonly referred to as propane, is a                            plans to privatize the state-owned Fuel and Liquid Gas Enterprise (FLGE).368
mixture of several naturally occurring                           Previously, in a letter to the IMF, the MoF and the Da Afghanistan Bank stated
gasses that becomes liquid when                                  that the FLGE would be audited.369 The MoCI commissioned an independent
exposed to moderately high pressures.                            audit of the FLGE and formally transmitted it to the government last year.370
LPG is interspersed in natural gas and
                                                                    In another development this quarter, the Asian Development Bank announced
petroleum deposits. It is the most widely
                                                                 an $8 million investment in Sungas LLC, a private Afghan-owned company that
used alternative fuel in the world.
                                                                 is building a nationwide liquefied petroleum gas (LPG) storage and distribu-
Source: DoE, Office of Energy Efficiency and Renewable Energy,   tion network in Afghanistan. Sungas plans to invest $58.2 million in Afghanistan
“Just the Basics: Liquefied Petroleum Gas,” 8/2003, p. 1.
                                                                 through 2019 to build LPG storage and refilling centers in five Afghan cities. The
                                                                 goal of the project is to import LPG from Turkmenistan and Uzbekistan. It will be
                                                                 transported by tanker truck, because construction of a pipeline is not yet eco-
                                                                 nomically feasible.371

                                                                 Transportation
                                                                 Key events tracked this quarter included upgrading the radar system at Kabul
                                                                 International Airport, the transition to GIRoA control of significant aviation
                                                                 infrastructure, and an update on the Ring Road and regional railroad construction.

                                                                 Civil Aviation
                                                                 According to the U.S. Embassy Kabul, flights into Kabul International Airport
                                                                 increased from 20 per day in 2001 to 300 per day in February 2010, and a further
                                                                 increase in air traffic is expected this year. To expand capacity at the airport, a
                                                                 USAID-funded state-of-the-art radar system was installed by the U.S. Federal
                                                                 Aviation Administration this quarter. The new system doubles the range of local
                                                                 air traffic control and will enable the airport to operate 7 days a week, 24 hours
                                                                 a day in all but the most extreme weather. As part of this upgrade, DoS reported,
                                                                 11 Afghan air traffic controllers and 6 Afghan maintenance technicians were
                                                                 trained. The Deputy Administrator of the Federal Aviation Administration further
U.S. Ambassador Karl Eikenberry learns                           noted that the U.S. government will continue to provide training in these skills
about the new state-of-the-art radar sys-                        for Afghan students until at least 2011.372
tem at Kabul International Airport. (U.S.                           During this quarter, the International Security Assistance Force (ISAF) turned
Embassy Kabul photo)
                                                                 over its Kabul Airport South facilities to the Ministry of Transport and Civil
                                                                 Aviation.373 Additionally, a $30 million, 3,000-meter runway funded by NATO
                                                                 was opened at Mazar-e Sharif Airport. The new runway will enable interna-
                                                                 tional flights to use the facility. The airport will be used as a hub for NATO
                                                                 troops; officials hope it will also provide a boost to local trade and economic
                                                                 development.374




                                                                  102                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




TABLE 3.10


RING ROAD: DONOR-FUNDED REPAIRS TO REMAINING MAJOR PORTIONS
Road                        Donor              Funding Pledged                  Current Status
Armalik to Laman            Saudi Fund for     $30 million; an additional       Contract under award; completion period will
(50 km)                     Development        $16.5 million needed.            be approximately 18 months.
Doshi to Pul-i-Khomri       Islamic            $20 million                      Scheduled completion date is 6/2011.
(50 km)                     Development
                            Bank
Laman to Bala Murghab       Asian              $134 million                     Scheduled completion date is 6/2013 to
(143 km)                    Development                                         7/2013.
                            Bank
Source: DoS, response to SIGAR data call, 4/6/2010.




Ring Road Update
The U.S. government has spent approximately $505 million on the Ring Road,
according to DoS. Other donors have spent approximately $743 million.375
Table 3.10 provides an update on completing repairs to the remaining major
portions of the Ring Road. According to DoS, the GIRoA has budgeted the fol-
lowing annual amounts for Ring Road operations: approximately $8 million for
routine maintenance, $34 million for periodic maintenance, and $3 million for
emergency maintenance.376

Railroads
Several key regional railway lines are either in the process of being constructed                                              FIGURE 3.34
or scheduled to be constructed in Afghanistan, as shown in Figure 3.34. According
                                                                                                                               STATUS OF RAIL LINE CONSTRUCTION
to a UNAMA strategy paper, China has committed to building a railway line from
Afghanistan’s northern border to Jalalabad as part of the Aynak copper mine
contract. A railway line from Islam Qala to Herat in the west is soon to be built.
But funding is still needed for three additional rail links: Herat to Mazar-e Sharif,                                                                     Mazar-e Sharif
Jalalabad to Torkham, and Chaman to Kandahar. The completion of these rail-                                                     Islam
way lines would decrease the transportation cost of Afghan goods and services.                                                  Qala                                     Jalalabad
Also, these lines would run near large, undeveloped mineral resources, including
                                                                                                                                     Herat
iron ore deposits in Bamyan.377                                                                                                                                             Torkham
   During this quarter, U.S. Ambassador Karl Eikenberry announced that the
                                                                                                                                                   Kandahar
United States will contribute $5 million to continue construction of the rail                                                                                                  Construction
                                                                                                                                                                               planned
line between Hayratan and Mazar-e Sharif.378 The railway is part of the Asian
                                                                                                                                                          Chaman               Funding
Development Bank’s Central Asia Regional Economic Cooperation Program,                                                                                                         needed
                                                                                                                                                          (Pakistan)
which aims to improve links between Afghanistan and neighboring countries.379
                                                                                                                               Note: Other rail line construction projects may also be
Other Transportation Infrastructure                                                                                            planned.
                                                                                                                               Source: UNAMA, “A Strategy for Transition to Afghan
During this quarter, SIGAR completed an audit of the Tojg Bridge construction                                                  Leadership,” by Kai Eide, 3/6/2010, p. 21.

contract, which was financed through the Commander’s Emergency Response
Program (CERP). For more information, see Section 2.




                   REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2010                     103
                                                 ECONOMIC AND SOCIAL DEVELOPMENT




                                                 Communications
                                                 This quarter, two important public diplomacy documents were released that will
                                                 have an impact on communications strategy. DoS released a new strategic plan
                                                 for public diplomacy, and the Department of Defense released its December 2009
                                                 Report on Strategic Communication.380 The strategies in these two documents
                                                 stress the importance of empowering moderate voices to counter extremist
                                                 messages and equipping local leaders with the communications skills and knowl-
                                                 edge to help strengthen their communities.381
                                                    In Afghanistan, efforts to expand local access to communications equip-
                                                 ment, infrastructure, training, and content are part of the U.S. public diplomacy
                                                 strategy. During this quarter, for example, new radio stations were launched in
                                                 Kunar and Nangarhar provinces. Funded and implemented by USAID and ISAF,
                                                 the radio stations employ Afghan station managers and feature Afghan content
                                                 in local languages. The program also provided local residents with radios so they
                                                 can listen to the broadcasts.382
                                                    In a related development, USAID reported that 8 million Afghans now receive
                                                 their news through Internews, a non-profit media training organization that
                                                 receives funding from USAID. Internews provides training, equipment, and
                                                 technical assistance, among other services, to independent media organizations
                                                 around the world.383
                                                    International donors are also focusing on communications technology as
                                                 a way to strengthen development. On February 17, 2010, the UN Educational,
                                                 Scientific, and Cultural Organization and the Italian government announced a
                                                 new project to increase the capacity of the Afghan educational radio and tele-
                                                 vision service to train teachers. The project will help the service strengthen its
                                                 capability to offer distance learning, which is one of the goals outlined by the
                                                 Ministry of Education in its National Education Strategic Plan.384

                                                 Education
                                                 Although progress has been made in increasing access to education, the Ministry
                                                 of Education reported in January that approximately 5 million Afghan children
                                                 still do not attend school.385 In February, the World Bank reported that only an
                                                 estimated 40% of Afghan schools have buildings.386 Textbooks are also in short
                                                 supply, according to the ministry.387
                                                     Data from the most recent NRVA survey underscores the educational chal-
                                                 lenges in Afghanistan. According to the survey, only 17% of Afghans age 25 and
                                                 older have attended any type of formal education, and 48% of children age 7 to
                                                 12 (a total of 2.3 million) are not attending primary school. As a result, only an
                                                 estimated 26% of the Afghan population can read and write.388
Young students attend the Farah City
                                                     As noted in SIGAR’s last quarterly report, insurgent violence against government-
District III Girls School in 1 of 17 temporary
tents pitched in the school’s courtyard.         sponsored schools is an ongoing obstacle to increasing access to education.
Many Afghan schools still lack buildings         According to the Minister of Education, approximately 453 schools are closed for
and textbooks. (U.S. Air Force photo, MSgt       security reasons or have been damaged over the past two years.389 According to a
Tracy DeMarco)                                   statement released in February by President Karzai’s office, however, the GIRoA




                                                  104                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




re-opened 25 schools in Helmand following ISAF operations against insurgents in       FIGURE 3.35

that area.390
                                                                                      POST-SECONDARY SCHOOLS,
   On another positive note, an internal audit of a USAID program to train            PUBLIC AND PRIVATE
Afghan teachers concluded that approximately 50,000 teachers had been trained
since January 27, 2006.391 For more information, see Section 4. In addition,
Afghanistan has made progress in providing opportunities for post-secondary
education. According to DoS, approximately 48 post-secondary educational insti-
tutions operate in Afghanistan, offering instruction in medicine, law, education,
business management, liberal arts, and technical and vocational skills. Figure 3.35
shows the distribution of these public and private institutions, the most signifi-
cant concentration of which is in the Kabul area.392

Health Services                                                                                                             0
The first round of Afghanistan’s 2010 polio vaccination campaign began on                                                   1 public
February 14, 2010. The Nad Ali district and Marjah in Helmand province were                                                 1 public, 3 private
                                                                                                                            6 public, 18 private
skipped initially because of ISAF operations against insurgents there, accord-
ing to the Ministry of Public Health (MoPH).393 But in March the immunization         Source: USAID, response to SIGAR data call, 4/6/2010.
campaign was re-launched in Marjah and Nad Ali.394 The most recent NRVA
data shows that 37% of Afghan children age 12 to 23 months have received the
recommended full series of vaccinations against tuberculosis, polio, diphtheria,
pertussis, tetanus, and measles.395 According to the UN, Afghanistan is one of
                                                                                      The United States is the largest contri-
only four countries in which polio is still endemic.396 The immunization campaign
                                                                                      butor to many international organizations,
was supported by the World Health Organization (WHO), the UN Children’s Fund          including UNICEF. President Obama’s
(UNICEF), and the Ministry of Public Health (MoPH), with significant funding          FY 2011 budget request to the Congress
from the United States.397                                                            included $109.4 million for the WHO and
   In addition, USAID has an ongoing, $5.18 million Tuberculosis Control              $128 million for UNICEF.
Assistance Program that provides technical assistance to the MoPH and other
                                                                                      Source: United Nations Association of the United States,
stakeholders in Afghanistan.398 This quarter, according to DoS, the program           “U.S.–UN Funding Update: President Submits FY 2011
selected and trained coordinators in six insecure provinces to share best prac-       Budget Request to Congress,” 2/2/2010, accessed online
                                                                                      4/9/2010.
tices regarding tuberculosis detection, treatment, and control.399 DoS also
reported that the program developed tuberculosis control materials this quarter
for distribution in all provinces.400
   According to a March 3, 2010 NATO publication, the MoPH has signed
agreements with nine local TV and radio stations to broadcast health-related
information for one year.401 The project is funded by the GAVI Alliance, a public-
private partnership that includes the WHO, UNICEF, the World Bank, the Bill
and Melinda Gates Foundation, member governments, and other donors.402
According to the MoPH, this public health communications campaign is part of
an approximately $34 million, four-year grant from GAVI to increase and sustain
immunization coverage in Afghanistan.403 The United States is one of the six
original donor countries to GAVI, contributing $569 million from 2001 to 2009.404
   USAID also has an ongoing, $34.7 million health communications program in
Afghanistan. This quarter, according to DoS, the program established the first
male-specific health clinic in Kabul. In addition, DoS reported the completion of




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010       105
ECONOMIC AND SOCIAL DEVELOPMENT




An Afghan physician fills out paperwork for patients in Zabul. The U.S. government is working
to strengthen the capacity of the Afghan Ministry of Public Health to track and analyze health
care outcomes. (U.S. Air Force photo, SrA Kenny Holston)


the second round of a U.S.-sponsored health care communications campaign,
which resulted in the delivery of maternal, child health, and other health informa-
tion in 161 mosques in 7 provinces.405
   As part of its emphasis on building capacity and transitioning to full Afghan
control, the U.S. government is transferring management of health care projects
to the MoPH. This quarter, for example, DoS reported that it transferred a health
information database to MoPH control, which will enhance the ministry’s ability
to track and analyze health care outcomes. In addition, DoS transferred the man-
agement of contracts with non-governmental organizations for delivering health
services in 13 provinces to the MoPH. And a USAID-supported program assisted
the MoPH in developing a five-year strategic plan that will serve as a roadmap for
the ministry’s future activities.406
   USAID also supports the Health Service Support Project, which this quarter
finalized curricula for the education of community health nurses and midwives
in Afghanistan, according to DoS.407 In addition, the U.S. government has contrib-
uted $2 million to the WHO’s Disease Early Warning System, which successfully
investigated and identified 34 outbreaks of communicable disease in Afghanistan
during this quarter.408
   In another health-related development, the MoPH announced in February the
creation of the Afghan National Public Health Association. Its mission is to support
research on public health issues and provide technical assistance to the MoPH.409




  106                 SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




INDUSTRY
Key developments this quarter included the following:
t adequate rain and snowmelt in most of the country, which provided favorable
   growing conditions for Afghanistan’s winter and spring wheat crops in the
   south, west, and north
t Afghanistan’s candidacy for membership in the Extractive Industries
   Transparency Initiative (EITI)
t the launch of a major U.S.-funded effort to streamline GIRoA laws, regulations,
   customs procedures, and other mechanisms related to trade

Agriculture
As noted in SIGAR’s January 2010 report, climate plays a central role in Afghan
agricultural production. Although conditions vary, generally there is little or no
precipitation from approximately June to October.410 Peak rain and snow seasons
occur from approximately December through May.411 In January 2010, the UN
Office for Coordination of Humanitarian Affairs reported that Afghanistan was
experiencing an unusually dry winter, raising concerns of drought.412 In February,
however, normal amounts of rainfall and heavy snow in many areas somewhat
ameliorated these concerns.413
   As of April 1, 2010, the Global Information and Early Warning System of the
Food and Agriculture Organization of the UN (FAO) reported that the planting of
the spring wheat crop was nearly complete, under generally favorable weather
conditions in the south, west, and north.414 Weather conditions also favored
Afghanistan’s winter wheat crop in most of the country.415 The FAO report noted
that as a result of last year’s record high yields, wheat prices in Afghanistan
have declined but still remained generally higher than 2007 levels.416 Figure 3.36
depicts the main weather and agricultural patterns in Afghanistan.

FIGURE 3.36

AGRICULTURE: SEASONAL CALENDAR AND CRITICAL EVENTS


 Planting &
  Harvesting                     Spring Wheat Planting                                         Primary Wheat Harvest                 Winter Wheat Planting



Precipitation   Rain & Snow                 Snowmelt & Peak Flood Period                                                                     Rain & Snow Season
                   Season

                JAN            FEB           MAR            APR             MAY           JUNE           JULY          AUG   SEPT   OCT         NOV          DEC


Source: FEWS, “Afghanistan: Seasonal Climate and Critical Events Timeline,” accessed online 3/17/2010.




                   REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2010                   107
                                                         ECONOMIC AND SOCIAL DEVELOPMENT




                                                         Accelerating Agricultural Development
                                                         The U.S. stabilization strategy identifies two priorities for rebuilding Afghanistan’s
                                                         agricultural sector: 1) rapidly expanding jobs and income from agriculture,
                                                         and 2) increasing confidence in the GIRoA by strengthening the Ministry of
                                                         Agriculture, Irrigation, and Livestock. The strategy also outlined six key initiatives
                                                         to increase agricultural productivity, reinvigorate agricultural value chains, and
                                                         rehabilitate watersheds and irrigation infrastructure:417
                                                         t Deploy 89 new agricultural experts (64 from the U.S. Department of
                                                            Agriculture and 25 from USAID) by early 2010.
                                                         t Issue vouchers to farmers in 18 provinces for fruit and nut saplings, grape-
Afghan farmers prepare fields as the                        vines, and trellises.
weather begins to warm up in the southern                t Build a team of Afghan technical irrigation experts to monitor irrigation
region. This quarter, adequate rainfall and                 projects implemented by quick-impact programs, including CERP.
snowmelt created favorable conditions
for winter and spring cereal crops in most
                                                         t Increase the links between farmers and markets by expanding agricultural trade
of the country. (U.S. Air Force photo, SrA                  and credit opportunities, and also strengthen food storage, safety, packaging,
Kenny Holston)                                              handling, processing, and transportation capacities. A key milestone is the imple-
                                                            mentation of an agricultural credit system before the 2010 planting season.
                                                         t Provide technical assistance to create agricultural extension services for farmers.
                                                         t Rehabilitate degraded watersheds to improve irrigation.

In February 2010, Afghanistan’s first fruit                 To sustain higher agricultural incomes and offer viable alternatives to grow-
processing company—Omaid Bahar Ltd. in                   ing poppy, the U.S. government is encouraging the planting of high-value crops,
Kabul—signed its first international con-                such as fruits, nuts, and grapes.418 To help achieve this goal, this quarter USAID
tract with Pomegreat, the United Kingdom’s               announced a four-year, $30.4 million grant to an NGO, Roots of Peace. The grant
leading pomegranate juice producer.                      aims to help farmers replace cereal and poppy crops with high-value crops such
Pomegreat will purchase 500 tons of juice                as apples, grapes, pomegranates, cherries, and almonds primarily in eastern and
concentrate from the factory as well as
                                                         southern provinces. In the south—Helmand, Kandahar, Uruzgan, and Zabul—the
500 tons of fresh fruit in 2010–2011. The
                                                         program will focus on trellising existing vineyards, with the goal of doubling
factory opened in October 2009 with USAID
                                                         farmers’ income within two years. Farmers will contribute $4.5 million of their
support.
                                                         own funds to pay for the costs of the new orchards and vineyards.419
Source: Pomegreat, press release, “U.K. Pomegranate         This and other U.S. government initiatives announced in the stabilization
Juice Company Announces World’s First Partnership with
Afghanistan Fruit Factory,” 2/2010.                      strategy support the GIRoA’s goals of turning Afghanistan into a net exporter of
                                                         cereal crops within 10 years and increasing the export market for Afghan fruits
                                                         and nuts.420 As noted in a UNAMA strategy paper, an important step in opening
                                                         up regional export markets is reaching a trade agreement with Pakistan. The
                                                         Afghanistan-Pakistan Trade and Transit Agreement would help Afghan farmers
                                                         export their products in the region more freely. Pakistan is not only an important
                                                         market for Afghanistan goods but also a key transit route to other regional mar-
                                                         kets.421 As of February 2010, according to U.S. Special Representative Holbrooke,
                                                         no final agreement has been reached.422
                                                            In another agriculture-related development, Uzbekistan re-opened its bor-
                                                         der with Afghanistan on February 8, 2010. The border had been closed for five
                                                         months because of concerns about possible swine flu (H1N1) contamination.423




                                                          108                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




   Finally, reflecting regional interdependence on limited water resources, U.S.
Special Representative Holbrooke reported on March 2, 2010, that DoS had set
up a water resources task force to examine ways to help Afghanistan and its
neighbors deal with water access issues.424


Resource Mining
As noted in SIGAR’s January 2010 report, Afghanistan’s mining sector holds
significant potential for growth; one of the goals of the new stabilization strategy
                                                                                         EITI: a voluntary, global standard-
is to support the development of this sector. The strategy notes that the U.S.           setting organization whose members
government has identified five advisors to assist the Ministry of Mines and is sup-      are committed to transparency in the
porting the creation of new GIRoA mining regulations.425                                 oil, gas, and mining sectors. Member
    To help attract foreign investment in the mining sector, this quarter                countries pledge to publish all tax, roy-
Afghanistan became a candidate for membership in the EITI.426 Afghanistan                alty, and fee payments that they receive
has two years—until February 9, 2012—to complete the requirements for                    from extractive industries. In addition,
EITI membership.427                                                                      companies operating in member coun-
    In other mining-related events this quarter, the Chairman of China’s Jiangxi         tries agree to publish all fees paid to
Copper Company Ltd. told the press that the estimated opening date for the               the government.
Aynak copper mine will be delayed from 2012 to approximately 2013–2014.428 In
addition, the Ministry of Mines put out a bid for consulting services to monitor
Chinese compliance with the Aynak copper mine contract.429 The ministry also           Sources: EITI, “What is EITI?,” accessed online
                                                                                       3/17/2010; EITI, “The EITI Principles and Criteria,”
extended the deadline for bids on the Herat cement factory, canceled the tender        accessed online 3/17/2010.

for the Hajigak iron ore mine (in one of the world’s richest iron ore deposits),
and delayed concessions for oil and gas reserves because of concerns about the
integrity of the bidding and contracting process.430
    The U.S. Overseas Private Investment Corporation (OPIC) is also active in
helping to develop this sector. On February 19, 2010, OPIC signed a contractual
loan agreement for $15.8 million with Equity Mining in Western Afghanistan, an
Afghan company that holds a 10-year mining lease to quarry white marble for
domestic sale and export.431


Private Sector Development
According to the U.S. stabilization strategy, enhancing core value chains in the
Afghan private sector is a key part of rebuilding Afghanistan’s economic founda-
tion.432 To create jobs and economic opportunity, the strategy proposes to focus
on five high-value product chains for rugs, grapes, gems, marble, and cashmere.433
   As noted in SIGAR’s January report, USAID’s “mines to market” program is
designed to strengthen Afghanistan’s marble and gemstone industries.434 Table 3.11,
on the following page, summarizes the major initiatives supporting this program.
   As part of the effort to revitalize the marble industry, the Afghanistan Chamber
of Commerce and Industry and the Afghanistan Small and Medium Enterprise
Development (ASMED) program hosted the Afghan International Marble
Conference II in Herat on April 12–16, 2010. The conference brought together
international investors, Afghan quarry and processing operators, industry
experts, and local and international business and government leaders to explore




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010        109
                                                          ECONOMIC AND SOCIAL DEVELOPMENT



TABLE 3.11


PROGRAMS SUPPORTING THE MINES-TO-MARKET INITIATIVE
Name of Program                             Total Fundinga           Duration             Work in Support of Mines-to-Market Initiative
Afghanistan Small and Medium                $89,003,159              10/26/2006–          Builds capacity of marble and gemstone associations, facilitates public and private partner-
Enterprise Development (ASMED)                                       10/30/2011           ship in this sector, and provides external market links for marble and gemstone traders.
Economic Growth and Governance              $92,452,859              8/15/2010–           Provides technical assistance on policy and investment promotion and long-term, in-country
Initiative (EGGI)                                                    8/15/2011            advisors to the MoM.
Human Resources and Logistical              $84,337,180              3/1/2006–            Provides in-country senior advisor to the MoM, as well as petroleum and mining advisors.
Support (HRLS)                                                       2/28/2011            Currently recruiting legal and economic advisors.
a. Funding number is the total amount for the grant, of which support for the mines-to-market program is only one part.
Sources: DoS, response to SIGAR data call, 4/6/2010; USAID/Afghanistan, “Afghanistan Small and Medium Enterprise Development,” accessed online 4/9/2010.




                                                          investment and partnership opportunities in Afghanistan’s marble industry.435
                                                          According to stone industry experts, Afghanistan is home to some of the world’s
                                                          highest-quality marble.436
                                                             In addition, for the third consecutive year Afghan carpet makers and deal-
                                                          ers were able to showcase their goods at Domotex, the floor-covering industry’s
                                                          premier world trade show. Their participation was underwritten by USAID, which
                                                          provided financial and logistical support for the Afghan rug merchants to attend
                                                          the show.437
                                                             As part of the U.S. emphasis on contracting with Afghans, a procurement
                                                          conference sponsored under the ASMED program was held in Kandahar in March
                                                          2010. It attracted representatives from nearly 70 Afghan businesses interested in
                                                          contracting opportunities to support coalition forces and civilian personnel work-
                                                          ing in the country.438 OPIC is also assisting private-sector development through
                                                          loans to organizations that provide financing to small and medium enterprises in
                                                          Afghanistan. At its March 31, 2010 board meeting, for example, OPIC approved
                                                          a $30 million loan to Afghan Growth Finance LLC that will help expand lend-
                                                          ing operations to small and medium enterprises in Afghanistan. Afghan Growth
                                                          Finance, established in 2008 with assistance from OPIC, has a successful track
                                                          record of originating and servicing prudent loans to such enterprises.439 OPIC has
                                                          also provided approximately $60 million in financing for the Grand Hotel Kabul,
                                                          which is currently under construction. OPIC reported in April that construction is
                                                          on schedule and within budget.440
                                                              On March 9, 2010, the ministries of Finance and Commerce, in partner-
                                                          ship with the U.S. government, announced the launch of a $63 million program
                                                          to streamline laws, regulations, customs procedures, and other mechanisms
                                                          related to trade. This USAID-funded program, known as the Trade and Accession
                                                          Facilitation for Afghanistan, will help Afghanistan adopt international standards
                                                          and implement widely accepted quality controls necessary for exports.441
                                                             Lack of basic infrastructure, however, continues to hamper the growth of the
                                                          private sector in Afghanistan. According to a NATO publication, operations in 90
                                                          factories in Kandahar were closed down during this quarter because of a lack of
                                                          electricity caused by delays in refurbishing the Kajaki Dam.442 As noted in SIGAR’s
                                                          January 2010 report, structural rehabilitation of the Kajaki Dam has been sus-
                                                          pended temporarily because of security concerns.



                                                             110                           SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                    QUARTERLY HIGHLIGHT




GEMSTONE PRODUCTION:
A SOURCE OF POTENTIAL GROWTH
Afghanistan is one of the richest sources in the world                                             According to the World Bank, however, Afghanistan
for gems and semi-precious stones, according to the                                             has not been able to realize the full economic benefit
World Bank.443 The Bank has identified the mining                                               from these resources.447 Although gems are mined
of these and other mineral resources as a potential                                             in Afghanistan, the chain of activities that adds
source of economic growth for the country.444 An                                                value—sorting, cutting, polishing, and exporting—has
assessment of the Afghan gemstone industry                                                      been severely diminished.448 A significant portion of
produced for USAID by international experts in 2007                                             Afghanistan’s gemstone production is sold to enter-
noted that Afghan rubies, emeralds, sapphires, lapis                                            prises in other countries, particularly Pakistan, at a
lazuli, and other semi-precious gemstones are rec-                                              fraction of its value to be sorted, processed, cut, pol-
ognized internationally for their superior quality.445 In                                       ished, and exported.449 This deprives Afghan miners,
fact, according to the authors, gemstones mined in                                              artisans, processors, traders, and the Afghan govern-
Afghanistan can be found in some of the world’s most                                            ment of needed income and job opportunities.450
historic collections, including the British crown jewels,
the royal crown jewels in Russia, and the collection                                            6,500 YEARS OF LAPIS LAZULI TRADE
at the Taj Mahal.446 Figure 3.37 identifies the major                                           Although underdeveloped today, gemstone production
gemstone-producing locations in Afghanistan.                                                                        in Afghanistan is not new. One of
                                                                                                                           Afghanistan’s most highly
                                                                                                                                prized semi-precious
                                                                                                                                    gemstones—lapis
                                                                                                      BADAKHSHAN                      lazuli—has been
                                                                                                                                        mined since
FIGURE 3.37

MAJOR GEMSTONE DEPOSITS                                                   KUNDUZ
                                                                                      TAKHAR

                                                                                                Sar-e Sang

                                                                             BAGHLAN

                                  Kabul
         Herat
                                                                                      PANJSHIR
                                                                                                             NURISTAN
                                           ZABUL                             PARWAN
           Kandahar                                                                      KAPISA                    KUNAR
                                                                                              LAGHMAN
                                                                                      KABUL

                                                                                                       NANGARHAR



                   Lapis Lazuli           Emerald     Ruby         Kunzite         Tourmaline        Other

Source: MoM, Afghanistan Geological Survey, “Minerals in Afghanistan: Gemstones of Afghanistan,” p. 1, accessed online 4/12/2010.




                  REPORT TO THE UNITED STATES CONGRESS                       I   APRIL 30, 2010                         111
                                                        QUARTERLY HIGHLIGHT




at least 5000 B.C., according to the World Bank.451 In
fact, the lapis lazuli mines in Badakhshan are thought                                                 Lapis lazuli: a stone of deep blue color with inclusions of gold-
to be among the oldest mines in the world.452                                                          en pyrite that give it a shimmering quality. Classified as a rock,
   Trade in Afghan lapis lazuli goes back more than                                                    rather than a mineral, Afghan lapis has long been considered
6,500 years.453 Remnants of the lapis trade still exist                                                by experts to be the finest in the world.
between areas of Afghanistan (Badakhshan) and
Mesopotamia, Ur, Egypt, and India.454 Jewelry and
objects made of Afghan lapis lazuli have been discov-                                                Sources: Mining Communications Ltd., Mining Journal (London), “Special Publication:
                                                                                                     Afghanistan,” 8/2006, p. 9; International Colored Gemstone Association, “Lapis Lazuli,”
ered all over the Mediterranean among the burial sites                                               accessed online 3/25/2010.
and funeral treasures of ancient civilizations, including
the tombs of the Sumerian kings and the Egyptian
pharaohs.455 Later, Alexander the Great conquered                                                    MINING OF LAPIS LAZULI AND OTHER
Bactria, which is part of northern Afghanistan, and                                                  GEMSTONES
brought Afghan lapis lazuli to Europe.456 And Marco Polo                                             Just as it was more than 6,500 years ago, the
commented on the beauty of Badakhshan lapis—then                                                     best lapis lazuli in the world today comes from
called “azure”—in his journey along the southern Silk                                                Badakhshan.461 The Sar-e Sang deposit in the Blue
Route in the 13th century.457                                                                        Mountain in Badakhshan has been producing lapis for
                                                                                                     thousands of years. The mine is located at an altitude
USES FOR LAPIS LAZULI                                                                                of approximately 3,500 meters.462 Due to inclement
Lapis lazuli has been used to fashion jewelry and                                                    weather conditions, the mine is accessible only from
household objects and also has been ground into a                                                    approximately June to September.463
powder that constitutes the base for a blue pigment                                                     Gemstone mining in Afghanistan is largely arti-
called ultramarine. Ultramarine made from ground                                                     sanal and of a primitive nature, according to mining
Afghan lapis was used in medieval Europe on illumi-                                                  experts.464 In one traditional method of extraction,
nated manuscripts, in architectural decoration, and on                                               rock containing lapis lazuli is heated to a high tem-
wooden sculpture, according to art experts.458 Ground                                                perature and then doused with cold water, producing
lapis was also the base for blue tempera paint and,
less frequently, oil paint used by artists before it
became possible to manufacture a bright blue color
artificially (which did not happen until the 19th cen-
tury), according to a gemstone trade association.459
The blue color derived from ground lapis lazuli is
noted for its brilliance and is still in use today in fine
restoration and renovation work.460


            “There is also in the same
         country [Afghanistan] another
         mountain where azure is found.
         It is the finest in the world. . .”
                                                 —Marco Polo (1271 A.D.)
                                                                                                     A polished block of lapis lazuli. Lapis is one of many high-
                                                                                                     quality gemstones found in Afghanistan. For centuries, Afghan
Source: British Institute for the Study of Iraq, Iraq, Vol. 30, no. 1 (Spring 1968), “Lapis
Lazuli: The Early Phases of Its Trade,” by Georgina Herrmann, p. 22, accessed online
                                                                                                     lapis has been acknowledged as the finest in the world.
1/20/2010.




                                                              112                             SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                  QUARTERLY HIGHLIGHT




a shock that breaks the stone, from which the lapis is
extracted.465 The U.S. government and other interna-
tional donors, however, are working with the Ministry
of Mines to introduce modern mining techniques to
increase safety and production in this sector.466

U.S. SUPPORT FOR THE AFGHAN
GEMSTONE INDUSTRY
One of the goals of the U.S. stabilization strategy is
to strengthen the “mines-to-market” value chains in
the gemstone sector to create jobs and income for
the Afghan people.467 Table 3.12 lists recent USAID-
sponsored initiatives supporting the gemstone indus-
try in Afghanistan, which are designed to help small                                           Emeralds, the most precious form of the mineral beryl, are
and medium enterprises modernize their gemstone                                                found in Afghanistan, primarily in the Panjshir Valley of Parwan
cutting, polishing, and marketing operations.                                                  province. Rubies are also mined in Afghanistan, primarily at
   As part of its mines-to-market program, USAID/                                              Jegdalek-Gandamak in Kabul province.
ASMED enabled Afghan gem dealers to attend the
Gem and Jewelry Exchange Trade Fair in Tucson,
Arizona, on February 2–7, 2010.468 The fair attracted                                            Value Chain: all the activities, from receipt of raw materials
                                                                                                 to post-sales support, that together create and increase the
thousands of international gem dealers, collectors,
                                                                                                 value of a product
and enthusiasts from the United States and around
the world. In addition to participating in the trade fair,
the Afghan gem dealers visited a copper mine, a test-
                                                                                               Source: The Financial Times Lexicon, accessed online 4/20/2010.
ing laboratory, and a testing site for a U.S. manufac-
turer of heavy mining equipment. Participants said
that such visits are key to improving Afghan export
capabilities.469


TABLE 3.12


RECENT USAID PROJECTS SUPPORTING THE AFGHAN GEMSTONE INDUSTRY
USAID Program             Grant                                  Purpose of Grant
ASMED                     Jewelers Guild (Gemstone Training      Purchase tools and equipment for the training center; conduct skills training; employ staff to assist in
                          Center), Kunduz City                   selling and production.
ASMED                     Afghanistan Gem Cutters and            Ongoing training program to raise standards for cutting, polishing, and jewelry creation to international
                          Jewelers Association                   levels; assistance in opening two showrooms.
ASMED                     Gemstone Bazaar, Jalalabad             Market will house 20 small and medium gemstone enterprises run by Afghans, many of whom have
                                                                 recently returned from Pakistan; subsidize rent and provide accounting services to traders for one year.
ASMED                     Hope of Mother                         Three months of training, led by an international expert, for participants from 30 small and medium
                                                                 gemstone enterprises to learn cutting and polishing techniques.
Global Development        American Nuristani Import              A $560,000 grant to support a public-private partnership to improve ANII gemstone mining and process-
Alliance                  International Company (ANII)           ing. Deliverables include purchasing 19 cutting and polishing machines, training 100 gemstone traders
                                                                 in cutting and polishing, purchasing 4 air compressors for Nuristan mines, and training 50 gemstone
                                                                 miners to use the new equipment.
Sources: DoS, response to SIGAR data call, 4/6/2010; USAID, “Business Model for Public-Private Enterprises,” 12/16/2009, accessed online 4/12/2010.




                   REPORT TO THE UNITED STATES CONGRESS                      I   APRIL 30, 2010                       113
           TITLE OF THE SECTION




“Hilibus aut aspedit liqui quam excese-
quam il experum re dolum ut ommodio
   ersped eaquas et moloritiis estium
  expeles totaspe llacepel eateceatus
 rem qui velit dolenis quosa num con-
 sequam, quiati bearibuscia si ut eost,
omnihil modita nistia aut hitis que api-
 cia doluptatio es sed es ut ut aut estis
     dolor rerum que litiorepudae”
                                                          —Person of Interest




           Source: Mil ilique cusant laute nonsequi volorum nulpari busam, tem. Nem quia numquid qui aut etur? Nimaionse net quiam, voloreruptis
           providit in reictem. Dem voloribusa delenihic temodis auteceritem qui il et res rem estist, tem cumqui qui reratento que consedis doluptatem




              114                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                 COUNTER-NARCOTICS




COUNTER-NARCOTICS
Since 2002, the U.S. government has appropriated almost $4.24 billion for
counter-narcotics efforts.470 In February 2010, the United States announced a new
counter-narcotics approach that focuses on alternative agriculture programming
and drug interdiction. The new interdiction strategy has two main goals:471
t destroy the link between narcotics and the insurgency by minimizing the
   funding generated by the narcotics trade for the insurgency
t eliminate the ties between corruption and narcotics by strengthening the
   ties between the Afghan people and their government

    In March 2010, the U.S. Government Accountability Office (GAO) reported
that the drug trade undermines the coordinated efforts between the U.S. govern-
ment and the Government of the Islamic Republic of Afghanistan (GIRoA) to
secure and stabilize Afghanistan. The drug trade also poses a significant threat to
the success of the overall U.S. counter-insurgency campaign in the country.472
    During 2010, the Ministry of Counter-Narcotics (MCN) is expected to update
its National Drug Control Strategy to focus on targeted programs to tackle the
issue of substantially reducing the cultivation, production, trafficking, and con-
sumption of narcotics. The MCN last updated this strategy in 2006.473

STATUS
This quarter, no additional provinces attained poppy-free status; moreover,
according to the United Nations Office on Drugs and Crime (UNODC), the
                                                                                         Poppy-Free Status: A province is
status of some poppy-free provinces is at risk. As noted in SIGAR’s January 2010         declared poppy-free when fewer than
report, Baghlan, Faryab, and Kapisa had attained poppy-free status at the end            100 ha have been used for poppy
of 2009.474 The UNODC’s 2010 Opium Winter Rapid Assessment found that three              cultivation.
provinces—Baghlan, Faryab, and Sar-e Pul—are in danger of losing that status
without continued timely eradication. Conversely, if timely eradication is car-
ried out, five additional provinces—Badakhshan, Kabul, Kunar, Laghman, and             Source: UNODC, “Afghanistan Opium Survey: December
Nangarhar—can become poppy-free in 2010, increasing the number of poppy-               2009,” p. 28.

free provinces to 25.475 Figure 3.38 on the following page displays the distribution
of poppy-free provinces and potential changes to their status.
   As of March 2010, virtually all poppy cultivation is confined to six prov-
inces—Badghis, Daykundi, Farah, Helmand, Kandahar, and Uruzgan—in the
southern and western regions of Afghanistan, according to the U.S. Department
of State (DoS). Together, these six provinces account for more than 97% of poppy



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010        115
                                                                  COUNTER-NARCOTICS



FIGURE 3.38

POTENTIAL CHANGES IN POPPY-FREE PROVINCES, 2010


                                                                                 UZBEKISTAN
                                                                                                                                                            TAJIKISTAN                         CHINA



                          TURKMENISTAN                                 JOWZJAN                          KUNDUZ                  BADAKHSHAN
                                                                                       BALKH                        TAKHAR


                                                                                           SAMANGAN
                                                       FARYAB                                               BAGHLAN
                                                                      SAR-E PUL                                       PPANJSHIR NURISTAN
                                                                                                                                       N
                                          BADGHIS                                                                  KAPISA
                                                                                       BAMYAN            PARWAN
                                                                                                             A                      KUNAR
                                                                                                                              LAGHMAN
                                                                                                                  KABUL
                       HERAT                                                                       WARDAK
                                                                                                                              NANGARHAR
                                                       GHOR                                                    LOGAR
                                                                        DAYKUNDI                                 PAKTIYA                                                    Status
                                                                                               GHAZNI                    KHOWST
                                                                                                                                                                            Poppy-free

                                                                   URUZGAN                                                                                                  Not poppy-free
                         FARAH
                                                                                                          PAKTIKA
                                                                                   ZABUL                                                                                    May lose poppy-free status

                                                                                                                                                                            May gain poppy-free status
                                                                                                                                         PAKISTAN
                        NIMROZ
  IRAN                                   HELMAND
                                                              KANDAHAR




Notes: When fewer than 100 ha are being used for poppy cultivation, a province is declared poppy-free. Baghlan, Faryab, and Sar-e Pul may lose poppy-free status without timely eradication.
Badakhshan, Kabul, Kunar, Laghman, and Nangarhar may gain poppy-free status with timely eradication.
Sources: SIGAR, “Quarterly Report to the United States Congress,” 1/30/2010, p. 111; UNODC, “Afghanistan Opium Survey 2010: Winter Rapid Assessment,” 2/2010, p. 2.




                                                                  cultivation in Afghanistan.476 According to the UNODC, poppy production is
                                                                  expected to remain stable in 2010, following a 36% decrease in cultivation over
                                                                  the past two years.477 Both the farm-gate price and the trader price of opium have
                                                                  been decreasing, according to a December 2009 Opium Price Monitoring Report
                                                                  produced by the UNODC. From December 2008 to December 2009, the farm-gate
                                                                  price of dry opium decreased by 3%, and fresh opium by 2%, while the trader
                                                                  price of dry opium decreased by 1%, and fresh opium by 3%. Although the price




                                                                     116                          SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                 COUNTER-NARCOTICS




of illicit crops (such as opium) is falling, the UNODC’s 2010 Opium Winter Rapid
Assessment revealed that the price of licit crops (such as wheat) is falling at a
much faster rate: it decreased by 43%. This makes the cultivation of poppy much
more attractive.478
   Recently, cannabis has emerged as a major threat to counter-narcotics efforts
in Afghanistan. According to the UNODC, the traffic in cannabis provides signifi-
cant funding for the insurgency, comparable to amounts generated by opium. In
April 2010, the UNODC released its first-ever cannabis survey. The survey found
large-scale cannabis production in 17 of Afghanistan’s 34 provinces, with annual
cultivation covering 10,000 to 24,000 hectares (ha). In 2009, the total amount of
resin produced from cannabis was 1,500 to 3,500 metric tons (MT).479

COMBATING THE DRUG TRADE
In the Afghanistan and Pakistan Regional Stabilization Strategy announced this
quarter, the U.S. government outlined specific efforts to combat the drug trade:480
t Interdict drug traffickers, precursor chemicals, and financial flows.
t Deploy additional personnel and enhance civilian-military coordination.
t Increase agricultural assistance for farmers.
t Support Afghan counter-narcotics institutions.
t Enhance regional outreach capabilities.

   The U.S. government, the international community, and the GIRoA are con-
fronting the drug problem in a number of ways, described in the following
subsections. They include counter-narcotics operations, poppy eradication,
interdiction, alternative development programming, justice reform, drug demand
reduction, and capacity development.

Coalition and ANSF Counter-Narcotics Operations
Coalition and Afghan forces conducted 56 military and law enforcement
operations during this quarter, according to the U.S. Department of Defense
(DoD). Approximately half of these operations were conducted by Afghan law
enforcement and the other half by coalition forces. Most of these operations
took place in Regional Command-South, where the narcotics-insurgency nexus
poses the greatest threat. These operations led to destruction or seizure of the
following narcotics and related materials:481
t 16.3 MT of opium
t 195 kg of morphine
t 1.2 MT of heroin
t 9.8 MT of hashish
t 10.1 MT of precursor chemicals

  In addition, the International Security Assistance Force (ISAF) reported a
number of counter-narcotics operations in various provinces from January 1 to
March 31, 2010. During these operations, troops seized a variety of narcotics and




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010       117
                                                                      COUNTER-NARCOTICS




                                                                      drug-producing equipment, as displayed in Figure 3.39. During this same period,
                                                                      Afghan counter-narcotics forces conducted operations with a greater number of
                                                                      coalition forces, according to DoD. This has helped to expand their reach and
                                                                      improve their capabilities. Most of these efforts continue to be focused in the
                                                                      southern and western regions of the country—the epicenter of the drug trade.482
                                                                         In other activity, DoD reported that the Afghan National Army (ANA) played
                                                                      a major role in the Marjah offensive, an area of significant drug revenue for the
                                                                      Taliban. ANA forces operating jointly with coalition forces reported several
                                                                      seizures of narcotics in Regional Command-South. An ongoing partnership
                                                                      between the Afghan National Police (ANP) and the Afghan Border Police
                                                                      also led to seizures of hashish in the provinces of Helmand and Kandahar, as
                                                                      reported by DoD.483
FIGURE 3.39

DRUGS SEIZED BY AFGHAN AND COALITION FORCES
Results of 23 Counter-Narcotics Operations, January–March 2010


                                     2 Operations:
                                     Opium: 500 kg
                                     Opium, liquid: 10 55-gal drums
                                     Heroin, processed: multiple bags
                                     Heroin and opium: large pile on ground
                                     Ammonium hydroxide: 300 L
                                     Hydrogen chloride: 50 1-L bottles
                                     Cutting agent: 50 bags                                       JOWZJAN              KUNDUZ
                                                                                                              BALKH
6 Operations:                        Pressure cookers holding opium                                                                           BADAKHSHAN
                                                                                                                                     TAKHAR
Opium: 0.5 kg                        Narcotics processing equipment
Opium, wet: 25 kg                    Soda ash: 100 kg                                                           SAMANGAN
Opium, wet: 25 kg                    Morphine: 17 kg                                    FARYAB                          BAGHLAN                             1 Operation:
Opium gum: 40 kg                     Scales
                                                                                                  SAR-E PUL                   PANJSHIR                      Opium, raw paste: 32 kg
Opium gum: 40 kg                                                                                                                     NURISTAN
                                                                              BADGHIS
Heroin, pure: 100 kg                                                                                                  PARWAN  KAPISA
                                                                                                            BAMYAN                        KUNAR
Heroin: 100 kg                                                                                                                    LAGHMAN
Heroin waste products: 50 kg
                                                             HERAT                                                 WARDAK KABUL
Heroin waste products: 50 kg                                                                                                        NANGARHAR
Morphine, liquid: 380 L                                                                 GHOR                              LOGAR
                                                                                                                                                            1 Operation:
Morphine, liquid: 378 L                                                                            DAYKUNDI
                                                                                                                          PAKTIYA                           Opium: 54 kg
Morphine base: 40 kg
                                                                                                                GHAZNI         KHOWST                       Opium seeds: small bag
Morphine base: 40 kg
                                                                                                                                                            Heroin, pure: 1 kg
Poppy: 30 kg                                                                                     URUZGAN
Amphetamines: 2 kg
                                                               FARAH
Precursor chemicals: 150 L
                                                                                                            ZABUL          PAKTIKA
Precursor chemicals: 113 L
                                                                                                                                                            5 Operations:
Precursor chemicals: 40 kg
                                                                                                                                                            Illegal drugs: 6,000 lb
Precursor chemicals, liquid: 115 L
                                                                                                                                                            Opium: 3,600 kg
Ammonium chloride: 136 kg
                                                              NIMROZ          HELMAND       KANDAHAR                                                        Opium: 239 15-kg bags
White soda ash: 405 kg
                                                                                                                                      8 Operations:         Opium: 110 lb
Acid: 18 L
                                                                                                                                      Opium: 2,000 lb       Opium, processed: 5,300 lb
Narcotics processing equipment
                                                                                                                                      Opium: 10 kg          Opium, wet paste: 1,000 lb
                                                                                                                                      Opium: 40 kg          Marijuana and opium: 3,500 lb
                                                                                                                                      Opium: 18 kg          Marijuana: 800 m3
                                                                                                                                      Opium: 181 kg         Heroin: 50 lb
                                                                                                                                      Hashish: 725 kg
                                                                                                                                      Marijuana: 2,000 lb
                                                                                                                                      Hemp seed: 13 bags
Note: Data reflects separate drug seizures reported in ISAF press releases.
Sources: ISAF, press releases, 1/4–3/29/2010, accessed online 4/6/2010.




                                                                         118                      SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                                     COUNTER-NARCOTICS




   In March 2010, the United Nations (UN) Secretary-General reported that                                                 UZBEKISTAN             KYRGYZSTAN
Afghanistan, Iran, and Pakistan successfully conducted three counter-narcotics                      AZERBAIJAN
                                                                                                                   TURKMENISTAN            TAJIKISTAN     CHINA
operations as part of the three-country initiative of the Rainbow Strategy. As a                         CASPIAN
                                                                                                           SEA

result, 40 traffickers were arrested, and 948 kg of opium, 351 kg of heroin, and
483 kg of hashish were seized.484                                                                                             AFGHANISTAN
                                                                                             IRAQ                IRAN

                                                                                                                                        PAKISTAN
Poppy Eradication
The new U.S. counter-narcotics strategy shifts the focus from eradication to                                                                              INDIA

                                                                                             SAUDI ARABIA
interdiction because poppy eradication proved ineffective. According to DoS,
                                                                                                                                       ARABIAN
the emphasis on eradication hurt farmers more than traffickers. The new U.S.                                                OMAN         SEA

counter-narcotics strategy shifts the focus from eradication to interdiction activi-
ties.485 The UN Secretary-General noted that, through effective interdiction and
counter-trafficking efforts, this strategy shift will encourage the reduction of             Rainbow Strategy: a regional response to
poppy cultivation and narcotics production.486                                               the threat posed by the supply, trafficking,
   According to DoS, local Afghan officials will continue independent eradica-               and consumption of Afghan opiates.
tion efforts through governor-led eradication. The United States will remain in
a supportive role through programs such as the Good Performer’s Initiative.487
According to DoS officials, however, opportunities for governor-led eradication            Source: UNODC, “UNODC in Europe, West and Central Asia,”
efforts are decreasing as cultivation becomes more concentrated in areas of                accessed online 3/23/2010.

high insecurity—a trend reported recently by the GAO.488 According to the U.S.




Tractors line up at the governor’s compound in Farah province before an Afghan-led poppy
eradication operation. The new U.S. counter-narcotics strategy focuses on interdiction
activities. (U.S. Air Force photo, 2nd Lt. Karl Wiest)




             REPORT TO THE UNITED STATES CONGRESS       I   APRIL 30, 2010           119
                                                               COUNTER-NARCOTICS




                                                               Bureau of International Narcotics and Law Enforcement Affairs (INL),
                                                               the UNODC reported a total of 943 ha of poppy eradicated as of March 23, 2010,
                                                               with governor-led efforts taking place so far in Farah, Helmand, and Herat.489
                                                                  In mid-March a UN-supported news service reported that the GIRoA had
                                                               informally agreed to halt eradication efforts in Marjah, acceding to pleas from
                                                               farmers.490 As reported by IRIN, because the Marjah offensive caused significant
                                                               damage to farmers’ livelihoods, eradicating poppy fields in the area would pun-
                                                               ish local farmers who were trying to recover from the conflict. In return for the
                                                               GIRoA’s concession, the farmers have promised not to cultivate poppy next year.491
According to the GAO, 1,550 Afghan drug                           Notable issues such as security, lack of political will, and inadequate
traffickers have been tried and convicted                      resources continue to have a detrimental effect on the success of eradication
since 2005.                                                    efforts. According to the GAO, poor security limits eradication activities in
                                                               certain provinces. In order for eradicators to receive the protection they need
Source: GAO, GAO-10-291, “Afghanistan Drug Control: Strategy
Evolving and Progress Reported, but Interim Performance        during their work, they must engage in agreements with governors and local
Targets and Evaluation of Justice Reform Efforts Needed,”
3/2010, p. 28.                                                 security forces. Lack of political will greatly affects the success of governor-led
                                                               eradication efforts. The GAO noted instances in which governors failed to act on
                                                               agreements made with U.S. officials to set targets for eradication.492
                                                                  In March 2010, the GAO also reported that limited resources hinder the ability
                                                               of governors to eradicate poppy. As a result, the United States and the United
                                                               Kingdom provide advance payments to governors to assist with the start-up costs
                                                               (for example, equipment rental, hiring, fuel provision) of eradication activities.493

                                                               U.S. Interdiction Activities
                                                               One of the key initiatives of the new U.S. strategy is to reduce the drug trade by
                                                               interdicting drug traffickers and disrupting trafficking networks. Specific efforts
                                                               to combat the drug trade through interdiction include the following:494
                                                               t disrupting the trafficking of drugs out of Afghanistan
                                                               t disrupting the flow of precursor chemicals and illicit funds necessary for the
                                                                  production of those drugs into the country
                                                               t targeting narco-insurgency networks and shutting down drug bazaars

                                                                   According to the GAO, the purpose of U.S. interdiction programs is to
                                                               “decrease narcotics trafficking and processing by conducting operations, as
                                                               well as increasing the capability of Afghan law enforcement to disrupt and dis-
                                                               mantle drug trafficking organizations.”495 These operations involve raiding drug
                                                               laboratories, destroying storage sites, arresting drug traffickers, conducting
                                                               roadblock operations, seizing chemicals and drugs, and conducting undercover
                                                               drug purchases.496
                                                                   The GAO report identified the Drug Enforcement Administration (DEA) as the
                                                               lead U.S. agency responsible for conducting these interdiction operations.497 To
                                                               strengthen the impact of interdiction efforts, the DEA increased the number of
                                                               its personnel in Afghanistan from 13 in January 2009 to 81 positions in December
                                                               31, 2009, according to DoS.498




                                                                120                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                 COUNTER-NARCOTICS




   To continuously enhance interdiction activities, DoD has established a                   “Another major
Combined Joint Interagency Task Force-Nexus in Kandahar. According to the
GAO, the Task Force has the following goals:499
                                                                                          component of our
t Provide coordination support.                                                        strategy is to disrupt
t Generate intelligence.                                                               narcotics trafficking,
t Create target packages for DEA interdiction missions and ISAF counter-            which provides significant
   insurgency operations.
                                                                                      funding to the Taliban
   To support interdiction activities, INL provides operation and maintenance          insurgency. This drug
support for the compounds of the specialized units of the Counter-Narcotics             money has been the
Police Afghanistan (CNPA)—the National Interdiction Unit, the Special                 ‘oxygen’ in the air that
Investigative Unit, and the Technical Investigative Unit. According to INL, the          allows these groups
main compound is located in Kabul. That support includes providing meals,
custodial services, security for the compounds, and general maintenance.500
                                                                                              to operate.”
                                                                                               —General David H. Petraeus
Alternative Development Programming
The U.S. stabilization strategy introduced a new civilian-military focus on agri-   Source: General David H. Petraeus, “Statement before the
                                                                                    Senate Armed Services Committee,” 3/16/2010.
culture as the main reconstruction priority. According to DoS, the new strategy
identifies agriculture as the fastest means to create licit jobs, which in turn
will slow the funding stream that poppy cultivation provides the insurgency.501
Following the Afghan First approach, the new agriculture strategy emphasizes
Afghan leadership at all programming levels and was developed in close coordi-
nation with the Ministry of Agriculture, Irrigation, and Livestock (MAIL).502
   Building on this strategy, DoS reported that USAID is providing vouchers
to farmers in 18 provinces, with the goal of providing viable alternatives to
poppy cultivation (for example, fruit and nut saplings or grapevines). DoS
highlighted the importance of a water management system to increase licit
agricultural output.503 In February 2010, USAID granted a little more than $30
million to Roots of Peace, a U.S. non-governmental organization (NGO), to
help rural farmers in the eastern and southern provinces double their income.
Specifically, Roots of Peace will help farmers upgrade their crops from cereals
and poppy to higher-value crops.504 For more information on this initiative, see
“Economic and Social Development.”
   According to USAID, program administrators provide biweekly progress
reports on alternative development programs. For example, they reported
that 37,321 families benefited directly from U.S. government interventions
from January 1 to February 28, 2010. During that period, more than $515,000
was paid in wages for community productivity training related to licit crops.
Program administrators also reported that farmers had more than 2,325 ha under
improved irrigation and that targeted farmers planted 358 ha of new fields with
alternative licit crops.505
   Agribusiness Development Teams teach farmers efficient farming techniques.
To boost these efforts, according to the U.S. Army, eight teams have been
deployed to three Regional Commands (East, Central, and South). The Army
reported that “17 deployments have covered 14 provinces and contributed to



            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010       121
                                                                 COUNTER-NARCOTICS




                                                                 over 282 sustainable agriculture projects generating more than $21 million in
                                                                 revenue for the people of Afghanistan” since the program’s inception in 2007.506
                                                                    USAID reported that MAIL has primary responsibility for the implementation
                                                                 of USAID’s agriculture programs, including alternative development program-
                                                                 ming. USAID works in close consultation with the senior executives of MAIL in
                                                                 the development of new programs and the modification of existing programs,
                                                                 when necessary.507
                                                                    Sustainability of alternative development programs is an important factor
                                                                 in the success of the U.S. counter-narcotics effort. USAID does not monitor
                                                                 the sustainability of the programs, but rather the sustainability of their results.
                                                                 According to USAID, this is a primary reason why the agency does not promote
                                                                 wheat as an alternative to poppy. Doing so may deter farmers from cultivating
                                                                 poppy one year, but it does not prevent them from returning to poppy cultiva-
                                                                 tion the following year. Because of the short-term effect of promoting wheat as
                                                                 a sustainable alternative, USAID fosters farmers’ investment in long-term and
                                                                 permanent alternatives, such as tree and trellis crops (for example, grapes).
                                                                    MAIL and USAID believe these efforts will create a permanent break in the
                                                                 cycle of farmers’ annual decisions to cultivate poppy.508 According to USAID, the
                                                                 Incentives Driving Economic Alternatives for the North, East, and West (IDEA-
                                                                 NEW) programs strongly support the U.S. Afghan First policy. Afghans make up
                                                                 97% of the staff on the IDEA-NEW project. Furthermore, IDEA-NEW prioritizes
                                                                 local procurement; it has procured more than $4.3 million of goods from Afghan
                                                                 vendors since June 2009.509 Table 3.13 provides more information on USAID’s
                                                                 alternative development programs.

                                                                 Justice Reform
                                                                 The U.S. government has undertaken a number of activities to improve the
                                                                 GIRoA’s ability to arrest, prosecute, and punish drug traffickers, according to a
                                                                 March GAO report. Advisors from the U.S. Department of Justice mentored 32
                                                                 Afghan prosecutors and 35 investigators on the Criminal Justice Task Force and


TABLE 3.13


ACTIVE USAID ALTERNATIVE DEVELOPMENT PROGRAMS
Program Name                                       Purpose                                                                                     Duration        Budgeted Cost
Afghanistan Vouchers for Increased Production Increase rural family farm production and productivity to provide permanent                      9/2009–8/2010   $300 million
in Agriculture (AVIPA)-Plus                   replacements for poppy.
Alternative Development Program South-West         Provide alternatives; based primarily in Farah province because of the significant increase 4/2008–3/2011   $75 million
(ADP/SW)                                           in poppy cultivation there in the past two years.
Commercial Horticulture and Agricultural           Reduce poverty among 26,000 rural farmers by dramatically increasing the                    2/2010–1/2014   $34.9 million
Marketing Program (CHAMP)                          productivity of existing vineyards and converting former wheat, poppy, and corn fields to
                                                   more profitable orchards and vineyards.
Incentives Driving Economic Alternatives for       Provide incentives to promote sustainable growth of the licit agricultural economy.         3/2009–3/2014   $150 million
the North, East, and West (IDEA-NEW)
Sources: USAID, response to SIGAR data call, 4/6/2010; GAO, response to SIGAR vetting, 4/15/2010.




                                                                    122                         SPECIAL INSPECTOR GENERAL           I    AFGHANISTAN RECONSTRUCTION
                                 COUNTER-NARCOTICS




14 Afghan judges on the Central Narcotics Tribunal. The DoJ also advises on
the development of laws and procedures related to counter-narcotics.510
   Despite U.S. government efforts to improve the justice sector, however, the
GAO reported recently that DoS and DoJ officials have difficulty determining
whether these institutions are achieving their intended purposes because of a
lack of well-defined criteria within the Afghan institutions. Specifically, the Task
Force and Tribunal are responsible for narcotics-related corruption cases against
low-, mid-, and high-level narcotics traffickers, but clear definitions of catego-
ries of traffickers do not exist. According to the GAO, identifying the category
involves subjective judgments based on such factors as the amounts of drugs
seized, the trafficker’s political connections, and whether the trafficker is a
government official.511

Drug Demand Reduction
INL reported that the U.S. government will provide support for 30 residential
drug treatment centers in Afghanistan this year, making it the largest contribu-
tor to drug treatment services in the country. Six of the drug treatment centers
provide residential and outpatient services exclusively to women; each has
an adjacent center that provides services to the children of female patients. In
addition, two centers provide drug treatment services to adolescents. For more
information on drug treatment centers, see the quarterly highlight at the end of
this section. According to INL, the U.S. government aims to further reduce the
demand for drugs by supporting 15 mosque-based outreach and aftercare centers
that provide a host of community services:512
t shelter and crisis intervention for destitute drug addicts
t individual and group counseling
t aftercare services for recovering addicts (Narcotics Anonymous)
t meeting facilities for peer/family support groups for recovering persons
t relapse prevention services
t provision of basic drug information to schools and community members

   To strengthen the impact of drug demand reduction services, INL will fund the
implementation of a drug prevention program in Kabul high schools. To assist
with the eventual transition to Afghan leadership, the U.S. government is help-
ing build the GIRoA’s counter-narcotics capacity by sponsoring training for drug
treatment professionals, according to INL.513
   During this quarter, the GAO reported that an estimated 12% to 41% of ANP
recruits have tested positive for drugs. DoS noted that demand reduction pro-
grams are not currently geared toward police forces because of limited financial
resources. However, the GAO reports that DoS and DoD are considering plans
to establish rehabilitation clinics dedicated to regional police training centers.
Officials from DoS and DoD stated that the ministries of Interior and of Public
Health have made efforts to establish a drug rehabilitation center in Kabul for
priority use by the ANP.514




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010        123
COUNTER-NARCOTICS




   In an attempt to provide perspective on the breadth of the problem, the
UNODC conducted its first survey of drug use in Afghanistan in 2005. At that
time, the UNODC estimated that Afghanistan had 920,000 illicit drug users—
approximately 3.8% of the population (23.85 million).515 The UNODC is expected
to conduct another drug use survey this year, according to the GAO.516 INL
reported that it will conduct a separate, independent, nationwide drug use survey
in 2010; to determine levels of drug use, it will collect toxicological samples (for
example, from hair or urine).517

Capacity Development
The concept of the Afghan First approach is to provide support to Afghan leader-
ship, capacity-building, sustainability, and local procurement initiatives.518 At the
London conference, the international community reiterated the importance of the
Afghan government “meet[ing] the needs of its people through developing its own
institutions and resources.”519
   Specifically, the United States has provided a significant amount of capacity-
building assistance to the Counter-Narcotics Police Afghanistan (CNPA). In
March, the GAO reported that the DEA works with the CNPA to conduct investi-
gations, build cases, and arrest drug traffickers. The DEA also mentors specialized
units of the CNPA; DoD trains, equips, and sustains these units. DoD also supports
capacity building for the CNPA through the construction of forward operating
bases and other infrastructure projects. DoS supports the operation and mainte-
nance costs of some of the infrastructure built under DoD projects.520
   A recent inter-agency evaluation identified organizational capacity as a critical
weakness of the CNPA, according to the GAO. To strengthen the CNPA’s organiza-
tional capacity, DoD is working to develop ratings to measure such CNPA support
functions as logistics, financial management, administration, and training.521
   Since December 2009, DoD has supported the deployment of four advisors
from the Department of Justice’s International Criminal Investigative Training
Assistance Program to the Combined Security Transition Command - Afghanistan
(CSTC-A). These advisors are assessing CNPA training needs, exploring ways to
reform, and seeking to coordinate CNPA training requirements with the larger
police training mission.522 DoS reports that as part of the new counter-narcotics
strategy, capacity-building efforts will also be extended to the MCN, MoI, the
Counter-Narcotics Judicial Task Force, the Major Crimes Task Force, and the
Counter-Narcotics Tribunal.523

CHALLENGES
The profits that insurgents receive from the drug trade perpetuate both the trade
and the overall conflict. In 2009, Afghan drug traffickers earned approximately
$1.9 billion from trading opiates—equivalent to one-fifth of Afghanistan’s gross
domestic product.524 Furthermore, corruption, weak governance, and poor
security hamper the progress of counter-narcotics efforts, according to DoS.525




 124                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                  COUNTER-NARCOTICS




Narcotics and the Insurgency
One of the main goals of the U.S. whole-of-government approach, as re-
emphasized by DoS in the stabilization strategy, is to “counter the insurgency-
narcotics nexus and reduce funding to the Taliban and other anti-government
forces.”526 The drug trade is a significant source of funding for the insurgency:
according to the GAO, $90 million to $160 million of the estimated $3 billion
generated by the industry is channeled to the insurgency each year.527
   In the 2010 International Narcotics Control Strategy Report, DoS noted that
most poppy cultivation occurs in areas where there is high insurgent activity.
Insurgents greatly influence the drug trade, as well as farmers’ decisions to culti-
vate poppy: DoS reported that narcotics traffickers provide revenue and material
support (for example, vehicles, weapons, and shelter) to the insurgents, who in
turn provide protection to poppy farmers and traffickers. The insurgents also
promise to prevent the GIRoA from interfering with farmers’ illicit activities.528
   According to DoD, the Combined Joint Interagency Task Force – Nexus
continued to provide operational and intelligence support to ISAF and interna-             Combined Joint Interagency Task
tional law enforcement agencies during this quarter. DoD has ordered additional            Force – Nexus: a force established by DoD
analytical support for the Task Force, to increase its capabilities. The additional        that is intended to provide coordination
analysts will significantly enhance the center’s ability to develop targets for coali-     support, intelligence, and target packages
tion military forces that conduct counter-insurgency operations.529                        for DEA interdiction missions, as well as
                                                                                           ISAF counter-insurgency operations that
Corruption                                                                                 target insurgents linked to the drug trade
In addition to funding the insurgency, the drug trade fuels corruption. A
recent UNODC corruption survey estimated that Afghans paid approximately
$2.5 billion in bribes and related payments in 2009 and showed that Afghans              Source: GAO, GAO-10-291, “Afghanistan Drug Control: Strategy
                                                                                         Evolving and Progress Reported, but Interim Performance
view corruption as a more serious issue than security.530 The survey found that          Targets and Evaluation of Justice Reform Efforts Needed,”
                                                                                         3/2010, p. 9.
corruption opens the door for a number of crimes to be committed with mini-
mal consequences for the perpetrators. Those crimes include drug trafficking.531
   As noted in SIGAR’s January 2010 report, Afghanistan ranks 179 of 180 coun-
tries in Transparency International’s Corruption Perception Index.532 According
to DoS, many provincial and district officials are believed to profit personally
from the drug trade. Specific corrupt activities include facilitating drug activities
and reaping benefits from revenue streams derived from the drug trade.533
   In an effort to combat corruption, the new Afghan Customs Academy (Kabul)
officially opened in January 2010 and graduated the first class of customs profes-
sionals (55 personnel) in March 2010, according to DoD. The purpose of the
Academy is to train professional customs officials, with the goal of increasing
customs revenues to deter the desire to obtain funds in a corrupt manner. DoD
funded the construction of the Academy and the training.534




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010          125
                                                                    COUNTER-NARCOTICS




                                                                    Border Patrol
       “Cultivation and                                             Preventing drugs from flowing across Afghanistan’s borders is a difficult task, as
      trafficking of illicit                                        reported by the UNODC in January. The Afghan Border Police have responsibil-
                                                                    ity for this effort but have faced challenges fulfilling their duties because of the
  drugs is another serious                                          dangerous nature of the job, substandard pay, and minimal prospects for career
    threat that is directly                                         advancement.535
       intertwined with                                                To enhance support for border patrol, DoD reported that in February 2010,
 terrorism and corruption.”                                         six additional mentors funded by DoD and U.S. Central Command were added to
                                                                    the U.S. Embassy Kabul Border Management Task Force. Three of the mentors
  —Afghan President Hamid Karzai                                    will be deployed to Kandahar and three to Kabul International Airport. The Task
                                                                    Force mentors serve in an oversight capacity to provide border control expertise
Source: Afghanistan Office of the President, “Un-Official
Translation of the Inaugural Speech by H.E. Hamid
                                                                    for GIRoA border security forces. This helps reduce corruption and provide sup-
Karzai – President of the Islamic Republic of Afghanistan,”         port to law enforcement interdiction activities.536
p. 6, accessed online 4/9/2010.
                                                                       Furthermore, DoD and U.S. Central Command partially funded the expan-
                                                                    sion of the Department of Homeland Security Customs and Border Protection
                                                                    Office in the U.S. Embassy Kabul. According to DoD, the expansion increases the
                                                                    capacity of the Department of Homeland Security to oversee border and customs
                                                                    programs in coordination with the GIRoA.537

                                                                    Security
FIGURE 3.40                                                         The unstable security situation in the southern and western regions of
                                                                    Afghanistan continues to pose a significant threat to the counter-narcotics effort.
POPPY CULTIVATION RELATIVE TO VILLAGE
                                                                    In February 2010, the UNODC reported that anti-government elements are now
SECURITY SITUATION
                                                                    making strides in the northern region—specifically, in Kunduz.538 According to a
                                                                    UNODC survey, poppy cultivation is inextricably linked to poor security condi-
Very poor
                                                                    tions as represented in Figure 3.40.539
                                              79% 21%
 security

     Poor
                                                                    Governance
  security                            66% 34%                       An effective governance system is necessary to help combat the drug trade,
                                                                    according to the UNODC. In February 2010, the UNODC reported that effective
    Good                                                            governance depends largely on the leadership and integrity of individual gov-
                 20% 80%
  security
                                                                    ernors, as well as the local security situation.540 As noted in SIGAR’s January
Very good                                                           report, most opium originates in the south and west, where government control
  security 7% 93%
                                                                    is the weakest.541 In many parts of the country, the weak authority of the
             0       20        40        60        80         100
                                                                    central government is overtly challenged or replaced by anti-government
                                                                    elements. According to the Afghanistan NGO Safety Office, insurgents control
                 Cultivating Poppy         Not Cultivating Poppy
                                                                    nearly half of the country. The Taliban’s system of taxation and “shadow”
                                                                    tribunals provides the only form of criminal justice and security in these
Note: Security classifications as provided by UNODC.
Source: UNODC, “Afghanistan Opium Survey 2010:                      areas of weak governance.542
Winter Rapid Assessment,” 2/2010, p. 12.
                                                                        In February 2010, the UNODC reported that in the southern and western
                                                                    regions weak governance continues to be a dominant factor in farmers’ decisions
                                                                    to cultivate poppy. A strong governance structure appears to influence farmers’
                                                                    decisions: 61% of UNODC survey respondents in the northern region cited the
                                                                    illegality of the activity as the factor motivating their decision not to cultivate.543




                                                                      126               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                 COUNTER-NARCOTICS




Money Laundering                                                                       FIGURE 3.41

In the 2010 International Narcotics Control Strategy Report, DoS reported that
                                                                                      ILLICIT AND LICIT CROPS,
the illicit drug trade is the primary source of laundered funds in Afghanistan.       ANNUAL NET INCOME ($/HECTARE)
Furthermore, limited capacity, limited expertise, lack of resources, and lack
of political will limit the ability of the GIRoA to successfully combat financial
                                                                                                   $3,341
crimes.544 The UNODC reported that the profits generated from the heroin trade
alone amount to roughly $55 billion a year.545                                          $3,000


                                                                                                                 $2,005
EMERGING THREAT OF CANNABIS                                                             $2,000
Cannabis is becoming a major problem in the fight against narcotics in
Afghanistan, according to the UNODC. In terms of cultivation, Afghanistan trails        $1,000
                                                                                                                            $960
behind many cannabis-cultivating countries, with approximately 10,000 to 24,000
ha cultivated per year. In terms of yield, however, Afghanistan is the leader, with
145 kg of resin, or hashish, per ha. This makes the country the world’s largest              $0
                                                                                                  Cannabis Opium            Wheat
producer, at an estimated 1,500 to 3,500 tons per year.546
   Cannabis reaps even higher returns than opium—$3,341 per ha compared                                Illicit      Licit
with $2,005 per ha. These returns are due to the low costs associated with            Source: UNODC, “Afghanistan Cannabis Survey 2009,”
processing and harvesting cannabis. When measured against the income                  4/2010, p. 6.

generated from cultivating licit crops such as wheat ($960 per ha), the financial
incentive to cultivate illicit crops is evident, as represented in Figure 3.41.547
   Cannabis cultivation is also concentrated in areas with weak security. The
UNODC cannabis survey reported that 67% of farmers who cultivated poppy in              Hashish: Found in the cannabis plant,
2009 also cultivated cannabis. Cannabis resin production accounted for approxi-         hashish is a resinous material rich in
                                                                                        delta-9-tetrahydrocannabinol (THC).
mately 0.4–0.9% of Afghanistan’s GDP in 2009, according to the UNODC.548
Funds generated from cannabis cultivation, production, and trafficking are
taxed by the insurgency, providing insurgents with another source of revenue in
                                                                                      Source: DEA, “Hashish,” accessed online 4/11/2010.
addition to opium.549




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010       127
                                 QUARTERLY HIGHLIGHT




DRUG USE IN AFGHANISTAN                                       and expertise about addiction and treatment. For
                                                              example, one high-level MoPH official advocated
                                                              smoking opium as an alternative to using heroin
The UNODC is expected to conduct a seventh national           intravenously—essentially promoting drug use.555
study on drug use in Afghanistan in 2010, according               The Ministry of Counter-Narcotics (MCN), how-
to the GAO.550 The first six were conducted between           ever, has been much more reliable than the MoPH
1998 and 2005. According to the UNODC, drug use               in its provision of treatment. According to INL, the
has been a major problem in Afghanistan for a number          MCN understands the need for an effective drug
of years.551                                                  treatment response that both “safeguards human
                                                              capital and serves a counter-insurgency mission.”556
STATUS                                                        Representatives from the MCN, the Colombo Plan,
INL could not provide a figure for the current number of      and INL meet annually with treatment center coordi-
drug users in Afghanistan but did report that INL staff       nators and other stakeholders to revise progress in
have witnessed more than 2,000 addicts actively using         implementing effective treatment programs.557
drugs at the former Russian Culture Center in Kabul. In
addition, some tribal elders have reported to INL that        EFFORTS TO IMPROVE TREATMENT
roughly half the residents of their villages are addicted     INL is currently conducting a three-year outcome/
to narcotics.552                                              impact evaluation to measure long-term treatment
   In an effort to determine the effect of second-hand        success. Success is identified as reduction in rates
opium smoke on children’s potential future drug use,          of drug use and relapse, reduction in criminal activity
INL conducted two small studies of opium-smoking              and recidivism rates, reduction in intravenous drug
homes; a third is ongoing. INL collected hair and urine       use that leads to HIV/AIDS, increase in employment,
samples from adults and children, as well as breast           and improvement in mental health status. INL will
milk samples from nursing mothers. In the first study,        conduct a separate scientific study to determine the
61% of the children tested positive for opiates; in the       severity of drug addiction. This information will help
second, 74% tested positive. Some of the children had         the United States, the GIRoA, and other stakeholders
toxic concentrations of opiates many times greater            improve planning for drug use treatment centers.558
than “an average hard-core heroin user in the United
States.”553                                                   BARRIERS TO COMBATING DRUG USE
                                                              A number of barriers impede the success of efforts to
CURRENT TREATMENT                                             combat drug use in Afghanistan, according to INL. The
According to INL, the GIRoA puts the total number             pervasiveness and affordability of opium make it eas-
of drug treatment centers in Afghanistan at 40. INL           ily accessible to most of the population. In addition,
supports 28 of these centers. Beginning in April 2010,        drug treatment capacity is very limited. Only 10,216
INL will extend support to 2 more centers, bringing the       drug users receive treatment each year, according
total of INL-supported centers to 30.554 Figure 3.42          to INL. The 2005 UNODC drug use survey reported
displays the concentration of drug treatment centers          920,000 drug users in the country. That means
and their annual capacity.                                    that only 1% of the drug-using population receives
   The GIRoA provides support for the remaining treat-        treatment each year. Furthermore, limited access to
ment centers through the Ministry of Public Health            medication leads some Afghans to use opium as a
(MoPH). Counselors visit patients’ homes for 30-day           pain-killer. INL noted the need for a national anti-drug
treatment cycles, a practice that is known to be ineffec-     use campaign. This campaign would need to focus
tive and to result in high relapse rates. Other practices     on the rural populations who have limited access to
by the MoPH cause INL to question the staff’s knowledge       television and radio.559



                                     128               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                 QUARTERLY HIGHLIGHT




SUCCESS STORIES                                                                                INL also reported progress in the establishment of
The establishment of the beginning of a drug treatment                                      treatment centers for women and children. Despite
system on a national scale has been INL’s biggest                                           cultural sensitivities about women and children leav-
accomplishment to date. INL and the Colombo Plan                                            ing their homes for the 45-day treatment period, INL
countries have introduced evidence-based practices and                                      has demonstrated that the centers have no difficulty
conducted extensive training on how to treat patients                                       maintaining 100% occupancy. INL reported that it has
and operate drug treatment centers effectively.560                                          plans under way to build on these success stories.561



FIGURE 3.42

DRUG ADDICTION TREATMENT CENTERS, CAPACITY BY PROVINCE


                                                                               UZBEKISTAN
                                                                                                                                        TAJIKISTAN             CHINA



                          TURKMENISTAN                               JOWZJAN                        KUNDUZ              BADAKHSHAN
                                                                                    BALKH                      TAKHAR


                                                                                         SAMANGAN                                               Annual Client Capacity
                                                      FARYAB                                   BAGHLAN
                                                                     SAR-E PUL                        PANJSHIR                                  0
                                                                                                              NURISTAN
                                         BADGHIS                                                                                                100–300
                                                                                              PARWAN KAPISA        KUNAR
                                                                                   BAMYAN                  LAGHMAN
                                                                                                                                                301–600
                                                                                                   KABUL
                      HERAT                                                               WARDAK
                                                                                                             NANGARHAR                          601–1000
                                                      GHOR                                       LOGAR
                                                                      DAYKUNDI                      PAKTIYA                                     1,001–2,400

                                                                                           GHAZNI                KHOWST

                                                                  URUZGAN
                         FARAH
                                                                                                     PAKTIKA
                                                                                 ZABUL



                                                                                                                             PAKISTAN
                       NIMROZ
   IRAN                                 HELMAND
                                                             KANDAHAR




Note: Capacity for both residential/outpatient and home-based treatment.
Source: INL, response to SIGAR vetting, 4/20/2010.




                  REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2010                    129
                Women in
                Caption  Head
                            uniform
                LamANP
                An   ad policewoman
                         qui accae nis stands
                                        ut eatemquam,
                                                at attention
                                                         sunt,
                                                             before
                                                                volorem
                                                                     the fuga.
                                                                         start of
                Oluptatem
                the International
                            dolloreWomen’s
                                    mo experum
                                             Day Ceremony.
                                                   derrumquoWomen
                                                               ipic temporrum
                                                                       in the ANP
                (U.S.the
                help  Branch
                          forcephoto,
                                betterSSgt
                                       serveJohn
                                              the Doe)
                                                  population. (U.S. Air Force
                photo, SSgt. Larry E. Reid Jr.)




130   SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
4   OTHER AGENCY
    OVERSIGHT




       131
           TITLE OF THE SECTION




“Hilibus aut aspedit liqui quam excese-
quam il experum re dolum ut ommodio
   ersped eaquas et moloritiis estium
  expeles totaspe llacepel eateceatus
 rem qui velit dolenis quosa num con-
 sequam, quiati bearibuscia si ut eost,
omnihil modita nistia aut hitis que api-
 cia doluptatio es sed es ut ut aut estis
     dolor rerum que litiorepudae”
                                                          —Person of Interest




           Source: Mil ilique cusant laute nonsequi volorum nulpari busam, tem. Nem quia numquid qui aut etur? Nimaionse net quiam, voloreruptis
           providit in reictem. Dem voloribusa delenihic temodis auteceritem qui il et res rem estist, tem cumqui qui reratento que consedis doluptatem




              132                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                 OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
Each quarter, the Special Inspector General for Afghanistan Reconstruction
(SIGAR) requests updates from other agencies on completed and ongoing
oversight activities. The following agencies are performing oversight activities
in Afghanistan and providing results to SIGAR:
t Department of Defense Office of Inspector General (DoD OIG)
t Department of State Office of Inspector General (DoS OIG)
t Government Accountability Office (GAO)
t U.S. Army Audit Agency (USAAA)
t U.S. Agency for International Development Office of Inspector General
   (USAID OIG)
The descriptions appear as they were submitted with these changes for consis-
tency with other sections of this report: acronyms and abbreviations in place of
full names; standardized capitalization, hyphenation, and preferred spellings; and
third-person instead of first-person construction.

COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists the eight reconstruction or security-related oversight projects
the participating agencies reported were completed this quarter.

TABLE 4.1


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF MARCH 31, 2010
Agency                   Report Number             Date Issued           Project Title
DoD OIG                  D-2010-042                2/9/2010              Joint DoD and DoS Audit on DoD Obligations and Expenditures of Funds Provided to Department of
DoS OIG-MERO             MERO-A-10-6                                     State for the Training and Mentoring of the Afghan National Police
DoD OIG                  D-2010-034                1/8/2010              Internal Controls over Army, General Fund, Cash and Other Monetary Assets Held in Southwest Asia
DoS OIG-MERO             MERO-A-10-03              3/12/2010             Effectiveness of INL’s Air Wing Programs in Afghanistan and Pakistan
GAO                      GAO-10-509T               3/23/2010             Iraq and Afghanistan: Agencies Face Challenges in Tracking Contracts, Grants, Cooperative Agreements,
                                                                         and Associated Personnel
GAO                      GAO-10-551T               3/17/2010             Warfighter Support: Continued Actions Needed by DoD to Improve and Institutionalize Contractor Support in
                                                                         Contingency Operations
GAO                      GAO-10-291                3/9/2010              Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and
                                                                         Evaluation of Justice Reform Efforts Needed
USAID OIG                5-306-10-007-P            3/31/2010             Audit of USAID/Afghanistan’s Human Resources and Logistical Support Program
USAID OIG                5-306-10-006-P            1/29/2010             Audit of USAID/Afghanistan’s Building Education Support Systems for Teachers Project

Note: MERO = Middle East Regional Office.
Sources: DoD OIG, response to SIGAR data call, 4/6/10; DoS OIG-MERO, response to SIGAR data call, 4/2/10; GAO, response to SIGAR data call, 4/1/10; USAAA, response to SIGAR data call, 4/2/10;
USAID OIG, response to SIGAR data call, 4/6/10.




                   REPORT TO THE UNITED STATES CONGRESS                      I   APRIL 30, 2010                       133
OTHER AGENCY OVERSIGHT




Department of Defense Office of Inspector General
Joint DoD and DoS Audit on DoD Obligations and Expenditures of Funds Provided to
Department of State for the Training and Mentoring of the Afghan National Police
(DoD Report No. D-2010-042, DoS OIG-MERO Report No. MERO-A-10-6,
Issued February 9, 2010)
The Inspectors General of the Department of Defense and Department of State
found the DoS Civilian Police Program contract does not meet DoD’s needs in
developing the Afghan National Police (ANP) to provide security in countering
the growing insurgency in Afghanistan. DoS and DoD agreed to have DoD
assume contractual responsibility for the primary ANP training program, which
includes Regional Training Centers, basic ANP training, mentoring within the
Afghan Ministry of Interior, and the DoD police mentor teams embedded in ANP
units in districts throughout Afghanistan. The DoS internal controls were ineffec-
tive. We identified internal control weaknesses in the DoS contract oversight for
the ANP training program. DoS did not maintain adequate oversight of gov-
ernment-furnished property, maintain contract files as required by the Federal
Acquisition Regulation, always match goods to receiving reports, or follow inter-
nal control procedures requiring in-country contracting officer’s representatives
to review contractor invoices to determine if the costs were allowable, allocable,
or reasonable prior to payment and validate deliverables.
   DoD OIG was unable to determine if DoS expended Afghanistan Security
Forces funds provided by DoD in accordance with congressional intent. DoD
OIG also identified $80 million in potential monetary benefits. In addition, DoS
and DoD have not provided enough resources to adequately train members of
the Afghan Women’s Police Corps.

Internal Controls over Army, General Fund, Cash and Other Monetary Assets
Held in Southwest Asia
(Report No. D-2010-034, Issued January 8, 2010)
Internal controls were not in place or operating effectively at deputy disbursing
offices in Afghanistan and Egypt that report to the disbursing officer for
Disbursing Station 5570. Specifically, the deputy disbursing offices did not have
adequate physical controls. In addition, the disbursing officer and the deputy
disbursing officers (DDOs) did not have support for their cash-holding authority
amounts, and DDOs were improperly appointed. We also found that DDOs
incorrectly prepared Daily Statements of Accountability (SOA), inappropriately
accepted checks, improperly stored checks, did not have comprehensive security
programs and records of semiannual security reviews, and had deficient quarterly
cash verifications. Lastly, during FY 2008, the Army used cash instead of gov-
ernment purchase cards to pay for trips in support of the Combined Security
Transition Command - Afghanistan.




  134                SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




U.S. Agency for International Development Office of Inspector General
Audit of USAID/Afghanistan’s Human Resources and Logistical Support Program
(Report No. 5-306-10-007-P, Issued March 31, 2010)
The objective was to determine if the program was achieving its main goals,
which included providing human resource and logistical support to USAID to
1) help it monitor and support USAID-funded construction contractors and to
2) provide consulting services to the mission and Afghanistan ministries. This
support included inspecting structures which had been previously built by
USAID. The audit found that the program was successful in establishing a process
for identifying USAID-built structures which are not earthquake resistant and
had identified, at the time of the audit, 15 structures (out of 35 structures for
which seismic evaluations were completed) as unsafe for occupancy. The audit,
however, identified a number of very serious issues, and is making recommendations
to immediately address these issues. These issues include the need 1) to vacate,
demolish and/or repair USAID-built structures which have been found to be
seismically unsafe; 2) to identify all USAID-built structures which are seismically
compromised; 3) to correct defects found in five USAID-built agriculture program
structures—defects that had been identified in a previous OIG audit; 4) to ensure
that all mission construction projects are subject to engineering quality assurance
oversight; and 5) to ensure the sustainability of a $3.9 million data center developed
under the program.

Audit of USAID/Afghanistan’s Building Education Support Systems
for Teachers Project
(Report No. 5-306-10-006-P, Issued January 29, 2010)
The project was designed to: 1) improve teaching through massive training,
particularly for those teachers already on the job and 2) institutionalize structures
and systems in the Ministry of Education that support high-quality teaching. The
audit objective was to conclude whether the project was achieving its main goals
of helping improve educational quality by training teachers and institutionalizing
structures and systems in the ministry. The audit concluded that four years into
the five-year project, the project was progressing towards but had not achieved its
main goals. In addition, the audit found that 1) a memorandum of understanding
with the host government needed to be updated in order to implement significant
changes the mission had planned for the remainder of the project; 2) high-value
modifications to the project’s subcontracts were not being approved as required—
with the potential for the mission being held liable for significant subcontract
termination costs; and 3) USAID branding and marking requirements were not
being followed by the project implementer, such that even teachers who were
being trained did not know that the training was being funded by the U.S. tax-
payer. On a positive note, over 50,000 teachers had been trained under the project.




             REPORT TO THE UNITED STATES CONGRESS      I   APRIL 30, 2010      135
OTHER AGENCY OVERSIGHT




ONGOING OVERSIGHT ACTIVITIES
As of March 31, 2010, the participating agencies reported 40 reconstruction or
security-related oversight activities in progress. The activities reported are listed
in Table 4.2 and described in the following sections by agency.

TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF MARCH 31, 2010
Agency      Project Number          Date Initiated Project Title
DoD OIG     D2010-D000JB-0157.000   3/4/2010        Afghanistan National Army Equipment Maintenance
                                                    Apprenticeship and Services Program Contract
DoD OIG     D2010-D000JA-0165.000   2/22/2010       Review of a U.S. Army Intelligence and Security Command
                                                    Contract for Linguist Support
DoD OIG     D2010-D000JA-0138.000   2/18/2010       Information Operations in Afghanistan
DoD OIG     D2010-D000FL-0100.000   2/18/2010      Internal Controls Over the Disbursing Process for
                                                   Commander’s Emergency Response Program Payments
                                                   Made to Support Operations in Afghanistan
DoD OIG     D2010-D000JA-0091.000   12/9/2009      Force Protection Programs for U.S. Forces in Afghanistan
DoD OIG     D2009-D000LC-0237.000   6/11/2009      Air Cargo Transportation Contracts in Support of Operation
                                                   Iraqi Freedom and Operation Enduring Freedom
DoD OIG     D2007-D000FD-0198.001   10/10/2008     Reannouncement of the Audit of Funds Appropriated for
                                                   Afghanistan and Iraq Processed Through the Foreign Military
                                                   Sales Trust Fund
DoD OIG     D2008-D000CD-0256.000   8/7/2008       DoD Body Armor Contracts
DoS         10-MERO-3008            3/2010         Limited-Scope Review of Policies and Procedures for Vetting
OIG-MERO                                           Foreign Service Nationals at Embassy Kabul in Afghanistan
DoS         10-MERO-3007            2/2010         Kabul Embassy Security Force (KESF)
OIG-MERO
DoS         10-MERO-3004            2/2010         Review of the Bureau of Population, Refugees, and Migration
OIG-MERO                                           (PRM) Program Effectiveness to Reintegrate and Resettle
                                                   Afghan Refugees
DoS         10-MERO-3002            2/2010         Review of the Department of State’s Contract with PAE to
OIG-MERO                                           Provide Operations and Maintenance to Embassy Kabul
DoS         10-MERO-3001            2/2010         Review of the Department of State’s Contract with PAE
OIG-MERO                                           to Provide Operations and Maintenance to Afghan
                                                   Counternarcotics Units in Afghanistan
GAO         320744                  1/21/2010      Security Environment in Afghanistan
GAO         320749                  1/19/2010      Framework for the U.S. Strategy in Afghanistan
GAO         120874                  11/12/2009 Annual Mandated Review of Contracting in Afghanistan and
                                               Iraq
GAO         320723                  10/27/2009 Review of U.S. Civilian-Military Campaign Plans for
                                               Afghanistan
GAO         351399                  10/19/2009 DoD’s Oversight of Operational Contract Support in
                                               Afghanistan
GAO         351388                  10/2/2009      Availability of Trained and Ready Forces to Support Military
                                                   Operations in Iraq and Afghanistan




  136                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                OTHER AGENCY OVERSIGHT




TABLE 4.2 (CONTINUED)


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF MARCH 31, 2010
Agency         Project Number                  Date Initiated Project Title
GAO            320712                          9/2/2009         U.S. Efforts to Develop Capable Afghan National Army (ANA)
                                                                Forces
GAO            351395                          8/21/2009        Supply and Equipment Support for U.S. Military Operations
                                                                In Afghanistan
GAO            351393                          8/21/2009        DoD Health Care Requirements for Contingency Operations
GAO            351385                          8/11/2009        Combat Skills Training for Support Units
GAO            351376                          7/30/2009        Readiness of Air Force Combat and Expeditionary Combat
                                                                Support Forces
GAO            351387                          7/30/2009        Army and Marine Corps Training Capacity 
GAO            320680                          5/8/2009         Potable Water, Sanitation, and Crop Irrigation Projects in
                                                                Afghanistan
GAO            351345                          4/24/2009        Overseas Contingency Operations Funding and Cost
                                                                Reporting
GAO            320662                          3/16/2009        USAID’s Agricultural and Alternative Development Projects
                                                                in Afghanistan
GAO            120812                          2/19/2009        Contractors Performing Contract Management or
                                                                Administration for Other Contracts or Grants in Iraq and
                                                                Afghanistan
USAAA          A-2010-ALL-0103.000             2/22/2010        Controls Over Vendor Payments Phase II - Afghanistan
USAAA          A-2010-ALL-0083.000             2/8/2010         Logistics Civil Augmentation Program (LOGCAP) IV
                                                                Operations in Support of Operation Enduring Freedom -
                                                                Afghanistan
USAAA          A-2009-ALL-0531.000             5/19/2009        Commander’s Emergency Response Program (CERP) -
                                                                Afghanistan
USAAA          A-2009-ALL-0106.000             2/2/2009         Contracting Operations at the Joint Contracting Command-
                                                                Iraq/Afghanistan—Jalalabad (Afghanistan)
USAAA          A-2008-ALL-0401.000             9/1/2008         Contracting Operations at the Joint Contracting Command-
                                                                Iraq/Afghanistan—Kandahar and Salerno (Afghanistan)
USAAA          A-2008-ALL-0320.000             1/28/2008        Contracting Operations at the Joint Contracting Command—
                                                                Iraq/Afghanistan (Bagram)
USAID OIG      Not provided                    Not provided     Audit of USAID/Afghanistan’s Alternative Development
                                                                Program Expansion, South and West
USAID OIG      Not provided                    Not provided     Review of Security Costs Charged to Three USAID Projects
                                                                by Edinburgh International for the Period January 1 to
                                                                December 31, 2009
USAID OIG      Not provided                    Not provided     Audit of USAID/Afghanistan’s Oversight of Private Security
                                                                Contractors in Afghanistan
USAID OIG      Not provided                    Not provided     Audit of USAID/Afghanistan’s School and Health Clinic
                                                                Buildings Completed Under the Schools and Clinics
                                                                Construction and Refurbishment Program
USAID OIG      Not provided                    Not provided     Audit of USAID/Afghanistan’s Afghanistan Vouchers for
                                                                Increased Production in Agriculture Program
Sources: DoD OIG, response to SIGAR data call, 4/6/2010; DoS OIG-MERO, response to SIGAR data call, 4/2/2010; GAO, response to
SIGAR data call, 4/1/2010; USAAA, response to SIGAR data call, 4/2/2010; USAID OIG, response to SIGAR data call, 4/6/2010.




                  REPORT TO THE UNITED STATES CONGRESS                      I   APRIL 30, 2010                      137
OTHER AGENCY OVERSIGHT




Department of Defense Office of Inspector General
DoD continues to face many challenges in executing its Overseas Contingency
Operations (OCO), formerly known as “the Global War on Terror (GWOT).” DoD
OIG has identified priorities based on those challenges and has responded by
expanding its coverage of OCO operations and its presence in Southwest Asia.
As DoD continues its OCO to include Operation Enduring Freedom (OEF), it
will stay focused on issues important to accomplish the mission and ensure the
department makes efficient use of its resources to support the warfighter.
   During the second quarter of FY 2010, DoD OIG continued to deploy addi-
tional auditors and investigators to Iraq and Afghanistan. The additional staff
support the increased oversight workload required by statutory requirements,
congressional requests, senior DoD and military officials requests, and DoD’s
drawdown efforts in Iraq and increased operational tempo in Afghanistan. Field
offices in Qatar, Iraq, Kuwait, and Afghanistan enhance its ability to provide
audit, inspection, and investigative support to DoD operations in support to
OCO. In addition, DoD OIG is preparing to deploy additional personnel into
Southwest Asia, including Afghanistan.
   DoD OIG led Southwest Asia Joint Planning Group coordinates and
deconflicts Federal and DoD OCO related oversight activities. The Group
held its twelfth meeting in February 2010 and issued the FY 2010 update to
the Comprehensive Oversight Plan for Southwest Asia in February 2010.
The comprehensive plan was expanded beyond the statutorily mandates to
include other functional areas that DoD OIG believes are germane to support-
ing Operations Enduring Freedom and Iraqi Freedom as well as the Overseas
Contingency Operations such as contract administration and management,
reset of equipment, financial management, and reconstruction support effort.
Through the Group, the members continue to coordinate, collaborate and
deconflict their respective and joint oversight efforts including working with
the Commission on Wartime Contracting and its respective mission.
   For FY 2010, the completed and remaining ongoing OEF-related oversight
addresses the safety of personnel with regard to construction efforts, force
protection programs for U.S. personnel, accountability of property, contract
administration, armoring capabilities, and transportation of goods and materiel.
In response to a request from the Commission on Wartime Contracting in Iraq
and Afghanistan, the office initiated an audit addressing the construction of the
New Kabul Compound Facilities for U.S. Forces - Afghanistan. Additionally, DoD
OIG completed its congressionally requested joint audit with DoS OIG, which
reviewed the status of Afghanistan Security Forces Fund (ASFF) money that
DoD has provided to DoS for the training of the Afghan National Police (ANP).

Oversight Activities
For the second quarter of FY 2010, DoD OIG had 42 ongoing oversight activities
and issued 10 reports that supports OEF. Of those 42 ongoing projects, 8 directly
relate to reconstruction or security operations in Afghanistan and are incorpo-
rated in this quarterly report. Of the 10 reports issued, 2 reports directly relate to



  138                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




reconstruction or security operations in Afghanistan and are incorporated in this
quarterly report.

Afghanistan National Army Equipment Maintenance Apprenticeship
and Services Program Contract
(Project No. D2010-D000JB-0157.000, Initiated March 4, 2010)
DoD OIG is determining whether adequate quality assurance and quality control
procedures exist for the Afghanistan National Army Vehicle and Maintenance
Contract. Specifically, we will determine whether government contractual
requirements have been met and adequate contract surveillance is being con-
ducted. In addition, DoD OIG will determine whether the contractor requires
additional warehouse space to effectively perform contractual tasks and whether
the contractor submitted a fair and reasonable request for equitable adjustment
for parts reimbursement.

Review of a U.S. Army Intelligence and Security Command Contract
for Linguist Support
(Project No. D2010-D000JA-0165.000, Initiated February 22, 2010)
DoD OIG is determining whether a U.S. Army Intelligence and Security
Command contract for linguist support in Afghanistan (W911W4-07-D-0010)
included appropriate security provisions.

Information Operations in Afghanistan
(Project No. D2010-D000JA-0138.000, Initiated February 18, 2010)
DoD OIG is evaluating the ability of U.S. Central Command and U.S. Forces-
Afghanistan to conduct Information Operations in Afghanistan. Additionally,
DoD OIG will assess the support provided by DoD organizations that enable
those commands to conduct Information Operations.

Internal Controls Over the Disbursing Process for Commander’s Emergency
Response Program Payments Made to Support Operations in Afghanistan
(Project No. D2010-D000FL-0100.000, Initiated February 18, 2010)
The DoD OIG is determining whether the internal controls over the Commander’s
Emergency Response Program payments made to support operations in
Afghanistan, and processed through DoD disbursing systems, are adequate.
Specifically, DoD OIG will determine whether the controls ensure the reliability
of computer-processed payment data and whether the payments are proper and
used for their intended purpose.

Force Protection Programs for U.S. Forces in Afghanistan
(Project No. D2010-D000JA-0091.000, Initiated December 9, 2009)
DoD OIG is reviewing the force protection programs for primary gathering facilities
and billeting areas of U.S. forces in Afghanistan. Specifically, it is assessing the
program support and resources that commanders have for facility planning,



             REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2010      139
OTHER AGENCY OVERSIGHT




antiterrorism, and safety programs protecting their forces. The audit is focusing on
Bagram Airfield, Kandahar Airfield, Camp Eggers, and the New Kabul Compound.

Air Cargo Transportation Contracts in Support of Operation Iraqi
Freedom and Operation Enduring Freedom
(Project No. D2009-D000LC-0237.000, Initiated June 11, 2009)
DoD OIG is determining whether air cargo transportation contracts in support
of Operation Iraqi Freedom (OIF) and OEF are administered in accordance with
applicable federal and DoD regulations. Specifically, DoD OIG will determine
whether the decision to use air transportation was justified, whether delivery
orders were awarded in accordance with vendor selection criteria, and whether
the cargo transported by air was delivered within required time frames.

Reannouncement of the Audit of Funds Appropriated for Afghanistan
and Iraq Processed Through the Foreign Military Sales Trust Fund
(Project No. D2007-D000FD-0198.001, Initiated October 10, 2008)
Based on observations during audit fieldwork under the originally announced
project (D2007-D000FD-0198.000), DoD OIG determined an additional project
was required to separately discuss relevant issues identified during fieldwork.
Accordingly, DoD OIG addressed the transfer of funds to the FMS Trust Fund
and the collection of administrative fees from these funds in Report No. D-2009-
063. Under the second announced project (D2007-D000FD-0198.001), DoD OIG is
determining whether the funds appropriated for the security, reconstruction, and
assistance of Afghanistan and Iraq and processed through the Foreign Military
Sales Trust Fund are being properly managed. However, DoD OIG has reduced
the sub-objectives to determining whether the appropriated funds transferred
into the Foreign Military Sales Trust Fund are properly accounted for, used for
the intended purpose, and properly reported in DoD financial reports.

DoD Body Armor Contracts
(Project No. D2008-D000CD-0256.000, Initiated August 7, 2008)
DoD OIG is examining the contracts and contracting process for body armor and
related test facilities. Specific objectives will include evaluating the background
and qualifications of the contractors, the criteria for awarding the contracts, the
quality assurance process, and any relationships that may exist between the con-
tractors and government officials. Our review of the quality assurance process
will include reviewing the results of First Article Testing and Lot acceptance
Testing for the body armor contracts. DoD OIG issued Report No. D-2010-029, on
December 21, 2009, discussing the contract award of DoD Body armor contracts.
DoD OIG plans to issue additional reports related to this project.




  140                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Department of State Office of Inspector General—
Middle East Regional Office
Oversight Activities
Limited-Scope Review of Policies and Procedures for Vetting Foreign Service
Nationals at Embassy Kabul in Afghanistan
(Project No. 10-MERO-3008, Initiated March 2010)
Objectives: The objectives of this performance audit are to determine: (1) review
the policy and procedures used by the Foreign Service National Investigators
(FSN-I) in pre-employment personnel security vetting of Afghan locally engaged
staff, (2) review foreign service national investigation files, (3) document
investigation techniques used by FSN-I personnel to vet foreign service nationals
prior to employment with the Embassy, and (4) determine the degree of family
and friendship relationships of current Embassy staff.

Kabul Embassy Security Force (KESF)
(Project No. 10-MERO-3007, Initiated February 2010)
Objectives: To provide an overall review and summary of the requirements and
provisions of the Kabul Embassy Security Force contract. Specific objectives
are: (1) the requirements and provisions of the contract, (2) whether contract
performance measures have been established and are being achieved, (3) how
well the Department has administered the contract to provide proper oversight
of Armor Group of North America in Kabul, Afghanistan, (4) whether the contract
is being effectively managed, (5) whether the contract includes FAR clause
52.222.50, which provides administrative remedies if, during the term of the
contract, the contractor or subcontractor engage in severe forms of trafficking
in persons, (6) whether Armor Group of North America provides for a safe and
adequate living environment for the guards and whether DoS provides proper
oversight of the contract and task orders.

Review of the Bureau of Population, Refugees, and Migration (PRM) Program
Effectiveness to Reintegrate and Resettle Afghan Refugees
(Project No. 10-MERO-3004, Initiated February 2010)
Objectives: The objectives of this performance audit are to determine: (1) the
requirements and provisions of agreements with UNHCR, ICRC, and NGOs; (2) how
assistance requirements were calculated, (3) whether assistance reached intended
targets, (3) if program performance measures were established and achieved; and
(4) the effectiveness of Embassy Kabul and Provincial Reconstruction Teams to
manage and coordinate the humanitarian response in Afghanistan.




            REPORT TO THE UNITED STATES CONGRESS      I   APRIL 30, 2010   141
OTHER AGENCY OVERSIGHT




Review of the Department of State’s Contract with PAE to Provide Operations and
Maintenance to Embassy Kabul
(Project No. 10-MERO-3002, Initiated February 2010)
Objectives: The objectives of this performance audit are to determine: (1) The
requirements and provisions of the contract and task orders, (2) the amount
of funding DoS has obligated and expended to provide embassy facility opera-
tions and maintenance through contracts for fiscal years 2005-2009, (3) the
effectiveness of PAE’s contract performance in providing facility operations and
maintenance to Embassy Kabul, (4) PAE’s controls for inventorying, record-
ing, and safeguarding U.S. government-furnished equipment and property in
Afghanistan, whether the equipment has been properly accounted for, and the
challenges to maintaining accountability, (5) how well DoS administers and
manages the contract and task orders to provide oversight of PAE’s performance
in Afghanistan, (6) whether the contract includes FAR clause 52.222.50, which
provides administrative remedies if, during the term of the contract, the contrac-
tor or subcontractor engage in severe forms of trafficking in persons, and (7) how
DoS ensures that costs are properly allocated and supported.

Review of the Department of State’s Contract with PAE to Provide Operations and
Maintenance to Afghan Counternarcotics Units in Afghanistan
(Project No. 10-MERO-3001, Initiated February 2010)
Objectives: The objectives of this performance audit are to determine: (1) The
requirements and provisions of the contract and task orders, (2) the amount of
funding the Department has obligated and expended to provide embassy facility
operations and maintenance through contracts for fiscal years 2005-2009, (3) the
effectiveness of PAE’s contract performance in providing facility operations and
maintenance to Afghan counternarcotics units in Afghanistan, (4) PAE’s controls
for inventorying, recording, and safeguarding U.S. government-furnished equip-
ment and property in Afghanistan, whether the equipment has been properly
accounted for, and the challenges to maintaining accountability, (5) how well
DoS administers and manages the contract and task orders to provide oversight
of PAE’s performance in Afghanistan, (6) whether the contract includes FAR
clause 52.222.50, which provides administrative remedies if, during the term of
the contract, the contractor or subcontractor engage in severe forms of trafficking
in persons, and (7) how the Department ensures that costs are properly allocated
and supported.




  142               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     OTHER AGENCY OVERSIGHT




Government Accountability Office
During the last quarter, GAO testified twice before the Congress and released one
report pertaining to Afghanistan Drug Control.
t The first testimony was before the House of Representatives’ Committee on
   Armed Services’ Subcommittee on Oversight and Investigations. It addressed
   (1) how a lack of information hinders agencies’ management and oversight of
   contracts, grants, cooperative agreements, and associated personnel, (2) the status
   of the agencies’ continued efforts to implement the Synchronized Predeployment
   and Operational Tracker (SPOT) and (3) GAO’s prior recommendation to improve
   SPOT’s implementation (GAO-10-509T).
t The second testimony was before the House of Representatives’ Committee
   on Appropriations’ Subcommittee on Defense. It addressed (1) the challenges
   DoD faces when trying to provide management and oversight of contractors
   in Iraq and Afghanistan, and (2) the extent to which DoD has made progress
   in institutionalizing a department-wide approach to managing and overseeing
   operational contract support (GAO-10-551T).
t GAO’s report on Afghanistan Drug Control noted that the U.S. counternarcotics
   strategy has shifted to align more closely with counterinsurgency efforts
   by de-emphasizing eradication, focusing more on interdiction efforts, and
   increasing agricultural assistance. GAO was, however, unable to fully assess
   the extent of progress due to a lack of performance measures and interim
   performance targets to measure Afghan capacity. Furthermore, GAO reported
   that a lack of security, political will, and Afghan government capacity
   have challenged some counternarcotics efforts. GAO also reported that
   drug abuse and addiction are prevalent among the Afghan National Police.
   In addition, GAO reported that U.S. agencies in all counternarcotics areas
   have monitored program progress through direct U.S. agency oversight,
   contractor reporting, and/or third-party verification and have conducted and
   documented program evaluations to improve effectiveness in the elimination/
   eradication, interdiction, and public information program areas. However,
   GAO noted that DoS has not formally documented evaluations of its justice
   reform program. GAO made several recommendations to DoS and DoD to
   improve performance measurement of U.S. counternarcotics programs and
   evaluate justice reform efforts (GAO-10-291).

   In addition, GAO began two new engagements on the Framework for the U.S.
Strategy in Afghanistan, the Security Environment in Afghanistan, and the U.S.
Civilian Surge Efforts in Afghanistan.




            REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010          143
OTHER AGENCY OVERSIGHT




Oversight Activities
Security Environment in Afghanistan
(Project No. 320744, Initiated January 21, 2010)
This review will provide updated information on the security conditions
in Afghanistan.

Framework for the U.S. Strategy in Afghanistan
(Project No. 320749, Initiated January 19, 2010)
This review will outline the overall framework for the U.S. strategy in
Afghanistan, including significant planning documents and their evolution.

Annual Mandated Review of Contracting in Afghanistan and Iraq
(Project No. 120874, Initiated November 12, 2009)
This review focuses on the number and value of contracts, numbers of
contractors performing in country, and numbers of contractor personnel
killed or wounded.

Review of U.S. Civilian-Military Campaign Plans for Afghanistan
(Project No. 320723, Initiated October 27, 2009)
This review focuses on the various civilian, military, and joint campaign plans
for Afghanistan.

DoD’s Oversight of Operational Contract Support in Afghanistan
(Project No. 351399, Initiated October 19, 2009)
This review focuses on DoD’s ability to provide sufficient numbers of trained
oversight personnel, the challenges facing DoD in providing oversight, and the
department’s implementation of lessons learned from Iraq.

Availability of Trained and Ready Forces to Support Military Operations in
Iraq and Afghanistan
(Project No. 351388, Initiated October 2, 2009)
This review focuses on the extent to which DoD has identified requirements for
supporting ongoing operations, developed an approach to manage deployment of
forces to meet requirements, and DoD’s ability to meet other commitments.

U.S. Efforts to Develop Capable Afghan National Army (ANA) Forces
(Project No. 320712, Initiated September 2, 2009)
This review focuses on what the U.S. goals for the ANA are; how much the
United States has obligated and expended, as well as estimated costs to complete
and sustain the ANA; what progress the United States has made in developing
ANA forces; and how other donors have assisted the ANA.




  144                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




Supply and Equipment Support for U.S. Military Operations in Afghanistan
(Project No. 351395, Initiated August 21, 2009)
This review focuses on identifying DoD organizations and processes for moving
supplies and equipment to, within, and from Afghanistan; challenges that may
have affected distribution; and lessons learned from Operation Iraqi Freedom
and other operations.

DoD Health Care Requirements for Contingency Operations
(Project No. 351393, Initiated August 21, 2009)
This review focuses on the extent to which DoD and the services identified
wartime health care personnel requirements for current operations; what chal-
lenges they are encountering meeting those requirements; and to what extent
they have the tools needed to meet those requirements.

Combat Skills Training for Support Units
(Project No. 351385, Initiated August 11, 2009)
This review focuses on how the services determine appropriate training for support
forces, including the extent that this training is consistent with service and theater
training requirements and reflects lessons learned from ongoing operations.

Readiness of Air Force Combat and Expeditionary Combat Support Forces
(Project No. 351376, Initiated July 30, 2009)
This review focuses on the Air Force’s ability to provide combat and expeditionary
combat support forces to support ongoing operations, including in Afghanistan,
and its plans to address gaps, including adjustments to force structure and
manning authorizations.

Army and Marine Corps Training Capacity
(Project No. 351387, Initiated July 30, 2009)
This review focuses on the extent to which DoD, the Army, and the Marine Corps
have identified differences in ground force training requirements for Iraq and
Afghanistan, and developed plans to adjust training capacities to meet requirements
for changing force levels in Afghanistan in Iraq. 

Potable Water, Sanitation, and Crop Irrigation Projects in Afghanistan
(Project No. 320680, Initiated May 8, 2009)
This review focuses on U.S. efforts to assist with the development of the
Afghan water sector and achieve the Afghanistan National Development
Strategy (ANDS) goal of supplying clean water, sanitation, and irrigation
services in Afghanistan.




             REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010         145
OTHER AGENCY OVERSIGHT




Overseas Contingency Operations Funding and Cost Reporting
(Project No. 351345, Initiated April 24, 2009)
This review focuses on changes to OCO funding guidance and their impact on
DoD’s FY 2010 OCO budget, factors that could affect FY 2010 OCO estimates
for reducing troop levels in Iraq and increasing troop levels in Afghanistan, and
DoD’s process for creating its monthly report on the cost of OCO to determine
its reliability.

USAID’s Agricultural and Alternative Development and Projects in Afghanistan
(Project No. 320662, Initiated March 16, 2009)
This review focuses on USAID agriculture programs’ funding, goals, results,
monitoring, and evaluation efforts.

Contractors Performing Contract Management or Administration for Other
Contracts or Grants in Iraq and Afghanistan
(Project No. 120812, Initiated February 19, 2009)
This review focuses on DoD, DoS, and USAID efforts to effectively oversee
contractors performing management or administration functions for other
contracts or grants with performance in Iraq and Afghanistan.


U.S. Army Audit Agency
Oversight Activities
Controls Over Vendor Payments Phase II—Afghanistan
(Project Code A-2010-ALL-0103.000, Initiated February 22, 2010)
This audit will determine if the Army has effective controls to ensure the
accuracy of vendor payments for contingency operations in Southwest Asia
(Afghanistan).

Logistics Civil Augmentation Program (LOGCAP) IV Operations in Support of
Operation Enduring Freedom—Afghanistan
(Project Code A-2010-ALL-0083.000, Initiated February 8, 2010)
This audit will determine if services awarded under the LOGCAP IV contract in
Afghanistan were managed in a reasonable and cost-effective manner.

Commander’s Emergency Response Program (CERP)—Afghanistan
(Project Code A-2009-ALL-0531.000, Initiated May 19, 2009)
This audit will determine if the CERP in Afghanistan had adequate internal
controls in place to ensure commanders and unit personnel implemented the
program properly.




  146                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—
Jalalabad (Afghanistan)
(Project Code A-2009-ALL-0106.000, Initiated February 2, 2009)
This audit is being performed in Afghanistan. It will determine if goods and
services acquired under contract were properly justified, awarded, and
administered.

Contracting Operations at the Joint Contracting Command-Iraq/Afghanistan—
Kandahar and Salerno (Afghanistan)
(Project Code A-2008-ALL-0401.000, Initiated September 1, 2008)
This audit is being performed in Afghanistan. It will determine if goods and
services acquired under contract were properly justified, awarded, and
administered.

Contracting Operations at the Joint Contracting Command—Iraq/Afghanistan
(Bagram)
(Project Code A-2008-ALL-0320.000, Initiated January 28, 2008)
This audit is being performed in Afghanistan. It will determine if goods and
services acquired under contract were properly justified, awarded, and
administered.



U.S. Agency for International Development Office of
Inspector General
During this quarter, two performance audit reports were issued—one on
improving the quality of Afghanistan’s education system, and the other on human
resource and logistical support provided to USAID. Five other performance
audits were planned, in process, or in the draft report phase, as listed below.

Oversight Activities
Audit of USAID/Afghanistan’s Alternative Development Program Expansion,
South and West
Objective: Determine if USAID/Afghanistan’s Alternative Development Program
Expansion, South and West, is achieving its main goal of counteracting illicit
poppy cultivation by providing alternative development programs and improved
economic opportunities in selected Southern and Western provinces.

Review of Security Costs Charged to Three USAID Projects by Edinburgh
International for the Period January 1 to December 31, 2009
Objective: Determine if there an indication that Edinburgh International misused
USAID funds to pay the Taliban or others in exchange for protection.




             REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2010    147
OTHER AGENCY OVERSIGHT




Audit of USAID/Afghanistan’s Oversight of Private Security
Contractors in Afghanistan
Objective: Determine how much money has been spent by USAID/Afghanistan’s
implementing partners for private security services and whether there has been
effective oversight of these security costs. Determine if USAID/Afghanistan’s
oversight of private security firms contracted by the mission’s implementing part-
ners ensured that those private security contractors employed only responsible,
armed personnel. Determine what types of serious security incidents have been
reported by private security firms contracted with USAID/Afghanistan’s imple-
menting partners, during the period from October 1, 2006, through June 30, 2009.

Audit of USAID/Afghanistan’s School and Health Clinic Buildings Completed Under
the Schools and Clinics Construction and Refurbishment Program
Objective: Determine whether the school and health clinic buildings completed
under the program are being used for their intended purposes, and measure the
impact of the program on the provision of educational and health services to the
people of Afghanistan.

Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased Production in
Agriculture Program
Objective: Determine if USAID/Afghanistan’s Afghanistan Vouchers for Increased
Production in Agriculture Program is achieving its main goals.

OTHER AGENCY INVESTIGATIONS
SIGAR regularly coordinates with other government agencies conducting
investigations in Afghanistan to monitor the progress of those investigations.
As of March 31, 2010, five open cases were reported as under investigation by
DoS OIG Investigations (DoS OIG-INV). Table 4.3 lists the number of open and
closed investigations as of March 31, 2010.


TABLE 4.3


INVESTIGATIVE ACTIVITIES: OTHER AGENCY INVESTIGATIONS
Agency                           Open Cases                   Closed Cases          Total Cases
DoS OIG-INV                      5                            0                     5
Total                            5                            0                     5
Source: DoS OIG-INV, response to SIGAR data call, 4/2/2010.




   148                         SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                 OTHER AGENCY OVERSIGHT




OTHER AGENCY INSPECTIONS
ONGOING INSPECTIONS
SIGAR also coordinates with other agencies that are conducting inspections in
Afghanistan. During the past quarter, DoS OIG-ISP reported that it had one ongoing
inspection, listed in Table 4.4.


TABLE 4.4


ONGOING INSPECTION ACTIVITIES: OTHER AGENCY INSPECTIONS
                Project          Date
Agency          Number           Initiated      Project Title   Objective
DoS OIG-ISP 09-ISP-3051 9/2009                  Kabul Embassy   To evaluate the Embassy’s implementation of policy,
                                                Inspection      management of resources, adequacy of management
                                                                controls, and measures to protect people, information,
                                                                and facilities.
Source: DoS OIG-ISP, response to SIGAR data call, 4/2/2010.




                   REPORT TO THE UNITED STATES CONGRESS                  I   APRIL 30, 2010                    149
      The Official Seal of SIGAR
      The Official Seal of SIGAR represents the coordination of efforts
      between the United States and Afghanistan to provide accountability
      and oversight of reconstruction activities. The phrase along the top
      side of the seal’s center is in Dari and, translated into English, means
      “SIGAR.” The phrase along the bottom side of the seal’s center is in
      Pashtu and, when translated into English, has the same meaning.




150   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




      151
APPENDICES




APPENDIX A –
CROSS-REFERENCE OF REPORT TO STATUTORY
REQUIREMENTS
This appendix cross-references the pages of this report to the quarterly reporting
and related requirements under SIGAR’s enabling legislation, the National Defense
Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229 (Tables A.1 and A.2).

TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                               SIGAR Action             Section
Supervision
Section 1229(e)(1)      The Inspector General shall report directly to, and   Report to the            All sections
                        be under the general supervision of, the Secretary    Secretary of State
                        of State and the Secretary of Defense                 and the Secretary of
                                                                              Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN                              Review appropri-         All sections
                        RECONSTRUCTION.—                                      ated/
                        It shall be the duty of the Inspector General         available funds
                        to conduct, supervise, and coordinate audits
                        and investigations of the treatment, handling,        Review programs,
                        and expenditure of amounts appropriated or            operations, contracts
                        otherwise made available for the reconstruction       using appropriated/
                        of Afghanistan, and of the programs, operations,      available funds
                        and contracts carried out utilizing such funds,
                        including—
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and    Review obligations       SIGAR
                        expenditure of such funds                             and expenditures of      Oversight
                                                                              appropriated/avail-
                                                                              able funds               Funding
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activi-   Review reconstruc-       SIGAR
                        ties funded by such funds                             tion activities funded   Oversight
                                                                              by appropriations
                                                                              and donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by      Review contracts         Note 1
                        such funds                                            using appropriated
                                                                              and available funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such     Review internal and      Appendix B
                        funds and associated information between and          external transfers of
                        among departments, agencies, and entities of the      appropriated/avail-
                        United States, and private and nongovernmental        able funds
                        entities




  152                     SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                               APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                SIGAR Action            Section
Section 1229(f)(1)(E)   The maintenance of records on the use of such          Maintain audit          SIGAR
                        funds to facilitate future audits and investigations   records                 Oversight
                        of the use of such fund[s]
                                                                                                       Appendix C
                                                                                                       Appendix D
Section 1229(f)(1)(F)   The monitoring and review of the effectiveness of      Monitoring and          Audits
                        United States coordination with the Governments        review as described
                        of Afghanistan and other donor countries in the
                        implementation of the Afghanistan Compact and
                        the Afghanistan National Development Strategy
Section 1229(f)(1)(G)   The investigation of overpayments. . .and any          Conduct and report-     Investigations
                        potential unethical or illegal actions of Federal      ing of investigations
                        employees, contractors, or affiliated entities, and    as described
                        the referral of such reports, as necessary, to the
                        Department of Justice. . .
Section 1229(f)(2)      OTHER DUTIES RELATED TO OVERSIGHT.—                    Establish, maintain,    All sections
                        The Inspector General shall establish, maintain,       and oversee systems,
                        and oversee such systems, procedures, and              procedures, and
                        controls as the Inspector General considers appro-     controls
                        priate to discharge the duties under paragraph (1)
Section 1229(f)(3)      DUTIES AND RESPONSIBILITIES UNDER                      Duties as specified     All sections
                        INSPECTOR GENERAL ACT OF 1978.—                        in Inspector General
                        In addition,. . .the Inspector General shall also      Act
                        have the duties and responsibilities of inspectors
                        general under the Inspector General Act of 1978
Section 1229(f)(4)      COORDINATION OF EFFORTS.—                              Coordination with the   Other Agency
                        The Inspector General shall coordinate with,           inspectors general      Oversight
                        and receive the cooperation of, each of the            of DoD, DoS, and
                        following: (A) the Inspector General of the            USAID
                        Department of Defense, (B) the Inspector
                        General of the Department of State, and (C) the
                        Inspector General of the United States Agency for
                        International Development
Federal Support and Other Resources
Section 1229(h)(5)(A)   ASSISTANCE FROM FEDERAL AGENCIES.—                     Expect support as       All sections
                        Upon request of the Inspector General for informa-     requested
                        tion or assistance from any department, agency, or
                        other entity of the Federal Government, the head
                        of such entity shall, insofar as is practicable and
                        not in contravention of any existing law, furnish
                        such information or assistance to the Inspector
                        General, or an authorized designee




                 REPORT TO THE UNITED STATES CONGRESS                  I   APRIL 30, 2010                   153
APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                SIGAR Action            Section
Reports
Section 1229(i)(1)      QUARTERLY REPORTS.—                                    Report – 30 days        All sections
                        Not later than 30 days after the end of each           after the end of each   Appendix B
                        fiscal-year quarter, the Inspector General shall       calendar quarter
                        submit to the appropriate committees of Congress
                        a report summarizing, for the period of that quar-     Summarize activities
                        ter and, to the extent possible, the period from the   of the inspector
                        end of such quarter to the time of the submission      general
                        of the report, the activities during such period of
                        the Inspector General and the activities under         Detailed statement
                        programs and operations funded with amounts            of all obligations,
                        appropriated or otherwise made available for the       expenditures, and
                        reconstruction of Afghanistan. Each report shall       revenues
                        include, for the period covered by such report, a
                        detailed statement of all obligations, expenditures,
                        and revenues associated with reconstruction and
                        rehabilitation activities in Afghanistan, including
                        the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/          Obligations and         Appendix B
                        donated funds                                          expenditures of
                                                                               appropriated/
                                                                               donated funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program            Project-by-project      Funding
                        accounting of the costs incurred to date for the       and program-by-
                        reconstruction of Afghanistan, together with the       program accounting      Note 1
                        estimate of the Department of Defense, the             of costs. List unex-
                        Department of State, and the United States             pended funds for
                        Agency for International Development, as appli-        each project or
                        cable, of the costs to complete each project and       program
                        each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds        Revenues,               Funding
                        provided by foreign nations or international           obligations, and
                        organizations to programs and projects funded by       expenditures of
                        any department or agency of the United States          donor funds
                        Government, and any obligations or expenditures
                        of such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign      Revenues,               Funding
                        assets seized or frozen that contribute to programs    obligations, and
                        and projects funded by any U.S. government             expenditures of
                        department or agency, and any obligations or           funds from seized or
                        expenditures of such revenues                          frozen assets
Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiv-     Operating expenses      Funding
                        ing amounts appropriated or otherwise made             of agencies or any
                        available for the reconstruction of Afghanistan        organization receiv-    Appendix B
                                                                               ing appropriated
                                                                               funds




  154                     SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                                  APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                   SIGAR Action         Section
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or         Describe contract    Note 1
                        other funding mechanism described in paragraph            details
                        (2) —
                        (i) The amount of the contract or other funding
                        mechanism;
                        (ii) A brief discussion of the scope of the contract
                        or other funding mechanism;
                        (iii) A discussion of how the department or agency
                        of the United States Government involved in the
                        contract, grant, agreement, or other funding mech-
                        anism identified and solicited offers from potential
                        contractors to perform the contract, grant, agree-
                        ment, or other funding mechanism, together with a
                        list of the potential individuals or entities that were
                        issued solicitations for the offers; and
                        (iv) The justification and approval documents
                        on which was based the determination to use
                        procedures other than procedures that provide for
                        full and open competition
Section 1229(i)(3)      PUBLIC AVAILABILITY.—                                     Publish report as   www.sigar.mil
                        The Inspector General shall publish on a                  directed
                        publically-available Internet website each report                             Dari and Pashtu
                        under paragraph (1) of this subsection in English                             in process
                        and other languages that the Inspector General
                        determines are widely used and understood in
                        Afghanistan
Section 1229(i)(4)      FORM.—                                                    Publish report as   All sections
                        Each report required under this subsection shall          directed
                        be submitted in unclassified form, but may include
                        a classified annex if the Inspector General consid-
                        ers it necessary




                 REPORT TO THE UNITED STATES CONGRESS                    I   APRIL 30, 2010                 155
APPENDICES




TABLE A.2


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP.3)
Public Law Section   SIGAR Enabling Language                 SIGAR Action                         Section
Section 5(a)(1)      “Description of significant prob-       Extract pertinent information        Other Agency
                      lems, abuses, and deficiencies... ”    from SWA/JPG member reports          Oversight
                                                             List problems, abuses, and
                                                             deficiencies from SIGAR audit        See letters of
                                                             reports, investigations, and         Inquiry at
                                                             inspections                          www.sigar.mil
Section 5(a)(2)      “Description of recommendations         Extract pertinent informa-           Other Agency
                      for corrective action…with respect     tion from SWA/JPG member l           Oversight
                      to significant problems, abuses, or    reports
                      deficiencies...”                                                            See letters of
                                                             List recommendations from            Inquiry at
                                                             SIGAR audit reports                  www.sigar.mil
Section 5(a)(3)      “Identification of each significant     List all instances of incomplete     In process
                      recommendation described in            corrective action from previous
                      previous semiannual reports on         semiannual reports
                      which corrective action has not
                      been completed...”
Section 5(a)(4)      “A summary of matters referred          Extract pertinent information        Other Agency
                      to prosecutive authorities and         from SWA/JPG member reports          Oversight
                      the prosecutions and convictions
                      which have resulted...”                List SIGAR Investigations that
                                                             have been referred
Section 5(a)(5)      “A summary of each report made          Extract pertinent information        Other Agency
                      to the [Secretary of Defense]          from SWA/JPG member reports          Oversight
                      under section 6(b)(2)... ”
                      (instances where information           List instances in which infor-
                      requested was refused or not           mation was refused SIGAR
                      provided)                              auditors, investigators, or
                                                             inspectors
Section 5(a)(6)      “A listing, subdivided according        Extract pertinent information        Other Agency
                      to subject matter, of each audit       from SWA/JPG member reports          Oversight
                      report, inspection report and
                      evaluation report issued...” showing   List SIGAR reports
                      dollar value of questioned costs
                      and recommendations that funds
                      be put to better use
Section 5(a)(7)      “A summary of each particularly         Extract pertinent information        Other Agency
                      significant report.. ”                 from SWA/JPG member reports          Oversight

                                                             Provide a synopsis of the signifi-   A full list of signifi-
                                                             cant SIGAR reports                   cant reports
                                                                                                  can be found at
                                                                                                  www.sigar.mil

Section 5(a)(8)      “Statistical tables showing the total   Extract pertinent information        See reports of
                      number of audit reports and the        from SWA/JPG member reports          SWA/JPG members
                      total dollar value of questioned
                      costs... ”                             Develop statistical tables show-     In Process
                                                             ing dollar value of questioned
                                                             cost from SIGAR reports




  156                     SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                             APPENDICES




TABLE A.2 (CONTINUED)


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP.3)
Public Law Section          SIGAR Enabling Language                          SIGAR Action                       Section
Section 5(a)(9)             “Statistical tables showing the                  Extract pertinent information      See reports of
                             total number of audit reports,                  from SWA/JPG member reports        SWA/JPG members
                             inspection reports, and evaluation
                             reports and the dollar value of rec-            Develop statistical tables show-   In Process
                             ommendations that funds be put                  ing dollar value of funds put to
                             to better use by management...”                 better use by management from
                                                                             SIGAR reports
Section 5(a)(10)            “A summary of each audit report,                 Extract pertinent information      See reports of
                             inspection report, and evaluation               from SWA/JPG member reports        SWA/JPG members
                             report issued before the com-
                             mencement of the reporting period               Provide a synopsis of SIGAR        None
                             for which no management deci-                   audit reports in which recom-
                             sion has been made by the end of                mendations by SIGAR are still
                             reporting period, an explanation                open
                             of the reasons such management
                             decision has not been made,
                             and a statement concerning the
                             desired timetable for achieving a
                             management decision...”
Section 5(a)(11)            “A description and explanation of                Extract pertinent information      See reports of
                             the reasons for any significant                 from SWA/JPG member reports        SWA/JPG members
                             revised management decision...”
                                                                             Explain SIGAR audit reports in     None
                                                                             which significant revisions have
                                                                             been made to management
                                                                             decisions
Section 5(a)(12)            “Information concerning any signifi-             Extract pertinent information      See reports of
                             cant management decision with                   from SWA/JPG member reports        SWA/JPG members
                             which the Inspector General is in
                             disagreement...”                                Explain SIGAR audit reports in     No disputed deci-
                                                                             which SIGAR disagreed with         sions during the
                                                                             management decision                reporting period
Section 5(a)(13)            “Information described under                     Extract pertinent information      See reports of
                             Section 804 [sic] of the                        from SWA/JPG member reports        SWA/JPG members
                             Federal Financial Management
                             Improvement Act of 1996...”                     Provide information where man-     No disputed
                             (instances and reasons when an                  agement has not met targets        decisions during
                             agency has not met target dates                 from a remediation plan            the reporting
                             established in a remediation plan)                                                 period
Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181
as being—

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United
States Government that involves the use of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with
any public or private sector entity for any of the following purposes:

To build or rebuild physical infrastructure of Afghanistan.
To establish or reestablish a political or societal institution of Afghanistan.
To provide products or services to the people of Afghanistan.”




                     REPORT TO THE UNITED STATES CONGRESS                            I   APRIL 30, 2010                    157
                                                              APPENDICES



                                                              APPENDIX B
                                                              U.S. GOVERNMENT APPROPRIATED FUNDS ($ MILLIONS)
                                                              Table B.1 lists appropriated funds by program, per year, for Afghanistan
                                                              reconstruction efforts.
                                                              TABLE B.1


                                                               U.S. FUNDING SOURCES                                               AGENCY               TOTAL
                                                               SECURITY
                                                               Afghanistan Security Forces Fund (ASFF)                            DoD                 25,229.24
                                                               Train & Equip (DoD)                                                DoD                    440.00
                                                               Foreign Military Financing (FMF)                                   DoS                  1,058.50
                                                               International Military Education and Training (IMET)               DoS                      8.30
                                                               NDAA Section 1207 Transfer                                         Other                    9.90
                                                               Total: Security                                                                      26,745.94
                                                               GOVERNANCE & DEVELOPMENT
                                                               Commander's Emergency Response Program (CERP)                      DoD                 2,639.00
                                                               Economic Support Fund (ESF)                                        USAID               9,738.59
                                                               Development Assistance (DA)                                        USAID                 887.22
                                                               Afghanistan Freedom Support Act (AFSA)                             DoD                   550.00
                                                               Child Survival & Health (CSH + GHAI)                               USAID                 486.42
                                                               Commodity Credit Corp (CCC)                                        USAID                  25.87
                                                               Freedom Support Act (FSA)                                          USAID                   5.00
                                                               USAID (other)                                                      USAID                  31.37
                                                               Non-Prolif, Antiterrorism, De-mining, & Related (NADR)             DoS                   371.60
                                                               Provincial Reconstruction Team Advisors                            USDA                    5.70
                                                               Treasury Technical Assistance                                      Treasury                3.33
                                                               Treasury (Other)                                                   Treasury                6.71
                                                               Total: Governance & Development                                                      14,750.81
                                                               COUNTER-NARCOTICS
                                                               International Narcotics Control & Law Enforcement (INCLE)          DoS                  2,685.24
                                                               Drug Interdiction & Counter-Drug Activities, (DoD CN)              DoD                  1,425.27
                                                               Drug Enforcement Administration (DEA)                              DoJ                    127.37
                                                               Total: Counternarcotics                                                               4,237.88
                                                               HUMANITARIAN
                                                               PL 480 Title I                                                     USDA                    5.00
                                                               PL 480 Title II                                                    USAID                 701.21
                                                               Disaster Assistance (IDA)                                          USAID                 346.33
                                                               Transition Initiatives (TI)                                        USAID                  33.86
                                                               Migration and Refugee Assistance (MRA)                             DoS                   578.21
                                                               Voluntary Peacekeeping (PKO)                                       DoS                    69.30
                                                               Emergency Refugee & Migration Assistance (ERMA)                    DoS                    25.20
                                                               Food for Progress                                                  USDA                  109.49
Notes: Numbers affected by rounding. Updated data resulted     416(b) Food Aid                                                    USDA                   95.18
in higher appropriations figures for FY 2009 and FY 2010
than those reported as of 12/31/2009. Amounts appropri-        Food for Education                                                 USDA                   50.49
ated are reported as provided by OMB where agency data is
unavailable or reported as part-year amounts apportioned or    Emerson Trust                                                      USDA                   22.40
allotted.                                                      Total: Humanitarian                                                                   2,036.67
Sources: OMB, response to SIGAR data call, 4/19/2010;          INTERNATIONAL AFFAIRS OPERATIONS
USAID, responses to SIGAR data call, 4/15/2010 and
10/9/2009; DoD, responses to SIGAR data call 4/14/2010,        Oversight                                                                                 76.20
4/13/2010, and 10/1/2009; DoS, responses to SIGAR data         Other                                                                                  3,644.70
call, 4/9/2010 and 1/8/2010; FY 2010 DoD Appropriations
Act Explanatory Statement; Treasury, response to SIGAR         Total: International Affairs Operations                                               3,720.90
data call, 1/6/2010; DoJ, response to SIGAR data call,
7/7/2009; USDA, response to SIGAR data call, 4/2009.           TOTAL FUNDING                                                                        51,492.20




                                                                158                       SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                     APPENDICES




FY 2002      FY 2003       FY 2004      FY 2005              FY 2006        FY 2007      FY 2008     FY 2009      FY 2010

    0.00          0.00          0.00          995.00          1,908.13        7,406.40    2,750.00     5,606.94     6,562.77
    0.00          0.00        150.00          290.00              0.00            0.00        0.00         0.00         0.00
   57.00        191.00        413.70          396.80              0.00            0.00        0.00         0.00         0.00
    0.20          0.30          0.60            0.80              0.80            1.10        1.60         1.40         1.50
    0.00          0.00          0.00            0.00              0.00            0.00        9.90         0.00         0.00
  57.20        191.30        564.30      1,682.60            1,908.93        7,407.50    2,761.50     5,608.34     6,564.27

    0.00          0.00         40.00        136.00                 215.00       209.00      488.33       550.67     1,000.00
  117.51        239.29        893.89      1,278.97                 473.39     1,210.71    1,399.51     2,088.32     2,037.00
   18.30         42.54        153.14        169.58                 187.02       166.81      149.43         0.40         0.00
    0.00        165.00        135.00        250.00                   0.00         0.00        0.00         0.00         0.00
    7.52         49.68         33.40         38.00                  41.45       100.77       63.07        58.23        94.30
    7.30          1.33          0.00          0.00                   0.00         0.00       13.02         4.22         0.00
    0.00          0.00          5.00          0.00                   0.00         0.00        0.00         0.00         0.00
    0.00          0.50          5.00          0.00                   0.00         0.00       22.32         3.55         0.00
   44.00         34.70         66.90         38.20                  18.20        36.60       26.60        48.60        57.80
    0.00          0.00          0.00          0.00                   0.00         0.00        0.00         5.70         0.00
    0.00          0.80          0.08          0.66                   0.33         0.26        0.13         0.74         0.33
    0.49          0.42          0.00          0.00                   0.00         0.89        0.49         1.21         3.21
 195.12        534.26      1,332.41      1,911.41                 935.39     1,725.04    2,162.90     2,761.64     3,192.64

   60.00          0.00        220.00          709.28               232.65      251.74      307.57       484.00       420.00
    0.00          0.00         71.80          224.54               108.05      290.97      189.64       230.06       310.21
    0.58          2.87          3.72           16.77                23.66       20.38       40.59        18.80         0.00
  60.58          2.87        295.52          950.59               364.36      563.09      537.80       732.86       730.21

    0.00          5.00          0.00              0.00               0.00         0.00       0.00          0.00         0.00
  159.50         46.10         49.20             56.60              60.00        60.00     177.00         65.41        27.40
  197.09         86.67         11.16              4.24               0.04         0.03      17.01         27.29         2.80
    8.07         11.69         11.22              1.60               0.00         0.00       0.00          0.87         0.41
  135.47         61.50         63.30             47.10              36.00        53.80      44.25         86.79        50.00
   23.90          9.90         20.00             15.50               0.00         0.00       0.00          0.00         0.00
   25.00          0.00          0.00              0.00               0.00         0.00       0.00          0.20         0.00
    0.00          4.96          9.08             30.10              23.24         9.47      20.55         12.09         0.00
   46.46         14.14         34.58              0.00               0.00         0.00       0.00          0.00         0.00
    0.00          9.27          6.12             10.02              25.08         0.00       0.00          0.00         0.00
    0.00          0.00          0.00              0.00               0.00         0.00      22.40          0.00         0.00
 595.49        249.23        204.66          165.16               144.36      123.30      281.21       192.65         80.61

    0.00          0.00          0.00            0.00                 0.00        2.50       14.30         25.90        33.50
  155.60         35.30        207.60          136.10               131.90      207.80      434.40      1,047.60     1,288.40
 155.60         35.30        207.60          136.10               131.90      210.30      448.70      1,073.50     1,321.90
1,063.99     1,012.96      2,604.49      4,845.86            3,484.94       10,029.23    6,192.11    10,368.99    11,889.63




      REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2010              159
APPENDICES




APPENDIX C
SIGAR AUDITS
Completed Audits
SIGAR completed four audits as of April 30, 2010, as listed in Table C.1.


TABLE C.1


SIGAR COMPLETED AUDITS, AS OF APRIL 30, 2010
Agency      Report Identifier   Date Issued      Report Title
SIGAR       SIGAR-Audit-10-10   4/30/2010        ANA Garrison at Gamberi Appears Well Built Overall, but
                                                 Some Construction Issues Need To Be Addressed
SIGAR       SIGAR-Audit-10-9    4/30/2010        ANA Garrison at Kunduz Does Not Meet All Quality and
                                                 Oversight Requirements; Serious Soil Issues Need to be
                                                 Addressed
SIGAR       SIGAR-Audit-10-8    4/9/2010         Afghanistan’s Control and Audit Office Requires
                                                 Operational and Budgetary Independence, Enhanced
                                                 Authority, and Focused International Assistance to
                                                 Effectively Prevent and Detect Corruption
SIGAR       SIGAR-Audit-10-7    3/1/2010         The Tojg Bridge Construction Is Nearly Complete, but
                                                 Several Contract Issues Need To Be Addressed




New Audits
SIGAR initiated two new audits as of April 30, 2010, as listed in Table C.2.


TABLE C.2

SIGAR NEW AUDITS, AS OF APRIL 30, 2010
Agency      Audit Identifier    Date Initiated   Project Title
SIGAR       SIGAR-021A          4/2010           Review of the Implementation of the Civilian Uplift in
                                                 Support of the U.S. Reconstruction Effort in Afghanistan
SIGAR       SIGAR-023A          4/2010           Review of Afghanistan’s National Solidarity Program




  160                     SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                 APPENDICES




Ongoing Audits
As of April 30, 2010, SIGAR has 10 audits in progress, as listed in Table C.3.


TABLE C.3


SIGAR ONGOING AUDITS, AS OF APRIL 30, 2010
Agency      Audit Identifier   Date Initiated   Project Title
SIGAR       SIGAR-020A         1/2010           Review of Salary Support Provided by U.S. Government
                                                Agencies to Afghan Government Officials
SIGAR       SIGAR-018A         12/2009          Identification of Major Venders for Reconstruction
                                                Contracts in Afghanistan
SIGAR       SIGAR-017A         11/2009          Contract Audit: Reconstruction Security Support Services
                                                from Global Strategies Group, Inc.
SIGAR       SIGAR-014A         11/2009          Contract Audit: Construction of the ANA Brigade Garrison
                                                in Farah Province
SIGAR       SIGAR-008-I        10/2009          Review of the Construction Contract of the Joint Regional
                                                ANSF Complex Outside the Kandahar Airfield
SIGAR       SIGAR-013A         9/2009           Review of ANSF Personnel Management
SIGAR       SIGAR-012A         9/2009           System to Assess the Capabilities of the ANSF
SIGAR       SIGAR-010A         8/2009           Review of the Use of Funds Earmarked for Afghan Women
                                                and Girls
SIGAR       SIGAR-009A         7/2009           Review of U.S. Agencies’ Use of Contractors To Provide
                                                Security for Reconstruction Programs in Afghanistan
SIGAR       SIGAR-006A         3/2009           Review of U.S. Assistance for the Preparation and
                                                Conduct of Presidential and Provincial Council Elections
                                                in Afghanistan




               REPORT TO THE UNITED STATES CONGRESS      I   APRIL 30, 2010                     161
                                                       APPENDICES




                                                       APPENDIX D
                                                       SIGAR INVESTIGATIONS AND HOTLINE

FIGURE D.1
                                                       SIGAR Investigations
SIGAR INVESTIGATIONS: OPEN CASES,                      This quarter, SIGAR opened 19 new investigations and closed 10. Of the 19 new
JANUARY 1–MARCH 30, 2010                               cases, most involved contract fraud and bribery, as shown in Figure D.1. SIGAR
                                                       closed 10 cases for a variety of reasons, as shown in Figure D.2.
                    Total: 19
                                                        FIGURE D.2


                                                        SIGAR INVESTIGATIONS: CLOSED CASES, JANUARY 1–MARCH 30, 2010

             Contract                                                                                         Total: 10
             Fraud              Bribery
             10                 6                               Lack of Prosecutive Merit                                                                           4
                                                                  Allegations Unfounded                                                               3
                                                        Merged with Other Investigation                              1
                                                              Not Reconstruction Money                               1
 Miscellaneous                  Procurement
Criminal Activity               Fraud                                     Plea/Sentencing                            1
               1                2
                                                                                                                 1                     2          3             4
Source: SIGAR Investigations Directorate, 4/13/2010.   Source: SIGAR Investigations Directorate, 4/13/2010.




FIGURE D.3
                                                       SIGAR Hotline
SOURCE OF SIGAR HOTLINE COMPLAINTS,                    Reported Complaints
JANUARY 1–MARCH 30, 2010                               Of the 35 Hotline complaints received last quarter, most were received by email
                                                       or telephone, as shown in Figure D.3. These complaints have been assigned,
                    Total: 35                          referred to other agencies, closed, or under coordination, as shown in Figure D.4.

                                                        FIGURE D.4


                Email                                   SIGAR HOTLINE COMPLAINTS: STATUS JANUARY 1–MARCH 30, 2010
                26
                                                                                                                           Total: 35


                                Phone                  Assigned/Open                                                                                                    17
                                8                         Referred Out                                                         8
                                                                 Closed                                                                9
              Written                                    Coordinationa           1
                    1
                                                                          0                              5                                 10              15

Source: SIGAR Investigations Directorate, 4/15/2010.
                                                       a. Case has been reviewed, and SIGAR is obtaining additional information.
                                                       Source: SIGAR Investigations Directorate, 4/15/2010.




                                                          162                          SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                               APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS


 ABBREVIATION
  OR ACRONYM      DEFINITION
          AACP    Afghan Anti-Crime Police

           ABP    Afghan Border Police

       ADP/SW     Alternative Development Program South-West

           ADU    Afghan Defense University

      AED-North   Afghanistan Engineer District - North

         AIHRC    Afghanistan Independent Human Rights Commission

           ANA    Afghan National Army

         ANAAC    Afghan National Army Air Corps

        ANCOP     Afghan National Civil Order Police

          ANDS    Afghanistan National Development Strategy

           ANII   American Nuristani Import International Company

           ANP    Afghan National Police

          ANSF    Afghan National Security Forces

           AP3    Afghan Public Protection Program

          APPF    Afghan Public Protection Force

          APTT    Afghan Police Training Team

          ASFF    Afghanistan Security Forces Fund

        ASMED     Afghanistan Small and Medium Enterprise Development

           AUP    Afghan Uniform Police

          AVIPA   Afghanistan Vouchers for Increased Productive Agriculture

           BCC    Border Coordination Center

           CAO    Control and Audit Office (Afghan)

     CASA-1000    Central Asia South Asia Transmission and Trade Project

           CBD    Community-Based De-mining

      CENTCOM     Central Command (U.S.)




         REPORT TO THE UNITED STATES CONGRESS          I   APRIL 30, 2010     163
APPENDICES




ABBREVIATION
 OR ACRONYM          DEFINITION
            CERP     Commander’s Emergency Response Program

          CHAMP      Commercial Horticulture and Agricultural Marketing Program

             CID     Criminal Investigative Command (formerly Division) (U.S. Army)

              CM     capability milestone

            CNPA     Counter-Narcotics Police - Afghanistan

            COIN     counter-insurgency

             CPC     Criminal Procedure Code

              CSI    Civil Service Institute (Afghan)

            CSSP     Correctional System Support Program

          CSTC-A     Combined Security Transition Command - Afghanistan

            CTAP     Civilian Technical Assistance Plan

             DDO     Deputy Disbursing Officer

             DEA     Drug Enforcement Administration (U.S.)

            DIAG     Disbandment of Illegal Armed Groups

             DoD     Department of Defense (U.S.)

          DoD CN     DoD Counternarcotics (U.S)

         DoD OIG     DoD Office of Inspector General (U.S.)

             DoJ     Department of Justice (U.S.)

             DoS     Department of State (U.S.)

         DoS OIG     DoS Office of Inspector General (U.S.)

      DoS OIG-INS    DoS OIG Inspections (U.S.)

      DoS OIG-INV    DoS OIG Investigations (U.S.)

             DST     District Support Team

             ECC     Election Complaints Commission

            EGGI     Economic Growth and Governance Initiative

             EITI    Extractive Industries Transparency Initiative

             ESF     Economic Support Fund

             FAO     Food and Agriculture Organization of the UN

            FLGE     Fuel and Liquid Gas Enterprise




164                 SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                                   APPENDICES




ABBREVIATION
 OR ACRONYM          DEFINITION
               FY    fiscal year
         FY 2010
                     FY 2010 Departments of Transportation and Housing and Urban Development,
     Consolidated
                     and Related Agencies Appropriations Act
Appropriations Act
             GAO     Government Accountability Office (U.S.)

             GDP     gross domestic product

           GIRoA     Government of the Islamic Republic of Afghanistan

            GWOT     Global War on Terror

               ha    hectares

             HIPC    Heavily Indebted Poor Countries

             HOO     High Office of Oversight for Anti-Corruption (Afghan)

            HRLS     Human Resources and Logistical Support

            ICCTF    International Contract Corruption Task Force

              IDA    International Development Association

        IDEA-NEW     Incentives Driving Economic Alternatives for North, East, and West

              IDP    internally displaced person

              IEC    Independent Election Commission (Afghan)

              IED    improvised explosive device

               IJC   International Security Assistance Force Joint Command

              IMF    International Monetary Fund

            INCLE    International Narcotics Control and Law Enforcement (U.S)

              INL    Bureau of International Narcotics and Law Enforcement Affairs

              IRD    International Relief and Development

             ISAF    International Security Assistance Force

             JSSP    Justice Sector Support Program

              LDI    Local Defense Initiative

         LOGCAP      Logistics Civil Augmentation Program

              LPG    liquefied petroleum gas

          MACCA      Mine Action Coordination Center of Afghanistan

             MAIL    Ministry of Agriculture, Irrigation, and Livestock (Afghan)




            REPORT TO THE UNITED STATES CONGRESS           I   APRIL 30, 2010             165
APPENDICES




ABBREVIATION
 OR ACRONYM        DEFINITION
          MCN      Ministry of Counter-Narcotics (Afghan)

         MoCI      Ministry of Commerce and Industries (Afghan)

          MoF      Ministry of Finance (Afghan)

           MoI     Ministry of Interior (Afghan)

         MoPH      Ministry of Public Health (Afghan)

            MT     metric ton

          NAC      North Atlantic Council

         NATO      North Atlantic Treaty Organization

          NCO      non-commissioned officer

          NGO      non-governmental organization

         NRVA      National Risk and Vulnerability Assessment

        NTM-A      NATO Training Mission - Afghanistan

                   NATO Training Mission - Afghanistan/Combined Security
  NTM-A/CSTC-A
                   Transition Command - Afghanistan

          OCO      Overseas Contingency Operations

           OEF     Operation Enduring Freedom

           OIF     Operation Iraqi Freedom

          OMB      Office of Management and Budget (U.S.)

          OPIC     U.S. Overseas Private Investment Corporation

         PRGF      Poverty Reduction and Growth Facility

            RC     Recruitment Cost

            RC     Regional Command

         SIGAR     Special Inspector General for Afghanistan Reconstruction (U.S.)

          SOA      Daily Statements of Account

         SPOT      Synchronized Predeployment and Operational Tracker

       Treasury    Department of the Treasury (U.S.)

            UN     United Nations

        UNAMA      UN Assistance Mission in Afghanistan

       UNESCO      UN Educational, Scientific, and Cultural Organization

        UNHCR      UN High Commissioner for Refugees




166               SPECIAL INSPECTOR GENERAL        I    AFGHANISTAN RECONSTRUCTION
                                                             APPENDICES




ABBREVIATION
 OR ACRONYM      DEFINITION
       UNICEF    UN Children’s Fund

       UNODC     UN Office on Drugs and Crime

        USAAA    U.S. Army Audit Agency

        USACE    U.S. Army Corps of Engineers

        USAID    U.S. Agency for International Development

     USAID OIG   USAID Office of Inspector General




        REPORT TO THE UNITED STATES CONGRESS         I   APRIL 30, 2010   167
                                                          ENDNOTES




1.    DoD OSD, Justification for FY 2011 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF), DoD Budget FY 2011.
2.    DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010.
3.    London Conference on Afghanistan, “Communiqué,” 1/28/2010.
4.    The October 2009 report was published in April 2010.
5.    DoD, “Report on Progress toward Security and Stability in Afghanistan,” 10/2009 Report to Congress in accordance with the National Defense
      Authorization Act, 2008 (Section 1230, Public Law 110-181).
6.    DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010.
7.    London Conference on Afghanistan, “Communiqué,” 1/29/2010.
8.    UNODC, “Corruption in Afghanistan, Bribery as Reported by the Victims,” 1/2010.
9.    World Bank,“Fighting Corruption in Afghanistan: Summaries of Vulnerabilities to Corruption Assessments,” 5/2009.
10.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/2010.
11.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/2010.
12.   The embedded training team compound houses coalition forces who work with the ANA battalions. The compound is not supposed to be
      funded through ASFF: those funds are used only for training, equipping, and sustaining the ANSF. SIGAR has asked DoD for clarification on
      which funds were used to pay for the construction of the compound.
13.   Closed cases included three in which allegations proved to be unfounded, four that lacked prosecutorial merit, one that was merged with
      another investigation, one that did not involve reconstruction money, and one that resulted in a plea agreement.
14.   DoD, “U.S. Plan for Sustaining the ANSF,” p. 6.
15.   P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
16.   DoD, response to SIGAR data call, 4/13/2010.
17.   DoD, response to SIGAR data call, 4/13/2010.
18.   DoD OIG, “Distribution of Funds and the Validity of Obligations for the Management of the Afghanistan Security Forces Fund – Phase I,”
      11/5/2007, accessed online 1/12/2010, p. 2.
19.   DoD, response to SIGAR data call, 4/13/2010.
20.   DoD, response to SIGAR data call, 4/13/2010.
21.   DoD, Financial Management Regulation, “Commander’s Emergency Response Fund: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
22.   H.R. 3326, “Department of Defense Appropriations Act, 2010,” p. 57.
23.   DoD, response to SIGAR data call, 4/14/2010.
24.   DoD, response to SIGAR data call, 4/14/2010.
25.   DoD, “Drug Interdiction and Counter Drug Activities, Defense (Counternarcotics) FY 2009 Supplemental Request Drug Interdiction and
      Counterdrug Activities,” accessed online 4/13/2010.
26.   DoD, response to SIGAR data call, 4/12/2010.
27.   DoD, response to SIGAR vetting, 7/16/2009.
28.   H.R. 111-366, “Departments of Transportation and Housing and Urban Development, and Related Agencies Appropriations Act, 2010,” p. 3.
29.   USAID, response to SIGAR data call, 4/15/2010.
30.   USAID, response to SIGAR data call, 4/15/2010.
31.   DoS, response to SIGAR data call, 10/13/2009.
32.   H.R. 111-366, “Departments of Transportation and Housing and Urban Development, and Related Agencies Appropriations Act, 2010,” p. 3.
33.   DoS, response to SIGAR data call, 4/9/2010.
34.   INL, response to SIGAR data call, 4/9/2010.
35.   MoF, Website, accessed 9/10/2009.
36.   Treasury, response to SIGAR data call, 4/12/2010.
37.   Treasury, response to SIGAR data call, 4/12/2010.
38.   Treasury, response to SIGAR data call, 4/12/2010.
39.   Treasury, response to SIGAR data call, 4/12/2010.
40.   Treasury, response to SIGAR data call, 4/12/2010.
41.   MoF, “Donor Financial Review,” 11/2009, p. 23.
42.   World Bank, “Quarterly Country Update,” 4/2010, p. 2.
43.   World Bank, “ARTF: Administrator’s Report on Financial Status as of January 20, 2010,” 1/20/2010, p. 1.
44.   World Bank, “Quarterly Country Update,” 4/2010, pp. 16–17.
45.   World Bank, “Afghanistan Reconstruction Trust Fund to Support the Afghan Government’s Development Agenda with Anticipated US$2.6
      Billion over Next 3 Years,” 1/29/2010, accessed online 4/6/2010.




                                                  168                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




46.   Treasury, response to SIGAR data call, 4/12/2010.
47.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 7.
48.   IJC, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
49.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 7.
50.   MoI, “Afghan National Police Strategy,” 3/2010, p. 4.
51.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 7.
52.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 7.
53.   DoD, “United States Plan for Sustaining the Afghan National Security Forces,” 4/2009, p. 7; DoD, “Progress toward Security and Stability in
      Afghanistan,” 6/2009, p. 20.
54.   London Conference on Afghanistan, “Communiqué,” 1/28/2010; NTM-A/CSTC-A, response to SIGAR data call, 4/1/2010.
55.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 9.
56.   NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
57.   IJC, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
58.   IJC, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
59.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 8.
60.   ISAF, press release, “Operation Moshtarak,” 2/13/2010.
61.   DoD OSD, response to SIGAR data call, 4/12/2010.
62.   ISAF, response to SIGAR data call, 4/1/2010.
63.   ISAF, response to SIGAR data call, 4/1/2010.
64.   IJC, responses to SIGAR data call, 4/1/2010, 1/4/2010.
65.   CSTC-A, “The Enduring Ledger,” 4/2009, p. 18.
66.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 10/2009, p. 27.
67.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 10/2009, p. 30.
68.   NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
69.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 9.
70.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 10.
71.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 8.
72.   NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
73.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 24.
74.   ISAF, press release, “Cornerstone Laid for Afghan Defense University,” 4/6/2010.
75.   ISAF, press release, “Afghan Helicopter Force Takes Off,” 4/8/2010.
76.   NTM-A/CSTC-A, press release, “Afghan National Army Air Corps Literacy Program a Success,” 4/4/2010.
77.   NTM-A/CSTC-A, response to SIGAR data call, 4/1/2010.
78.   DoD OSD, response to SIGAR data call, 4/12/2010.
79.   NTM-A/CSTC-A, response to SIGAR data call, 4/1/2010.
80.   NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
81.   ISAF, press release, “Cornerstone Laid for Afghan Defense University,” 4/6/2010.
82.   NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
83.   NTM-A/CSTC-A, press release, “Afghanistan: Sign of Hope,” 2/27/2010.
84.   NTM-A/CSTC-A, press release, “Afghan Radio Repair Soldiers on Road to Self-Sufficiency,” 3/10/2010; NTM-A/CSTC-A, press release,
      “Afghanistan: Sign of Hope,” 2/27/2010.
85.   NTM-A/CSTC-A, press release, “Afghan Radio Repair Soldiers on Road to Self-Sufficiency,” 3/10/2010.
86.   ISAF, “Training, Investment Create Sustainable Afghan Army,” 3/8/2010.
87.   IJC, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
88.   MoI, “Afghan National Police Strategy,” 3/2010, p. 4.
89.   MoI, “Afghan National Police Strategy,” 3/2010, pp. 10, 11, 22.
90.   NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010 and 1/4/2010; DoD OSD, response to SIGAR data call, 4/12/2010; IJC, response to
      SIGAR vetting, 4/19/2010.
91.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 9.
92.   DoD OSD, responses to SIGAR data call, 4/12/2010 and 1/11/2010.
93.   DoD, “Report on Progress toward Security and Stability in Afghanistan,” 10/2009, p. 31.
94.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 9.




            REPORT TO THE UNITED STATES CONGRESS          I   APRIL 30, 2010               169
                                                             ENDNOTES




95.    UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 9.
96.    NTM-A/CSTC-A, press release, “Anti-Corruption Pay Program Expands,” 4/3/2010.
97.    DoS/DoD OIG, “DoD Obligations and Expenditures of Funds Provided to the Department of State for the Training and Mentoring of the Afghan
       National Police,” 2/9/2010, p. 5.
98.    DoS/DoD OIG, “DoD Obligations and Expenditures of Funds Provided to the Department of State for the Training and Mentoring of the Afghan
       National Police,” 2/9/2010, p. 10.
99.    UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 8.
100.   MoI, “Afghan National Police Strategy,” 3/2010, pp. 8–9.
101.   MoI, “Afghan National Police Strategy,” 3/2010, p. 12.
102.   DoD OSD, response to SIGAR data call, 4/12/2010.
103.   NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
104.   NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
105.   DoS/DoD OIG, “DoD Obligations and Expenditures of Funds Provided to the Department of State for the Training and Mentoring of the Afghan
       National Police,” 2/9/2010, p. i.
106.   DoS/DoD OIG, “DoD Obligations and Expenditures of Funds Provided to the Department of State for the Training and Mentoring of the Afghan
       National Police,” 2/9/2010, p. 5.
107.   DoS/DoD OIG, “DoD Obligations and Expenditures of Funds Provided to the Department of State for the Training and Mentoring of the Afghan
       National Police,” 2/9/2010, pp. 5, 6.
108.   ISAF, “Transcript: Press Briefing on NATO Training Mission – Afghanistan,” 3/3/2010.
109.   MoI, “Afghan National Police Strategy,” 3/2010, p. 18.
110.   DoD OSD, response to SIGAR data call, 4/12/2010.
111.   DoD OSD, response to SIGAR data call, 4/12/2010.
112.   NTM-A/CSTC-A, press release, “Inaugural Police Train-the-Trainer Class Begins,” 3/17/2010; MoI, “Afghan National Police Strategy,” 3/2010, p. 16.
113.   DoD OSD, response to SIGAR data call, 4/12/2010.
114.   MoI, “Afghan National Police Strategy,” 3/2010, p. 12.
115.   NTM-A/CSTC-A, response to SIGAR data call, 4/1/2010.
116.   NTM-A/CSTC-A, press release, “Women Officers Advance Afghan Security,” 3/11/2010.
117.   DoS/DoD OIG, “DoD Obligations and Expenditures of Funds Provided to the Department of State for the Training and Mentoring of the Afghan
       National Police,” 2/9/2010, pp. ii, 34–35; NTM-A/CSTC-A, response to SIGAR data call, 4/1/2010.
118.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 24.
119.   NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
120.   NTM-A/CSTC-A, response to SIGAR data call, 4/1/2010.
121.   NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
122.   NTM-A/CSTC-A, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
123.   IJC, responses to SIGAR data call, 4/1/2010 and 1/4/2010.
124.   DoS/DoD OIG, “DoD Obligations and Expenditures of Funds Provided to the Department of State for the Training and Mentoring of the Afghan
       National Police,” 2/9/2010, p. 5.
125.   MoI, “Afghan National Police Strategy,” 3/2010, p. 6.
126.   MoI, “Afghan National Police Strategy,” 3/2010, p. 16.
127.   UNDP, “DIAG Second Quarter Progress Report,” 2009, p. 5.
128.   UNDP, “DIAG Second Quarter Progress Report,” 2009, p. 7.
129.   UNDP, “DIAG Second Quarter Progress Report,” 2009, p. 3.
130.   UNDP, “DIAG Implementation Progress Report,” 3/13/2010.
131.   UNDP, “DIAG Implementation Progress Report,” 3/13/2010; DoS, response to SIGAR data call, 1/6/2010.
132.   MoI, “Afghan National Police Strategy,” 3/2010, pp. 2, 15.
133.   UNDP, “DIAG Second Quarter Progress Report,” 2009, p. 3, 10–12.
134.   DoD, press release, “Counter-IED Organization Concentrates on Afghanistan,” 4/8/2010.
135.   IJC, response to SIGAR data call, 4/1/2010.
136.   IJC, response to SIGAR data call, 1/4/2010.
137.   IJC, response to SIGAR data call, 4/1/2010.
138.   DoD, “Report on Progress toward Security and Stability in Afghanistan,” 10/2009, p. 13.
139.   ISAF, press release, “New Afghan National Army Unit to Help Make Local Roads Safer,” 3/2/2010.




                                                     170                    SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




140.   NATO, “Northern Star,” 3/2010, p. 6.
141.   DoD, “Report on Progress toward Security and Stability in Afghanistan,” 10/2009, p. 13.
142.   DoS, response to SIGAR data call, 4/1/2010.
143.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 8; UN, “Mine
       Action Programme of Afghanistan Newsletter: February 2010,” 2/2010, p. 4; DoS, response to SIGAR data call, 4/1/2010.
144.   DoS, response to SIGAR data call, 4/1/2010.
145.   DoS, response to SIGAR data call, 4/1/2010.
146.   UN, “Mine Action Programme of Afghanistan Newsletter: February 2010,” 2/2010, pp. 3–4.
147.   UN, “Mine Action Programme of Afghanistan Newsletter: February 2010,” 2/2010, p. 2.
148.   DoS, response to SIGAR data call, 4/1/2010.
149.   ISAF, press release, “Cornerstone Laid for Afghan Defense University,” 4/6/2010.
150.   UN, “Mine Action Programme of Afghanistan Newsletter: February 2010,” 2/2010, p. 3.
151.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 9.
152.   ISAF, press release, “Operation Moshtarak,” 2/13/2010.
153.   ISAF, press release, “Operation Moshtarak,” 2/13/2010.
154.   DoD OSD, response to SIGAR data call, 4/13/2010; DoD, “Report on Progress toward Security and Stability in Afghanistan,” 10/2009, p. 9.
155.   DoD OSD, response to SIGAR data call, 4/13/2010.
156.   DoD OSD, response to SIGAR data call, 4/13/2010.
157.   DoD OSD, response to SIGAR data call, 4/13/2010.
158.   DoD OSD, response to SIGAR data call, 4/13/2010.
159.   MoI, “Afghan National Police Strategy,” 3/2010, p. 29.
160.   DoD OSD, response to SIGAR data call, 4/13/2010.
161.   DoD OSD, response to SIGAR data call, 4/13/2010.
162.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 4.
163.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 15.
164.   UN, “A Strategy for Transition to Afghan Leadership,” 3/6/2010, p. 26.
165.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, pp. 15, 16.
166.   DoD OSD, response to SIGAR data call, 4/13/2010.
167.   DoD OSD, response to SIGAR data call, 4/13/2010.
168.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 4.
169.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, pp. 15, 16.
170.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 16.
171.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 4.
172.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 2.
173.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 7.
174.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/212010, pp. i, 7.
175.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. ii.
176.   USAID, response to SIGAR data call, 4/6/2010.
177.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, pp. i, ii.
178.   DoS, response to SIGAR data call, 4/6/2010.
179.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 7.
180.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. ii.
181.   USAID, “Provincial Reconstruction Teams,” accessed online 4/19/2010.
182.   DoS, response to SIGAR data call, 4/6/2010.
183.   DoS, response to SIGAR data call, 4/6/2010.
184.   DoS, response to SIGAR data call, 4/6/2010.
185.   DoS, response to SIGAR data call, 4/6/2010.
186.   DoS, response to SIGAR data call, 4/6/2010.
187.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 2.
188.   London Conference on Afghanistan, “Communiqué,” 1/28/2010.
189.   London Conference on Afghanistan, “Communiqué,” 1/28/2010; DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 7.




             REPORT TO THE UNITED STATES CONGRESS         I   APRIL 30, 2010              171
                                                           ENDNOTES




190. DoS, response to SIGAR data call, 4/6/2010; CIA, “Afghanistan: Chiefs of State and Cabinet Members of Foreign Governments,” accessed online
     4/13/2010.
191. DoS, response to SIGAR data call, 4/6/2010.
192. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 2; DoS, response
     to SIGAR data call, 4/6/2010.
193. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 2.
194. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 15.
195. DoS, response to SIGAR data call, 4/6/2010.
196. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 15.
197. IEC, “IEC Press Release on 2010 Wolesi Jirga Timeline,” 3/25/2010.
198. DoS, response to SIGAR data call, 4/6/2010.
199. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 3.
200. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 10.
201. SIGAR, “SIGAR Ongoing Audits,” accessed online 4/19/2010.
202. GIRoA Office of the President, “President Karzai Appoints New Chief for Elections Commission,” 4/17/2010.
203. UN, “Press Conference: 4/17/2010,” accessed online 4/19/2010.
204. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 3; GIRoA,
     “Electoral Complaints Commission,” accessed online 3/22/2010.
205. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 3; GIRoA,
     “Electoral Complaints Commission,” accessed online 3/22/2010.
206. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 3.
207. DoS, response to SIGAR data call, 4/6/2010.
208. UN, “Transcript of press conference in Kabul by Staffan de Mistura, Special Representative of the United Nations Secretary-General for
     Afghanistan” accessed online 4/19/2010.
209. UN, “Transcript of press conference in Kabul by Staffan de Mistura, Special Representative of the United Nations Secretary-General for
     Afghanistan,” accessed online 4/19/2010.
210. DoS, response to SIGAR data call, 4/6/2010.
211. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. i; CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S.
     Policy,” 3/1/2010, p. 17.
212. Economist Intelligence Unit, “Country Report: Afghanistan,” 1/2010, p. 5.
213. DoS, response to SIGAR data call, 4/6/2010.
214. DoS, response to SIGAR data call, 4/6/2010.
215. USAID, “Afghanistan Parliamentary Assistance Program,” accessed online 4/19/2010.
216. DoS, response to SIGAR data call, 4/6/2010; USAID, “Afghanistan Parliamentary Assistance Program,” accessed online 4/19/2010.
217. DoS, response to SIGAR data call, 4/6/2010.
218. DoS, response to SIGAR data call, 4/6/2010; Meshrano Jirga, “Who is Who,” accessed online 4/6/2010.
219. DoS, response to SIGAR data call, 4/6/2010.
220. DoS, response to SIGAR data call, 4/6/2010; Economist Intelligence Unit, “Country Report: Afghanistan,” 1/2010, p. 7.
221. DoS, response to SIGAR data call, 4/6/2010.
222. DoS, response to SIGAR data call, 4/6/2010.
223. DoS, response to SIGAR data call, 1/6/2010.
224. DoS, response to SIGAR data call, 4/6/2010.
225. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. i.
226. U.S. Embassy, “Performance-Based Governors’ Fund Empowers Provincial Government in Afghanistan,” 1/20/2010.
227. USAID, response to SIGAR data call, 4/6/2010.
228. USAID, response to SIGAR data call, 4/6/2010.
229. USAID, response to SIGAR data call, 4/6/2010.
230. USAID, “Providing More Afghan Ownership in Aid,” 10/18/2009.
231. USAID, “Providing More Afghan Ownership in Aid,” 10/18/2009; USAID, response to SIGAR data call, 4/6/2010.
232. USAID, “Afghanistan Municipal Strengthening Program,” accessed online 4/12/2010.
233. USAID, response to SIGAR data call, 4/6/2010.
234. UN, “Press Conference on the Challenges Faced by Countries Emerging for Conflicts,” 2/25/2010.




                                                    172                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




235.   GIRoA, “The Afghanistan National Development Strategy,” p. 63.
236.   U.S. Census Bureau, “International Data Base: Afghanistan,” accessed online 4/12/2010.
237.   UN, “UN Population Fund helping Afghanistan Design First-Ever National Census,” 8/29/2002.
238.   CSO, “Activities,” accessed online 4/19/2010.
239.   DoS, response to SIGAR data call, 4/6/2010.
240.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 11.
241.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 11.
242.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 17.
243.   INL, response to SIGAR vetting, 4/19/2010.
244.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. ii.
245.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. ii.
246.   USAID, response to SIGAR data call, 4/8/2010.
247.   JSSP, “Welcome,” accessed online 4/6/2010.
248.   DoS, response to SIGAR data call, 4/6/2010.
249.   DoS, response to SIGAR data call, 4/6/2010.
250.   DoS, response to SIGAR data call, 4/6/2010.
251.   DoS, response to SIGAR data call, 4/6/2010.
252.   DoS, response to SIGAR data call, 4/6/2010.
253.   DoS, response to SIGAR data call, 4/6/2010.
254.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010.
255.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010.
256.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010.
257.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010.
258.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010.
259.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010.
260.   DoS, “2008 Country Reports on Human Rights Practices: Afghanistan,” 2/25/2009; DoS, “2007 Country Reports on Human Rights Practices:
       Afghanistan,” 3/11/2008.
261.   SIGAR, “SIGAR Ongoing Audits,” accessed online 4/19/2010.
262.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010, accessed online 3/18/2010.
263.   INL, response to SIGAR vetting, 4/19/2010.
264.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010, accessed online 3/18/2010.
265.   INL, response to SIGAR vetting, 4/19/2010.
266.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010, accessed online 3/18/2010.
267.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010, accessed online 3/18/2010.
268.   INL, response to SIGAR vetting, 4/19/2010.
269.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 9.
270.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010, accessed online 3/18/2010; INL, response to SIGAR vetting,
       4/19/2010.
271.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010, accessed online 3/18/2010; INL, response to SIGAR vetting,
       4/19/2010.
272.   DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010, accessed online 3/18/2010.
273.   INL, “Afghanistan Program Overview,” accessed online 4/19/2010.
274.   INL, response to SIGAR vetting, 4/19/2010.
275.   INL, “Afghanistan Program Overview,” accessed online 4/19/2010; INL, response to SIGAR vetting, 4/19/2010.
276.   INL, response to SIGAR vetting, 4/19/2010.
277.   INL, response to SIGAR vetting, 4/19/2010.
278.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 17.
279.   USAID, response to SIGAR data call, 4/8/2010.
280.   USAID, response to SIGAR data call, 4/8/2010.
281.   USAID, response to SIGAR data call, 4/8/2010.
282.   Transparency International, “Corruption Perception Index 2009,” accessed online 4/19/2010.
283.   Transparency International, “Corruption Perception Index 2008,” accessed online 4/9/2010.




             REPORT TO THE UNITED STATES CONGRESS         I   APRIL 30, 2010              173
                                                           ENDNOTES




284. DoS, response to SIGAR data call, 4/6/2010.
285. SIGAR Audit 10-8, “Afghanistan’s Control and Audit Office Requires Operational and Budgetary Independence, Enhanced Authority, and
     Focused International Assistance To Effectively Prevent and Detect Corruption,” 4/9/2010, p. ii.
286. London Conference on Afghanistan, “Communiqué,” 1/28/2010.
287. USAID, response to SIGAR data call, 4/8/2010.
288. London Conference on Afghanistan, “Communiqué,” 1/28/2010.
289. U.S. Embassy, “U.S. Government Anti-Corruption Strategy for Afghanistan,” 2009.
290. U.S. Embassy, “U.S. Government Anti-Corruption Strategy for Afghanistan,” 2009.
291. USAID, response to SIGAR data call, 4/8/2010.
292. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, pp. 7–8; DoS, response to SIGAR data call, 4/6/2010.
293. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. ii.
294. DoS, response to SIGAR data call, 4/6/2010.
295. DoS, response to SIGAR data call, 4/6/2010; DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 7.
296. DoS, response to SIGAR data call, 4/6/2010.
297. DoS, response to SIGAR data call, 4/6/2010.
298. SIGAR Audit 10-2, “Afghanistan’s High Office of Oversight Needs Significantly Strengthened Authority, Independence, and Donor Support To
     Become an Effective Anti-Corruption Institution,” 12/16/2009, p. ii.
299. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 7.
300. SIGAR Audit 10-2, “Afghanistan’s High Office of Oversight Needs Significantly Strengthened Authority, Independence, and Donor Support To
     Become an Effective Anti-Corruption Institution,” 12/16/2009, p. ii.
301. USAID, response to SIGAR data call, 4/8/2010; DoS, response to SIGAR data call, 4/6/2010.
302. DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010, accessed online 3/18/2010.
303. DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010, accessed online 3/18/2010.
304. DoS, “Background Note: Afghanistan,” 3/2010.
305. UN, “Daily News,” accessed online 3/25/2010.
306. UN, “Daily News,” accessed online 3/25/2010.
307. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 11.
308. DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010.
309. DoS, “Advancing the Rights of Women and Girls: Keys to a Better Future for Afghanistan,” 1/29/2010.
310. DoS, “Advancing the Rights of Women and Girls: Keys to a Better Future for Afghanistan,” 1/29/2010.
311. AIHRC, “Press Release on International Women’s Day,” 3/6/2010; UNIFEM, “International Women’s Day,” accessed online 4/22/2010.
312. INL, response to SIGAR vetting, 4/19/2010;
313. DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010.
314. DoS, “2009 Country Reports on Human Rights Practices: Afghanistan,” 3/11/2010.
315. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, pp. 3–6, 15, 19.
316. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 2.
317. London Conference on Afghanistan, “Communiqué,” 1/28/2010.
318. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 5.
319. IMF, Country Report 10/22, 1/2010, p. 3.
320. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 6. The report
     compared procurement data for the period June 2009–January 2010 with data for June 2008–January 2009.
321. IMF, Country Report 10/22, 1/2010, pp. 13–14.
322. IMF, Country Report 10/22, 1/2010, p. 4; IMF, Fact Sheet, “Debt Relief Under the Heavily Indebted Poor Countries (HIPC) Initiative,” 2/18/2010;
     DoS, Office of the Press Spokesman, “U.S. Joins Other Creditors, Cancels Afghanistan Debts Owed to Paris Club Members,” 3/17/2010; ADB,
     “Asian Development Bank and Afghanistan: Fact Sheet,” 12/31/2008, p. 1.
323. IMF, Country Report 10/22, 1/21/2010, p. 4.
324. IMF, Country Report 10/22, 1/21/2010, p. 3.
325. IMF, Country Report 10/22, 1/21/2010, p. 12.
326. World Bank, Background Paper for London Conference, “Promoting Second Generation of Public Expenditure Reforms,” 1/28/2010, p. 1.
327. IMF, Country Report 10/22, 1/2010, p. 11.
328. Treasury, response to SIGAR data call, 4/12/2010.
329. World Bank, London Conference Background Paper, “Promoting Second Generation of Public Expenditure Reforms,” 1/28/2010, p. 2; IMF,
     Country Report 10/22, 1/21/2010, p. 12.




                                                    174                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




330.   IMF, “IMF and World Bank Announce US$1.6 Billion in Debt Relief for Afghanistan,” 1/26/2010.
331.   IMF, “IMF and World Bank Announce US$1.6 Billion in Debt Relief for Afghanistan,” 1/26/2010.
332.   DoS, Office of the Press Spokesman, “U.S. Joins Other Creditors, Cancels Afghanistan Debts Owed to Paris Club Members,” 3/17/2010.
333.   IMF, “Afghanistan: HIPC Initiatives Paper,” IMF Country Report 10/40, 2/2010, pp. 6, 8, 18, 19.
334.   IMF, “Afghanistan: HIPC Initiatives Paper,” Country Report 10/40, 2/2010, p. 15.
335.   IMF, “Afghanistan: HIPC Initiatives Paper,” Country Report 10/40, 2/2010, p. 15.
336.   IMF, “Afghanistan: HIPC Initiative Paper,” Country Report 10/40, 2/2010, p. 47.
337.   IMF, “Afghanistan: HIPC Initiative Paper,” Country Report 10/40, 2/2010, p. 10.
338.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 19.
339.   World Bank, Background Paper for London Conference, “Promoting Second Generation of Public Expenditure Reforms,” 1/28/2010, p. 2.
340.   Treasury, response to SIGAR data call, 4/12/2010.
341.   World Bank, Background Paper for London Conference, “Promoting Second Generation of Public Expenditure Reforms,” 1/28/2010, p. 3.
342.   Treasury, response to SIGAR data call, 4/12/2010.
343.   UNAMA, “A Strategy for Transition to Afghan Leadership,” by Kai Eide, 3/6/2010, p. 13.
344.   USAID, press release, “Afghanistan Civil Service Commission and U.S. Government Sign Memorandum of Understanding to Begin Civil Service
       Support Program,” 2/22/2010.
345.   DoS/U.S. Embassy Kabul, press release, “Afghan National Customs Academy Inaugural Graduation, Kabul,” 3/15/2010.
346.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 19.
347.   USAID, “USAID Provides $130 Million in Loans to Support Enterprises in Afghanistan,” 1/15/2010.
348.   World Council of Credit Unions, “Expanding Rural and Agricultural Finance: USAID/ Afghanistan, December 2009–2010,” accessed online
       3/24/2010.
349.   World Bank, “Reviving Rural Enterprise in Afghanistan,” p. 1, accessed online 3/24/2010.
350.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 1.
351.   DoS, “Transcript of Remarks to the Press in Kabul by Ambassador Richard Holbrooke, Special U.S. Representative for Afghanistan and
       Pakistan, Hon. Jacob J. Lew, Deputy Secretary of State for Management and Resources, General David Petraeus, Commanding General, U.S.
       Central Command, Hon. Rajiv Shah, Administrator, U.S. Agency for International Development, 4/11/2010.
352.   CSO, “National Risk and Vulnerability Assessment 2007/2008,” p. 22, accessed online 3/17/2010.
353.   DoS, response to SIGAR data call, 4/6/2010.
354.   DoS, response to SIGAR data call, 4/6/2010.
355.   DoS, response to SIGAR data call, 4/6/2010.
356.   DoS, response to SIGAR data call, 4/6/2010. The two programs are the Alternative Development Program – Southwestern Region (ADP/SW)
       and the Incentives Driving Economic Alternatives – North, East, and West (IDEA-NEW).
357.   UNAMA, “A Strategy for Transition to Afghan Leadership,” by Kai Eide, 3/6/2010, p. 19.
358.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 5.
359.   DoS, “Remarks by U.S. Ambassador Karl W. Eikenberry at the Signing of a Memorandum of Understanding in Support of the District
       Development Program,” 4/10/2010.
360.   DoS, “U.S.-Afghanistan Agreement To Provide Basic Government Services,” 4/10/2010.
361.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 19.
362.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 19.
363.   USAID, Afghanistan Energy Information Center, “Power Production and Supply Statistics, ” accessed online 3/22/2010.
364.   NATO, Civil-Military Fusion Centre, Issue 3/10, “Afghanistan: Developments in Infrastructure,” 2/2010, p. 2.
365.   NATO, Civil-Military Fusion Centre, Issue 3/10, “Afghanistan: Developments in Infrastructure,” 2/2010, p. 2; Tajik Television First Channel,
       “Tajikistan, Afghanistan Launch Joint Project to Build Power Line,” 2/15/2010.
366.   NATO, Civil-Military Fusion Centre, Issue 3/10, “Afghanistan: Developments in Infrastructure,” 2/2010, p. 2; World Bank, press release,
       “Afghanistan, Pakistan Pledge Support for Electricity Project for Central Asia,” 5/8/2009.
367.   NATO, Civil-Military Fusion Centre, Issue 3/10, “Afghanistan: Developments in Infrastructure,” 2/2010, p. 2.
368.   NATO, Civil-Military Fusion Centre, “Afghanistan Review,” 2/10/2010, p. 2; Statement of Spokesman for Ministry of Commerce and Industries,
       as reported by Tolo TV Afghanistan, 2/8/2010.
369.   MoF, Letter of Intent to the IMF, 3/4/2009, p. 4.
370.   MoCI, “Audit Report of FLGE: 1381–1386,” 9/30/2009, accessed online 3/17/2010; MoCI, “Audit Report of FLGE: 1381–1386, Management
       Letter,” 9/30/2009.
371.   ADB, “Report and Recommendation of the President to the Board of Directors: Project #40921,” 3/2010, pp. i–iii, 2.




             REPORT TO THE UNITED STATES CONGRESS         I   APRIL 30, 2010              175
                                                            ENDNOTES




372.   DoS/U.S. Embassy Kabul, press release, “Kabul International Airport Inaugurates State-of-the-Art Radar System,” 2/3/2010.
373.   IJC, press release, “Afghans Assume Control of Kabul Airport,” 3/25/2010.
374.   IJC, press release, “New Runway Opens at Mazar-e-Sharif Airport,” 3/6/2010.
375.   DoS, response to SIGAR data call, 4/6/2010.
376.   DoS, response to SIGAR data call, 4/6/2010.
377.   UNAMA, “A Strategy for Transition to Afghan Leadership,” by Kai Eide, 3/6/2010, p. 21.
378.   NATO, Civil-Military Fusion Centre, Afghanistan Review, 2/18/2010, p. 3; Arzu TV Afghanistan, transcript, “U.S. Envoy Visits Northern Afghan
       City to Open Consulate,” 2/14/2010.
379.   ADB, Grant Summary #161, “Afghanistan: Hairaton to Mazar-e-Sharif Railway Project,” 10/6/2009.
380.   DoS, “Public Diplomacy: Strengthening U.S. Engagement with the World,” 3/2010; DoD, “Report on Strategic Communication: December 2009,”
       2/11/2010.
381.   DoD, “Report on Strategic Communication: December 2009,” 2/11/2010, p. 5; DoS, “Public Diplomacy: Strengthening U.S. Engagement with the
       World,” 3/2010, p. 16.
382.   DVIDS, “Georgia National Guardsmen Open Radio Stations To Give People of Afghanistan Their Own Voice,” 2/3/2010; DVIDS, “Afghans Tune
       in for Music, Information,” 2/17/2010.
383.   USAID, Frontlines, “Afghan Ex-Fighter Now Runs Radio News Broadcasts,” 12/2009–1/2010.
384.   UNESCO, “UNESCO and Government of Italy Agreement on Supporting the Educational Radio and TV of Afghanistan,” 2/17/2010.
385.   MoE, “Our Key Challenges,” 1/13/2010.
386.   World Bank, “Afghanistan: Country Overview,” 2/2010, p. 1, accessed online 3/17/2010.
387.   MoE, “Our Key Challenges,” 1/13/2010.
388.   CSO, “National Risk and Vulnerability Assessment 2007/2008,” p. 13, accessed online 3/17/2010.
389.   MoE, “Our Key Challenges,” 1/13/2010.
390.   GIRoA, Office of the President, “Schools and Local Administration Offices Re-Open in Marjah and Nad Ali Districts,” 2/24/2010.
391.   USAID OIG, “Audit of USAID/Afghanistan’s Building Education Support Systems for Teachers Project,” Report No. 5-306-10-006-P, 1/29/2010, p. 1.
392.   DoS, response to SIGAR data call, 4/6/2010.
393.   UN, Office for the Coordination of Humanitarian Affairs, IRIN, press release, “Afghanistan: Offensive Delays Polio Immunization Drive in
       Helmand,” 2/15/2010.
394.   UN, press release, “Nearly 8 Million Afghan Children To Benefit in Latest UN Polio Vaccination Drive,” 3/15/2010.
395.   CSO, “National Risk and Vulnerability Assessment 2007/2008,” p. 16, accessed online 3/17/2010.
396.   UN, press release, “Nearly 8 Million Afghan Children To Benefit in Latest UN Polio Vaccination Drive,” 3/15/2010.
397.   UN, press release, “Nearly 8 Million Afghan Children To Benefit in Latest UN Polio Vaccination Drive,” 3/15/2010; DoS, response to SIGAR data
       call, 4/6/2010.
398.   DoS, response to SIGAR data call, 4/6/2010.
399.   DoS, response to SIGAR data call, 4/6/2010.
400.   DoS, response to SIGAR data call, 4/6/2010.
401.   NATO, Civil-Military Fusion Centre, “Afghanistan Review,” 3/3/2010, p. 4.
402.   MoPH, “Projects: GAVI-HHS,” accessed online 3/17/2010.
403.   MoPH, “Projects: GAVI-HHS,” accessed online 3/17/2010.
404.   GAVI Alliance, Donors page, accessed online 4/9/2010.
405.   DoS, response to SIGAR data call, 4/6/2010.
406.   DoS, response to SIGAR data call, 4/6/2010.
407.   DoS, response to SIGAR data call, 4/6/2010.
408.   DoS, response to SIGAR data call, 4/6/2010.
409.   MoPH, “Afghanistan National Association of Public Health Established,” 2/24/2010.
410.   BBC Weather, “Country Guide: Afghanistan,” 3/15/2010, accessed online 3/23/2010.
411.   BBC Weather, “Average Conditions: Kabul, Afghanistan” 3/15/2010, accessed online 3/23/2010; BBC Weather, “Average Conditions: Kandahar,
       Afghanistan” 3/15/2010, accessed online 3/23/2010.
412.   UN Office for the Coordination of Humanitarian Affairs, IRIN, press release, “Afghanistan: Too Early to Press Drought Alarm – Experts,”
       1/18/2010, accessed online 3/17/2010.
413.   NATO, Civil-Military Fusion Centre, Issue 1/10, “Afghanistan: Social Well-Being Sector Report,” 2/2010, p. 3.
414.   FAO/GIEWS, “Country Brief: Afghanistan,” 4/1/2010.
415.   FAO/GIEWS, “Country Brief: Afghanistan,” 4/1/2010.




                                                    176                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




416.   FAO/GIEWS, “Country Brief: Afghanistan,” 4/1/2010.
417.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, pp. 5–6.
418.   DoS, response to SIGAR data call, 4/6/2010.
419.   USAID, press release, “USAID Grants $30 Million To Champion Afghan Farmers,” 2/4/2010.
420.   UNAMA, “A Strategy for Transition to Afghan Leadership,” by Kai Eide, 3/6/2010, p. 16. According to the paper, the Afghan Minister of
       Agriculture presented initiatives supporting these goals to the April 2009 meeting of the Joint Coordination and Monitoring Board.
421.   UNAMA, “A Strategy for Transition to Afghan Leadership,” by Kai Eide, 3/6/2010, p. 22.
422.   DoS, “Transcript: Briefing on Recent Trip to Afghanistan and Pakistan” by Special Representative Richard Holbrooke, 2/3/2010.
423.   NATO, Civil-Military Fusion Centre, “Afghanistan Review,” 2/10/2010, p. 2.
424.   DoS, Transcript “Briefing by Special Representative Holbrooke on His Recent Trip to Afghanistan, Pakistan, Central Asia, Georgia and
       Germany,” 3/2/2010.
425.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 18.
426.   EITI, “Afghanistan,” accessed online 3/17/2010.
427.   EITI, “Afghanistan,” accessed online 3/17/2010.
428.   Reuters, Statement of Jiangxi Copper Chairman Li Yihuang, “China’s Jiangxi Copper Delays Afghan Project Startup,” 3/5/2010.
429.   MoM, “Request for Expression of Interest, Ref No. MOM/1074,” accessed online 3/17/2010.
430.   MoM, “Request for Expression of Interests for Completion of Building Structure, Rehabilitation, and Operation of Uncompleted Cement
       Factory of Herat Province”; MoM, “Afghanistan Ministry of Mines Cancels Hajigak Tender,” 2/14/2010; NATO, Civil-Military Fusion Centre,
       “Afghanistan: Developments in Infrastructure,” Issue 2/10, 2/5/2010, p. 5.
431.   OPIC, response to SIGAR data call, 4/7/2010.
432.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 18.
433.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 18.
434.   DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 18.
435.   Department of Commerce, International Trade Administration, “Afghanistan Trade and Reconstruction Task Force,” accessed online 3/17/2010.
436.   Stone Magazine, “Sources of Stone: Afghanistan,” 8/20/2009, p. 1, accessed online 3/17/2010.
437.   USAID/Afghanistan, “Program Highlights,” 2/1–15/2010, p. 3.
438.   USAID/Afghanistan, press release, “Kandahar PRT and U.S. Military Hold ‘Afghan First’ Procurement Conference To Work with Local Afghan
       Businesses on Contracting Opportunities,” 3/30/2010; ISAF, press release, “Conference Promotes Local Business Development in Kandahar,”
       3/31/2010.
439.   OPIC, response to SIGAR data call, 4/7/2010.
440.   OPIC, response to SIGAR data call, 4/7/2010.
441.   USAID, press release, “Afghan Minister of Finance and Acting Minister of Commerce Launch New $63 Million Trade and Accession Facilitation
       Program for Afghanistan in Partnership with the United States,” 3/9/2010.
442.   NATO, Civil-Military Fusion Centre, “Afghanistan Review,” 2/10/2010, p. 3.
443.   World Bank, “Transitional Islamic State of Afghanistan: Mining as a Source of Growth,” Report #28231-AF, 3/2004, p. 102.
444.   World Bank, “Transitional Islamic State of Afghanistan: Mining as a Source of Growth,” Report #28231-AF, 3/2004, p. 1.
445.   USAID, “Assessment of Afghanistan Gemstone Industry,” prepared by Sibley International Corp. for DAI, 6/2007, p. 4.
446.   USAID, “Assessment of Afghanistan Gemstone Industry,” prepared by Sibley International Corp. for DAI, 6/2007, p. 5.
447.   World Bank, “Transitional Islamic State of Afghanistan: Mining as a Source of Growth,” Report #28231-AF, 3/2004, p. 62.
448.   USAID, “Assessment of Afghanistan Gemstone Industry,” prepared by Sibley International Corp. for DAI, 6/2007, p. 5.
449.   MoM, “Minerals in Afghanistan: Gemstones of Afghanistan,” p. 1.
450.   USAID, “Assessment of Afghanistan Gemstone Industry,” prepared by Sibley International Corp. for DAI, 6/2007, p. 5.
451.   World Bank, “Transitional Islamic State of Afghanistan: Mining as a Source of Growth,” Report #28231-AF, 3/2004, p. 102.
452.   World Bank, “Transitional Islamic State of Afghanistan: Mining as a Source of Growth,” Report #28231-AF, 3/2004, p. 102.
453.   Mining Communications Ltd., Mining Journal (London), “Special Publication: Afghanistan,” 8/2006, p. 9.
454.   MoM, “Minerals in Afghanistan: Gemstones of Afghanistan,” p. 1.
455.   Mining Communications Ltd., Mining Journal (London), “Special Publication: Afghanistan,” 8/2006, p. 4; GIRoA, Embassy of the Islamic
       Republic of Afghanistan in Canberra, Australia, “Lapis Lazuli,” 1/23/2010, accessed online, 4/20/2010.
456.   National Gallery of Art, “Afghanistan: Hidden Treasures from the National Museum, Kabul,” by Fredrik H. Hiebert and Susan M. Arensberg,
       brochure for 2008 exhibit; International Colored Gemstone Association, “Lapis Lazuli,” accessed online 3/25/2010.
457.   Sir Henry Yule, The Book of Ser Marco Polo, the Venetian, concerning Kingdoms and Marvels of the East, I, 1929, p. 157; National Gallery of
       Art, “Afghanistan: Hidden Treasures from the National Museum, Kabul,” by Fredrik H. Hiebert and Susan M. Arensberg, 2008–09.




             REPORT TO THE UNITED STATES CONGRESS         I   APRIL 30, 2010             177
                                                             ENDNOTES




458. Metropolitan Museum of Art, Met Objectives, Vol. 4 (Spring 2003), “The Use of Lapis Lazuli as a Pigment in Medieval Europe,” by Lucretia
     Kargere, accessed online 3/29/2010.
459. International Colored Gemstone Association, “Lapis Lazuli,” accessed online 3/25/2010.
460. International Colored Gemstone Association, “Lapis Lazuli,” accessed online 3/25/2010.
461. Mining Communications Ltd., Mining Journal (London), “Special Publication: Afghanistan,” 8/2006, p. 9.
462. MoM, “Minerals in Afghanistan: Gemstones of Afghanistan,” p. 4.
463. MoM, “Minerals in Afghanistan: Gemstones of Afghanistan,” p. 4.
464. Mining Communications Ltd., Mining Journal (London), “Special Publication: Afghanistan,” 8/2006, p. 9.
465. British Institute for the Study of Iraq, Iraq, Vol. 30, no. 1 (Spring 1968), “Lapis Lazuli: The Early Phases of Its Trade,” by Georgina Herrmann, p.
     26, accessed online 1/20/2010.
466. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 18.
467. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 18.
468. DoS, response to SIGAR data call, 4/6/2010; DAI, press release, “Afghan Gem Dealers Join Thousands in Arizona for Leading Trade Fair,”
     2/15/2010.
469. DAI, press release, “Afghan Gem Dealers Join Thousands in Arizona for Leading Trade Fair,” 2/15/2010.
470. Data provided in Appendix B of this report.
471. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 17.
472. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/9/2010, p. 1.
473. MCN, “National Drug Control Strategy: An Updated Five-Year Strategy For Tackling the Illicit Drug Problem,” January 2006, p. 5; London
     Conference on Afghanistan, “Communiqué,” 1/28/2010.
474. SIGAR, “Quarterly Report to the United States Congress,” 1/30/2010, p. 111.
475. UNODC, “Afghanistan Opium Survey 2010: Winter Rapid Assessment,” 2/2010, p. 2.
476. DoS, “2010 International Narcotics Control Strategy Report: Volume 1,” 3/1/2010, accessed online 3/22/2010.
477. UNODC, “Afghanistan Opium Survey 2010:Winter Rapid Assessment,” 2/2010, p. 1; UN Secretary-General, “The Situation in Afghanistan and Its
     Implications for International Peace and Security,” 3/10/2010, p. 10.
478. UNODC, “Afghanistan Opium Survey 2010: Winter Rapid Assessment,” 1/21/2010, p. 1.
479. UNODC, “Afghanistan Cannabis Survey 2009,” April 2010, p. 7.
480. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, pp. 17–18.
481. DoD OSD, response to SIGAR data call, 4/12/2010.
482. DoD OSD, response to SIGAR data call, 4/12/2010.
483. DoD OSD, response to SIGAR data call, 4/12/2010.
484. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 11.
485. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 17.
486. UN Secretary General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 3/10/2010, p. 23.
487. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 17.
488. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/2010, p. 18.
489. INL, response to SIGAR data call, 4/9/2010.
490. NATO, Civil-Military Fusion Centre, “Afghanistan Review,” 3/17/2010, p. 1.
491. UN Office for the Coordination of Humanitarian Affairs, “Marjah Residents Take Stock After Offensive,” 3/16/2010, accessed online 4/11/2010;
     NATO, Civil-Military Fusion Centre, “Afghanistan Review,” 3/17/2010, p. 1.
492. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/9/2010, pp. 18–19.
493. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/9/2010, p. 19.
494. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 17.
495. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/9/2010, p. 20.
496. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/9/2010, p. 5.




                                                     178                    SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                        ENDNOTES




497. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/9/2010, p. 20.
498. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 17.
499. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/9/2010, p. 22; GAO, response to SIGAR vetting, 4/15/2010.
500. INL, response to SIGAR data call, 4/9/2010.
501. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, pp. i, 5.
502. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, pp. 1, 5.
503. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 5.
504. Roots of Peace, “USAID Grant $30 Million To Champion Afghan Farmers,” 2/4/2010, accessed online 3/22/2010.
505. USAID, response to SIGAR data call, 4/6/2010.
506. Department of the Army, “2010 U.S. Army Posture Statement: Army National Guard (ARNG) Agribusiness Development Team (ADT),”
     1/28/2010, accessed online 4/12/210.
507. USAID, response to SIGAR data call, 4/6/2010.
508. USAID, response to SIGAR data call, 4/6/2010.
509. USAID, response to SIGAR data call, 4/6/2010.
510. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/2010, p. 27.
511. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/2010, p. 28.
512. INL, response to SIGAR data call, 4/9/2010.
513. INL, response to SIGAR data call, 4/9/2010.
514. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/9/2010, pp. 33–34.
515. UNODC, “Afghanistan: Drug Use Survey 2005,” 11/2005, accessed online 3/22/2010.
516. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/9/2010, p. 33.
517. INL, response to SIGAR data call, 4/9/2010.
518. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 1.
519. London Conference on Afghanistan, “Communiqué,” 1/29/2010, p. 1.
520. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/9/2010, p. 21.
521. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/9/2010, p. 24.
522. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets Needed and
     Evaluation of Justice Reform Efforts Needed,” 3/2010, p. 25.
523. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 18.
524. UNODC, “Crime and Instability: Case Studies of Transnational Threats,” 2/2010, p. 28.
525. DoS, “2010 International Narcotics Control Strategy Report,” 3/2010, accessed online 3/22/2010.
526. DoS, “Afghanistan and Pakistan Regional Stabilization Strategy,” 1/21/2010, p. 17.
527. GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
     Justice Reform Efforts Needed,” 3/2010, p. 3.
528. DoS, “2010 International Narcotics Control Strategy Report,” 3/1/2010, accessed online 3/22/2010.
529. DoD OSD, response to SIGAR data call, 4/12/2010.
530. UNODC, “Crime and Instability: Case Studies of Transnational Threats,” 2/2010, p. 30.
531. NATO, Civil-Military Fusion Centre, “Afghanistan Review,” 1/21/2010, p. 3.
532. SIGAR, “Quarterly Report to the United States Congress,” 1/30/2010, p. 118.
533. DoS, “2010 International Narcotics Control Strategy Report,” 3/1/2010, accessed online 3/22/2010.
534. DoD OSD, response to SIGAR data call, 4/12/2010.
535. UNODC, “The Remote Frontier – UNODC Assistance to Afghanistan’s Border Patrol,” 1/4/2010, accessed online 4/4/2010.
536. DoD OSD, response to SIGAR data call, 4/12/2010.
537. DoD OSD, response to SIGAR data call, 4/12/2010.




           REPORT TO THE UNITED STATES CONGRESS        I   APRIL 30, 2010             179
                                                          ENDNOTES




538.   UNODC, “Crime and Instability: Case Studies of Transnational Threats,” 2/2010, p. 30.
539.   UNODC, “Afghanistan Opium Survey 2010: Winter Rapid Assessment,” 2/2010, p. 12.
540.   UNODC, “Crime and Instability: Case Studies of Transnational Threats,” 2/2010, p. 30.
541.   SIGAR, “Quarterly Report to the United States Congress,” 1/30/2010, p. 111.
542.   UNODC, “Crime and Instability: Case Studies of Transnational Threats,” 2/2010, p. 30.
543.   UNODC, “Afghanistan Opium Survey 2010: Winter Rapid Assessment,” 2/2010, p. 1.
544.   DoS, “2010 International Narcotics Control Strategy Report,” 3/1/2010, accessed online 3/22/2010.
545.   UNODC, “Crime and Instability: Case Studies of Transnational Threats,” 2/2010, p. 25.
546.   UNODC, “Afghanistan Cannabis Survey 2009,” 4/2010, p. 5.
547.   UNODC, “Afghanistan Cannabis Survey 2009,” 4/2010, p. 6.
548.   UNODC, “Afghanistan Cannabis Survey 2009,” 4/2010, p. 6.
549.   UNODC, “Afghanistan Cannabis Survey 2009,” 4/2010, p. 5.
550.   GAO, GAO-10-291, “Afghanistan Drug Control: Strategy Evolving and Progress Reported, but Interim Performance Targets and Evaluation of
       Justice Reform Efforts Needed,” 3/2010, p. 33.
551.   UNODC, “Afghanistan: Drug Use Survey 2005,” p. 5.
552.   INL, response to SIGAR data call, 4/9/2010.
553.   INL, response to SIGAR data call, 4/9/2010.
554.   INL, response to SIGAR data call, 4/9/2010.
555.   INL, response to SIGAR data call, 4/9/2010.
556.   INL, response to SIGAR data call, 4/9/2010.
557.   INL, response to SIGAR data call, 4/9/2010.
558.   INL, response to SIGAR data call, 4/9/2010.
559.   INL, response to SIGAR data call, 4/9/2010.
560.   INL, response to SIGAR data call, 4/9/2010.
561.   INL, response to SIGAR data call, 4/9/2010.




                                                   180                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
Afghan women gather to celebrate the Persian New Year on March 21, 2010, at the historic
Blue Mosque in Mazar-e Sharif. The turquoise tiles are inscribed with verses from the Koran.
Legend says Ali ibn Abi Talib, cousin and son-in-law of Mohammed, is buried here. (AP photo)
SIGAR
SPECIAL INSPECTOR GENERAL
FOR AFGHANISTAN RECONSTRUCTION

2221 South Clark Street
Suite 800
Arlington, VA 22202-3712
